<html>
<title> - HEARING ON PENDING BENEFITS LEGISLATION</title>
<body><pre>[Senate Hearing 113-111]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-111

                HEARING ON PENDING BENEFITS LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2013

                               __________

       Printed for the use of the Committee on Veterans' Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov






                                  _______

                   U.S. GOVERNMENT PRINTING OFFICE

82-714 PDF                WASHINGTON : 2014
______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001














                     COMMITTEE ON VETERANS' AFFAIRS

                 Bernard Sanders, (I) Vermont, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Mike Johanns, Nebraska
Jon Tester, Montana                  Jerry Moran, Kansas
Mark Begich, Alaska                  John Boozman, Arkansas
Richard Blumenthal, Connecticut      Dean Heller, Nevada
Mazie Hirono, Hawaii
                    Steve Robertson, Staff Director
                 Lupe Wissel, Republican Staff Director


















                            C O N T E N T S

                              ----------                              

                             June 12, 2013
                                SENATORS

                                                                   Page
Sanders, Hon. Bernard, Chairman, U.S. Senator from Vermont....... 1, 14
Tester, Hon. Jon, U.S. Senator from Montana......................    13
Heller, Hon. Dean, U.S. Senator from Nevada......................    16
Begich, Hon. Mark, U.S. Senator from Alaska......................    18
Boozman, Hon. John, U.S. Senator from Arkansas...................    19
    Prepared statement...........................................    20
Blumenthal, Hon. Richard, U.S. Senator from Connecticut..........    86

                               WITNESSES

Schatz, Hon. Brian, U.S. Senator from Hawaii.....................     1
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     3
    Prepared statement...........................................     4
Franken, Hon. Al, U.S. Senator from Minnesota....................     7
Wyden, Hon. Ron, U.S. Senator from Oregon........................     8
Merkley, Hon. Jeff, U.S. Senator from Oregon.....................    10
Shaheen, Hon. Jeanne, U.S. Senator from New Hampshire............    11
    Prepared statement...........................................    12
Curtis L. Coy, Deputy Under Secretary for Economic Opportunity, 
  Veterans' Benefits Administration, U.S. Department of Veterans 
  Affairs; accompanied by Thomas Murphy, Director, Compensation 
  Service; Richard Hipolit, Assistant General Counsel; and John 
  Brizzi, Deputy Assistant General Counsel.......................    22
    Prepared statement...........................................    23
    Additional views.............................................    46
    Posthearing questions submitted by:
      Hon. Bernard Sanders.......................................    63
      Hon. Richard Burr..........................................    75
      Hon. Jon Tester............................................    79
      Hon. Mark Begich...........................................    83
    Response to request arising during the hearing by:
      Hon. Richard Blumenthal....................................    88
      Hon. John Boozman..........................................    93
      Hon. Mark Begich...........................................   108
Hall, Jeffrey, Assistant National Legislative Director, Disabled 
  American Veterans..............................................   112
    Prepared statement...........................................   114
de Planque, Ian, Deputy Legislative Director, The American Legion   126
    Prepared statement...........................................   127
Norton, Col. Robert F., USA (Ret.), Deputy Director, Government 
  Relations, Military Officers Association of America............   143
    Prepared statement...........................................   145
Gallucci, Ryan, Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars.......................................   164
    Prepared statement...........................................   166

                                APPENDIX

Isakson, Hon. Johnny, U.S. Senator from Georgia; prepared 
  statement......................................................   183
Hirono, Hon. Mazie K., U.S. Senator from Hawaii; prepared 
  statement......................................................   183
Reid, Hon. Harry, U.S. Senator from Nevada; prepared statement...   184
Butterfield, Hon. G.K., U.S. Congressman from North Carolina; 
  prepared statement.............................................   185
Howard, Dr. Muriel A., President, American Association of State 
  Colleges and Universities; prepared statement..................   188
Cleland, Max, Secretary, American Battle Monuments Commission; 
  prepared statement.............................................   191
Ganio, Patrick, Sr., President; Franco Arcebal, Vice President--
  Membership; and Eric Lachica, Executive Director, American 
  Coalition for Filipino Veterans, Inc.; letter..................   192
Murphy, Laura W., Director; Vania Leveille, Senior Legislative 
  Counsel; and Elayne Weiss, Legislative Assistant, Washington 
  Legislative Office, American Civil Liberties Union (ACLU); 
  prepared statement.............................................   193
American Civil Liberties Union and Other Groups; joint letter....   196
American Chemical Society; prepared statement....................   197
American Federation of Government Employees, AFL-CIO and the AFGE 
  National VA Council; prepared statement........................   198
Peters, Stephen, President, American Military Partner 
  Association; prepared statement................................   200
Garrett, Maggie, Legislative Director, Americans United For 
  Separation of Church and State; prepared statement.............   202
Association of the United States Navy; letter....................   207
U.S. Department of Defense; prepared statement...................   208
Won Pat, Judith T., Ed.D., Office of the Speaker, 32nd Guam 
  Legislature; letter............................................   210
    Attachments..................................................   212
Gaddy, Rev. Dr. C. Welton, President, Interfaith Alliance; letter   215
Iraq and Afghanistan Veterans of America; prepared statement.....   216
Smith, Philip, National Liaison & Washington, DC, Director, Lao 
  Veterans of America; letter....................................   224
National Academy of Elder Law Attorneys, Inc.; letter............   225
    Attachments..................................................   227
Levins, Scott, Director, National Personnel Records Center, 
  National Archives and Records Administration; prepared 
  statement......................................................   248
National Governors Association; prepared statement...............   249
    Attachments..................................................   258
Duffy, Peter J., COL., US Army (Ret.), Legislative Director, 
  National Guard Association of the United States; prepared 
  statement......................................................   283
Bailey, Angela, Associate Director, U.S. Office of Personnel 
  Management, Employee Services, and Chief Human Capital Officer; 
  prepared statement.............................................   287
Lerner, Carolyn N., Special Counsel, U.S. Office of Special 
  Counsel; prepared statement....................................   288
Paralyzed Veterans of America; prepared statement................   289
Religious Action Center of Reform Judaism; prepared statement....   296
Reserve Officers Association of the United States and Reserve 
  Enlisted Association of the United States; prepared statement..   296
Colvin, Carolyn W., Acting Commissioner, Social Security 
  Administration; prepared statement.............................   300
Dakduk, Michael, Executive Director, Student Veterans of America; 
  prepared statement.............................................   302
Service Women's Action Network; prepared statement...............   304
Huebner, Charlie, Chief of Paralympics, United States Olympic 
  Committee; prepared statement..................................   307
    Exhibit A....................................................   310

 
                HEARING ON PENDING BENEFITS LEGISLATION

                              ----------                              


                        WEDNESDAY, JUNE 12, 2013

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room 418, Russell Senate Office Building, Hon. Bernard Sanders, 
Chairman of the Committee, presiding.
    Present: Senators Sanders, Tester, Begich, Blumenthal, 
Boozman and Heller.

   OPENING STATEMENT OF HON. BERNARD SANDERS, CHAIRMAN, U.S. 
                      SENATOR FROM VERMONT

    Chairman Sanders. Good morning. We are going to begin this 
important hearing dealing with legislation for benefits for our 
veterans. We are going to be hearing, I suspect, from a number 
of Members of the Committee this morning, and we are very 
pleased to have a number of Senators who are not on this 
Committee who understand the importance of the issues that we 
are dealing with and have brought forth their own legislation. 
We are very delighted that they are here as well.
    So, without further ado, we want to welcome Senator Schatz, 
Senator Murkowski, Senator Franken, and Senator Wyden. Senator 
Schatz, can we begin with you?

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman and Senator Tester, 
for this opportunity to speak in support of S. 690, the 
Filipino Veterans Fairness Act of 2013, which I introduced on 
the anniversary of the Bataan Death March. I want to thank 
Senators Murkowski, Begich, and Hirono for cosponsoring this 
critical legislation.
    I want to especially acknowledge the Justice for Filipino 
American Veterans, the Japanese American Citizens League, the 
American Coalition for Filipino Veterans, and the Lao Veterans 
of America for their support of this vital legislation.
    It's important because it would provide the Filipino 
soldiers who fought with the American Army during World War II 
with the full veterans benefits that they rightfully deserve 
and it will send a clear message to all veterans that Americans 
will not forget their service once they return from combat.
    More than 200,000 soldiers fought in the Pacific Theater, 
of Filipino descent, and more than half of them were killed 
while they served under the command of the U.S. Armed Forces.
    The Philippines was a United States territory before and 
during World War II, and President Roosevelt issued an 
executive order to call into service Filipino soldiers to 
defend American territory and military bases.
    These soldiers served our Nation so we owe them nothing 
less than honoring their service with the full benefits that 
they were promised and deserved.
    This Act would do four things. First, under current law, 
there are four different categories of Filipino soldiers who 
fought with the U.S. Army. This bill will eliminate these 
categories and treat everyone equally.
    After the war, Congress passed a series of laws that became 
known as the Recession Acts of 1946 and they stripped many of 
these Filipino soldiers of the benefits that they had earned. 
Instead, these Filipino soldiers were split into four different 
administrative categories, each group being awarded different 
benefits.
    While all four groups served in the same war and under the 
same American flag, one of the groups gets full veterans' 
status and benefits while the other three groups were denied 
some of these same benefits.
    Second, it extends veteran benefits eligibility to Filipino 
veterans who received payment from the Filipino Veterans Equity 
Compensation Fund, which was created in the 2009 American 
Recovery and Reinvestment Act.
    Third, the bill directs the Veterans' Administration to 
allow the use of alternative documentation when determining 
eligibility to ensure that all Filipino veterans are recognized 
for their service.
    Under the current law, in order for Filipino veterans to be 
eligible for benefits, they must be on the Approved, Revised, 
Reconstructed Guerrilla Roster of 1948 known as the Missouri 
List. This list is critical for determining benefits 
eligibility; but even if there are other forms of 
documentation, Filipino veterans not on this list will not be 
recognized for their service.
    But, this list does not include every Filipino veterans 
because it was damaged in a fire in 1973 and the reconstructed 
list is being currently used to determine benefits eligibility.
    In addition, because the Filipino Veterans Equity 
Compensation Fund used the Missouri List as the sole basis for 
eligibility determination, 24,000 Filipino veterans were denied 
compensation.
    Finally, this bill would allow widows and dependents to be 
eligible for dependency and indemnity compensation and would 
eliminate the differences in payment given to veterans based on 
whether a Filipino veteran lived in the United States or in the 
Philippines.
    It has been more than 50 years and yet many Filipino 
veterans have not been recognized as veterans and have been 
denied their basic rights. Unfortunately, many Filipino 
veterans are in their 90s and are passing away rapidly, and so, 
we must act now.
    Thank you, Chairman Sanders, for taking up this 
legislation. I look forward to working with everyone on the 
Committee to give the Filipino veterans their full recognition 
for their service and their sacrifice.
    Chairman Sanders. Senator Schatz, thank you very much.
    Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Mr. Chairman, thank you. Thank you for 
your leadership on veterans issues, particularly for ensuring 
that our veterans receive the benefits that they so clearly 
deserve. We honor them by keeping our commitments. So, your 
hearing today is very important.
    To you and the Members of the Committee, thank you for the 
opportunity to present my bill this morning which would 
authorize the interment of Hmong veterans in national 
cemeteries.
    Across our Nation thousands and thousands of U.S. citizens 
that fought for our country during Vietnam are not officially 
recognized for their service. Members of the Hmong community 
that fought under the CIA during Vietnam currently enjoy no 
rights as veterans. They are simply requesting to be buried and 
recognized in the national cemeteries. This bill would 
authorize those heroes to rest alongside their brothers in arms 
on our Nation's most hallowed grounds.
    A little bit of background here. Responding to a secretive 
call to arms during the Vietnam war, Hmong soldiers aided U.S. 
Special Forces and CIA operatives. They guarded bases that no 
one was supposed to know was there. They rescued downed U.S. 
airman who also were not supposed to be there.
    Americans who served and fought and put their lives on the 
line receive a resting place in our national cemeteries and the 
men who saved American lives deserve the same honor.
    The Hmong people were a social minority being persecuted by 
communists within Laos. President Kennedy first initiated the 
U.S. alliance with Laos and the Hmong people in defense of the 
Kingdom of Laos and the U.S. national security interests in 
Vietnam and Southeast Asia.
    During the Vietnam War, Hmong soldiers served in what was 
called the U.S. Secret Army. The Hmong fighters were led by 
General Vang Pao during The Secret War which interrupted 
operations on the Ho Chi Minh Trail and conducted downed 
aircraft recovery operations of American airman within Laos.
    Over the course of the war, the CIA employed tens of 
thousands of these volunteers. In all, over 100,000 Hmong lost 
their lives by the end of the U.S. involvement in Vietnam.
    According to a recently declassified CIA report, the Hmong 
became the core of an irregular force that fought the North 
Vietnamese Army. Hmong soldiers saved thousands of American 
soldiers from being attacked and killed in South Vietnam by 
engaging numerous North Vietnamese army units in combat.
    Two years after the withdrawal of American forces, the 
Kingdom of Laos was overthrown by communist troops supported by 
North Vietnamese. Hmong were forced into re-education camps. 
Many fled into hiding in the mountains or to refugee camps in 
Thailand. Several thousand sought asylum internationally with 
thousands making their way here to the United States. Senator 
Franken and I were just discussing that in Minnesota there is a 
large Hmong population, in Alaska as well.
    Many soldiers who fought for the CIA and their families 
were among the refugees that became U.S. citizens. There are 
currently over 260,000 Hmong people in America. In Anchorage, 
AK, we have about 5,000 Hmong refugees there. Senator Begich 
clearly knows the importance of them as an addition to our 
community. Of the Hmong who became U.S. citizens, there are 
approximately 6,900 veterans that are still with us today. The 
number, of course, is dwindling by the day. The Hmong fighters' 
sacrifice on behalf of America calls for reciprocal honor paid 
during the latter years of these veterans lives. Hmong veterans 
fought for America and deserve the choice to be buried in 
national cemeteries.
    Mr. Chairman, this concept is not unprecedented. Just as 
the Hmong responded to the call to arms and paid the ultimate 
sacrifice, so did the Filipino soldiers as my friend Senator 
Schatz said. Our country has long been grateful for their 
service, their sacrifice, and we passed legislation to honor 
those veterans providing burial rites and compensation.
    The Hmong Veterans Naturalization Act of 2000 provided 
naturalization benefits for Hmong veterans. It was designed to 
ease the path to naturalization in various ways for the Hmong. 
Ultimately, Immigration and Naturalization provided multiple 
avenues through which Hmong veterans could prove their service. 
We have got about 6,000 Hmong that self-identified as veterans 
by providing original documents, an affidavit of the serving 
person's superior officer or two affidavits from other 
individuals who were also serving with a special guerrilla 
unit.
    For years Congress has publicly recognized the thousands of 
Hmong that fought and died for our country. I believe that 
providing burial rights to the small number of Hmong veterans 
remaining that fought for America is the least that we can do 
to honor their service.
    I thank you, Mr. Chairman.
    [The prepared statement of Senator Murkowski follows:]
  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator from Alaska

S. 200--A bill to authorize the interment in national cemeteries under 
the control of the National Cemetery Administration of individuals who 
  served in combat support of the Armed Forces in the Kingdom of Laos

    Chairman Sanders, Ranking Member Burr, Distinguished Members of the 
Senate Veterans' Affairs Committee: Thank you for the opportunity to 
present my bill, to authorize the interment of Hmong veterans in 
national cemeteries, before the Committee. Across our Nation, thousands 
of US citizens that fought for our country during Vietnam are not 
officially recognized for their service. Members of the Hmong community 
that fought under the CIA during Vietnam currently enjoy no rights as 
veterans. They are requesting to be buried in national cemeteries. This 
bill would authorize those heroes to rest alongside their brothers-in-
arms on our Nation's most hallowed grounds.
    A few weeks ago at Arlington National Cemetery, a group of ``old 
Hmong veterans stood at ragged attention'' on burial grounds that are 
closed to them, despite their military service to our Nation. 
Responding to a secretive call to arms during the Vietnam War, ``Hmong 
soldiers aided U.S. special forces and CIA operatives. They guarded 
bases that no one was supposed to know about, and rescued downed U.S. 
airmen who weren't supposed to be there.'' Americans who served and 
fought and put their lives on the line receive a resting place in our 
national cemeteries; the men who saved American lives deserve the same 
honor.
    During the Vietnam War, Laotian and Hmong soldiers served in the 
``U.S. Secret Army.'' Over the course of the war, the CIA employed tens 
of thousands of these volunteers. The Hmong people were a social 
minority in the country that was being persecuted by the Pathet Lao 
within Laos (the Laotian equivalent to the Vietnamese Communists). 
President John F. Kennedy first initiated the U.S. alliance with the 
Lao and Hmong people in defense of the Kingdom of Laos and U.S. 
national security interests in Vietnam and Southeast Asia. These Lao-
Hmong soldiers were clandestinely organized and supported by the U.S. 
Central Intelligence Agency (CIA) and the Pentagon to combat the 
invasion of the Kingdom of Laos by the North Vietnam's Army (NVA) and 
an insurgency of communist Pathet Lao guerrillas.
    The Hmong fighters were led by General Vang Pao during the ``Secret 
War'' which interrupted operations on the Ho Chi Minh trail and 
assisted in downed aircraft recovery operations of American airmen 
within Laos.
    According to a recently declassified CIA report, the Hmong became 
the core of an irregular force that fought the North Vietnamese Army 
until February 1973, when a Laotian cease-fire followed the agreement 
with Hanoi on terms to end the war in South Vietnam. Under their 
charismatic, mercurial leader Vang Pao, the Meo--more properly known as 
the Hmong--evolved from a hit-and-run guerilla outfit into light 
infantry operating in regimental strength. Expanded Hmong forces * * * 
diverted substantial North Vietnamese forces in South Vietnam. The 
Hmong showed ``courage, [a] capacity [to] take losses,'' the ability to 
``survive despite hardships and meager rations,'' and a ``considerable 
instinct and enthusiasm for ambushing and harassing.'' \1\
---------------------------------------------------------------------------
    \1\ ``Undercover Armies: CIA and Surrogate Warfare in Laos''
---------------------------------------------------------------------------
    In order to highlight the unique manner in which America called 
upon the Hmong, it is important to understand that the CIA's 
clandestine airline, Air America, flew cash-payroll flights to support, 
pay and expand the elite Lao and Hmong secret army based at Long 
Chieng. From there, the Lao Hmong covert army engaged in strategic 
battles against main-force [North Vietnamese Army] divisions and 
communist insurgents. Lao and Hmong Special Forces saved thousands of 
American soldiers from being attacked and killed in South Vietnam by 
engaging numerous [North Vietnamese Army] units in combat and playing a 
key role with the U.S. bombing campaign of enemy supply routes and 
targets on the Ho Chi Minh Trail, Plaine des Jarres and elsewhere.\2\
---------------------------------------------------------------------------
    \2\ Philip Smith, Director of Center for Public Policy Analysis, 
the Lao Veterans of America, Inc., Lao Veterans of America Institute.
---------------------------------------------------------------------------
    Two years after the withdrawal of American forces, the Kingdom of 
Laos was overthrown by communist troops supported by the North 
Vietnamese Army. The Pathet Lao then continued their persecution of the 
Hmong by placing them into re-education camps where political prisoners 
served terms of 3-5 years. Many fled into hiding in the mountains or to 
refugee camps in Thailand. Several thousand sought asylum 
internationally with many making their way to the United States.
    Some of the soldiers who fought for the CIA and their families were 
among the refugees. Some settled within the borders of other nations; 
some became US citizens. There are currently over 260,000 Hmong people 
in America; according to the 2010 Census, the heaviest concentrations 
are in California, Minnesota, Wisconsin, North Carolina, Michigan, 
Colorado, Georgia, Alaska, Oklahoma and Oregon. Within Anchorage alone 
are approximately 5,000 Hmong refugees. Of the Hmong who became US 
Citizens, there are approximately 6,900 veterans still with us today. 
Of note, nearly half of those veterans live in Minnesota.
    Today, the number of Hmong veterans in America is dwindling by the 
day. As described by the Washington, DC. Director and Liaison for the 
Lao Veterans of America, Inc., Philip Smith: ``Many Lao and Hmong-
American veterans, who served in America's covert theatre of operations 
during the Vietnam War, are dying in Rhode Island and across the United 
States, without the benefit of being recognized or honored for their 
extraordinary military service. Having saved the lives of many U.S. 
soldiers and aircrews, these forgotten veterans deserve to be buried 
with dignity at U.S. national veterans' cemeteries, with military 
honors, for their unique service as part of the `U.S. Secret Army' 
defending U.S. national security interests and the Kingdom of Laos 
during the Vietnam conflict.'' In all, over 30,000 Hmong lost their 
lives by the end of US involvement in Vietnam. The Hmong fighters' 
sacrifice on behalf of America calls for reciprocal honor paid during 
the latter years of these veterans' lives.
    Hmong veterans fought for America and deserve the choice to be 
buried in national cemeteries. This concept is not unprecedented. Just 
as the Hmong responded to the call to arms and many paid the ultimate 
sacrifice, so did Filipino soldiers. Our country has long been grateful 
for their service and passed legislation to honor those veterans. The 
Veterans Benefits and Health Care Improvement Act of 2000 permits 
Philippine veterans who were citizens of the United States or aliens 
lawfully admitted for permanent residence who served during World War 
II to be buried in national cemeteries. Another 2000 law provided full-
dollar rate compensation payments to veterans of the Commonwealth Army 
or recognized guerrilla forces residing in the U.S. if they are either 
U.S. citizens or lawfully admitted permanent resident aliens.
    The American Recovery and Reinvestment Act of 2009, which the 
President signed into law, contained a provision creating the Filipino 
Veterans Equity Compensation Fund. Eligible veterans who are U.S. 
citizens receive a one-time payment of $15,000. The law also provides 
for eligible veterans who are not U.S. citizens to receive a one-time 
payment of $9,000. The Department of Veterans Affairs established a 
process, in collaboration with the Department of Defense, to determine 
eligibility to receive payments from the Fund. As of last month, the 
Administration had approved over 18,000 claims.
    Additionally, there has been legislation passed that provided 
naturalization benefits for Hmong veterans. The Hmong Veterans' 
Naturalization Act of 2000 provided an exemption from the English 
language requirement and special consideration for civics testing for 
certain refugees from Laos applying for naturalization. The legislation 
was ``designed to ease the path to naturalization in various ways for 
Hmong individuals who had fought in the CIA-organized guerrilla units 
in Laos.'' The law applies to refugees from Laos who served with a 
special guerrilla unit, or irregular forces, operating from a base in 
Laos in support of the United States military at any time during 
February 28, 1961 through September 18, 1978 and who entered the United 
States as refugees from Laos.
    Leading up to the passage of the law, there were Congressional 
concerns ``related to difficulties in identifying which Hmong refugees 
actually fought on behalf of the United States as few records were kept 
of these covert operations.'' \3\ Following the Committee hearings of 
H.R. 371 in June 1997, the Immigration and Naturalization Service (INS) 
provided technical assistance in redrafting the bill to: (1) tighten 
the documentation requirements; (2) require the Department of Defense 
to review the documentation; and (3) require the Department of Defense 
to advise the INS with respect to the credibility of claims of service 
with special guerrilla units or irregular forces. As a consequence, the 
Department did not object to this bill which, as revised, minimized the 
risk of fraud while maximizing the intended benefit [to] certain Hmong 
individuals and their spouses.\4\
---------------------------------------------------------------------------
    \3\ House Report 106-563--Hmong Veteran's Naturalization Act of 
2000.
    \4\ Ibid.
---------------------------------------------------------------------------
    Within the Committee reports, there was further refining of how to 
determine an alien's eligibility for benefits under the bill: ``the 
Attorney General (1) shall review refugee processing documents to 
verify that an alien was admitted to the United States as a refugee 
from Laos, (2) shall consider the documentation submitted by the alien, 
(3) shall request an advisory opinion from the Secretary of Defense, 
and (4) may consider any certification prepared by the Lao Veterans of 
America, Inc. or similar organizations.'' \5\
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
    The Lao Veterans of America includes tens of thousands of Hmong and 
Lao veterans and their families who played roles in the U.S. covert war 
in Laos and Vietnam. It has stringent requirements for membership: 
first, filling out an application and submitting to an initial 
interview, second determining that the prospective member served a 
minimum of 1 year as a veteran and third, be certified by a former 
commander or his representative, or the leader of the U.S. Secret Army 
in Laos, Major General Vang Pao. Finally, the applicant must be 
verified by a three member military review board appointed by the Lao 
Veterans of America's Board of Directors and Advisory Board.\6\
---------------------------------------------------------------------------
    \6\ Ibid.
---------------------------------------------------------------------------
    Ultimately, the Immigration and Naturalization Service provided 
multiple avenues through which Hmong veterans could prove their 
service. First, if an applicant testified to this military service at 
the time of refugee processing, the required documentation should 
already be in the applicants immigration file. If not, applicants could 
provide original documents; an affidavit of the serving person's 
superior officer; two affidavits from other individuals who also were 
serving with such a special guerrilla unit, or irregular forces, and 
who personally know of the person's service; or other appropriate 
proof.
    Congress has publically recognized the Hmong veterans' service to 
our Nation, but paradoxically has not allowed for burial rights in 
national cemeteries. In 2009, the House recognized ``National Lao-Hmong 
Recognition Day,'' calling to attention to the Hmong's service in the 
Vietnam War. The Resolution recognized that ``the United States 
recruited thousands of the Lao-Hmong to fight against the Communist 
Pathet Lao and North Vietnamese Army regulars in Laos'' and we ``relied 
heavily on the Lao-Hmong Special Guerrilla Units to engage in direct 
combat with North Vietnamese troops.'' Providing burial rights to the 
small number of Hmong veterans remaining that fought for America is the 
least we can do to honor their service. This legislation is a modest 
next step to honor the Hmong veterans who now live in the US as a 
result of our call for their service.

    Chairman Sanders. Thank you very much Senator Murkowski.
    Senator Franken.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Mr. Chairman and Members of the Committee, 
I would like today to talk briefly about my new legislation. 
First, I would like to say something about the Hmong who fought 
with us in Laos.
    I went to Laos in July 2010. It was on a trip that the 
Chairman and I took with Senator Harkin to Vietnam. I took a 
little side trip to Laos because some Hmong refugees had been 
illegally repatriated to Laos from Thailand.
    You may know that Sheldon Whitehouse, the Senator from 
Rhode Island, often says--and his father was Ambassador to 
Laos--that there is a few thousand fewer American names on that 
wall at the Vietnam War Memorial, because of the Hmong.
    But I am here to talk about my new legislation, the Quicker 
Benefits Delivery Act. This piece of legislation has one simple 
purpose, to enable VA to get benefits to veterans more quickly.
    We are all concerned about the claims backlog, and VA is 
working hard to address it. The fundamental issue is that we 
need to make sure veterans are getting the benefits to which 
they are entitled as quickly as possible. This is especially 
important when it comes to our newest veterans who are still in 
the process of transitioning back to civilian life. That is 
what my legislation will do.
    It is a pragmatic effort to make sure that VA has the tools 
to get benefits into the hands of veterans as quickly as 
possible and uses those tools most effectively.
    I am very pleased that Congressman Tim Walz, who is also 
from Minnesota and is a member of the House Veterans' Affairs 
Committee, has introduced companion legislation on the House 
side. He and I have heard from veterans in Minnesota about 
these issues and we owe several of the proposed solutions to 
suggestions from VSOs, Veterans Service Organizations, 
including testimony before your Committee.
    My bill would get benefits into the hands of veterans more 
quickly in three ways. First, my bill would expand VA's use of 
non-VA medical evidence, medical examinations, and medical 
opinions in the claims process. That private medical evidence 
could only be used where it is competent, credible, and 
probative, in other words, fully adequate for helping to decide 
a veteran's claim.
    VA is already making use of non-VA medical evidence, but my 
legislation would shift the burden a little bit more to VA so 
that VA has to make the case for why it would not use a non-VA 
medical examination to assess a veteran's claim.
    Not only would veterans who submit such evidence receive 
their benefits more quickly under my bill, it would also free 
up VA resources so that more veterans who do need VA medical 
examinations would also get their claims decided more quickly.
    Second, my bill would expand VA's authorities to rapidly 
provide a veteran with provisional benefits when there is 
enough evidence to warrant it even if VA has not yet made the 
final determination about the veterans disability and 
compensation. This would be done through what are called pre-
stabilization ratings which are for our newest veterans who may 
not yet have fully recovered from their injuries.
    My bill would also expand VA's ability and its 
responsibility to give out a temporary minimum disability 
rating to a veteran where that is appropriate but where VA has 
not yet been able to make a final determination about all of 
the veterans claims. In fact, the VA recently announced that it 
was going to do just that with respect to the oldest claims in 
the backlog.
    The purpose here is to make sure that veterans and their 
families can start getting benefits as soon as it is clear they 
are entitled to. Those veterans are then effectively not part 
of the backlog since they are getting benefits, and my 
legislation would clarify that.
    Finally, my legislation addresses an issue we hear a lot 
about from veterans who have become students and are making use 
of the GI Bill benefits. Those student veterans have to wait 
until the first of a given month to receive their housing 
benefits for the previous month. That does not make a whole lot 
of sense to me, but my understanding is that VA needs the 
explicit authority to provide such benefits before the first 
day of the month, and my legislation makes that clarification.
    Of course, my legislation by itself will not solve the 
claims backlog issue; but in significant ways, it will provide 
the VA with some tools to help it address this fundamental 
issue of making sure our veterans get the benefits that they 
have earned as quickly as possible.
    As this legislation moves forward, I continue to welcome 
any and all suggestions for how it might be refined and 
improved to accomplish this important purpose.
    Thank you for your consideration.
    I am sorry but now I have to excuse myself because I need 
to go to the Health Committee where we are doing the markup of 
the ESCA bill, and I see Senator Murkowski has preceded me in 
leaving for that room.
    So, I appreciate your attention and hope you have a good 
hearing. Thank you.
    Chairman Sanders. Thank you very much Senator Franken.
    Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Chairman Sanders and 
Senator Heller, for having me today. I can see you have lots of 
colleagues.
    The bill that I am going to discuss today is S. 748 and it 
is the product of a long-standing and bipartisan partnership 
that this Committee has had with the Special Committee on 
Aging, particularly on issues relating to the rights of older 
veterans.
    The legislation that I offer today with Senator Burr--we 
have worked on this for many, many months--revolves around the 
fact that last June the Senate Special Committee on Aging held 
an investigative hearing on scams that target older veterans 
using a specific VA pension, in effect, to lure in the veteran.
    What the Aging Committee found--we actually had an 
undercover investigation that was again at the request of a 
bipartisan group of Senators--what we found is that there are a 
number of financial planners, lawyers, and others who use the 
VA's enhanced pension--and this is the pension for the most 
vulnerable of our older veterans, the most vulnerable of the 
low-income veterans.
    It is called the enhanced pension with aide and attendance, 
and they essentially use [knowledge of] this pension to kind of 
lure the older veteran into a variety of arrangements with 
trusts and annuities; and the poacher gets these, you know, 
large fees and very often the older veterans end up with 
virtually nothing. They do not have their aide and attendance; 
they are just completely ripped off.
    So, the General Accounting Office, after the undercover 
investigation, recommended to the Congress that there be a 
look-back period similar to Medicare and Medicaid so that we 
could achieve two objectives: one, take away the ability of 
these ripoff artists, the pension imposter, to target the low 
income, older veteran; and two, make sure that we preserve this 
critical benefit for the many veterans who need it.
    So, Senator Burr and I have worked with the advocacy groups 
for veterans and with the VA itself; and the heart of the 
legislation is to offer this kind of look-back. I think with 
the bipartisan support we have--we worked with the VA to make 
sure this would not contribute to the backlog volume--we now 
have legislation that we believe is ready for the Committee's 
consideration.
    I am also appreciative of the Assisted Living Federation of 
America writing to the Committee supporting the legislation and 
pledging that their industry wants to also figure out a way to 
drain the swamp.
    Mr. Chairman, you and I talked about this back in the days 
when I had a full head of hair and rugged good looks. I was the 
co-director of the Gray Panthers.
    Chairman Sanders. I would not go that far.
    Senator Wyden. All right. Fair enough. [Laughter.]
    I have seen a lot of scams and this Committee has as well. 
This is one of the most outrageous. Senator Burr and I hope 
that we can move forward expeditiously, and we very much 
appreciate your consideration.
    I, too, am going to have to go but I am very grateful to be 
able to work with the Committee.
    Chairman Sanders. Senator Wyden, thanks very much.
    Senator Merkley.

                STATEMENT OF HON. JEFF MERKLEY, 
                    U.S. SENATOR FROM OREGON

    Senator Merkley. Thank you very much, Chairman Sanders and 
Members of the Committee. I appreciate the opportunity to 
introduce you to Senate Bill 1039, the Spouses of Heroes 
Education Act of 2013.
    This bill is cosponsored by Senator Heller. Senator, thank 
you very much. It addresses the needs of spouses of our fallen 
heroes in the armed services. The Spouses of Heroes Education 
Act would grant post-9/11 era widows and widowers the same 
educational benefits that Congress has authorized for their 
children under the Gunnery Sergeant John D. Fry Scholarship 
Program through the post-9/11 GI Bill. At age 18, these 
children can attend any public college tuition free and receive 
a housing allowance and an annual book stipend.
    Surviving spouses of the current conflicts, however, are 
left with far less generous benefits. They have access only to 
the limited Survivors' and Dependents' Educational Assistance, 
DEA benefits. DEA pays only $987 per month for full-time study 
with no support for housing or books; and it is very difficult 
for surviving spouses, especially those with children, to 
afford college or job training under the DEA program.
    I want to thank veteran Robert Thornhill of Central Oregon, 
who came to one of my town halls and pointed this out. Quite 
frankly, I was surprised to find that we did not treat spouses 
in the same way as the children.
    And a special thanks to Army Colonel retired Bob Norton of 
the Military Officers Association of America, who has helped to 
give feedback and thoughts and circulation to this legislation.
    This bill would provide the new GI Bill benefits to the 
spouses of those servicemembers who made the ultimate sacrifice 
to their Nation. By opting to receive the Fry Scholarship, 
spouses would forgo other GI Bill benefits related to 
education, such as DEA. The scholarship benefits would expire 
after a period of 15 years.
    We must remember that the spouses of our fallen heroes were 
often left to raise young children as a single parent. These 
children may not be eligible to use the Fry Scholarship to help 
with college expenses for many years, but in the meantime, the 
parents should have the opportunity to go back to school and 
prepare for a well-paying job that can support his or her 
family.
    The bill is endorsed by the Military Officers Association 
of America, the Veterans of Foreign Wars, the National Guard 
Association of the United States, Vietnam Veterans of America, 
the American Legion, and Iraqi and Afghanistan Veterans of 
America. It is endorsed by the Air Force Sergeants Association, 
the Military Order of the Purple Heart, AMVETS, and Student 
Veterans of America.
    In addition, the Veterans Legislative Committee of the 
Military Coalition, a group comprised of 33 organizations 
representing more than 5.5 million members of the uniform 
services and their families have endorsed this goal of 
providing surviving spouses with the same educational benefits 
to which the children are entitled.
    Our Nation owes an enormous debt of gratitude to our fallen 
and their family members. Our servicemembers have made 
extraordinary sacrifices, and we must never forget that their 
families have sacrificed alongside them. We can never repay the 
sacrificed to a fallen hero's spouse but we can honor them by 
ensuring they have the tools they need to go back to school and 
provide a foundation for their family.
    Our veterans and our veterans' families have stood up for 
our Nation abroad and we need to stand up for them here at 
home.
    I look forward to working with Senator Heller and the 
Committee to move this bill forward.
    Thank you.
    Chairman Sanders. Senator Merkley, thank you very much.
    Senator Shaheen.

               STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Thank you very much, Mr. Chairman, Senator 
Heller, Senators Tester and Begich. I very much appreciate the 
opportunity to appear before you to talk about two pieces of 
legislation that I have introduced.
    The first is the Charlie Morgan Military Spouses Equal 
Treatment Act, which I introduced along with Senator Gillibrand 
back in February. This bill would address ongoing 
discrimination against gay and lesbian members of the military 
and their families.
    In particular, it would make a number of critical benefits 
including TRICARE Access, VA survivor benefits, and travel and 
transportation allowances available to all military spouses 
regardless of sexual orientation. That is not the case now 
despite the repeal of ``Don't Ask Don't Tell.''
    Even if the Defense of Marriage Act is overturned by the 
Supreme Court, legislation like the Charlie Morgan Military 
Spouses Act would likely still be necessary to help ensure 
equality in military and veterans' benefits for all of our 
Nation's military spouses.
    Now, I am not going to go into the details of this 
legislation because I know you will do that in Committee but I 
did want to just say a few words about the woman who the bill 
is named after, Charlie Morgan.
    She was a New Hampshire National Guard chief warrant 
officer who very sadly passed away earlier this year after a 
courageous battle with breast cancer.
    Charlie enlisted in the Army in 1982 in Kentucky. She 
served in the regular army. After getting out, rejoined the New 
Hampshire National Guard after September 11 because she was so 
moved by the need to again serve this country after those 
terrorist attacks.
    She served a year in deployment in Kuwait and served very 
honorably despite having to keep her personal life secret from 
all of her fellow soldiers.
    Charlie and her wife Karen were not able to take advantage 
of many of the support programs that were so essential and are 
so essential to the health and well-being of our military 
families.
    After she was diagnosed with breast cancer, the issue of 
benefits for her family became very personal, and unfortunately 
she is not going to be able to see their final day in court 
despite having joined the challenge to the Defense of Marriage 
Act, but I introduced this bill to honor her memory and because 
every individual, regardless of their sexual orientation, who 
provides for our defense deserves the peace of mind that comes 
with knowing that their family is going to be taken care of 
when something happens to them.
    Now, the second piece of legislation is the Veteran Legal 
Services Act, which I introduced with Senators Klobuchar and 
Murphy. I know that you all have been working very hard to 
address the backlog in our VA benefits, that goes without 
saying. It is a national disgrace that we have so many veterans 
waiting so long to get the benefits that are due them.
    This bill, I think, addresses one of the programs that, as 
we have looked at it, seems to be the most effective in helping 
to deal with the backlog as well as veteran homelessness: the 
work of our Nation's law schools and their student volunteers. 
By counseling veterans with their disabilities claims, law 
students are turning incredibly complex stories and injuries 
into organized benefit applications that are exponentially 
reducing the VA's processing time for the most complicated 
cases in the backlog.
    There are a number of States that have legal clinics that 
are working with veterans--North Carolina, West Virginia, 
Connecticut, Georgia, and Ohio, to name a few. What this bill 
would do is authorize the VA to coordinate more closely with 
these programs to ensure that they are as productive as 
possible.
    Again, I think it is one way to address the backlog that 
does not involve a lot of Federal dollars but gets the work 
done for our veterans.
    So again, thank you all very much for the work that you are 
doing and the opportunity to appear before you this morning.
    [The prepared statement of Senator Shaheen follows:]
              Prepared Statement of Hon. Jeanne Shaheen, 
                    U.S. Senator from New Hampshire
    Chairman Sanders, Ranking Member Burr, Members of the Committee, I 
want to thank you for the opportunity to speak briefly about two pieces 
of legislation that are before you today.
    The first is the Charlie Morgan Military Spouses Equal Treatment 
Act, which I introduced along with Senator Gillibrand in February. The 
bill would address ongoing discrimination against gay and lesbian 
members of the military and their families. In particular, it would 
make a number of critical benefits, including TRICARE access, VA 
survivor benefits and travel and transportation allowances available to 
all military spouses, regardless of sexual orientation.
    A number of important family benefits and support programs remain 
unavailable to same-sex spouses under current law. Even if the Defense 
of Marriage Act is overturned by the Supreme Court, this bill would 
likely still be necessary to help ensure equality in military and 
veterans' benefits for all of our Nation's military spouses.
    I am certain the Committee will get into all of the various details 
on each of the benefits affected by this legislation, but today, I want 
to share with you the story of a true hero who inspired this act. The 
bill before you is named after Charlie Morgan, a New Hampshire National 
Guard Chief Warrant Officer, who sadly passed away earlier this year 
after a courageous battle with breast cancer.
    Charlie enlisted in the United States Army in 1982. After a brief 
period away, Charlie returned to service as a member of the Kentucky 
National Guard in 1992. Following the terrorist attacks of 
September 11, 2001, Charlie returned for a third time, joining the 
197th Fires Brigade of the New Hampshire National Guard, a tour that 
included a year-long deployment in Kuwait.
    Throughout her long career of service, she shouldered the 
incredible burden of keeping her life secret from her fellow soldiers. 
Charlie was unable to live openly under the ``Don't Ask, Don't Tell'' 
policy. In addition, despite enduring the same hardships as any other 
military family, Charlie and her wife, Karen, were not able to take 
advantage of many of the same support programs that are so essential to 
the health and well-being of military families.
    Soon after ``Don't Ask, Don't Tell'' was repealed, Charlie came out 
publicly and began the fight for equal benefits for same-sex spouses, 
benefits she and her family had earned as much as any other military 
member.
    But, this was not just an abstract issue for Charlie. She was 
diagnosed with breast cancer in 2011, and knew that her time was 
limited. Concerned for the future well-being of her family, Charlie 
took aim at the Defense of Marriage Act (DOMA) by joining the challenge 
to its constitutionality in Federal court.
    Unfortunately, Charlie will not be able to see her final day in 
court. She passed away earlier this year. Charlie Morgan epitomized 
courage--in her military service, her fight for LGBT equality and in 
her battle with cancer.
    I introduced this bill to honor Charlie's memory. Every individual 
who provides for our defense deserves the peace of mind that comes with 
knowing one's family will be taken care of should the worst happen.
    LGBT servicemembers now serve openly in our military and we depend 
on them to keep us safe. Denying their legally recognized spouses equal 
benefits under the law is unjustified. No one should ever again go 
through what Charlie and her family had to go through. I hope my 
colleagues on this Committee will act quickly to address this issue by 
passing the Charlie Morgan Act and sending it to the floor for 
consideration.
    The second piece of legislation I'd like to discuss is the Veterans 
Legal Services Act, which I recently introduced along with Senators 
Klobuchar and Murphy.
    No one knows better than the Members of this Committee the 
frustration that we all share regarding the VA's disability claims 
backlog. It is a national disgrace and one that we are all working to 
address. I know the Chairman has sponsored legislation on this issue 
and I am grateful to him for that leadership.
    Our bill would support one of the most productive efforts I have 
seen in recent years to address both the backlog as well as veterans 
homelessness: the work of our Nation's law schools and their student 
volunteers.
    Since 2008, more than 30 law schools in 18 states have developed 
clinical programs specifically to assist veterans. By counseling 
veterans with their disability claims, law students are turning 
incredibly complex stories and injuries into organized benefits 
applications that are exponentially reducing VA's processing time for 
the most complicated cases in the backlog.
    A perfect example of these programs is the Lewis B. Puller Jr. 
Veterans Benefits Clinic at William and Mary Law School. On average, 
students in the program provide over 70 hours of assistance per 
veteran, and over 330 hours of assistance per veterans for cases 
involving Post Traumatic Stress Disorder (PTSD) or Traumatic Brain 
Injury (TBI). The results of their work have been outstanding. In one 
case, students helped a veteran recoup over $40,000 dollars in back 
payments.
    Many other states are developing equally successful programs 
including North Carolina, West Virginia, Connecticut, Georgia, and 
Ohio.
    Our legislation is simple. It authorizes VA to coordinate more 
closely with these programs to ensure they are as productive as 
possible. We are hopeful that with VA's support and guidance these 
programs will continue to thrive and make it easier for additional 
schools to follow their lead. Our goal is to eventually have a 
veteran's legal clinic in every state.
    Again, I want to thank the Committee again for the opportunity to 
appear here today, for consideration of these two pieces of 
legislation, and for your continued service on behalf of our Nation and 
its veterans.

    Chairman Sanders. Senator Shaheen, thank you very much.
    As I understand it, Senator Tester, you are going to have 
to make a quick exit, is that correct?
    Senator Tester. That is correct.
    Chairman Sanders. And you would like to say a few words on 
a piece of legislation.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. If I might, Mr. Chairman. First of all, I 
thank the Chairman and, Senator Heller--you look good in that 
position--for having this hearing.
    I want to thank the VSOs participation in the Ruth Moore 
Act. The Ruth Moore Act deals with military sexual trauma and 
how the VA deals with it. In that regard, Mr. McCoy, I 
appreciate the VA's recent efforts to better adjudicate claims 
based on military sexual trauma and your willingness to work 
with me and the Committee on this very important issue.
    As we address sexual assault in the military, we must do 
everything we can to support the survivors of service-related 
trauma. A recent Pentagon data estimate reported the number of 
sexual assaults in the military has increased by 35 percent 
over the last 2 years.
    Tragically, these assaults have lasting consequences for 
the survivors, including PTSD, anxiety, depression, and various 
physical disabilities. Moreover, the female servicemembers who 
are sexually assaulted are more likely to develop PTSD than 
their male counterparts who have experienced combat.
    Establishing proof of military sexual assault, however, is 
very difficult in the current system and the vast majority of 
these assaults go unreported--as high as 85 percent according 
to some reports.
    Subsequently, the veterans have a hard time meeting the 
burden of proof when applying for VA benefits for disabilities 
linked to military sexual trauma. The Ruth Moore Act of 2013 
would bring fairness to the VA claims process for victims of 
the service-related trauma by relaxing the evidentiary area 
standards for MST survivors.
    Now, while I acknowledge the VA's recent efforts to improve 
adjudication of claims related to military sexual trauma, I 
think further action is necessary. The current standards are 
difficult, if not impossible, to meet; and they do an injustice 
to veterans who have honorably served their Nation yet suffer 
terrific trauma.
    Now, combating sexual assaults in the military will require 
a multipronged approach. No single law or policy will do this. 
A culture change is needed.
    But as long as we work together to prevent these atrocities 
from happening, we cannot forget the thousands of survivors who 
have summoned up the courage and turned to the government for 
help. So, we need to act on their behalf.
    I just want to once again thank the Chairman for the 
courtesy and look forward to further debating this bill.
    Chairman Sanders. Senator Tester, thanks very much.

         CONTINUING STATEMENT OF HON. BERNARD SANDERS, 
              CHAIRMAN, U.S. SENATOR FROM VERMONT

    Chairman Sanders. I recognize that today is a really busy 
day. There are Committee hearings all over the place so people 
are going to be coming and going.
    What I would like to do now is get back to regular order. I 
want to say a few words. I will give the mic over to Senator 
Heller and then we will hear from Senator Begich and then we 
will bring in our next panel.
    As I think everybody will recall, earlier in the session we 
had the opportunity, along with the House Veterans' Committee, 
to hear from all of the service organizations. I found those 
hearings extraordinarily helpful because we heard from veterans 
from all walks of life, from different wars; and we had a very 
broad understanding of the needs of our veterans.
    What I pledged to do with my staff was to listen very 
carefully to what the veterans organizations had to say and to 
do our best to respond to all of the legitimate concerns that 
they raised. That is what we are in the process of doing.
    As Members will recall from a month or so ago, we had what 
I thought was an excellent hearing focusing on health care 
issues. The bottom line is that I believe we have a strong 
health care system within the VA.
    With 152 medical centers and 900 CBOCs and Vet Centers all 
over this country, there is no question that we can make 
improvements. We intend to focus on VA health care very 
carefully and make those improvements.
    Today, what we are focusing on are benefits issues and I 
thought we heard some excellent testimony from our colleagues 
who are not on this Committee. We will hear testimony and 
comments from Members of this Committee who have introduced 
important legislation.
    Let me just take a moment to give a brief overview of some 
of the legislation that I have introduced. One of the issues 
that the veterans community and the American people are clearly 
concerned about is making sure that when young men and women 
return from Iraq and Afghanistan and from the Armed Forces in 
general, they are able to return to civilian life and get 
decent jobs.
    We are recovering from a serious recession. The economy is 
better than it was but unemployment remains much, much too 
high. So, I have introduced legislation called the Veterans 
Equipped for Success Act of 2013, which I think will go a 
significant way forward in providing good jobs for those men 
and women who have returned from Iraq and Afghanistan, who have 
been discharged from the Armed Forces.
    We have heard today, and we have heard for many, many 
months, probably the major issue that veterans organizations 
and I think the American people are concerned about, as Senator 
Shaheen just mentioned. is to make absolutely sure that when a 
veteran files a claim for benefits that that claim is processed 
in a reasonable period of time.
    We are all appalled that in some cases it is taking years 
for these claims to be adjudicated. Secretary Shinseki has 
brought forth a goal to make sure that every claim is processed 
within 125 days and I believe he intends to do that by the end 
of 2015.
    As we all know, 5 years ago there was limited discussion 
about the need to do what every major corporation in America 
and other government agencies have done, and that is go from a 
paper to a digital system. The VA is now in the process of 
making that huge transformation. We think they are making some 
progress but obviously they have a long way to go.
    We have legislation to make sure that the very ambitious 
goal of making sure that every claim is processed with 125 days 
and to have that done by the end of 2015, in fact, takes place 
when it is supposed to. We are going to be watching that and we 
have legislation that will monitor that very, very closely.
    There is another piece of legislation that we have 
introduced called the Survivor Benefits Improvement Act of 
2013. As we all know, a decade of war has had a major impact on 
our military families. Over 6,600 servicemembers have died in 
operations Iraqi Freedom and Enduring Freedom, leaving behind 
spouses and children who relied on them.
    Earlier this year, this Committee heard from the Gold Star 
Wives of America about the significant challenges that 
survivors continue to face such as the need for improved 
dependency and indemnity compensation benefits and 
qualification requirements.
    The Survivor Benefits Improvement Act of 2013 would address 
many of these challenges, and I think we certainly owe that to 
the survivors.
    One of the ongoing concerns that I have and one of the 
hearings that we had dealt with the fact that no matter how 
strong the benefits or health care that we provide veterans is, 
it does not do anybody any good unless veterans and their 
families understand the benefits to which they are entitled.
    While the VA does a lot of things very, very well, one of 
the things that they have not done well is outreach. In the 
last couple of months, by the way, I think we have seen a 
turnaround on that. I think they are doing a better job.
    It is not unimpressive that over 50 percent of the 
servicemembers who are leaving the Armed Forces now are, in 
fact, enrolled in the VA. That is an historically high level of 
outreach in bringing people into the system.
    Our legislation is called the Veterans Outreach Act of 2013 
and it deals with the fact that if veterans are unaware of 
their benefits, then nothing we discuss here today will help 
them when they need assistance.
    So, we have the Veterans Outreach Act of 2013 which, in a 
number of ways, works with community organizations to make sure 
that every veteran in this country understands the benefits to 
which he or she is entitled.
    So, those are some of the issues that I will be working on. 
Now, let me give the mic over to Senator Heller.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, Thank you and thank you for 
your leadership on this issue and for holding today's hearing. 
I want to thank my colleagues who were here earlier. You can 
tell that when it comes to veterans issues it is very 
bipartisan; and it is good to have and to see that kind of 
support for our veterans here in this country.
    I want to thank those that are here as witnesses that will 
testify, and I also want to thank those that are in the 
audience for taking time from your busy schedules to show 
support on these bills.
    I have a number of bills that will be discussed today that 
I have written or cosponsored, and I would like to touch on a 
few of them, if I may, Mr. Chairman.
    First, I would like to discuss the Accountability for 
Veterans Act. It is no secret this community has been holding 
vigorous oversight of the backlog at the VA for disabilities 
and benefits claims. To say that patience on this is thinning 
is probably an understatement.
    In Las Vegas and in Reno, there are more than 10,000 
pending claims. Las Vegas veterans have been hit particularly 
hard by the economic downturn and these disability payments are 
critical to these veterans who are trying to make ends meet.
    I know there is not one solution that will solve this issue 
but one problem seems to be coordination between VBA and other 
government agencies.
    When the VA was here testifying on the backlog, we were 
told that the employees at the VA were required to fax requests 
for files to the Department of Defense, the Social Security 
Administration, the National Archives and then wait 60 days.
    Then, when they did not get a response, they were to e-mail 
those agencies and wait another 30 days. This process is 
outdated. The fax machine is irrelevant. VA should modernize 
its procedure, and that is why I have introduced the 
Accountability for Veterans Act.
    This bill requires DOD, the Social Security Administration, 
and the National Archives to respond to a VA requests for 
veterans files within 30 days with either the file or an 
explanation why the file was not available and when the VA can 
expect this file. This bill also calls for a biannual report to 
Congress on the time it takes for these agencies to respond to 
the VA requests.
    The measure has the support of the American Legion, 
Disabled American Veterans, the Military Officers Association 
of America, and the Veterans of Foreign Wars because we must 
hold these agencies accountable if they are not providing 
information in a timely manner.
    I have another measure that I would like to address and 
that is the Filipino Veterans Promise Act. Before I do that, I 
want to recognize someone in our audience, Mr. Almato, and I 
want to thank you for being here today and thank you for your 
service.
    [Applause.]
    The Filipino Veterans Promise Act is bipartisan and 
bicameral. It fulfills the obligation that the United States 
makes every effort to ensure that individuals who served our 
Nation are properly recognized for their contributions to our 
Nation.
    There is no doubt that the Filipino soldiers served 
honorably in the Commonwealth Army of the Philippines, 
recognized guerrilla forces, and the new Philippine Scouts 
alongside U.S. troops during World War II.
    Today, many Filipino veterans are not able to have their 
service of World War II verified by the Army's National 
Personnel Records Center. The NPRC uses only evidence that is 
approved by the U.S. Army and does not have access to a 
consolidated personal file for most of the individuals who 
served in the Philippine army or guerrilla unit.
    The Filipino Veterans Promise Act would mandate that the 
Department of Defense in coordination with military historians 
establish a process to open the approved revised reconstructed 
guerrilla roster of 1948, also known as the Missouri List, to 
give Filipinos the opportunity to prove their service during 
World War II.
    I was proud to introduce this bill in the U.S. Senate and 
work with Representative Hanabusa in the House of 
Representatives because Filipino veterans deserve a better 
process to adjudicate their claims than currently exists.
    It is important to note that this bill works at length to 
ensure that we are arming those who served and not providing 
benefits for any person that did not. This is why this bill 
calls for the Army to verify service. It is an added protection 
to ensure that hard-earned benefits are going to those who 
earned them.
    I think we can all agree that if any person served our 
country in battle and is not receiving benefits they earned, 
this should be an outrage. Las Vegas, in particular, has a 
large Filipino population and a number of Filipinos there are 
still seeking recognition as veterans. They are a respected 
part of the community and they deserve a fair and complete 
examination of their record.
    I have also introduced two bills that will help military 
families who have lost a loved one in the line of duty: the 
Veteran Small Business Opportunity and Protection Act; as well 
as a bipartisan bill, the Spouses of Heroes Education Act, that 
Senator Merkley testified on earlier today.
    Last, I introduced a bill with my fellow Committee Member, 
Senator Murray, the Care for Veterans' Dependents Act.
    I appreciate the consideration given to all these measures 
and the time today to discuss them. As this Committee further 
discusses me and my colleagues' proposals to help America's 
veterans receive the benefits that they have earned, it is my 
hope that we will remember our commitments to caring for those 
brave heroes who sacrificed greatly to serve this country.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you very much, Senator Heller.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman. Thank 
you again for having this hearing today. I just want to speak 
about one bill, although I am on several others, which I 
appreciate my colleagues on both sides of the aisle.
    There is no question that in Alaska we have the highest 
number per capita of veterans in the Nation; and everywhere and 
any time I am in Alaska, the issues of veterans come up on 
small-scale and large-scale. So again, thank you for having the 
list of legislation to go over today.
    I want to just talk about one specific bill, which is 
S. 932, the Putting Veterans Funding First Act. This bill acts 
as a continuation. As you know, we have advanced appropriations 
on the health care side, and what I am trying to do here is 
include the second part which is VA discretionary accounts, 
including the National Cemetery Administration, the Veterans 
Benefits Administration, and the Native American Veterans 
Housing Loan Program.
    It would also authorize advance appropriations for the 
following discretionary administration accounts: general 
operating expenses; information technology systems; Office of 
the Inspector General; construction for both major and minor 
projects; and grants for construction of State extended-care 
facilities.
    Mr. Chairman, this has been something that I have believed 
in ever since I was back in local government and that is trying 
to get more and more governments to 2-year cycles on funding 
because it gives more stability for the agencies.
    We did this for part of the VA in regard to their health 
care section where they have advance funding. It makes a big 
difference for them to hire nurses, hire medical technicians, 
and others and it just seems that we should complete the circle 
and finish out the VA in giving them advance appropriation for 
all of their operations.
    This would make a huge difference for management of the VA. 
As a former mayor--I know you are a former mayor, Mr. 
Chairman--every time we dealt with our budget folks, we spent 
months in preparation. Then we got the budget done. Then we had 
a few months to manage it. Then we were back into preparation 
mode again. It made no sense.
    With the VA having so much need that is going to grow very 
significantly over the next several years, it just seems 
logical that we get them on a cycle of more certainty which 
ensures veterans that certain programs, as I just mentioned, 
would have the long-term certainty and funding mechanism they 
need to hire people, to get contracts, to move forward on 
construction, and other things that are necessary for our 
veterans.
    So, it is a simple bill, a continuation of advance 
appropriations complementing what we have already done.
    So, Mr. Chairman, I will leave it at that. There are other 
bills that I have cosponsored and I am very excited about 
several of them, but I know we want to get to the panel.
    I have to step out for a few minutes but I will be back 
because, as you said, a lot of ideas we get from the veterans 
organizations are incredible for us and we should be listening 
carefully to hear those ideas.
    Thank you, Mr. Chairman.
    Chairman Sanders. Senator Begich, thank you very much.
    Senator Boozman.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chair, and thank you so 
much for having this very, very important hearing to evaluate 
proposals to improve the quality of delivery of care for our 
Nation's veterans that have served our country, and really try 
to continue as a Committee and as Senators to uphold all of the 
promises that we made to their families.
    I appreciate the Senator from Alaska's leadership on the 
bill that he just mentioned. We are the lead Republican 
cosponsor on that, and to me it is just good governance. It 
makes all the sense in the world, and I hope that we can get 
that done in the sense that I think it is so important that we 
move government, you know, into this century. I think that is 
one of the ways that we do it.
    You know, this is something that would not cost us any 
money. It would save us a lot of money and create tremendous 
efficiencies. So, again, I thank you very much for your work on 
that.
    I am also pleased that we have three other legislative 
proposals that we are working with and looking forward with my 
colleagues to try to get signed into law.
    S. 257, the GI Bill Tuition Fairness Act would protect our 
veterans ability to use their GI benefit at the school of their 
choice without facing the liability of having to offset out-of-
state tuition fees by paying out of their own pocket.
    I know that there have been other proposals on how to 
accomplish the underlying principle of this legislation, which 
is to protect choice for our veterans when utilizing one of 
their most important economic opportunity benefits.
    This legislation is supported by many VSOs including some 
here today. I believe that it would very much be a step in the 
right direction in expanding educational opportunities for 
veterans and would actually save the Federal Government money. 
I look forward to working with my colleagues to accomplish this 
worthy goal.
    S. 695, the Veterans Paralympic Act of 2013 seeks to 
reauthorize the paralympic integrated adaptive sports program 
for disabled veterans. The modest investment that we make in 
this program improves the physical and mental health of so many 
of our disabled veterans.
    This program has reached more than 5,000 participants in 
more than 150 communities in 46 States. It has successfully 
collaborated with 85 VA medical centers in 39 States to provide 
an adaptive sports program to veterans in their communities.
    Extending this program I think is a common sense step to 
empower our disabled veterans through sport and benefits the 
physical and mental health of the disabled veteran community.
    S. 889, the Service Members Choice in Transition Act, is 
another bill that we have been working on. The Department of 
Defense is redesigning and updating TAP to make it more 
interactive and this makes it such that it offers on a non-
mandatory basis specialized tracks for servicemembers that fit 
their transition goals.
    The legislation would mandate that servicemembers be given 
a choice to take one of the tracks as part of the mandatory 
portion of TAP and will assist them in meeting the specific 
transition goal.
    This goal-oriented structure helps our transitioning 
veterans identify and pursue specific goals early, which means 
that they will be more likely to use their hard-earned benefits 
wisely.
    Again, I think this is so important. If, through TAP and 
every other device that we have, we can make it such that we 
can get our veterans employed, get them where they are able to 
support their families, take care of themselves, then it is not 
only the right thing to do but it is something that saves 
tremendous amounts of money long term in trying to deal with 
the problems of not being able to do that.
    All of these bills I have just mentioned are reasonable, 
bipartisan proposals to improve the lives and opportunities of 
our veterans and their families, and I appreciate their 
consideration here today.
    With that, I would like to include the rest of my statement 
for the record and get on to our witnesses.
    Chairman Sanders. Without objection.
    [The prepared statement of Senator Boozman follows:]
               Prepared Statement of Hon. John Boozman, 
                       U.S. Senator from Arkansas
    Mr. Chairman, Thank you for holding this hearing so that we can 
continue to evaluate proposals to improve the quality and delivery of 
services to our Nation's veterans, and fight to uphold all of the 
promises that we have made to them and their families.
    I am particularly pleased that we have included three of my 
legislative proposals and look forward to working with my colleagues to 
get these bills signed into law.
    S. 257, the GI Bill Tuition Fairness Act would protect our 
veterans' ability to use their GI Benefit at the school of their 
choice, without facing the liability of having to offset out-of-state 
tuition fees by paying out of their own pocket. I know that there have 
been other proposals on how to accomplish the underlying principal of 
this legislation--which is to protect choice for our veterans when 
utilizing one of their most important economic opportunity benefits--
and I look forward to working with my colleagues to accomplish this 
worthy goal. This legislation is supported by many VSO's, including 
some here today, and would be a step in the right direction in 
expanding educational opportunities for veterans and would actually 
save the Federal Government money.
    S. 695, the Veterans Paralympic Act of 2013 seeks to reauthorize 
the Paralympic Integrated Adaptive Sports Program for disabled 
veterans. The modest investment that we make in this program improves 
the physical and mental health of so many of our disabled veterans. 
This program has reached more than 5,000 participants in more than 150 
communities in 46 states. It has successfully collaborated with 85 VA 
medical centers in 39 states to provide adaptive sports programs to 
veterans in their communities. Extending this program is a common sense 
step to empower our disabled veterans through sport, and benefits the 
physical and mental health of our disabled veteran community.
    S. 889, the Servicemembers' Choice in Transition Act is another 
bill I have been working on. The Department of Defense (DOD) is re-
designing and updating TAP to make it more interactive and it offers on 
a non-mandatory basis specialized tracks for servicemembers that fit 
their transition goals. This legislation would mandate that 
servicemembers be given the choice to take one of the tracks as part of 
the mandatory portion of TAP, and will assist them in meeting their 
specific transition goal. This goal oriented structure helps our 
transitioning veterans identify and pursue specific goals early, which 
means that they will be more likely to use their hard earned benefits 
wisely.
    All of these bills I have just mentioned are reasonable, bipartisan 
proposals to improve the lives and opportunities of our veterans and 
their families, and I appreciate their consideration here today.
    Other important bills before us today will:

    <bullet> Protect the second amendment rights of our nations' 
veterans
    <bullet> Recognize the honorable service of guardsmen and 
reservists that have served our Nation for 20 or more years
    <bullet> Ensure the freedom of religious expression on national war 
memorials
    <bullet> Ensure a cost of living adjustment for disabled veterans
    <bullet> Try to fix our broken VA claims processing system; and
    <bullet> Provide many other economic opportunities to those who 
have served and sacrificed on behalf of our grateful Nation.

    These are all important goals and I appreciate everyone here for 
all of your hard work on behalf of our Nation's veterans and look 
forward to continuing our work together to address these issues facing 
the veteran community.

    Chairman Sanders. Very good. Senator Boozman, thanks very 
much. I want to thank each of the Senators who have spoken 
about their important legislation; we look forward to working 
with all of them.
    Now, we are ready for our second panel. We welcome 
representatives of the VA.
    Senator Boozman, did you want to come up here?
    Senator Boozman. I think Senator Heller is about to join 
us.
    Chairman Sanders. OK. We are pleased to have with us Curtis 
L. Coy, who is the Deputy Undersecretary for Economic 
Opportunity of the Veterans Benefits Administration, Department 
of Veterans' Affairs. He is accompanied by Thomas Murphy, 
Director of Compensation Service; Richard Hipolit, Assistant 
General Counsel; and John Brizzi, Deputy Assistant General 
Counsel.
    Gentlemen, thanks very much for being with us. Mr. Coy, I 
think we begin with you.

STATEMENT OF CURTIS L. COY, DEPUTY UNDER SECRETARY FOR ECONOMIC 
OPPORTUNITY, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT 
OF VETERANS AFFAIRS; ACCOMPANIED BY THOMAS MURPHY, DIRECTOR OF 
   COMPENSATION SERVICE; RICHARD HIPOLIT, ASSISTANT GENERAL 
   COUNSEL; AND JOHN BRIZZI, DEPUTY ASSISTANT GENERAL COUNSEL

    Mr. Coy. Thank you, Mr. Chairman, and good morning to you, 
Mr. Chairman and Members of the Committee. I am pleased to be 
here today to provide the views of the Department of Veterans 
Affairs on pending legislation affecting VA's programs.
    We are encouraged seeing so many legislative proposals 
aimed at improving benefits and services for our Nation's 
veterans. We are particularly glad to see the inclusion of some 
of the concepts VA put forth in April in its 2014 budget as 
well as significant legislation aimed at addressing claims 
backlog.
    As we have been reporting regularly to the Committee, VA 
has been able to do much in the areas of people, process, and 
technology under the authorities it has now but there are 
systemic changes that could be done only by legislation.
    We are happy to discuss these bills that are aimed at 
giving veterans better tools to further their education and 
employment, extend certain work-study activities, and improve 
our programs that benefit veteran-owned small businesses.
    Accompanying me this morning are my colleagues are Thomas 
Murphy, Director, Compensation Service at Veterans Benefits 
Administration; Richard Hipolit, Assistant General Counsel; and 
John Brizzi, Deputy Assistant General Counsel.
    Given the number of bills under consideration today and in 
the interest of time, I will focus my statement this morning on 
legislation impacting several broad areas. There are also 
significant bills on the subject of outreach, benefits for 
survivors, and mental health programs. For several bills we 
provided our views and costs for the record. Similar to the 
Members of this Committee, VA is always seeking new ways to 
improve benefits for those who have served.
    I am a 24-year veteran of the U.S. Navy and, like you and 
your staff, work hard to ensure that we honor those who have 
served and sacrificed for our country.
    With respect to those bills that affect education and 
employment of veterans, the VA supports any effort that would 
end those opportunities. We support extending the veterans are 
retraining and assistance program but we suggest additional 
changes to the program to improve the administration of the 
program and give veterans more choices.
    The VA also supports the veterans internship pilot but 
again recommends several ambiguities and resource issues be 
addressed before moving the bill for word.
    While we are sympathetic to the issue of rising tuition 
costs, it is difficult to endorse any legislation that might 
impact or limit choices of veterans that they may have were a 
school not to offer in-state tuition for veterans.
    Similarly, changing the way we currently calculate tuition 
and fees in the post-9/11 GI Bill would be a challenge to both 
implement and understand. We look forward to working with the 
Committee to address these challenges.
    The VA strongly supports those bills that propose to extend 
existing programs such as portions of the vocational 
rehabilitation and employment, the paralympics, and VA's work-
study program and we would suggest making some of those 
extensions permanent.
    Finally, we appreciate the Committee's interest in 
legislation intended to reduce the disability claims backlog. 
We support many provisions of the claims process improvement 
act of 2013 which hold promise to take a significant bite out 
of the backlog without prejudicing veterans and we look forward 
to commenting shortly on other significant provisions of that 
bill. We want to work with you and other stakeholders here 
today to have a collaborative dialog about all of the proposals 
on the agenda today.
    Mr. Chairman, this concludes my statement. Thank you for 
the opportunity to appear before you today. We would be pleased 
to respond to any questions you or other Members of the 
Committee may have about any of these bills or other 
legislation discussed in our written testimony.
    Thank you, sir.
    [The prepared statement of Mr. Coy follows:]
    Prepared Statement of Curtis L. Coy, Deputy Under Secretary for 
Economic Opportunity, Veterans Benefits Administration, U.S. Department 
                          of Veterans Affairs
    Good morning, Mr. Chairman and Members of the Committee. I am 
pleased to be here today to provide the views of the Department of 
Veterans Affairs (VA) on pending legislation affecting VA's programs, 
including the following: Sections 101, 102 and 103 of S. 6, S. 200, 
S. 257, S. 262, S. 294, S. 373, S. 430, sections 5, 6, 7, and 8 of 
S. 495, S. 514, S. 515, S. 572, S. 629, S. 674, S. 690, S. 695, S. 705, 
S. 748, S. 893, S. 894, S. 922, sections 103, 104, 201, 202, 301, 302, 
303, 304, and 305 of S. 928, and S. 939. VA has not had time to develop 
cost estimates for S. 514 and S. 894 and but will work to provide them. 
VA has not had time to develop views and costs on the other sections of 
S. 928. I cannot address today views and costs on S. 735, S. 778, 
S. 819, S. 863, S. 868, S. 889, S. 927, certain sections of S. 928, 
S. 930, S. 932, S. 935, S. 938, S. 944, S. 1039, S. 1042, and S. 1058, 
but, with your permission, we will work to provide that information. 
Other legislative proposals under discussion today would affect 
programs or laws administered by the Department of Labor (DOL), 
Department of Homeland Security (DHS), Department of Defense (DOD), the 
Office of Personnel Management (OPM), and the General Services 
Administration (GSA). Respectfully, we defer to those Departments' 
views on those legislative proposals. Accompanying me this morning are 
Thomas Murphy, Director, Compensation Service, Veterans Benefits 
Administration; Richard Hipolit, Assistant General Counsel; and John 
Brizzi, Deputy Assistant General Counsel.
                                  s. 6
    Section 101 of S. 6, the ``Putting Our Veterans Back to Work Act of 
2013,'' would extend by two years the expiration of the Veterans 
Retraining Assistance Program (VRAP) under section 211 of the VOW to 
Hire Heroes Act of 2011, from March 31, 2014, to March 31, 2016. This 
section also would increase the maximum enrollment in VRAP from 99,000 
to 199,000 Veterans. It would add 50,000 participants during the period 
April 1, 2014 through March 31, 2015, and another 50,000 between 
April 1, 2015 and March 31, 2016. Finally, section 101 would amend 
subsection (b) of section 211 by striking ``up to 12 months of 
retraining'' and replacing it with ``an aggregate of not more than 12 
months of retraining.''
    VA generally supports the legislation that would extend the 
expiration of VRAP, to allow maximum enrollment of the currently 
allotted 99,000 participants. VA supports legislative initiatives that 
are designed to help Veterans seek and gain meaningful employment, and 
this legislation provides more time to select and complete their degree 
or certificate program, particularly those Veterans between the ages of 
35 and 60. VA suggests, however, that changes be made to the existing 
program prior to expansion, including adding new participants.
    As of April 25, 2013, VA approved 98,296 applicants for VRAP 
benefits, but only 43,803 Veterans were either enrolled in school or 
had used their benefits. VA reached out to individuals eligible for 
VRAP on several occasions to encourage them to enroll in training. VA 
recommends that the following changes be made to VRAP before expanding 
the program to more participants:

    <bullet> Allow participants to receive the full 12-month benefit as 
long as the participant starts a training program within the period 
between receiving their certificate of eligibility and the program's 
sunset date.
    <bullet> Expand the program to include 4-year institutions that 
offer associate's degrees.
    <bullet> Amend the sunset date of the program from March 31 to 
May 31 so that it does not end in the middle of a standard academic 
semester.

    Finally, VA recommends removing the partition of participants by 
fiscal year. Many unemployed Veterans cannot enroll in training before 
they receive their certificate of eligibility for VRAP. Therefore, 
Veterans may not enroll in school during the same fiscal year that they 
are determined eligible. Additionally, it is unclear if any unused 
slots from the original 99,000 participants will be lost in the next 
fiscal year or will remain available for use in the next fiscal year. 
To reduce confusion for Veterans using the program, VA recommends that 
any increase in beneficiaries be effective for the remainder of the 
program.
    VA estimates the benefit costs for section 101 of S. 6 would be 
$152.8 million during fiscal year (FY) 2014 and $1.3 billion for the 
period beginning on April 1, 2014 through March 31, 2016.
    Section 102 of S. 6 would extend the provisions of Section 231 of 
Public Law 112-56 through December 31, 2016, VA's authority to provide 
vocational rehabilitation benefits to members of the Armed Forces with 
severe injuries or illnesses who have not yet been rated for purposes 
of service-connected disability compensation. The current authority to 
provide such benefits to these Servicemembers expires on December 31, 
2014. Section 102 also would require VA to submit a report to Congress 
on the benefits provided to these members of the Armed Forces within 
180 days after the enactment of section 102.
    VA supports this provision and believes that extending automatic 
eligibility for vocational rehabilitation to Servicemembers for two 
additional years is warranted due to the expected acceleration in 
Servicemembers separating from the Armed Forces. This provision would 
allow individuals who are still on active duty to qualify for and 
receive vocational rehabilitation and employment services without 
waiting for a VA disability rating, and would facilitate their 
transition from military to civilian life.
    We do not anticipate additional costs to VA resulting from 
enactment of this provision because individuals who would receive 
vocational rehabilitation services under this provision would be 
expected to receive VA disability ratings as Veterans that would 
qualify them for vocational rehabilitation services.
    Section 103 of the bill would provide a two-year extension of the 
provisions of section 233 of Public Law 112-56, which entitles a 
Veteran who has completed a vocational rehabilitation program under 
chapter 31 of title 38, United States Code, and has exhausted state 
unemployment benefits, to an additional twelve-month period of 
vocational rehabilitation services without regard to the 12-year 
eligibility period or 48-month limitation on entitlements. Under 
current law, VA must receive the application for chapter 31 services 
before March 31, 2014, and within 6 months of exhausting regular 
unemployment compensation benefits. If section 103 were enacted, the 
deadline for receipt of an application would be extended until 
March 31, 2016.
    VA supports this provision. Extending this benefit for Veterans who 
are beyond the 12-year delimiting date would provide them the 
opportunity to prepare for and obtain suitable employment.
    VA estimates that benefit costs associated with enactment of 
section 103 would be approximately $260,000 from FY 2016 through FY 
2018. There are no additional full-time equivalent (FTE) or general 
operating expenses (GOE) cost requirements.
    Sections 104, 201, 301, and 302 affect programs or laws 
administered by DOL. Section 202 affects programs or laws administered 
by DHS. Section 203 affects programs or laws administered by GSA. 
Respectfully we defer to those Departments' views on those sections of 
S. 6.
                                 s. 200
    S. 200 would establish eligibility for interment in a national 
cemetery for any individual who: (1) the Secretary of Veterans Affairs 
determines served in combat support of the Armed Forces in Laos during 
the period beginning on February 28, 1961, and ending on May 15, 1975; 
and (2) at the time of death was a U.S. citizen or lawfully admitted 
alien.
    Section 401 of Public Law 95-202 authorizes the Secretary of 
Defense to determine whether the service of members of civilian or 
contractual groups shall be considered active duty for the purposes of 
all laws administered by VA. The DOD Civilian/Military Service Review 
Board advises the Secretary of Defense in determining if civilian 
service in support of the U.S. Armed Forces during a period of armed 
conflict is equivalent to active military service for VA benefits. VA 
provides burial and memorial benefits to individuals deemed eligible by 
reason of active military service established by the Secretary of 
Defense.
    VA does not support this bill because it would bypass the 
statutorily mandated process established under section 401 of Public 
Law 95-202 that promotes consistency in evaluation of various types of 
service. The established process under Public Law 95<dagger>202 ensures 
that determinations regarding individuals or groups who did not serve 
in the Armed Forces are based on adequate information regarding the 
nature of the operations of the U.S. Armed Forces at the relevant times 
and locations and the nature of the support provided by the individuals 
or groups in question.
    Further, VA relies on DOD to determine the circumstances of an 
individual's service and when such service was rendered, and, for 
purposes of this bill, VA would have to rely on DOD to make 
determinations such as whether such service was ``in combat support of 
the Armed Forces.'' VA is not equipped to make those determinations on 
a case-by-case basis. Yet the bill makes no provision for DOD 
involvement in the process. In addition, it is unclear how ``combat 
support'' would be defined and documented for purposes of implementing 
this bill.
    If the assumption is made that the impacted population would be 
small, no significant cemetery construction or interment costs would be 
associated with this legislation.
                                 s. 257
    S. 257, the ``GI Bill Tuition Fairness Act of 2013,'' would amend 
section 3679 of title 38, United States Code, to direct VA, for 
purposes of the educational assistance programs administered by the 
Secretary, to disapprove courses of education provided by public 
institutions of higher education that do not charge tuition and fees 
for Veterans at the same rate that is charged for in-state residents, 
regardless of the Veteran's State of residence. The bill does not 
address whether tuition and fee rates for Servicemembers or other 
eligible beneficiaries of the GI Bill affect the approval status of a 
program of education. S. 257 would apply to educational assistance 
provided after August 1, 2014. In the case of a course of education in 
which a Veteran or eligible person (such as a spouse or dependent who 
is eligible for education benefits) is enrolled prior to August 1, 
2014, that is subsequently disapproved by VA, the Department would 
treat that course as approved until the Veteran or eligible person 
completes the course in which the individual is enrolled. After 
August 1, 2018, any disapproved course would be treated as such, unless 
the Veteran or eligible person receives a waiver from VA. While VA is 
sympathetic to the issue of rising tuition costs, it is difficult to 
endorse the proposed legislation until we know more about the impact.
    VA cannot predict what reductions in offerings by educational 
institutions would result from this requirement. In-state tuition rules 
are set by individual States, and are undoubtedly driven by overall 
fiscal factors and other policy considerations. Additionally, the bill 
creates ambiguity since it is unclear whether institutions that charge 
out-of-state tuition and fees to other eligible persons for a course of 
education, but that charge in-state tuition to Veterans in the same 
course, would also be disapproved.
     VA estimates approximately 11.8 percent of Yellow Ribbon 
participants attended public institutions since the program's 
inception. Of those, an estimated 80.6 percent were Veterans during the 
2012 fall enrollment period. VA applied these percentages to the total 
amount of Yellow Ribbon benefits paid in FY 2012 and projected through 
FY 2023, assuming growth consistent with the overall chapter 33 
program. Based on those projections, VA estimates that enactment of 
S. 257 would result in benefit savings to VA's Readjustment Benefits 
account of $2.3 million in the first year, $70.3 million over 5 years, 
and $179.9 million over 10 years. VA estimates there would be no 
additional GOE administrative costs required to implement this bill.
                                 s. 262
    S. 262, the ``Veterans Education Equity Act of 2013,'' would amend 
section 3313(c)(1) of title 38, United States Code, to revise the 
formula for the payment of tuition and fees for individuals entitled to 
educational assistance under the Post-9/11 GI Bill who are pursuing 
programs of education at a public institution of higher learning (IHL). 
The revised formula would include, as an additional payment formula, 
the lesser of the actual net cost for tuition and fees after applying 
the receipt of any tuition waivers, reductions, and scholarships, 
versus the greater of the actual net cost for in-state tuition and fees 
after applying the receipt of any tuition waivers, reductions, and 
scholarships, or $17,500 for the academic year beginning on August 1, 
2011 (such amount to be increased each subsequent year by the average 
percentage increase in undergraduate tuition costs). The amendment 
would be effective with respect to the payment of educational 
assistance for an academic year beginning on or after the date of 
enactment.
    Currently, resident and non-resident students pursuing programs of 
education at public IHLs receive the actual net cost for in-state 
tuition and fees charged by the institution. As written, this bill 
would allow non-resident students to receive an amount above net in-
state tuition charges in some instances.
    While VA understands the issue of rising educational costs and 
supports the intent underlying the bill to provide payment equity for 
individuals training under the Post-9/11 GI Bill, VA cannot support the 
proposed legislation.
    The additional separate rules for tuition-and-fee charges would add 
yet another level of complexity to the Post-9/11 GI Bill for both 
Veterans and schools to understand. VA continues to receive complaints 
from participants regarding confusion about exactly how much they will 
receive in tuition and fees under the program. This bill would 
exacerbate that problem.
    S. 262 would also lead to very complicated processing scenarios in 
the Long Term Solution (LTS), the computer processing system for the 
Post-9/11 GI Bill. Rules in the LTS system regarding payment amounts 
would need to be updated. Additionally, since the amount of educational 
assistance would be based on the actual net cost for tuition and fees 
versus the greater of the actual net cost for in-state tuition and fees 
and $17,500, VA would have to apply a blended set of rules to each 
claim that falls under these provisions.
    In addition, VA has identified technical concerns with the bill's 
text. For example, it is unclear how to apply the $17,500 cap per 
academic year to enrollments. The bill does not specify if VA would 
need to pay the first term of the academic year up to the maximum 
amount or divide the total yearly allotment over the course of 
different semesters. There could be scenarios in which an individual 
may receive most of, if not all, the yearly allotment for the fall term 
alone, leaving no money to be spent in the subsequent terms.
    VA estimates that the benefit cost associated with enactment of 
this bill would be $613.0 million in the first year, $3.4 billion over 
5 years, and $7.6 billion over 10 years. No administrative or personnel 
costs to VA are associated with this bill. VA information technology 
costs are estimated to be $1 million. These costs include enhancements 
to the Post-9/11 GI Bill Long-Term Solution.
                                 s. 294
    Section 2(a) of S. 294, the ``Ruth Moore Act of 2013,'' would add 
to 38 U.S.C. Sec. 1154 a new subsection (c) to provide that, if a 
Veteran alleges that a ``covered mental health condition'' was incurred 
or aggravated by military sexual trauma (MST) during active service, VA 
must ``accept as sufficient proof of service-connection'' a mental 
health professional's diagnosis of the condition together with 
satisfactory lay or other evidence of such trauma and the 
professional's opinion that the condition is related to such trauma, 
provided that the trauma is consistent with the circumstances, 
conditions, or hardships of such service, irrespective of whether there 
is an official record of incurrence or aggravation in service. Service 
connection could be rebutted by ``clear and convincing evidence to the 
contrary.'' In the absence of clear and convincing evidence to the 
contrary, and provided the claimed MST is consistent with the 
circumstances, conditions, and hardships of service, the Veteran's lay 
testimony alone would be sufficient to establish the occurrence of the 
claimed MST. The provision would define the term ``covered mental 
health condition'' to mean Post Traumatic Stress Disorder (PTSD), 
anxiety, depression, ``or other mental health diagnosis described in 
the current version'' of the American Psychiatric Association 
Diagnostic and Statistical Manual of Mental Disorders that VA 
``determines to be related to military sexual trauma.'' The bill would 
define MST to mean ``psychological trauma, which in the judgment of a 
mental health professional, resulted from a physical assault of a 
sexual nature, battery of a sexual nature, or sexual harassment which 
occurred during active military, naval, or air service.''
    Section 2(b) would require VA, for a 5-year period beginning with 
FY 2014, to submit to Congress an annual report on claims covered by 
new section 1154(c) that were submitted during the fiscal year. Section 
2(b) would also require VA to report on the: (1) number and percentage 
of covered claims submitted by each sex that were approved and denied; 
(2) rating percentage assigned for each claim based on the sex of the 
claimant; (3) three most common reasons for denying such claims; (4) 
number of claims denied based on a Veteran's failure to report for a 
medical examination; (5) number of claims pending at the end of each 
fiscal year; (6) number of claims on appeal; (7) average number of days 
from submission to completion of the claims; and (8) training provided 
to Veterans Benefits Administration (VBA) employees with respect to 
covered claims.
    Section 2(c) would make proposed section 1154(c) applicable to 
disability claims ``for which no final decision has been made before 
the date of the enactment'' of the bill.
    VA is committed to serving our Nation's Veterans by accurately 
adjudicating claims based on MST in a thoughtful and caring manner, 
while fully recognizing the unique evidentiary considerations involved 
in such an event. Before addressing the specific provisions of S. 294, 
it would be useful to outline those efforts, which we believe achieve 
the intent behind the bill. The Under Secretary for Benefits has 
spearheaded VBA's efforts to ensure that these claims are adjudicated 
compassionately and fairly, with sensitivity to the unique 
circumstances presented by each individual claim.
    VA is aware that, because of the personal and sensitive nature of 
the MST stressors in these cases, it is often difficult for the victim 
to report or document the event when it occurs. To remedy this, VA 
developed regulations and procedures specific to MST claims that 
appropriately assist the claimant in developing evidence necessary to 
support the claim. As with other PTSD claims, VA initially reviews the 
Veteran's military service records for evidence of the claimed 
stressor. VA's regulation also provides that evidence from sources 
other than a Veteran's service records may corroborate the Veteran's 
account of the stressor incident, such as evidence from mental health 
counseling centers or statements from family members and fellow 
Servicemembers. Evidence of behavior changes, such as a request for 
transfer to another military duty assignment, is another type of 
relevant evidence that may indicate occurrence of an assault. VA 
notifies Veterans regarding the types of evidence that may corroborate 
occurrence of an in-service personal assault and asks them to submit or 
identify any such evidence. The actual stressor need not be documented. 
If minimal circumstantial evidence of a stressor is obtained, VA will 
schedule an examination with an appropriate mental health professional 
and request an opinion as to whether the examination indicates that an 
in-service stressor occurred. The mental health professional's opinion 
can establish occurrence of the claimed stressor.
    With respect to claims for other disabilities based on MST, VA has 
a duty to assist in obtaining evidence to substantiate a claim for 
disability compensation. When a Veteran files a claim for mental or 
physical disabilities other than PTSD based on MST, VBA will obtain a 
Veteran's service medical records, VA treatment records, relevant 
Federal records identified by the Veteran, and any other relevant 
records, including private records, identified by the Veteran that the 
Veteran authorizes VA to obtain. VA must also provide a medical 
examination or obtain a medical opinion when necessary to decide a 
disability claim. VA will request that the medical examiner provide an 
opinion as to whether it is at least as likely as not that the current 
symptoms or disability are related to the in-service event. This 
opinion will be considered as evidence in deciding whether the 
Veteran's disability is service-connected.
    VBA has also placed a primary emphasis on informing VA regional 
office (RO) personnel of the issues related to MST and providing 
training in proper claims development and adjudication. VBA developed 
and issued Training Letter 11-05, Adjudicating Posttraumatic Stress 
Disorder Claims Based on Military Sexual Trauma, in December 2011. This 
was followed by a nationwide broadcast on MST claims adjudication. The 
broadcast focused on describing the range of potential markers that 
could indicate occurrence of an MST stressor and the importance of a 
thorough and open-minded approach to seeking such markers in the 
evidentiary record. In addition, the VBA Challenge Training Program, 
which all newly hired claims processors are required to attend, now 
includes a module on MST within the course on PTSD claims processing. 
VBA also provided its designated Women Veterans Coordinators with 
updated specialized training. These employees are located in every VA 
RO and are available to assist both female and male Veterans with their 
claims resulting from MST.
    VBA worked closely with the Veterans Health Administration (VHA) 
Office of Disability Examination and Medical Assessment to ensure that 
specific training was developed for clinicians conducting PTSD 
compensation examinations for MST-related claims. VBA and VHA further 
collaborated to provide a training broadcast targeted to VHA clinicians 
and VBA raters on this very important topic, which aired initially in 
April 2012 and has been rebroadcast numerous times.
    Prior to these training initiatives, the grant rate for PTSD claims 
based on MST was about 38 percent. Following the training, the grant 
rate rose and at the end of February 2013 stood at about 52 percent, 
which is roughly comparable to the approximate 59-percent grant rate 
for all PTSD claims.
    In December 2012, VBA's Systematic Technical Accuracy Review team, 
VBA's national quality assurance office, completed a second review of 
approximately 300 PTSD claims based on MST. These claims were denials 
that followed a medical examination. The review showed an overall 
accuracy rate of 86 percent, which is roughly the same as the current 
national benefit entitlement accuracy level for all rating-related end 
products.
    In addition, VBA's new standardized organizational model has now 
been implemented at all of our ROs. It incorporates a case-management 
approach to claims processing. VBA reorganized its workforce into 
cross-functional teams that give employees visibility of the entire 
processing cycle of a Veteran's claim. These cross-functional teams 
work together on one of three segmented lanes: express, special 
operations, or core. Claims that predictably can take less time flow 
through an express lane (30 percent); those taking more time or 
requiring special handling flow through a special operations lane (10 
percent); and the rest of the claims flow through the core lane (60 
percent). All MST-related claims are now processed in the special 
operations lane, ensuring that our most experienced and skilled 
employees are assigned to manage these complex claims.
    The Under Secretary for Benefits' efforts have dramatically 
improved VA's overall sensitivity to MST-related PTSD claims and have 
led to higher current grant rates. However, she recognized that some 
Veterans' MST-related claims were decided before her efforts began. To 
assist those Veterans and provide them with the same evidentiary 
considerations as Veterans who file claims today, VBA in April 2013 
advised Veterans of the opportunity to request that VA review their 
previously denied PTSD claims based on MST. Those Veterans who respond 
will receive review of their claims based on VA's heightened 
sensitivity to MST and a more complete awareness of evidence 
development. VBA will also continue to work with VHA medical 
professionals to ensure they are aware of their critical role in 
processing these claims.
    Through VA's extensive, recent, and ongoing actions, we are 
ensuring that MST claimants are given a full and fair opportunity to 
have their claim considered, with a practical and sensitive approach 
based on the nature of MST. As noted above, VA has recognized the 
sensitive nature of MST-related PTSD claims and claims based on other 
covered mental health conditions, as well as the difficulty inherent in 
obtaining evidence of an in-service MST event. Current regulations 
provide multiple means to establish an occurrence, and VA has initiated 
additional training efforts and specialized handling procedures to 
ensure thorough, accurate, and timely processing of these claims.
    VA's regulations reflect the special nature of PTSD. Section 
3.304(f) of title 38 Code of Federal Regulations, currently provides 
particularized rules for establishing stressors related to personal 
assault, combat, former prisoner-of-war status, and fear of hostile 
military or terrorist activity. These particularized rules are based on 
an acknowledgement that certain circumstances of service may make the 
claimed stressor more difficult to corroborate. Nevertheless, they 
require threshold evidentiary showings designed to ensure accuracy and 
fairness in determinations as to whether the claimed stressor occurred. 
Evidence of a Veteran's service in combat or as a prisoner of war 
generally provides an objective basis for concluding that claimed 
stressors related to such service occurred. Evidence that a Veteran 
served in an area of potential military or terrorist activity may 
provide a basis for concluding that stressors related to fears of such 
activity occurred. In such cases, VA also requires the opinion of a VA 
or VA-contracted mental health professional, which enables VA to ensure 
that such opinions are properly based on consideration of relevant 
facts, including service records, as needed. For PTSD claims based on a 
personal assault, lay evidence from sources outside the Veteran's 
service records may corroborate the Veteran's account of the in-service 
stressor, such as statements from law enforcement authorities, mental 
health counseling centers, family members, or former Servicemembers, as 
well as other evidence of behavioral changes following the claimed 
assault. Minimal circumstantial evidence of a stressor is sufficient to 
schedule a VA examination and request that the examiner provide an 
opinion as to whether the stressor occurred. We recognize that some 
victims of sexual assault may not have even this minimal circumstantial 
evidence, and we are committed to addressing the problem.
    As VA has continued its close review of this legislation as part of 
an Administration-wide focus on the critical issue of MST, we would 
like to further consider whether statutory changes could also be 
useful, while continuing to carry forward the training, regulatory, and 
case review efforts described above. VA would like to follow up with 
the Committee on the results of this review, and of course are glad to 
meet with you or your staff on this critical issue.
    VA does not oppose section 2(b).
    Section 2(c) does not define the term ``final decision.'' As a 
result, it is unclear whether the new law would be applicable to an 
appealed claim in which no final decision has been issued by VA or, 
pursuant to 38 U.S.C. Sec. 7291, by a court.
    Benefit costs are estimated to be $135.9 million during the first 
year, $2.0 billion for 5 years, and $7.1 billion over 10 years.
                                 s. 373
    S. 373, the ``Charlie Morgan Military Spouses Equal Treatment Act 
of 2013,'' would consider a person a spouse, for purposes of military 
personnel policies and military and Veterans' benefits, if the marriage 
of the individual is valid in the State in which the marriage was 
entered into or, in the case of a marriage entered into outside any 
State, if the marriage is valid in the place in which the marriage was 
entered into and the marriage could have been entered into in a State. 
It includes as a State: the District of Columbia, the Commonwealths of 
Puerto Rico and the Northern Mariana Islands, and U.S. territories and 
possessions. We defer to DOD's views on those parts of the bill 
amending titles 10, 32, and 37 of the United States Code.
    Section 7 of title 1, United States Code, which implements section 
3 of the Defense of Marriage Act, defines the term ``marriage'' for 
purposes of Federal statutes, regulations, or rulings to mean only a 
union between one man and one woman as husband and wife, and defines 
the term ``spouse'' to mean only a person of the opposite sex who is a 
husband or wife. This law excludes same-sex relationships from the 
definition of ``marriage,'' and persons of the same sex from the 
definition of ``spouse,'' regardless of whether the marital 
relationship is recognized under state law. Similarly, section 101(3) 
and (31) of title 38, United States Code, limits the definitions of 
``surviving spouse'' and ``spouse'' for purposes of the statutory 
provisions in title 38 pertaining to VA benefits to only apply to a 
person of the opposite sex of the Veteran.
    With regard to the laws that govern VA, section 2(d) of the bill 
would revise paragraph (3) of section 101 to remove the requirement 
that a ``surviving spouse'' must be a person of the opposite sex of the 
Veteran. We believe the revision to section 101(3) would most logically 
be read to incorporate the liberalized definition of ``spouse'' in the 
proposed section 101(31), but that there would be some ambiguity on 
that question absent language in section 101(3) expressly precluding 
application of section 7 of title 1, United States Code, which defines 
both ``spouse'' and ``marriage'' for purposes of all Federal laws.
    Section 2(d) of the bill would revise paragraph (31) of section 
101, which defines the term ``spouse'' for the purposes of title 38, to 
exclude the application of section 7 of title 1, United States Code, 
and, in most instances, to defer to the law of the State in which the 
parties celebrated their marriage to determine the validity of the 
marriage and whether an individual qualifies as a ``spouse'' of a 
Veteran. Under this section of the bill, an individual shall be 
considered a ``spouse'' if the marriage of the individual is valid in 
the State in which the marriage was entered into, or in the case in 
which the marriage was entered into outside any State, if the marriage 
is valid in the place in which the marriage was entered into as long as 
the marriage could have been entered into in a State. Section 2 would 
further revise section 101(31) to refer to paragraph (20) of the same 
section to provide the meaning of the term ``State,'' with the 
additional inclusion of the Commonwealth of the Northern Mariana 
Islands. The bill's language in section 101(31) directly conflicts with 
38 U.S.C. Sec. 103(c), which provides that VA determines the validity 
of a marriage in accordance with the law of the State where the parties 
resided at the time of the marriage or the law of the State where the 
parties resided when the right to benefits accrued.
    VA supports this bill to change the definition of ``spouse'' and 
``surviving spouse'' in title 38 and exempt VA from the Defense of 
Marriage Act of 1996, which restricts Federal marriage benefits and 
requires inter-state marriage recognition to only opposite-sex 
marriages in the United States. However, VA is concerned about the 
conflict (noted above) between section 103(c) and the proposed 
amendments in section 101. We suggest the proposed legislation be 
amended to resolve this issue. Specifically, this bill could amend 
section 103(c), which defines a marriage based on ``the law of the 
place where the parties resided at the time of the marriage or the law 
of the place where the parties resided when the right to benefits 
accrued'' to be consistent with the other amendments of section 2 
providing that an individual shall be considered a ``spouse'' based on 
the law of the place where the parties entered into the marriage. 
Alternatively, the amendments in section 2 of the bill could be revised 
to be consistent with the current section 103(c). We note that a 
revision to section 103(c) would change how VA administers benefits for 
both same-sex and heterosexual couples.
    S. 373 would require an amendment to several regulations, including 
section 3.1(j) of title 38, Code of Federal Regulations, which defines 
``marriage,'' and section 3.50 of title 38, Code of Federal 
Regulations, which defines ``spouse'' and surviving spouse.'' S. 373 
would also require VA to revise several sections in its adjudication 
procedures manual and develop other policy and procedures guidance. 
Full implementation of this bill would require VA to amend governing 
regulations, procedures, and training products. Therefore, if this bill 
is codified, VA will work diligently to revise its regulations in a 
timely manner.
    S. 373 would affect all VA benefits available to or for a veteran's 
spouse, including compensation, pension, insurance, death, burial, 
memorialization, and other benefits. Full implementation of this bill 
would require VA to amend governing regulations, procedures, and 
training products, which could result in some short-term delays due to 
the necessary transitions. For example, under Family Servicemembers' 
Group Life Insurance (FSGLI), members of the uniformed services insured 
under SGLI can purchase life insurance on the lives of their spouses. 
Currently same-sex spouses are not considered spouses for FSGLI 
purposes. Also, since the spousal coverage is automatically included 
for most SGLI-insured members, it would be necessary for DOD to adjust 
its data systems to accommodate recognized marriages, including its 
premium deduction functions, since DOD's systems maintain all SGLI-
related information for its Servicemembers. It would have to be 
determined if the Office of Servicemembers' Group Life Insurance, the 
office that administers the SGLI program and receives from DOD the 
documentation necessary to identify and pay claims, will be able to 
rely on DOD's certifications, or will have to try to identify and 
verify claims for the death of a spouse that are based upon same-sex 
marriages.
    VA will provide a cost estimate for the record.
                                 s. 430
    Section 2 of S. 430, the ``Veterans Small Business Opportunity and 
Protection Act of 2013,'' would expand the scope of the ``surviving 
spouse'' exception associated with VA's Veteran-owned small business 
(VOSB) acquisition program established by 38 U.S.C. Sec. 8127. This 
program requires that VA verify the ownership and control of VOSBs by 
Veterans in order for the VOSB to participate in VA acquisitions set 
aside for these firms.
    Currently, an exception in the law is provided for certain 
surviving spouses to stand in the place of a deceased service-disabled 
spouse owner for verification purposes if the Veteran owner had a 
service-connected disability rated as 100 percent disabling or died as 
a result of a service-connected disability for a limited period of 
time. Section 2 would continue to provide that if the deceased Veteran 
spouse had a service-connected disability rated as 100 percent 
disabling or died as a result of a service-connected disability, the 
surviving spouse owner could retain verified service-disabled Veteran-
owned small business (SDVOSB) status for VA's program for a period of 
10 years. In addition, a surviving spouse of a deceased Veteran with 
any service-connected disability, regardless of whether the Veteran 
died as a result of the disability, could retain verified SDVOSB status 
for VA's program for a period of 3 years. VA supports this provision.
    Section 3 of S. 430 would add a separate, new provision to 38 
U.S.C. Sec. 8127 to enable the surviving spouse or dependent of an 
servicemember killed in the line of duty who acquires 51 percent or 
greater ownership rights of the servicemember's small business to stand 
in place of the deceased servicemember for purposes of verifying the 
small business as one owned and controlled by Veterans in conjunction 
with VA's VOSB set-aside acquisition program also created by 38 U.S.C. 
Sec. 8127. This status would continue, for purposes of a surviving 
spouse, until the earlier of the re-marriage of the surviving spouse, 
the relinquishment of ownership interest such that the percentage falls 
below 51 percent, or 10 years. With respect to dependent status, this 
would continue until the dependent holds less than 51 percent ownership 
interest or 10 years, whichever occurs earlier. VA supports this 
provision but recommends clarifying the term ``dependent,'' as 
appropriate, to ensure the individual is one having legal capacity to 
contract with the Federal Government. VA stands ready to work with the 
Committee to address this issue. VA estimates no additional 
appropriations would be required to implement this bill if enacted.
                                 s. 492
    S. 492, which would require conditioning certain DOL grants upon 
States establishing programs to recognize military experience in its 
licensing and credentialing programs. This bill affects programs or 
laws administered by DOL. Respectfully, we defer to that Department's 
views on this bill.
                                 s. 495
    Section 5 of S. 495, ``Careers for Veterans Act of 2013,'' would 
add a new definition to 38 U.S.C. Sec. 8127, VA's VOSB set-aside 
acquisition program, to clarify that any small business concern owned 
exclusively by Veterans would be deemed to be unconditionally owned by 
Veterans. VA supports this provision.
    Section 6 of the bill essentially duplicates the extension of 
surviving spouse status previously discussed in conjunction with 
section 2 of S. 430. VA supports this provision. Section 7 of this bill 
essentially duplicates the provisions of section 3 of S. 430. Again, VA 
supports this provision subject to the caveat that ``dependent'' be 
more specifically defined. Last, section 8 of this bill would add a new 
subsection to 38 U.S.C. Sec. 8127 that would eliminate consideration of 
state community property laws in verification examinations with respect 
to determinations of ownership percentage by the Veteran or Veterans of 
businesses located in States with community property laws. VA supports 
this provision. VA estimates that no additional appropriations would be 
required to implement the provisions of sections 5 through 8 of S. 495.
    Section 2 affects programs or laws administered by OPM and sections 
3 and 4 affect programs or laws administered by DOL. Respectfully, we 
defer to those Departments for views on those sections of S. 495.
                                 s. 514
    S. 514 would authorize VA to pay an additional appropriate amount 
to each individual entitled to educational assistance under the Post-9/
11 GI Bill (chapter 33) who is pursuing a program of education with a 
focus (as determined in accordance with regulations prescribed by VA) 
on science, technology, engineering, and math (STEM) or an area leading 
to employment in a high-demand occupation. Such payment amount would be 
in addition to any other educational assistance to which the individual 
was entitled. The additional payment would be in an amount determined 
by the Secretary and would be in addition to other amounts payable 
under the Post-9/11 GI Bill.
    While VA is in favor of legislation encouraging Veterans to pursue 
higher education, particularly in programs leading to employment in 
high-demand fields including science, technology, engineering, and 
math, we are unable to support the bill as drafted.
    First, the bill could create inequity of payments among Veterans 
who have all earned the same benefit. Current chapter 33 beneficiaries 
are free to pursue programs and degrees that best fit their personal 
and professional goals, yet this bill could result in higher payments 
to certain Veterans based on an individual's decision to pursue a 
specific degree or career path.
    Second, the proposed bill could create an inequity if a beneficiary 
begins his or her education by pursuing a STEM degree or a degree 
leading to a high-demand occupation and later decides to pursue a 
degree for which no additional benefit is granted. If this occurs, two 
beneficiaries could conceivably complete the same degree yet have 
received different payment amounts over the course of their education.
    We will be pleased to provide for the record an estimate of the 
cost of enactment of this bill.
                                 s. 515
    S. 515 would amend title 38, United States Code, to permit a 
recipient of the Marine Gunnery Sergeant John David Fry Scholarship 
(available to a child of an individual who, on or after September 11, 
2001, dies in the line of duty while serving on active duty) to be 
eligible for the ``Yellow Ribbon G.I. Education Enhancement Program'' 
(Yellow Ribbon Program), under the Post-9/11 Educational Assistance 
Program (Post-9/11 GI Bill). The Yellow Ribbon Program is available to 
Veterans and transfer-of-entitlement recipients receiving Post-9/11 GI 
Bill benefits at the 100% benefit level attending school at a private 
institution or as a non-resident student at a public institution. The 
Program provides payment for up to half of the tuition-and-fee charges 
that are not covered by the Post-9/11 GI Bill, if the institution 
enters into an agreement with VA to pay or waive an equal amount of the 
charges that exceed Post-9/11 GI Bill coverage. This bill would take 
effect at the beginning of the academic year after the date of 
enactment.
    VA supports S. 515, but has some concerns, expressed below, that we 
believe should be addressed. The enactment of this proposed legislation 
would require programming changes to VA's Long Term Solution computer 
processing system. Obviously development funding is not available in 
VA's fiscal year 2013 budget for the changes that would be necessitated 
by enactment of this legislation. If funding is not made available to 
support them, manual processes would be required, which could result in 
some decrease in timeliness and accuracy of Post-9/11 GI Bill claims. 
The effective date for the proposed legislation would be the first 
academic year after enactment, which is also problematic. VA estimates 
that it would require one year from date of enactment to make the 
system changes necessary to implement this bill.
    VA estimates that if S. 515 were enacted, the costs to the 
Readjustment Benefits account would be $609 thousand in the first year, 
$3.6 million over 5 years, and $8.4 million over 10 years. There are no 
additional FTE or GOE costs associated with this proposal.
                                 s. 572
    S. 572, the ``Veterans Second Amendment Protection Act,'' would 
provide that a person who is mentally incapacitated, deemed mentally 
incompetent, or unconscious for an extended period will not be 
considered adjudicated as a ``mental defective'' for purposes of the 
Brady Handgun Violence Prevention Act in the absence of an order or 
finding by a judge, magistrate, or other judicial authority that such 
person is a danger to himself, herself, or others. The bill would, in 
effect, exclude VA determinations of incompetency from the coverage of 
the Brady Handgun Violence Prevention Act. VA does not support this 
bill.
    VA determinations of mental incompetency are based generally on 
whether a person, because of injury or disease, lacks the mental 
capacity to manage his or her own financial affairs. We believe 
adequate protections can be provided to these Veterans under current 
statutory authority. Under the [National Instant Criminal Background 
Check System] NICS Improvement Amendments Act of 2007, individuals whom 
VA has determined to be incompetent can have their firearms rights 
restored in two ways: First, a person who has been adjudicated by VA as 
unable to manage his or her own affairs can reopen the issue based on 
new evidence and have the determination reversed. When this occurs, VA 
is obligated to notify the Department of Justice to remove the 
individual's name from the roster of those barred from possessing and 
purchasing firearms. Second, even if a person remains adjudicated 
incompetent by VA for purposes of handling his or her own finances, he 
or she is entitled to petition VA to have firearms rights restored on 
the basis that the individual poses no threat to public safety. VA has 
relief procedures in place, and we are fully committed to continuing to 
conduct these procedures in a timely and effective manner to fully 
protect the rights of our beneficiaries.
    Also, the reliance on an administrative incompetency determination 
as a basis for prohibiting an individual from possessing or obtaining 
firearms under Federal law is not unique to VA or Veterans. Under the 
applicable Federal regulations implementing the Brady Handgun Violence 
Prevention Act, any person determined by a lawful authority to lack the 
mental capacity to manage his or her own affairs is subject to the same 
prohibition. By exempting certain VA mental health determinations that 
would otherwise prohibit a person from possessing or obtaining firearms 
under Federal law, the bill would create a different standard for 
Veterans and their survivors than that applicable to the rest of the 
population and could raise public safety issues.
    The enactment of S. 572 would not impose any costs on VA.
                                 s. 629
    S. 629, the ``Honor America's Guard-Reserve Retirees Act of 2013,'' 
would add to chapter 1, title 38, United States Code, a provision to 
honor as Veterans, based on retirement status, certain persons who 
performed service in reserve components of the Armed Forces but who do 
not have service qualifying for Veteran status under 38 U.S.C. 
Sec. 101(2). The bill provides that such persons would be ``honored'' 
as Veterans, but would not be entitled to any benefit by reason of the 
amendment.
    Under 38 U.S.C. Sec. 101(2), Veteran status is conditioned on the 
performance of ``active military, naval, or air service.'' Under 
current law, a National Guard or Reserve member is considered to have 
had such service only if he or she served on active duty, was disabled 
or died from a disease or injury incurred or aggravated in line of duty 
during active duty for training, or was disabled or died from any 
injury incurred or aggravated in line of duty or from an acute 
myocardial infarction, a cardiac arrest, or a cerebrovascular accident 
during inactive duty training. S. 629 would eliminate these service 
requirements for National Guard or Reserve members who served in such a 
capacity for at least 20 years. Retirement status alone would make them 
eligible for Veteran status.
    VA recognizes that the National Guard and Reserves have admirably 
served this country and in recent years have played an even greater 
role in our Nation's overseas conflicts. Nevertheless, VA does not 
support this bill because it represents a departure from active service 
as the foundation for Veteran status. This bill would extend Veteran 
status to those who never performed active military, naval, or air 
service, the very circumstance which qualifies an individual as a 
Veteran. Thus, this bill would equate longevity of reserve service with 
the active service long ago established as the hallmark for Veteran 
status.
    VA estimates that there would be no additional benefit or 
administrative costs associated with this bill if enacted.
                                 s. 674
    S. 674, the ``Accountability for Veterans Act of 2013,'' would 
require responses within a fixed period of time from the heads of 
covered Federal agencies when the Secretary of Veterans Affairs 
requests information necessary to adjudicate claims for benefits under 
laws administered by the Secretary. Covered agencies would include the 
Department of Defense (DOD), the Social Security Administration (SSA), 
and the National Archives and Records Administration (NARA).
    The bill would require covered agencies to provide VA with 
requested Federal records within 30 days or submit to VA the reason why 
records cannot be obtained within 30 days, along with an estimate as to 
when the records could be furnished. If VA does not receive the records 
within 15 days after the estimated date, then VA would resubmit such 
request and the agency must, within 30 days, furnish VA with the 
records or provide an explanation of why the records have not been 
provided and an estimate of when the records will be provided. The bill 
would also require VA to provide notices to the claimant regarding the 
status of the records requests and to submit a semiannual report to the 
Senate and House Committees on Veterans' Affairs regarding the progress 
of records requests for the most recent 6-month period.
    VA appreciates this effort to accelerate the response times when VA 
requests records from Federal agencies that are necessary to adjudicate 
disability claims. However, VA opposes this bill because adequate 
measures are already in place to facilitate expeditious transfer of 
records from the identified covered agencies.
    Under a recent Memorandum of Understanding (MOU) between VA and 
DOD, DOD provides VA, at the time of a Servicemember's discharge, a 
100-percent-complete service treatment and personnel record in an 
electronic, searchable format. As this MOU applies to the 300,000 
annually departing Active Duty, National Guard, and Reserve 
Servicemembers, it represents a landmark measure that will 
significantly contribute to VA's efforts to achieve its 125-day goal to 
complete disability compensation claims.
    VA also continues to work with SSA to enhance information sharing 
through SSA's Web-based portal, Government to Government Services 
Online (GSO). VA and SSA officials confer weekly to develop strategies 
to allow VA to more quickly obtain SSA medical records needed for VA 
claims. As a result, SSA is now directly uploading electronic medical 
records into VBA's electronic document repository at several regional 
offices (RO). These improvements are reducing duplication and 
streamlining the records transmittal and review processes. VA will 
continue with a phased nationwide deployment of this initiative for our 
new paperless processing system, beginning with the San Juan Regional 
Office.
    VA is also concerned about the requirement to notify the claimant 
of the status of records requests. Although these extra administrative 
steps would provide additional information to claimants, they also 
require more work of claims processors and thus reduce claims 
processing capacity in ROs. VA wishes to concentrate its resources on 
eliminating the disability claims backlog.
    There are no mandatory costs associated with this proposal. The 
discretionary costs associated with this bill cannot be determined, 
given the speculative nature of estimating what additional actions 
would be required of other Federal agencies.
                                 s. 690
    S. 690, the ``Filipino Veterans Fairness Act of 2013,'' would 
expand VA benefits provided for Filipino Veterans of World War II.
    Current law at section 107 of title 38, United States Code, 
addresses Filipino Veterans of World War II and restricts entitlement 
to VA benefits as compared to U.S. military Veterans. Section 107 
states that certain service is deemed not to be ``active military, 
naval, or air service'' for purposes of some VA benefits. Accordingly, 
that service does not satisfy the statutory definition of ``Veteran'' 
under section 101(2) of title 38, United States Code, and persons with 
such service are not eligible for VA benefits, except for those 
benefits specifically provided under section 107.
    Section 2(a)(1) and (2) of S. 690 would convert service in the 
Philippine Commonwealth Army, the Recognized Guerrillas, and the New 
Philippine Scouts into active military, naval, or air service for the 
purpose of VA benefits. Essentially, these individuals would no longer 
be excluded from the statutory definition of ``Veteran'' in section 
101(2) of title 38, United States Code.
    Section 2(a)(3) would require VA to make determinations as to 
whether individuals claiming such service did in fact serve, taking 
into account any ``alternative documentation'' that the Secretary 
determines relevant. Although the Secretary would have discretion to 
determine what documentation is relevant, this requirement would be a 
departure from VA's longstanding practice under section 3.203 of title 
38, Code of Federal Regulations, of relying on service department 
records, which VA believes to be the most reliable source of service 
verification. This would add an evidence-intensive step to the 
processing of these claims that does not exist for other claims.
    Section 2(a)(4) would relieve persons who become eligible for VA 
benefits under this law from the preclusive effect of a provision of 
the Filipino Veterans Equity Compensation (FVEC) law, which provided 
that acceptance of payments from the fund constituted a complete 
release of any claims against the United States based on the types of 
service qualifying for payment from the fund and described in 
subsection (a)(1) and (a)(2). In other words, those who were given FVEC 
payments could still file ``traditional'' claims for benefits under the 
expanded eligibility criteria of this bill.
    Although VA appreciates and values the service of Filipino 
Veterans, VA cannot support S. 690 because it would effect a unique 
departure, for one group of claimants, from the sound and generally 
applicable procedures for verification of service and would accord such 
claimants potential entitlement to more benefits than other Veterans, 
insofar as they would be eligible to receive the full range of VA 
benefits in addition to the FVEC payments already received.
    Based on the characterization of service as active service, this 
bill would confer statutory ``Veteran'' status under section 101(2) of 
title 38, United States Code, upon Filipino Veterans, entitling them to 
all VA benefits. This would not change the dollar amount of previously 
covered benefits ($.50 for each dollar authorized); however, full 
benefits under other programs, such as Education, Loan Guaranty, and 
those provided by VHA may be extended to certain Filipino Veterans who 
are not otherwise eligible. This has significant budgetary implications 
and raises issues of fairness and equity given that Filipino Veterans 
were authorized to receive payments from the FVEC fund. Section 2(a)(4) 
of this bill would rescind section 1002(h)(1) of the American Recovery 
and Reinvestment Act of 2009, the legislation which authorized FVEC 
payments. This Act provided that receipt of payment under the FVEC was 
a release of all claims against the United States. This bill would 
rescind that release notwithstanding the receipt of FVEC payments.
    VA currently relies on service department records under section 
3.203 of title 38, Code of Federal Regulations, to determine what 
service a claimant rendered. That policy and the resulting procedures 
would be invalidated by this bill for persons claiming this service. 
Section 2(a)(3) would require VA to consider alternative documentation 
as proof of service and make a determination on service verification. 
VA believes the current requirements and processes are both reasonable 
and important to maintain the integrity of this benefit program.
    VA will provide its cost estimate for S. 690 for the record at a 
later time.
                                 s. 695
    S. 695 would amend section 322 of title 38, United States Code, to 
extend for 5 years (through FY 2018) the yearly $2 million 
appropriations authorization for VA to pay a monthly assistance 
allowance to disabled Veterans who are invited to compete for a slot 
on, or have been selected for, the U.S. Paralympic Team in an amount 
equal to the monthly amount of subsistence allowance that would be 
payable to the Veteran under chapter 31, title 38, United States Code, 
if the Veteran were eligible for and entitled to rehabilitation under 
such chapter. S. 695 also would amend section 521A of title 38 to 
extend for 5 years (through FY 2018) VA's appropriations authorization, 
with amounts appropriated remaining available without fiscal year 
limitation, for grants to United States Paralympics, Inc. (now the 
United States Olympic Committee) to plan, develop, manage, and 
implement an integrated adaptive sport program for disabled Veterans 
and disabled members of the Armed Forces. These Paralympic programs 
have experienced ongoing improvement and expansion of benefits to 
disabled Veterans and disabled Servicemembers, to include 115 Veterans 
qualifying for the monthly assistance allowance, and over 1,900 
Paralympic grant events with over 16,000 Veteran participants during FY 
2012. Under current law, both authorities will expire at the end of FY 
2013.
    VA supports extension of these authorities, but recommends further 
revisions, to improve the accessibility and equity of these programs, 
by extending monthly assistance allowances to disabled Veterans who are 
invited to compete for a slot on, or have been selected for, the United 
States Olympic Team (not just the Paralympic Team) or Olympic and 
Paralympic teams representing the American Samoa, Guam, Puerto Rico, 
the Northern Mariana Islands, and the U.S. Virgin Islands, by 
authorizing grants to those Olympic and Paralympic sports entities, and 
by clarifying that the current authority to award grants is to promote 
programs for all adaptive sports and not just Paralympic sports.
    VA estimates there would be no costs associated with implementing 
this bill.
                                 s. 705
    S. 705, the ``War Memorial Protection Act of 2013,'' would add a 
new section 2115 to title 36, United States Code, Chapter 21, which 
governs the operations of the American Battle Monuments Commission 
(ABMC), to authorize the inclusion of religious symbols as part of any 
military memorial established or acquired by the U.S. Government or 
military memorials established in cooperation with ABMC.
    Presently, VA's role in ABMC's monument authority is limited to a 
single mention in 36 U.S.C. Sec. 2105(b) that ``[t]he Secretary of 
Veterans Affairs shall maintain works of architecture and art built by 
the Commission in the National Cemetery [Administration], as described 
in section 2400(b) of title 38.'' The only known ABMC facility on VA 
property is the Honolulu Memorial at the National Memorial Cemetery of 
the Pacific.
    As this bill does not mention VA, nor does VA establish U.S. 
Government or military memorials, VA defers to the ABMC regarding this 
bill.
                                 s. 748
    S. 748, the ``Veterans Pension Protection Act,'' would amend 
sections 1522 and 1543 of title 38, United States Code, to establish in 
VA's pension programs a look-back and penalty period of up to 36 months 
for those claimants who dispose of resources for less than fair market 
value that could otherwise be used for their maintenance.
    Subsection (a) would amend the net worth limitations applicable to 
Veteran's pension in section 1522 of title 38, United States Code. If a 
Veteran (or a Veteran's spouse) disposes of assets before the date of 
the Veteran's pension claim, VA currently does not generally consider 
those assets as part of the Veteran's net worth, so long as the 
transfer was a gift to a person or entity other than a relative living 
in the same household. As amended, section 1522 would provide that when 
a Veteran (or Veteran's spouse) disposes of ``covered resources'' for 
less than fair market value on or after the beginning date of a 36-
month look-back period, the disposal may result in a period of 
ineligibility for pension. In such cases, the law would provide for a 
period of ineligibility for pension beginning the first day of the 
month in or after which the resources were disposed of and which does 
not occur in any other period of ineligibility.
    Subsection (a) would also provide a method for calculating the 
period of ineligibility for pension resulting from a disposal of 
covered resources at less than fair market value. The period of 
ineligibility, expressed in months, would be the total uncompensated 
value of all applicable covered resources disposed of by the Veteran 
(or the Veteran's spouse) divided by the maximum amount of monthly 
pension that would have been payable to the Veteran under section 1513 
or 1521 without consideration of the transferred resources.
    This subsection would also give VA authority to promulgate 
regulations under which VA would consider a transfer of an asset, 
including a transfer to an annuity, trust, or other financial 
instrument or investment, to be a transfer at less than fair market 
value, if the transfer reduced the Veteran's net worth for pension 
purposes and VA determines that, under all the circumstances, the 
resources would reasonably be consumed for maintenance.
    Subsection (a) would also provide that VA shall not deny or 
discontinue payment of pension under sections 1513 and 1521 or payment 
of increased pension under subsections (c), (d), (e), or (f) of section 
1521 on account of a child based on the penalty and look-back periods 
established by sections (a)(2) or (b)(2) of the bill if: (1) the 
claimant demonstrates to VA that the resources disposed of for less 
than fair market value have been returned to the transferor; or (2) VA 
determines that the denial would work an undue hardship.
    Finally, subsection (a) would require VA to inform Veterans of the 
asset transfer provisions of the bill and obtain information for making 
determinations pertaining to such transfers.
    VA supports in principle the look-back and penalty-period 
provisions of subsection (a), but cannot support the bill as written 
because of the manner in which the length of the penalty period would 
be calculated. Our reading of the bill indicates that the method used 
to calculate the penalty period in proposed section 1522(a)(2)(E)(i), 
``the total, cumulative uncompensated value of all covered resources,'' 
could be unnecessarily punitive because VA might have determined that 
only a small portion of the covered resources should have been used for 
the Veteran's maintenance. VA has similar concerns with language in 
proposed section 1522(b)(2)(E)(i).
    VA proposes, as an alternative, that the dividend under proposed 
section 1522(a)(2)(E)(i) be, ``the total, cumulative uncompensated 
value of the portion of the covered resources so disposed of by the 
veteran (or the spouse of the veteran) on or after the look-back date 
described in subparagraph (C)(i), that the Secretary determines would 
reasonably have been consumed for the Veteran's maintenance;.'' We 
propose that similar language be used in section 1522(b)(2)(E)(i).
    Apart from the concerns expressed regarding the method for 
calculating the penalty period, VA supports this subsection of the 
bill, which would clarify current law by prescribing that pension 
applicants cannot create a need for pension by gifting assets that the 
applicant could use for the applicant's own maintenance. It would also 
clarify that an applicant cannot restructure assets during the 36-month 
period preceding a pension application through transfers using certain 
financial products or legal instruments, such as annuities and trusts. 
A 2012 Government Accountability Office study found that there is a 
growing industry that markets these products and instruments to 
vulnerable Veterans and survivors, potentially causing them harm. 
Subsection (a) would amend the law in a manner that will authorize VA's 
implementation of necessary program integrity measures.
    Subsection (b) of S. 748 would amend the net worth limitations 
applicable to survivor's pension in section 1543 of title 38, United 
States Code. Subsection (b) of the bill would apply to surviving 
spouses and surviving children the same restrictions pertaining to 
disposal of covered resources at less than fair market value as would 
be applied to Veterans under subsection (a). This subsection would also 
provide that if the surviving spouse transferred assets during the 
Veteran's lifetime that resulted in a period of ineligibility for the 
Veteran, VA would apply any period of ineligibility remaining after the 
Veteran's death to the surviving spouse.
    As with subsection (a), VA supports in principle the look back and 
penalty period provisions of subsection (b), but cannot support the 
bill as written because of the manner in which the length of the 
penalty period would be calculated. VA has the same concerns with the 
methodology language in proposed sections 1543(a)(2)(E)(i) and 
(b)(2)(E)(i) as expressed above pertaining to sections 1522(a)(2)(E)(i) 
and (b)(2)(E)(i).
    VA opposes carrying over a penalty based on a transfer of assets 
made during the Veteran's lifetime to a pension claim filed by a 
surviving spouse because it could be potentially punitive. Under 
proposed paragraph (a)(2)(C) of section 1543, VA would apply the same 
36-month look-back period to surviving spouses that it applies to 
Veterans. If the Veteran died soon after his or her pension claim was 
filed and the surviving spouse filed a claim for pension within 36 
months of the Veteran's pension claim, VA would evaluate resource 
transfers that the surviving spouse made during the Veteran's lifetime 
under section 1543(a)(2)(C). However, if the surviving spouse did not 
claim pension until many years after the Veteran's pension claim or 
many years after the Veteran's death, under proposed section 
1543(a)(2)(F), VA would apply the remainder of any penalty period 
assessed the Veteran based on a spouse's pre-death transfer of assets. 
In applying a penalty period based on a very old transaction to a new 
pension claim, this provision could be viewed as imposing a much longer 
look-back period for surviving spouses than that proposed for Veterans. 
Because VA will evaluate the surviving spouse's claim for pension on 
its own merits, VA proposes that the penalty-period carry-over 
provisions be eliminated.
    Subsection (c) would provide that the amendments to section 
1522(a)(2), (b)(2), and (c), and section 1543(a)(2), (a)(4), (b)(2), 
and (c) prescribed in the bill would take effect one year after the 
date of enactment and would apply to applications filed after the 
effective date as well as to any pension redetermination occurring 
after the effective date.
    Subsection (d) provides for annual reports from VA to Congress, 
beginning not later than two years after the date of enactment, as to: 
(1) the number of individuals who applied for pension; (2) the number 
of individuals who received pension; and (3) the number of individuals 
whose pension payments were denied or discontinued because covered 
resources were disposed of for less than fair market value.
    VA would not oppose inclusion of subsections (c) and (d) if the 
bill were amended as we recommend.
    We lack sufficient data to estimate benefit or administrative costs 
associated with this proposal.
                                 s. 893
    S. 893, the ``Veterans' Compensation Cost-of-Living Adjustment Act 
of 2013,'' would require the Secretary of Veterans Affairs to increase, 
effective December 1, 2013, the rates of disability compensation for 
service-disabled Veterans and the rates of dependency and indemnity 
compensation (DIC) for survivors of Veterans. This bill would increase 
these rates by the same percentage as the percentage by which Social 
Security benefits are increased effective December 1, 2013. The bill 
would not, however, account for the expiration at the end of this 
fiscal year of the feature in current law that rounds down to the next 
lower whole dollar amount those increases not in whole dollars. The 
bill would also require VA to publish the resulting increased rates in 
the Federal Register.
    VA strongly supports annual cost-of-living adjustments (COLA) for 
these important compensation programs because they express, in a 
tangible way, this Nation's gratitude for the sacrifices made by our 
service-disabled Veterans and their surviving spouses and children and 
would ensure that the value of their well-deserved benefits will keep 
pace with increases in consumer prices. However, VA recommends the 
current ``round down'' statutory provisions be extended. We recommend 
amending sections 1303(a) and 1104(a) of title 38, United States Code, 
to provide a 5-year extension of the round-down provisions of the 
computation of the COLA for service-connected disability compensation 
and DIC. Public Law 108-183 extended the ending dates of these 
provisions to 2013. The extension for the COLA round down provision 
beyond the 2013 expiration date results in cost savings. The benefit 
savings to round down the FY 2014 COLA are estimated to be $41.6 
million in FY 2014, $712.5 million for 5 years, and $2.3 billion over 
10 years as a result of the compounding effects of rounding down the 
COLA in subsequent years.
                                 s. 894
    S. 894 would amend section 3485(a)(4) of title 38, United States 
Code, extending for 3 years (through June 30, 2016) VA's authority to 
provide work-study allowances for certain already-specified activities. 
Under current law, the authority is set to expire on June 30, 2013.
    Public Law 107-103, the ``Veterans Education and Benefits Expansion 
Act of 2001,'' established a 5-year pilot program under section 
3485(a)(4) that expanded qualifying work-study activities to include 
outreach programs with State Approving Agencies, an activity relating 
to the administration of a National Cemetery or a State Veterans' 
Cemetery, and assisting with the provision of care to Veterans in State 
Homes. Subsequent public laws extended the period of the pilot program 
and, most recently, section 101 of Public Law 111-275, the ``Veterans' 
Benefits Act of 2010,'' extended the sunset date from June 30, 2010 to 
June 30, 2013.
    S. 894 also would add a provision to section 3485(a) that would 
authorize for a 3-year period from June 30, 2013 to June 30, 2016, 
work-study activities to be carried out at the offices of Members of 
Congress for such Members. Work-study participants would distribute 
information about benefits and services under laws administered by VA 
and other appropriate governmental and non-governmental programs to 
Servicemembers, Veterans, and their dependents. Work-study participants 
would also prepare and process papers and other documents, including 
documents to assist in the preparation and presentation of claims for 
benefits under laws administered by VA.
    Finally, S. 894 would require VA, not later than June 30 each year 
beginning with 2014 and ending with 2016, to submit a report to 
Congress on the work-study allowances paid during the most recent 1-
year period for qualifying work-study activities. Each report would 
include a description of the recipients of the allowances, a list of 
the locations where qualifying work-study activities were carried out 
and a description of the outreach conducted by VA to increase awareness 
of the eligibility of such work-study activities for work-study 
allowances.
    VA does not oppose legislation that would extend the current 
expiration date of the work-study provisions to June 30, 2016. However, 
we would prefer that the legislation provide a permanent authorization 
of the work-study activities, rather than extending repeatedly for 
short time periods.
    VA has no objection to work-study participants conducting and 
promoting the outreach activities and services contemplated by the 
bill. We also have no objection to work-study participants assisting in 
the preparation and processing of papers and other documents, 
``including documents to assist in the preparation and presentation of 
claims for VA benefits'' under the proposed new section. However, work-
study participants would be subject to the limitations found in chapter 
59 of title 38 on representing claimants for VA benefits.
    VA does not oppose submitting annual reports to Congress regarding 
the work-study program.
                                 s. 922
    Section 3 of S. 922, the ``Veterans Equipped for Success Act of 
2013'' would require VA, in collaboration with the Department of Labor 
(DOL), to create a 3-year pilot program in four locations of VA's 
choosing to assess the feasibility and advisability of offering career 
transition services to eligible Veterans. Such services would provide 
work experience in the civilian sector, increase participants' 
marketable skills, assist them to obtain gainful employment, and assist 
in integrating eligible individuals into their local communities. These 
services would be available to unemployed or underemployed Veterans 
discharged under conditions other than dishonorable and to members of 
the National Guard or Reserve Component who served at least 180 days on 
active-duty within 2 years of applying for the program. Not more than 
50,000 eligible individuals would participate in this pilot program 
concurrently, and the program would be limited to participants between 
18 and 30 years of age.
    Career transition services offered would include:

    <bullet> Internships--Participants would receive an internship on a 
full-time basis with an eligible employer as determined by VA. Among 
other restrictions, eligible employers would not include state or 
Federal Government agencies, those that derive 75 percent or more of 
their revenue from state and/or Federal Government, or employers that 
unsatisfactorily participated in the pilot previously. Such internships 
would last for 1 year, and interns would be paid by VA at the greater 
rate of an amount consistent with the minimum wage protections of the 
Fair Labor Standards Act or if the intern was receiving it, the rate of 
unemployment compensation, up to $30,000. For the purpose of health 
benefits and on-the-job injuries, interns would be considered VA 
employees.
    <bullet> Mentorship and job-shadowing--Employers would be required 
to provide interns at least one mentor who would provide job-shadowing 
and career-counseling opportunities throughout the internship.
    <bullet> Volunteer opportunities--Participants in the pilot program 
would be required to participate each month in a qualified volunteer 
activity, as determined by VA. Such volunteer activities could include 
outreach, service at an institution of higher learning or for a 
recognized Veterans Service Organization, and/or assistance provided to 
or for the benefit of Veterans in a State home or VA medical facility.
    <bullet> Professional skill workshops--As part of the pilot, VA 
would be required to provide workshops to interns to develop and build 
their professional skills.
    <bullet> Skills assessment--VA would be required to provide skills 
assessment testing to participants to help them select an appropriate 
place to perform their internship.
    <bullet> Additional services--VA would provide, in addition to the 
services outlined above, career and job counseling, job-search 
assistance, follow-up services, and reimbursement of transportation 
expenses up to 75 miles.
    VA could provide grants for up to four non-profit entities to 
administer this pilot. The bill would require VA and DOL to conduct a 
joint outreach campaign to advertise the pilot. VA would be authorized 
to develop an awards system by which exemplary employers and interns 
might be recognized.
    VA would provide a report to Congress each year of the pilot 
containing an evaluation of the program, information about program 
participants and their internships, and intern job-placement rates, 
including wages and nature of employment among other data.
    VA supports initiatives to assist Veterans in obtaining meaningful 
employment. While VA appreciates the intent underlying this bill, VA 
has several concerns with the program outlined in this legislation, 
including the following:

    First, the requirement that the internship pilot begin in 
January 2014 would create a significant challenge. VA would have less 
than 1 year from enactment to, in addition to other tasks: conduct a 
study of Veteran unemployment and population densities; select four 
pilot locations based on that study; create eligibility criteria for 
both employers and interns; solicit and approve applications from 
employers; once employers are identified, solicit and approve 
applications from interns; and match interns with employers. These 
tasks would require extensive coordination between VA and other 
stakeholders. Second, VA points out that this bill lacks specific 
information on the scope of the pilot program. The bill does not 
specify how many interns should be placed or how those interns should 
be dispersed across the four pilot locations. Additionally, the bill 
requires that participants be between the ages of 18 and 30. VA notes 
that the most recent data issued by the Bureau of Labor Statistics 
shows that Veterans aged 18 to 30 comprise less than 20 percent of 
currently unemployed Veterans. The third challenge posed by this bill 
is the requirement that VA establish criteria to determine an 
employer's eligibility to participate in the pilot. Among other 
factors, VA must consider prior investigations by the Federal Trade 
Commission (FTC), the employer's standing with state's business 
bureaus, tax delinquency, and the employer's reliance on state and 
Federal Governments as a source of revenue. VA would need to develop 
agreements with the FTC, Internal Revenue Service, and DOL to acquire 
this data. Additionally, the bill requires VA to consider whether 
interns comprise over 10 percent of an employer's workforce when 
placing additional interns with that employer. The language of the bill 
is unclear, however, on whether 10 percent is a cap or simply a factor 
to consider when placing interns in a workplace.
    It would be challenging and costly for VA to create a payment 
system as described in the bill. The bill would require VA to issue 
payments to interns, which would require VA to determine hours worked 
in a given pay period, calculate salary earned, and issue payments. 
VA's current payment systems are designed to provide benefits payments 
in pre-determined increments on a monthly schedule. The closest 
analogous payment structure VA currently uses that could fulfill the 
requirements of the bill is our work-study process. Veterans who 
participate in the work-study program submit hard-copy time sheets, and 
VA performs a manual calculation of benefits earned and issues payment. 
In order to issue payments as required by this bill, VA would need an 
entirely new electronic payment system which would require both time 
and funding to develop.
    Most of the cost of administering the pilot would be incurred ``up 
front'' by VA. VA would need funding to significantly expand its full-
time, employment-focused staff, develop a new IT system to provide 
interns' payments, and process applications from both employers and 
Veterans. This issue would be further complicated by the legislation's 
restriction that no more than 5 percent of any appropriations made be 
used to administer the pilot. At the outset, VA would have no data from 
which to project how many Veterans may sign up for the pilot, and 
therefore would not know how much funding VA could apply toward 
administering the program. Because we cannot predict the scope and size 
of the program at its outset, The Administration has already undertaken 
numerous efforts to address unemployment among our Nation's veterans. 
Online resources including the Veterans Job Bank and My Next Move for 
Veterans help match unemployed veterans with jobs best suited to their 
unique skill sets. With the new Veterans Gold Card, Post-9/11 veterans 
are entitled to enhanced services and personalized case management, 
assessment, and counseling at the roughly 3,000 One-Stop Career Centers 
located nationwide. VA and DOL are currently piloting a newly enhanced 
Transition Assistance Program designed to make sure newly separating 
servicemembers never become unemployed.
    VA will provide a cost estimate for S. 922 at a later date.
                                 s. 928
    S. 928, the ``Claims Processing Improvement Act of 2013'' would 
amend title 38, United States Code, to improve the processing of claims 
for compensation under laws administered by the Secretary of VA, and 
for other purposes. VA will provide later for the record its views on 
sections 101,102, 104, 105, 106, and 203 of the draft bill.
    Currently, section 5103A(c)(2) of title 38, United States Code, 
requires VA, when requesting records on a claimant's behalf from a 
Federal department or agency, to continue to request records until VA 
obtains them or it is reasonably certain that such records do not exist 
or that further efforts to obtain them would be futile. VA is rarely 
able to determine with certainty that particular records do not exist 
or that further efforts to obtain them would be futile. Under current 
law, VA regional offices experience significant challenges and delays 
in their attempts to obtain certain non-VA Federal records, 
particularly service treatment records for National Guard and Reserve 
members who have been activated. While VA is currently working with 
other Federal agencies to improve the process of procuring non-VA 
Federal records, past efforts to obtain records from other government 
agencies have significantly delayed adjudication of pending disability 
claims.
    Section 103 of this draft bill would provide that, when VA attempts 
to obtain records from a Federal department or agency other than a 
component of VA itself, it shall make not fewer than two attempts to 
obtain the records, unless the records are obtained or the response to 
the first request makes evident that a second request would be futile. 
Section 103 would also ensure that if any relevant record requested by 
VA from a Federal department or agency before adjudication is later 
provided, the relevant record would be treated as though it was 
submitted as of the date of the original filing of the claim. This 
provision would streamline the process for obtaining non-VA Federal 
records, would further balance the responsibilities of VA and Veterans 
to obtain evidence in support of a claim, and would allow VA to better 
address its pending inventory of disability claims. Section 103 would 
provide a more feasible and realistic standard in this time of limited 
resources and burgeoning claim inventory, which would help ensure 
valuable resources are focused most effectively on what will make a 
difference for faster more accurate adjudications of Veterans' claims.
    VA supports section 103 of this bill, which is similar to one of 
VA's legislative proposals in the FY 2014 budget submission.
    No benefit costs or savings would be associated with this section.
    Section 104 would amend section 5902(a)(1) of title 38, United 
States Code, to include ``Indian tribes'' with the American National 
Red Cross, the American Legion, the Disabled American Veterans, the 
United Spanish War Veterans, and the Veterans of Foreign Wars as an 
enumerated organization whose representatives may be recognized by the 
Secretary in the preparation, presentation, and prosecution of claims 
under laws administered by the Secretary.
    VA does not support section 104 of S. 928. With the exception of 
the American National Red Cross, which provides services generally as a 
charitable organization, the organizations listed in current section 
5902(a)(1) have as a primary purpose serving Veterans. Indian tribes 
are not charitable organizations, nor do they have as a primary purpose 
serving Veterans; therefore, VA does not believe Indian tribes should 
be named among these organizations in the statute. Under this bill as 
drafted, all Indian tribes, regardless of their size, capability, and 
resources to represent VA claimants, would essentially receive similar 
treatment as organizations recognized by VA for the purpose of 
providing representation to VA claimants. In other words, under section 
14.629(a) of title 38, Code of Federal Regulations, Indian tribes could 
certify to VA that certain members are qualified to represent claimants 
before VA for the purpose of obtaining VA accreditation for those 
members, despite the tribes not meeting all the requirements for 
recognition under section 14.628 of title 38, Code of Federal 
Regulations.
    Pursuant to the authority granted in section 5902(a), VA has 
established in section 14.628 of title 38, Code of Federal Regulations, 
the requirements for recognition of organizations to assist claimants 
in the preparation, presentation, and prosecution of claims under laws 
administered by the Secretary. Under this regulation, the organization 
must, among other requirements, have as a primary purpose serving 
veterans, demonstrate a substantial service commitment to Veterans, and 
commit a significant portion of its assets to Veterans' services. VA 
believes these are necessary characteristics of an organization whose 
representatives will be recognized in providing such assistance to 
Veterans. Indian tribes necessarily engage in a much broader scope of 
governance activities and operations and, therefore, generally do not 
have the Veteran-specific focus that is common to the organizations 
(save for the American Red Cross) recognized pursuant to section 
5902(a)(1) of title 38, United States Code, and the VA regulations 
implementing that statute.
    Currently, a member of an Indian tribe may request accreditation to 
assist Veterans in the preparation, presentation, and prosecution of 
claims for VA benefits as an agent or attorney under section 14.629(b) 
of title 38, Code of Federal Regulations, or as a representative of a 
currently recognized Veterans Service Organization. Thus, a member of 
an Indian tribe may be individually recognized by the Secretary to 
assist Veterans despite ``Indian tribes'' not being included among the 
enumerated organizations in section 5902(a)(1) of title 38, United 
States Code.
    Section 201 of the bill would amend section 7105(b)(1) of title 38, 
United States Code, to require persons seeking appellate review of a VA 
decision to file a notice of disagreement (NOD) within 180 days from 
the date VA mails such decision to the claimant. Currently, persons 
challenging a decision of a VA agency of original jurisdiction (AOJ) 
have one year from the date the AOJ mails the decision to initiate an 
appeal to the Board of Veterans' Appeals (Board) by filing a NOD. This 
provision would reduce the time period for initiating appellate review 
from one year to 180 days.
    The intent behind this provision is to allow VA to more quickly 
resolve claims and appeals. Currently, VA must wait up to one year to 
determine if a claimant disagrees with a decision on a claim for 
benefits. If a claimant waits until the end of the 1-year period to 
file a NOD, VA is often required to re-develop the record to ensure the 
evidence of record is up to date. Data support the conclusion that such 
late-term development delays the resolution of the claim. If the period 
in which to file a NOD were reduced, VA could more quickly finalize the 
administrative processing of claims not being appealed and focus 
resources on the processing of new claims and appeals. Accordingly, 
adoption of this proposal would allow VA to more actively manage cases 
and work toward a faster resolution of claims and appeals.
    Because most claimants are able to quickly determine if they are 
satisfied with VA's decision on their claims and because the NOD is a 
relatively simple document, enactment of this provision would not 
adversely affect claimants for VA benefits. The average filing time for 
NODs demonstrates that most claimants file their NOD shortly after 
receiving notice of VA's decision, and, consequently, claimants would 
not be adversely affected by this amendment.
    VA supports this provision. VA submitted a similar proposal with 
the FY 2014 budget request. While this proposal is clearly a step in 
the right direction, VA believes that further changes are needed in 
what currently is an extraordinarily lengthy and cumbersome appellate 
process in order to provide Veterans with timely resolution of their 
appeals. VA believes there is a need to further shorten the timeframe 
for Veterans to initiate appellate review to 60 days. Data show that 
most appeals are filed within the first 30 days following notice to a 
claimant of VA's decision on a claim. We therefore believe this 60-day 
time period would still protect Veterans' rights to appeal VA's 
decisions while bringing the appeal filing period more in line with 
that of Federal district courts and the Social Security Administration, 
which allows 60 days for appeal of the initial agency decision.
    This proposal has no measurable monetary costs or savings. However, 
VA estimates that enactment of the proposal would result in more 
expeditious adjudication of claims because VA would not have to wait 
one year from the date of an adverse decision to determine whether a 
claimant intended to file an appeal. Under this proposal, VA would have 
to wait only 180 days for such determination and could therefore more 
timely process the appeal.
    Section 202 would allow for greater use of video conference 
hearings by the Board, while still providing Veterans with the 
opportunity to request an in-person hearing if they so elect. This 
provision would apply to cases received by the Board pursuant to a NOD 
submitted on or after the date of the enactment of the Act. VA fully 
supports section 202 as drafted, as this provision would potentially 
decrease hearing wait times for Veterans, enhance efficiency within VA, 
and better focus Board resources toward issuing more final decisions.
    The Board has historically been able to schedule video conference 
hearings more quickly than in-person hearings, saving valuable time in 
the appeals process for Veterans who elect this type of hearing. In FY 
2012, on average, video conference hearings were held almost 100 days 
sooner than in-person hearings. Section 202 would allow both the Board 
and Veterans to capitalize on these time savings by giving the Board 
greater flexibility to schedule video conference hearings than is 
possible under the current statutory scheme.
    Historical data also shows that there is no statistical difference 
in the ultimate disposition of appeals based on the type of hearing 
selected. Veterans who had video conference hearings had an allowance 
rate for their appeals that was virtually the same as Veterans who had 
in-person hearings, only Veterans who had video conference hearings 
were able to have their hearings scheduled much more quickly. Section 
202 would, however, still afford Veterans who want an in-person hearing 
with the opportunity to specifically request one.
    Enactment of section 202 could also lead to more final decisions 
for Veterans as a result of increased productivity at the Board. Time 
lost due to travel and time lost in the field due to appellants failing 
to show up for their hearing would be greatly reduced, allowing 
Veterans Law Judges (VLJs) to better focus their time and resources on 
issuing decisions. The time saved for VLJs could translate into 
additional final Board decisions for Veterans.
    Major technological upgrades to the Board's video conference 
hearing equipment over the past several years have resulted in the 
Board being well-positioned for the enactment of section 202. These 
upgrades include the purchase of high-definition video equipment, a 
state-of-the art digital audio recording system, implementation of a 
virtual hearing docket, and significantly increased video conference 
hearing capacity. These upgrades also include expanding the video 
conferencing system to other strategic satellite sites in the 
continental United States, Puerto Rico, Guam, American Samoa, and the 
Philippines to support Veterans living in remote areas. Section 202 
would allow the Board to better leverage these important technological 
enhancements.
    In short, section 202 would result in shorter hearing wait times, 
better focus Board resources on issuing more decisions, and provide 
maximum flexibility for both Veterans and VA, while fully utilizing 
recent technological improvements. VA therefore strongly endorses this 
proposal.
    Section 301 of the bill would extend the authority currently 
provided by section 315(b) of title 38, United States Code, to maintain 
the operations of VA's Manila RO from December 31, 2013, to 
December 31, 2014. Maintaining an RO in the Philippines has two 
principal advantages. First, it is more cost effective to maintain the 
facility in Manila than it would be to transfer its functions and hire 
equivalent numbers of employees to perform those functions on the U.S. 
mainland. Because the Manila RO employs mostly foreign nationals who 
receive a lower rate of pay than U.S. Government employees, 
transferring that office's responsibilities to a U.S. location would 
result in increased payroll costs. Second, VA's presence in Manila 
significantly enhances its ability to manage potential fraud. In an FY 
2002 study of Philippine benefit payments, the VA Inspector General 
stated: ``VA payments in the Philippines represent significant sums of 
money. That, coupled with extreme poverty and a general lack of 
economic opportunity, fosters an environment for fraudulent activity.'' 
Relocation of claims processing for VA benefits arising from Philippine 
service would result in less control of potential fraud. VA would lose 
the expertise the Manila staff applies to these claims and would need 
time to develop such expertise at a mainland site. Relocation would 
also diminish the RO's close and effective working relationship with 
the VHA's Outpatient Clinic, which is essential for the corroboration 
of the evidentiary record. Based on these factors, VA could not 
maintain the same quality of service to the beneficiaries and the U.S. 
Government if claims processing were moved outside of the Philippines.
    VA supports this provision and submitted a similar proposal with 
the FY 2014 budget request. VA's version of the proposal would extend 
operating authority for 2 years rather than 1 year.
    There would be no significant benefits costs or savings associated 
with this proposal.
    Section 302 of the draft bill would amend section 1156(a)(3) of 
title 38, United States Code, to extend from 6 months to 18 months the 
deadline after separation or discharge from active duty by which VA 
must schedule a medical examination for certain Veterans with mental 
disorders.
    Section 1156(a)(3) currently requires VA to schedule a medical 
examination not later than 6 months after the date of separation or 
discharge from active duty for each Veteran ``who, as a result of a 
highly stressful in-service event, has a mental disorder that is severe 
enough to bring about the veteran's discharge or release from active 
duty.'' However, an examination a mere six months after discharge may 
lead to premature conclusions regarding the severity, stability, and 
prognosis of a Veteran's mental disorder. Six months is a relatively 
short period of treatment, and the stresses of active-duty trauma and 
the transition to civilian life may not fully have manifested 
themselves after 6 months. An examination conducted up to 18 months 
after discharge is more likely to reflect an accurate evaluation of the 
severity, stability, and prognosis of a Veteran's mental disorder.
    VA supports section 302 of the bill, which is identical to one of 
VA's legislative proposals in the FY 2014 budget submission.
    This provision will not result in cost savings or benefits.
    Section 303 of the draft bill would amend section 1541(f)(1)(E) of 
title 38, United States Code, to extend eligibility for death pension 
to certain surviving spouses of Persian Gulf War Veterans who were 
married for less than 1 year; had no child born of, or before, the 
marriage; and were married on or after January 1, 2001.
    Section 1541 authorizes the payment of pension to the surviving 
spouse of a wartime Veteran who met certain service requirements or of 
a Veteran who was entitled to receive compensation or retirement pay 
for a service-connected disability when the Veteran died. Section 
1541(f) prohibits the payment of such a pension unless: (1) the 
surviving spouse was married to the Veteran for at least 1 year 
immediately preceding the Veteran's death; (2) a child was born of the 
marriage or to the couple before the marriage; or (3) the marriage 
occurred before a delimiting date specified in section 1541(f)(1). The 
current delimiting date applicable to a surviving spouse of a Gulf War 
Veteran is January 1, 2001. Section 303 would eliminate those 
restrictions and extend that delimiting date.
    The Persian Gulf War Veterans' Benefits Act of 1991 established the 
delimiting marriage date of January 1, 2001, when pension eligibility 
was initially extended to surviving spouses of Veterans of the Gulf 
War. However, due to the duration of the Gulf War, this date is no 
longer consistent with the other marriage delimiting dates in section 
1541(f)(1). Generally, these delimiting dates are set for the day 
following 10 years after the war or conflict officially ended, (e.g., 
the Korean War officially ended on January 31, 1955; the applicable 
delimiting date is February 1, 1965). As provided in section 101(33) of 
title 38, United States Code, the official Persian Gulf War period, 
which began on August 2, 1990, is still ongoing and will end on a date 
to be prescribed by Presidential proclamation or law. Revising the 
marriage delimiting date for surviving spouses of Gulf War Veterans to 
10 years and 1 day after the end of the war as prescribed by 
Presidential proclamation or law would make that delimiting date 
consistent with the other dates in section 1541(f)(1) and would prevent 
any potentially incongruous results in death pension claims based on 
Gulf War service compared to claims based on other wartime service. 
Furthermore, because the Gulf War has not yet ended, the language in 
this amendment would ensure that a standing 10-year qualifying period 
will be in place for surviving spouses seeking pension based on Gulf 
War service.
    VA supports section 303 of the bill, which is identical to one of 
VA's legislative proposals in the FY 2014 budget submission.
    There would be no significant benefit costs or savings associated 
with this proposal.
    Section 304 of the draft bill would amend section 5110(l) of title 
38, United States Code, to make the effective date provision consistent 
with section 103(e), which provides: ``The marriage of a child of a 
veteran shall not bar recognition of such child as the child of the 
veteran for benefit purposes if the marriage is void, or has been 
annulled by a court with basic authority to render annulment decrees 
unless the Secretary determines that the annulment was secured through 
fraud by either party or collusion.'' Section 103(e) implies that a 
child's marriage that is not void and has not been annulled does bar 
recognition of the child as a child of the Veteran for VA benefit 
purposes, even if the marriage was terminated by death or divorce. In 
fact, section 8004 of the Omnibus Budget Reconciliation Act of 1990 
repealed a prior provision in section 103(e) that ``[t]he marriage of a 
child of a veteran shall not bar the recognition of such child as the 
child of the veteran for benefit purposes if the marriage has been 
terminated by death or has been dissolved by a court with basic 
authority to render divorce decrees unless the Veterans' Administration 
determines that the divorce was secured through fraud by either party 
or collusion.''
    Nevertheless, no amendment has been made to the corresponding 
effective date provision in section 5110(l), which still provides an 
effective date for an award or increase in benefits ``based on 
recognition of a child upon termination of the child's marriage by 
death or divorce.'' Section 304 of the bill would delete that provision 
from section 5110(l) and make section 5110(l) consistent with section 
103(e).
    VA supports section 304 of the bill, which is identical to one of 
VA's legislative proposals in the FY 2014 budget submission.
    There would be no costs or savings associated with this technical 
amendment.
    Section 305 of the draft bill would amend section 704(a) of the 
Veterans Benefits Act of 2003, Public Law 108-183, which authorizes VA 
to provide for the conduct of VA compensation and pension examinations 
by persons other than VA employees by using appropriated funds other 
than mandatory funds appropriated for the payment of compensation and 
pension. In accordance with section 704(b), VA exercises this authority 
pursuant to contracts with private entities. However, under section 
704(c), as amended by section 105 of the Veterans' Benefits Improvement 
Act of 2008, by section 809 of the Veterans' Benefits Act of 2010, and 
by section 207 of the VA Major Construction Authorization and Expiring 
Authorities Extension Act of 2012, this authority will expire on 
December 31, 2013.
    Section 305(a) of the bill would extend VA's authority to provide 
compensation and pension examinations by contract examiners for another 
year. The continuation of this authority is essential to VA's ability 
to continue to provide prompt and high-quality medical disability 
examinations for our Veterans. If this authority is allowed to expire, 
VA will not be able to provide contracted disability examinations to 
Veterans in need of examinations. Extending the authority for another 
year would enable VA to effectively utilize supplemental and other 
appropriated funds to respond to increasing demands for medical 
disability examinations. Contracting for examinations is essential to 
VA's objective of ensuring timely adjudication of disability 
compensation claims and allows the VHA to better focus its resources on 
providing needed heath care to Veterans.
    Section 305(b) of the bill would require VA to provide to the House 
and Senate Committees on Veterans' Affairs a report within 180 days of 
enactment of the bill. The report would have to include extensive 
information regarding medical exams furnished by VA from FY 2009 to FY 
2012. Similarly, section 305(c) would require VA to provide a report to 
the same committees in the same timeframe regarding Acceptable Clinical 
Evidence.
    VA supports section 305(a) of this bill and submitted a similar 
proposal with the FY 2014 budget request. VA's version of the proposal 
would extend operating authority for five years rather than one year.
    VA does not oppose the reporting requirements of sections 305(b) 
and 305(c); however, one year rather than 180 days would provide 
adequate time to compile the data needed to comply with the detailed 
reporting requirements and to adequately coordinate review of the 
report before submission.
    No benefit or administrative costs would result from enactment of 
this provision.
                                 s. 939
    Section 1 of this draft bill would amend section 7103 of title 38, 
United States Code, to provide that the Board of Veterans' Appeals 
(Board) or Agency of Original Jurisdiction (AOJ) shall treat any 
document received from a person adversely affected by a decision of the 
Board expressing disagreement with that Board decision as a motion for 
reconsideration when that document is submitted to the Board or AOJ not 
later than 120 days after the date of the Board decision and an appeal 
with the United States Court of Appeals for Veterans Claims (Veterans 
Court) has not been filed. The section would further explain that a 
document will not be considered as a motion for reconsideration if the 
Board or AOJ determines that the document expresses an intent to appeal 
the decision to the Court and forwards the document to the Court in 
time for receipt before the appeal filing deadline. As explained below, 
VA has several concerns with the draft legislation.
    Proposed new section 7103(c)(1) would state that a document filed 
within 120 days of a Board decision that ``expresses disagreement with 
such decision'' shall be treated as a motion for reconsideration. We 
believe this draft standard would prove too vague and would result in 
an excessive amount of uncertainty for reviewers determining how to 
classify a piece of correspondence. The Board and AOJ receive a 
significant amount of correspondence on a regular basis. The fact that 
a piece of correspondence is received at the Board or AOJ after a Board 
decision does not necessarily mean that the appellant intends to 
challenge that Board decision, nor does it necessarily indicate an 
expression of disagreement with a Board decision. An appellant could be 
contacting VA to challenge a Board decision by way of a motion to 
vacate the decision, a motion to revise the decision based on clear and 
unmistakable error, or a motion for reconsideration--all types of 
motions that imply some level of disagreement. Additionally, an 
appellant could be contacting VA after a Board decision to file a new 
claim, reopen an old claim, check on the status of a claim, or simply 
express a generalized complaint, without intending to initiate an 
appeal. In order for Board or AOJ correspondence reviewers to be able 
to properly identify an appellant's intent from a piece of 
correspondence, it is not unreasonable to require the appellant to 
articulate the purpose of his or her correspondence and the result he 
or she is seeking. Allowing an appellant to seek reconsideration by 
merely expressing disagreement with a final Board decision would not 
provide reviewers with sufficient ability to distinguish whether the 
appellant is seeking a motion for reconsideration or some other 
legitimate action, such as a motion to vacate a Board decision or a 
motion to challenge based on clear and unmistakable error. This broad 
standard would, in turn, result in greater uncertainty and delay in an 
already heavily burdened system while benefiting few Veterans. The 
current proposal's broad language will likely lead to reconsideration 
rulings in cases where the appellant was not seeking further appellate 
review and would occupy limited adjudicative resources, thus delaying 
the claims of other Veterans.
    Under section 20.1001(a) of title 38, Code of Federal Regulations, 
a motion for reconsideration must ``set forth clearly and specifically 
the alleged obvious error, or errors, of fact or law in the applicable 
decision, or decisions, of the Board or other appropriate basis for 
requesting Reconsideration.'' Further, the discretion of the Chairman 
or his delegate to grant reconsideration of an appellate decision is 
limited to the following grounds: (a) upon allegation of obvious error 
of fact or law; (b) upon discovery of new and material evidence in the 
form of relevant records or reports of the service department 
concerned; or (c) upon allegation that an allowance of benefits by the 
Board has been materially influenced by false or fraudulent evidence 
submitted by or on behalf of the appellant. Although VA construes all 
claimants' filings liberally, under these governing regulations, a 
document that expresses general disagreement with a Board decision 
would not be construed a motion for reconsideration.
    The draft legislation would, however, require VA to consider such 
general statements of dissatisfaction or disagreement to be motions for 
reconsideration, thereby considerably broadening and weakening the 
standard required to render a Board decision nonfinal. This could cause 
confusion among correspondence reviewers. In fact, the standard 
contemplated by the draft legislation would be lower than the standard 
used to determine whether a document is a notice of disagreement (NOD) 
with an AOJ decision, pursuant to section 20.201 of title 38, Code of 
Federal Regulations.
    Moreover, the language of proposed new section 7103(c)(1) indicates 
that the lower standard would only apply to documents submitted within 
the 120-day period for appeal to the Veterans Court. This would 
essentially result in two standards being applied to motions for 
reconsideration based on whether the appellant submits the motion 
before or after the 120-day appeal period. Such different standards 
would understandably result in confusion in determining whether a 
document is a reconsideration motion.
    Proposed new section 7103(c)(2) indicates that VA will not treat a 
submitted document as a motion for reconsideration if VA determines 
that the document expresses an intent to appeal the Board decision to 
the Veterans Court and forwards that document to the court, and the 
court receives the document within the statutory deadline to appeal the 
Board decision. The draft legislation appears to make VA's 
determination of whether a document is a motion for reconsideration or 
a notice of appeal (NOA) to the Veterans Court partially contingent 
upon whether VA forwards the document to the court and the court timely 
receives it. Yet court decisions have found equitable tolling may apply 
in situations where VA timely received a misfiled NOA, but the Veterans 
Court did not timely receive it. The bill would give VA the authority 
to potentially take away a course of action from an appellant. The 
legislation would essentially provide VA with the authority to 
determine whether a document is an NOA based in part on whether VA can 
timely forward the document to the Veterans Court. This would prevent 
an appellant who timely misfiled an NOA with VA from having an 
opportunity to have the court determine whether equitable tolling 
applies and whether the court will accept the misfiled submission as 
timely. Further, an appellant may have been seeking to file a motion 
for reconsideration with the Board. However, if VA determines that a 
document is an NOA instead of a motion for reconsideration, VA may 
inadvertently prevent an appellant from having the Board consider his 
or her motion for reconsideration. Consequently, the proposed 
legislation would pose a number of legal and practical difficulties.

    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to appear before you today. I would be pleased to respond 
to questions you or the other Members may have.
                                 ______
                                 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 
                               Enclosure:
                                VA Views
                                 s. 514
    S. 514 would amend subchapter II of chapter 33, title 38, United 
States Code, to provide additional educational assistance under the 
Post-9/11 Educational Assistance Program (Post-9/11 GI Bill) to 
Veterans pursuing a degree in science, technology, engineering, math, 
or an area that leads to employment in a high-demand occupation. The 
additional payment would be in an amount determined by the Secretary 
and would be in addition to other amounts payable under chapter 33. VA 
provided views for this bill at the June 12, 2013, hearing.
    The amount of increase in additional benefits is not specified in 
this legislation; therefore, we are unable to provide an estimate for 
the additional benefit costs that this legislation would incur. There 
are no full time equivalent (FTE) or general operating expense (GOE) 
costs associated with enactment of this bill.
                                 s. 735
    S. 735, the ``Survivor Benefits Improvement Act of 2013,'' would 
amend title 38, United States Code, to improve benefits and assistance 
provided to surviving spouses of Veterans under laws administered by 
the Secretary of VA and for other purposes.
    Section 2 of this bill would amend section 1311 of title 38, United 
States Code, by extending, from 2 to 5 years, the period for increased 
dependency and indemnity compensation (DIC) for surviving spouses with 
children. VA supports the extended period of eligibility, subject to 
Congress identifying the appropriate offsets. The bill extends the 
with-children increase period by 3 additional years. Benefits costs 
associated with section 2 are estimated to be $5.6 million during the 
first year, $72.1 million for 5 years, and $199.3 million over 10 
years.
    Section 3 of S. 735 would extend eligibility for DIC, heath care, 
and home loan guaranty benefits to surviving spouses who remarry after 
age 55. Currently, such benefits may be granted to surviving spouses 
who remarry after age 57. VA supports this provision because it would 
make consistent VA's provision of benefits and health care to surviving 
spouses. Under section 103(d)(2)(b) of title 38, United States Code, 
remarriage after age 55 is not a bar to health care benefits. On 
December 16, 2003, Congress enacted the Veterans Benefits Act of 2003, 
which for the first time gave certain surviving spouses the right to 
retain VA benefits after remarriage. Prior law required VA to terminate 
those benefits upon remarriage regardless of the age of the surviving 
spouse.
    There will be no additional costs for health care as, under section 
103(d)(2)(b) of title 38, United States Code, remarriage after age 55 
is not a bar to health care benefits. Regarding costs associated with 
home loans, the provision would produce negligible estimated subsidy 
costs over 10 years because of a very small change expected in loan 
volume. We do not currently have an estimate of the costs associated 
with additional DIC eligibility.
    Section 4 of S. 735 would provide benefits to children of certain 
Thailand service Veterans born with spina bifida. The Spina Bifida 
Health Benefits Program was originally enacted for the birth of 
children with spina bifida to Vietnam Veterans based on evidence of an 
increased incidence of spina bifida among Veterans exposed to 
herbicides. The program was later expanded to include the children with 
spina bifida of certain Veterans whom the Veterans Benefits 
Administration (VBA) determined had been exposed to herbicides in 
Korea. The proposed bill would incorporate language from Subchapter I 
of Chapter 18 regarding spina bifida benefits for children of Vietnam 
Veterans and from Subchapter II, section 1821, regarding spina bifida 
benefits for children of Veterans with covered service in Korea. The 
covered service in this proposed bill is defined as ``active military, 
naval, or air service in Thailand, as determined by the Secretary in 
consultation with the Secretary of Defense, during the period beginning 
on January 9, 1962, and ending on May 7, 1975,'' in which an individual 
``is determined by the Secretary, in consultation with the Secretary of 
Defense, to have been exposed to a herbicide agent during such service 
in Thailand.'' The proposed bill goes on to define ``herbicide agent'' 
as ``a chemical in a herbicide used in support of United States and 
allied military operations in Thailand, as determined by the Secretary 
in consultation with the Secretary of Defense, during the period 
beginning on January 9, 1962, and ending on May 7, 1975.''
    VA supports section 4, pending congressional funding, which would 
provide benefits for this population similar to the benefits offered to 
those eligible under the Spina Bifida Health Care Benefits Program. 
However, there are several aspects that may limit its application. The 
benefit it seeks to provide to children of Veterans with Thailand 
service is based on the premise that the parent Veteran was exposed to 
the herbicide Agent Orange with its carcinogenic element dioxin, and 
that this contributed to the spina bifida. Veterans with service in 
Vietnam from January 9, 1962, to May 7, 1975, are presumed exposed to 
this herbicide based on section 1116 of title 38, United States Code. 
Veterans with service in certain units located on the Korean 
demilitarized zone (DMZ) from April 1, 1968, to August 31, 1971, are 
also given the presumption of exposure under section 3.307(a)(6)(iv) of 
title 38, Code of Federal Regulations. This presumption is the basis 
for the child's spina bifida benefits. However, there is no presumption 
of Agent Orange exposure for service in Thailand, and DOD has stated 
that only commercial herbicides were used within the interiors of 
military installations in Thailand. As a result, there is some question 
as to how the proposed bill's ``covered service'' in Thailand would be 
applied.
    Although there is no applicable presumption of herbicide exposure 
for purposes of identifying ``covered service'' in Thailand, there is 
some evidence supporting the possibility that tactical herbicides, such 
as Agent Orange, may have been used on the fenced-in perimeters of 
Thailand air bases during the Vietnam War. Some evidence for this is 
found in the 1973 DOD document ``CHECO Report: Base Defense in 
Thailand,'' which emphasizes the security role of herbicides within the 
fenced-in perimeters, but does not specifically identify the herbicide 
type. As a result, VA has given the benefit of the doubt to those 
Veterans who walked the perimeters as dog handlers or security guards 
and has acknowledged their exposure on a direct facts-found 
occupational basis. This is not the same as a legal presumption of 
exposure. These Veterans would be the only ones currently recognized as 
having the ``covered service'' that is referred to in the proposed 
legislation. General service in Thailand is not considered by VA to be 
the ``covered service'' involved with this legislation.
    VA estimates that medical-care costs associated with this section 
would be $3.14 million in fiscal year (FY) 2014; $17.81 million over 5 
years; and $56.73 million over 10 years. Benefits costs associated with 
this section of the bill are estimated to be $1.8 million during the 
first year, $9.4 million for 5 years, and $19.8 million over 10 years.
    Section 5 of S. 735 would require VA, not later than 6 months after 
the date of enactment, to conduct a pilot program to assess the 
feasibility of providing grief counseling services in a group retreat 
setting to surviving spouses of Veterans who die while serving on 
active duty in the Armed Forces. The pilot program would be carried out 
by the Readjustment Counseling Service (RCS). Participation would be at 
the election of the surviving spouse. The pilot program would be 
carried out at not fewer than six locations, including three locations 
where surviving spouses with dependent children are encouraged to bring 
their children, and three locations where surviving spouses with 
dependent children are not encouraged to bring their children. Services 
provided under the pilot would include information and counseling on 
coping with grief, information about benefits and services available to 
surviving spouses under laws administered by VA, and other information 
considered appropriate to assist a surviving spouse with adjusting to 
the death of a spouse.
    VA supports the concept of providing readjustment counseling in 
retreat settings. Initial results from similar retreat-based pilot 
programs operated by RCS found participants were able to reduce 
symptoms and maintain a higher quality of life after the retreat. The 
retreats proposed in section 5 have the potential for similar results; 
however, a permissive or discretionary authority to operate such a 
program would be preferable to a mandatory pilot authority. Such 
authority would permit VA to determine eligible cohort participation 
based on criteria such as local demand and available funding.
    We estimate that the cost of the pilot would be approximately 
$512,730.
                                 s. 778
    S. 778 would grant VA the authority to issue a card, known as a 
``Veterans ID Card,'' to a Veteran that identifies the individual as a 
Veteran and includes a photo and the name of the Veteran. The issuance 
of the card would not be premised on receipt of any VA benefits nor 
enrollment in the system of annual patient enrollment for VA health 
care established under section 1705(a) of title 38, United States Code. 
The card could be used by Veterans to identify themselves as Veterans 
in order to secure pharmaceuticals and consumer products offered by 
retailers to Veterans at reduced prices.
    VA understands and appreciates the purpose of this bill, to provide 
Veterans a practical way to show their status as Veterans to avail 
themselves of the many special programs or advantages civic-minded 
businesses and organizations confer upon Veterans. However, VA does not 
support this bill. The same benefit to Veterans can best be achieved by 
VA and DOD working with the states, the District of Columbia, and 
United States territories to encourage programs for them to issue such 
identification cards. Those entities already have the experience and 
resources to issue reliable forms of identification.
    VA is working with states on these efforts. For example, VA and the 
Commonwealth of Virginia launched a program to allow Veterans to obtain 
a Virginia Veteran's ID Card from its Department of Motor Vehicles 
(DMV). The program will help thousands of Virginia Veterans identify 
themselves as Veterans and obtain retail and restaurant discounts 
around the state. On May 30, 2012, the program was launched in 
Richmond, and a DMV ``2 Go'' mobile office was present to process 
Veterans' applications for the cards.
    Virginia Veterans may apply for the cards in person at any Virginia 
DMV customer service center, at a mobile office, or online. Each 
applicant presents an unexpired Virginia driver's license or DMV-issued 
ID card, a Veterans ID card application, his or her DOD Form DD-214, 
DD-256, or WD AGO document, and $10. The card, which does not expire, 
is mailed to the Veteran and should arrive within a week. In the 
meantime, the temporary Veterans ID card received at the time of the 
in-person application can be used as proof of Veteran status.
    Other jurisdictions can use this model to establish similar 
programs without creating a new program within VA that may not be cost-
efficient. It is not known whether enough Veterans would request the 
card to make necessary initial investments in information technology 
and training worthwhile.
    In addition, a VA-issued card could create confusion about 
eligibility. Although the card would not by itself establish 
eligibility, there could nonetheless be misunderstandings by Veterans 
that a Government benefit is conferred by the card. As the Committee 
knows, entitlement to some VA benefits depends on criteria other than 
Veteran status, such as service connection or level of income. 
Confusion may also occur because the Veterans Health Administration 
(VHA) issues identification cards to Veterans who are eligible for VA 
health care. Having two VA-issued cards would pose the potential for 
confusion.
    It is difficult to predict how many Veterans would apply for such a 
card. Therefore, VA cannot provide a reliable cost estimate for S. 778.
                                 s. 819
    S. 819, the ``Veterans Mental Health Treatment First Act of 2013,'' 
would provide the Department with significant new tools to maximize and 
reward a Veteran's therapeutic recovery from certain service-related 
mental health conditions, and, to the extent possible, reduce the 
Veteran's level of permanent disability from any of the covered 
conditions. The goal of the legislation is to give the Veteran the best 
opportunity to reintegrate successfully and productively into the 
civilian community.
    Specifically, S. 819 would require the Secretary to carry out a 
mental health and rehabilitation program for certain Veterans who have 
been discharged or released from service in the active military, naval, 
or air service under conditions other than dishonorable for a period of 
not more than 2 years, and who have been enrolled for care in the VA 
health care system since before the date of enactment of this bill. The 
program would be available to a Veteran who has been diagnosed by a VA 
physician with any of the following conditions: Post Traumatic Stress 
Disorder (PTSD); depression; or anxiety disorder that is service 
related, as defined by the bill. The bill would also cover a diagnosis 
of a substance use disorder related to service-related PTSD, 
depression, or anxiety. For purposes of this program, a covered 
condition would be considered to be service related if: (1) VA has 
previously adjudicated the disability to be service-connected; or (2) 
the VA physician making the diagnosis finds the condition plausibly 
related to the Veteran's active service. S. 819 would also require the 
Secretary to promulgate regulations identifying the standards to be 
used by VA physicians when determining whether a condition is plausibly 
related to the Veteran's active military, naval, or air service.
    The bill sets forth conditions of participation for the Veterans 
taking part in the program. If a Veteran has not filed a VA claim for 
disability for the covered condition, the Veteran would have to agree 
not to submit a VA claim for disability compensation for the covered 
condition for 1 year (beginning on the date the Veteran starts the 
program) or until the date on which the Veteran completes his or her 
treatment plan, whichever date is earlier.
    If the Veteran has filed a disability claim but it has not yet been 
adjudicated by the Department, the Veteran could elect either to 
suspend adjudication of the claim until he or she completes treatment 
or to continue with the claims adjudication process. As discussed 
below, the stipend amounts payable to the Veteran under the program 
will depend on which election the Veteran makes.
    If the Veteran has a covered condition that has been adjudicated to 
be service-connected, then the individual would have to agree not to 
submit a claim for an increase in VA disability compensation for 1 year 
(beginning on the date the Veteran starts the program) or until the 
date the Veteran completes treatment, whichever is earlier.
    S. 819 would establish a financial incentive in the form of 
``wellness'' stipends to encourage participating Veterans to obtain VA 
care and rehabilitation before pursuing, or seeking additional, 
disability compensation for a covered condition. The amount of the 
stipend would depend on the status of the Veteran's disability claim. 
If the Veteran has not filed a VA disability claim, VA would pay the 
Veteran $2,000 upon commencement of the treatment plan, plus $1,500 
every 90 days thereafter upon certification by the VA clinician that 
the Veteran is in substantial compliance with the plan. This recurring 
stipend would be capped at $6,000. The Veteran would receive an 
additional $3,000 at the conclusion of treatment or 1 year after the 
Veteran begins treatment, whichever is earlier.
    If the Veteran has filed a disability claim that has not yet been 
adjudicated, the participating Veteran who elects to suspend 
adjudication of the claim until he or she completes treatment would 
receive ``wellness'' stipends in the same amounts payable to Veterans 
who have not yet filed a disability claim. If the participating Veteran 
elects instead to continue with the claims adjudication process, the 
Veteran would receive ``wellness'' stipends in the same amounts payable 
to Veterans whose covered disabilities have been adjudicated and found 
to be service-connected: $667 payable upon the Veteran's commencement 
of treatment and $500 payable every 90 days thereafter upon 
certification by the Veteran's clinician that the individual is in 
substantial compliance with the plan. Recurring payments would be 
capped at $2,000, and the Veteran would receive $1,000 when treatment 
is completed or 1 year after beginning treatment, whichever is earlier.
    If the Secretary determines that a Veteran participating in the 
program has failed to comply substantially with the treatment plan or 
any other agreed-upon conditions of the program, the bill would require 
VA to cease payment of future ``wellness'' stipends to the Veteran.
    Finally, S. 819 would limit a Veteran's participation in this 
program to one time, unless the Secretary determines that additional 
participation in the program would assist in the remediation of the 
Veteran's covered condition.
    VA does not support S. 819. Although VA philosophically appreciates 
the purpose of the bill and the legislator's intent, we have concerns 
with its premises and are unable to support it.
    S. 819 assumes that early treatment intervention by VA health care 
professionals for a covered condition would be effective in either 
reducing or stabilizing the Veteran's level of permanent disability 
from the condition, thereby reducing the amount of VA disability 
benefits ultimately awarded for the condition. No data exist to support 
or refute that assumption.
    With the exception of substance use disorders, we are likewise 
unaware of any data to support or refute the bill's underlying 
assumption that paying a Veteran a ``wellness'' stipend will ensure the 
patient's compliance with his or her treatment program. Although there 
is a growing trend among health insurance carriers or employers to 
provide short-term financial incentives for their enrollees or 
employees to participate in preventive health care programs (e.g., 
reducing premiums for an enrollee who participates in a fitness 
program, loses weight, or quits smoking), we are unaware of any data 
establishing that these and similar financial incentives produce long-
term cost savings to the carrier or employer. It would be extremely 
difficult, if not impossible, to quantify savings or offsets because 
there is no way to know whether a particular patient's health status 
would have worsened without VA's intervention, and whether the 
intervention directly resulted in a certain or predictable total amount 
in health care expenditure savings. We would experience the same 
difficulties trying to identify what would have been the level of 
disability and costs of care for a particular Veteran had he or she not 
participated in the early clinical intervention program.
    The ``wellness'' stipends, themselves, raise several complex 
issues. None of VA's current benefits systems is equipped to administer 
such a novel benefit, and no current account appears to be an 
appropriate funding source from which to pay the benefit. Second, 
authorization of wellness benefits would be determined based solely on 
adherence to the treatment/wellness program. This would place the 
clinician in the position of determining whether the patient will 
continue to receive these wellness benefits and would pose a 
significant conflict of interest which would likely compromise the 
healing relationship between the patient and clinical provider.
    There would be significant indirect costs as well. VHA currently 
lacks the information technology infrastructure, expertise, and staff 
to administer monetary benefits with the potential level of complexity 
and scale proposed in this legislation. The challenge posed in 
connection with this bill would be nearly insurmountable, which calls 
for a very complex, nationwide patient tracking and monitoring system 
that also has the capacity to administer payments at different points 
in time for Veterans participating in the program. The fact that the 
duration of each Veteran's treatment plan would be highly 
individualized would only complicate the requirements of such a system 
design, as would the fact that the bill would permit some Veterans to 
receive treatment (and payment) extensions.
    The cost of administering S. 819 would be potentially higher than 
the benefit received by the Veteran. The maximum VA could pay any 
Veteran under the bill would be $11,000; however, it is reasonable to 
assume that the costs associated with designing, operating, and 
administering such a complex benefit program would far surpass the 
actual amounts we would pay out to the Veterans (individually or 
collectively).
    S. 819 would also place practitioners in the difficult position of 
determining if their patients will receive ``wellness'' stipends 
available under the program. It is quite atypical for a VA physician's 
clinical determination regarding treatment to have direct financial 
implications or consequences for his or her patients. VA physicians and 
practitioners seek to help their Veteran patients attain maximum 
functioning as quickly as clinically possible. S. 819 would create 
potential conflict for our health care practitioners. They should focus 
solely on issues of health care and not feel pressure to grant requests 
for extensions of treatment in order to maximize the amount of money 
patients receive under the program.
    Additionally, it would be difficult to define ``substantial 
compliance,'' for purposes of S. 819, in a way that is measurable and 
objective as well as not easily amenable to fraud or abuse. For 
instance, substantial compliance could be defined in part by a Veteran 
stating that he or she took prescribed medications as ordered by the 
physician and VA confirming the Veteran obtained refills in a timely 
manner. But that information does not actually verify that the patient 
in fact ingested the medication or did so as prescribed.
    There would unavoidably be some patients whose motivation for 
participating in this program is strictly financial, and they would 
invariably find ways to circumvent whatever criteria we established in 
order to receive their stipends. Although these payments would not be 
sizable, they would be sufficient to entice some patients who would not 
otherwise access VA's health care system to participate in the program. 
We fear these patients would cease their treatment and stop accessing 
needed VA services once their treatment and payments end.
    If the use of ``wellness'' stipends were able to produce reliable, 
positive results in terms of patients' compliance or outcomes, there 
may then be a demand to extend this reward system to other VA treatment 
programs. We note this only to point out that the cost implications in 
the out-years could be very difficult to estimate accurately.
    Finally, it is also troubling that S. 819 would require VA to treat 
specific diseases and not the Veteran as a whole. This approach would 
place VA practitioners in the difficult and untenable position of being 
able to identify conditions they cannot treat under the proposed 
program. This would create a particularly serious ethical dilemma for 
the practitioner who knows that his or her Veteran patient has no other 
access to needed health care services. In our view, authority to treat 
specific diseases-and not the person-would be counter to the principles 
of patient-centered and holistic medicine.
    We do not currently have a cost estimate for S. 819.
                                 s. 863
    Section 2 of S. 863, the ``Veterans Back to School Act of 2013,'' 
would amend section 3031 of title 38, United States Code, to repeal the 
time limitations on the use of educational assistance under the 
Montgomery GI Bill-Active Duty (MGIB-AD) program. Currently, pursuant 
to section 3031, the period for which an individual is entitled to 
education assistance under the MGIB-AD program expires, generally, 10 
years after the individual's last discharge or release from active 
duty.
    Section 2 of S. 863 would add a new subsection to section 3031 to 
provide that, notwithstanding other delimiting-date provisions in that 
section, the period for a ``covered individual'' to use MGIB-AD 
education benefits would expire 10 years after the date on which the 
individual begins using the benefit. A ``covered individual'' would be 
defined to be any individual whose basic pay was reduced by $100 for 12 
months under paragraph (1) of section 3011, or an amount equal to 
$1,200 not later than 1 year after completion of 2 years of active duty 
service. This legislation would not apply to the period for using 
entitlement transferred under section 3020 of title 38.
    The amendment made by section 2 would be made effective as if the 
legislation had been enacted immediately after the enactment of the 
Veteran's Educational Assistance Act of 1984.
    VA is unable to support section 2 of S. 863. Currently, a Veteran 
must use MGIB-AD benefits during the 10-year period beginning on the 
date of his or her release from active duty. Under the proposed 
legislation, an individual could wait more than
    10 years before he or she begins use of the benefit. This would 
require VA to administer the MGIB-AD program for an unknown number of 
individuals for an unlimited period of time. The MGIB-AD-eligible 
population is decreasing, as the 10-year period of eligibility for 
Veterans with service ending prior to 2001 has passed, and the majority 
of individuals with service after that date are electing to use 
benefits under the Post-9/11 GI Bill program, which provides a 15-year 
eligibility period.
    VA also has concerns with the effective date of the legislation. We 
interpret the effective date in paragraph (c) of section 2 to mean all 
individuals who have not received MGIB-AD education benefits would now 
be eligible and those that previously received benefits would have 
their time limitation recalculated. This would require VA to 
retroactively make adjustments to individual periods of eligibility, 
creating a significant workload that would impact our timeliness in 
processing all education claims.
    VA estimates that the benefit cost associated with enactment of 
section 2 of the bill would be insignificant. While section 2 would 
effectively extend the delimiting date of MGIB-AD, the Secretary 
currently has authority under Title 38 Section 3031 to extend the 
delimiting date in certain circumstances. Additionally, MGIB-AD usage 
data suggests that the majority of trainees begin receiving benefits 
within three years of separation and would not require more than the 
current ten year delimiting date to use their entitlement. Finally, 
because MGIB-AD is a decreasing program due to the implementation of 
the Post-9/11 GI Bill, we anticipate that MGIB-AD participation will 
decrease below 10,000 within ten years, further minimizing any impact 
of extending the delimiting date.
    Section 3 of S. 863 would amend chapter 36 of title 38, United 
States Code, to require VA, subject to the availability of 
appropriations, to provide funding for ``offices of veterans affairs'' 
at institutions of higher learning (IHL) at which there are in 
attendance at least 50 students receiving educational assistance 
administered by VA.
    This legislation would require that an IHL or consortium of IHLs 
submit an application to VA to determine eligibility for this program. 
Such application would be required to identify policies, assurances, 
and procedures to ensure that the funds received by the institution 
would be used solely to enhance the institution's Veterans' education 
outreach program. During each academic year an institution receives 
payments, the IHL would be required to fund an amount equal to at least 
the amount of the award paid by VA. The funding for the additional 
expenditure could not come from other Federal sources, and the 
applicant would have to submit any reports requested by VA. VA would 
determine what information must be included in the application and when 
the application should be submitted. In addition, the application must 
state that the applicant will maintain an ``office of veterans 
affairs'' and use that office for Veterans' certification, outreach, 
recruitment, and special education programs. This would include 
referral to educational, vocational, and personal counseling for 
Veterans, as well as providing information for other services provided 
to Veterans by VA, such as readjustment counseling; job counseling, 
training, and placement services; and employment and training of 
Veterans.
    If VA determines that an institution eligible for funding is unable 
to carry out by itself any or all activities proposed in this 
legislation, the institution might carry out the program activities 
through a consortium agreement with one or more other IHLs in the same 
community. However, VA could not approve an application unless it is 
determined that the applicant would implement the necessary 
requirements within the first academic year in which a payment would be 
received.
    An eligible institution would receive $100 for each person that 
received VA educational assistance, with a maximum amount of $150,000 
to any IHL during the fiscal year. Six million dollars would be 
authorized to be appropriated for FY 2012 and each fiscal year 
thereafter. If the amount appropriated for any fiscal year would not be 
sufficient to pay all IHLs, the payments would be reduced. However, if 
any amounts become available in any fiscal year after such reductions, 
the reduced payments would be increased at the same level they were 
reduced.
    From the amounts made available for any fiscal year, VA would also 
be required to set aside 1 percent or $20,000, whichever is less, for 
the purpose of collecting information about exemplary programs and 
disseminating that information to other institutions with similar 
programs on their campuses. Such collection and dissemination would be 
completed each year. VA could not retain more than 2 percent of the 
funds available for administering this program.
    VA supports the intent of section 3; however, we have significant 
concerns about the potential additional administrative burden that 
could result. In calendar year 2012, there were more than 3,100 schools 
with 50 or more recipients of VA education benefits. As the Post-9/11 
GI Bill continues to grow, VA can expect the number of schools with 50 
or more recipients to increase. During FY 2012, there were 646,302 
students who received Post-9/11 GI Bill benefits, which is an increase 
of 16.4 percent over FY 2011. VA would need to provide staffing to 
administer and process the number of applications received for this 
program. Additionally, VA would need to establish a method of reporting 
and tracking the success of these programs.
    We also have concerns about the broad scope of this legislation, 
and how VA would effectively administer the provisions. While the bill 
would require an institution to use funds solely to carry out Veterans' 
education outreach programs, VA does not have a mechanism to ensure 
that all funds would be used accordingly. Additionally, the funding 
limitations by fiscal year present challenges. The risk of funding 
uncertainty would jeopardize effective planning.
    We note that the 2014 President's Budget includes funding to expand 
the Department's VetSuccess on Campus initiative to a total of 94 
campuses. VA is beginning a partnership with the Corporation for 
National and Community Service to provide additional support for 
VetSuccess on Campus counselors through AmeriCorps members. 
Furthermore, as of May 29, 2013, 6,282 campuses have voluntarily agreed 
to comply with the Principles of Excellence outlined in Executive Order 
13607, which requires the schools designate a point of contact to 
assist Veteran and Servicemember students and their families with 
academic and financial advising.
    This legislation authorizes appropriation of $6 million to carry 
out section 3 for FY 2012 and each fiscal year thereafter. It is 
assumed that such funding would be made available through the GOE 
account, but we request that specific language be added to the 
legislation to make this clear. No benefits cost would be associated 
with enactment of this section. Although the bill would authorize $6 
million to carry out this section, VA estimates GOE costs for the first 
year of $8 million based on 17 FTE to administer the Veterans' 
education outreach program established under section 3 (including 
salary, benefits, rent, supplies, equipment, payments made to 
institutions of higher learning, and an outreach study). The estimated 
5-year cost would be $40 million, and the 10-year cost would be $81.2 
million. In addition, VA estimates that information technology (IT) 
costs to support the additional staff for the first year would be 
$31,000 (this includes the IT equipment for FTE, installation, 
maintenance, and IT support). The estimated 5-year IT cost would be 
$175,000, and the 10-year cost would be $409,000.
                                 s. 868
    S. 868, the ``Filipino Veterans Promise Act,'' would require the 
Secretary of Defense, in consultation with the Secretary of VA, to 
establish a process to determine whether individuals claiming certain 
service in the Philippines during World War II are eligible for certain 
benefits despite not being on the so-called ``Missouri List.'' This 
bill affects programs and laws administered by DOD. Respectfully, we 
defer to that Department's views on this bill.
                                 s. 889
    S. 889, the ``Servicemembers' Choice in Transition Act of 2013,'' 
would amend section 1144 of title 10, United States Code, to improve 
the Transition Assistance Program (TAP). The current law does not 
stipulate any requirements for TAP beyond pre-separation counseling and 
the Department of Labor (DOL) Employment Workshop.
    S. 889 would mandate the following additions to TAP providing: (1) 
information on disability-related employment and education protection; 
(2) an overview of available education benefits; and (3) testing to 
determine academic readiness for post-secondary education. The deadline 
for implementation of these provisions would be April 1, 2015. The bill 
would also require a feasibility study by VA on providing the 
instruction of pre-separation counseling (described in subsection (b) 
of section 1142 of title 10, United States Code) at overseas locations, 
no later than 270 days after the date of the enactment.
    VA appreciates the strong interest and support from the Committee 
to ensure that separating Servicemembers are given full and effective 
engagement on their employment and training opportunities, as well as 
other VA benefits they have earned. However, VA does not support this 
legislation. The passage of the Veterans Opportunity to Work (VOW) to 
Hire Heroes Act (VOW Act) of 2011 and the introduction of the 
President's Veterans Employment Initiative (VEI) satisfy the intent 
underlying S. 889. VA believes those efforts should be afforded an 
opportunity to be fully implemented and assessed before any further 
legislation concerning TAP is enacted. Allowing agencies to proceed 
under current plans will provide greater flexibility in implementing 
improvements and making adjustments based on accurate data analysis 
during assessment. VA will be pleased to brief the Committee on the 
improvements and enhancements that are currently being implemented as 
part of the Administration's VEI.
    VA and Federal agency partners including DOD, DOL, Department of 
Education, Office of Personnel Management (OPM), and the Small Business 
Administration (SBA), are currently working to develop a plan for the 
implementation of an enhanced TAP curriculum, known as Transition GPS 
(Goals, Plans, Success), which was developed under the Administration's 
VEI.
    Current components of the Transition GPS curriculum include 
mandatory pre-separation counseling, service-delivered modules, 
enhanced VA benefits briefings, a DOL Employment Workshop, and 
Servicemember-selected tracks focused on technical training, higher 
education, and entrepreneurship opportunities. With the implementation 
of the Capstone event by the end of FY 2013, the Transition GPS 
curriculum will take approximately 7 to 8 days to complete.
    VA has primary responsibility in the development and delivery of 
the VA benefits briefings and the Career Technical Training Track, and 
additional responsibilities to support partner agencies in the 
development of curriculum of the higher education track, the 
entrepreneurship track, and the Capstone event. The Capstone event is 
intended to serve as a standardized end-of-career experience to 
validate, verify, and bolster transition training and other services to 
prepare for civilian career readiness, including those delivered 
throughout the entire span of a Servicemember's career, from accession 
to post-military civilian life.
    The VA Benefits I and II Briefings are part of the current 
Transition GPS Curriculum. During the VA Benefits I Briefing, 
information is provided on VA education benefits, as well as 
identifying the forms and documentation necessary to access those 
education benefits. The VA Benefits I Briefing also provides 
information on all other benefits and services offered by VA. The 
Benefits II Briefing provides an in-depth overview of VA's disability 
compensation process, VA health care, and navigation of the eBenefits 
portal, a one-stop, self-service tool providing access to all benefits 
information.
    Testing to determine academic readiness for post-secondary 
education for any member who plans to use educational assistance under 
title 38 does not play a role in how VA determines eligibility and 
disburses VA education benefits. VA does not agree that this type of 
testing should be a part of Transition GPS, since Servicemembers who 
are interested in pursuing post-secondary education already go through 
an application process in order to determine readiness and acceptance 
to accredited schools, universities, or colleges. The final 
determination for one's acceptance to post-secondary education is the 
responsibility of the academic institutions. VA believes the intent of 
this amendment is already being met under the revised Transition GPS. 
As part of the new process, Servicemembers receive pre-separation 
counseling by a representative within their respective Service, where 
they may receive additional guidance on appropriate next steps to 
include planning for a post-secondary education.
    This legislation would also mandate providing information on 
disability-related employment and education protections. As VA does not 
have oversight on employment and education protections, we defer to our 
agency partners (e.g., DOL and Department of Education) regarding the 
extent to which they address these topic areas during Transition GPS.
    Because pre-separation counseling is the responsibility of DOD, the 
feasibility study on the implementation of subsection (b) of section 
1142 of title 10, United States Code, would be a new requirement for VA 
and would necessitate agreements and information sharing between VA and 
DOD to finalize within 270 days after enactment.
    We note that the Transition GPS curriculum is new and still being 
evaluated for effectiveness and efficiency. VA is in the process of 
fine tuning delivery and content to best meet Servicemembers' needs, 
and additional legislation at this stage may hinder those efforts. For 
these reasons, VA does not support the feasibility study.
    VA estimates that, if S. 889 were enacted, costs for the first year 
would be $8.2 million (including salary, benefits, travel, rent, 
supplies, training, equipment, and other services [including curriculum 
development]), $40.6 million over 5 years, and $86.5 million over 10 
years. VA estimates that IT costs for the first year would be $0.3 
million (including the IT equipment for FTE, installation, maintenance, 
and IT support) $0.9 million over 5 years, and $2.0 million over 10 
years.
                                 s. 894
    S. 894 would extend, through June 30, 2016, the Secretary's 
authority to pay allowances for certain qualifying work-study 
activities performed by certain individuals pursuing programs of 
education. This bill would also amend section 3485(a)(4) of title 38, 
United States Code, to add a new subparagraph to add to the list of 
qualifying work-study activities certain activities performed at the 
offices of Members of Congress. Finally, this bill would require VA to 
submit annual reports to Congress regarding the work-study allowances 
paid under section 3485(a). VA provided views for this bill at the 
June 12, 2013, hearing.
    VA estimates that, if enacted, benefit costs for S. 894 would be 
$572,000 during FY 2013 and $7.4 million for the 3-year period 
beginning on June 30, 2013, and ending on June 30, 2016. There are no 
additional FTE or GOE cost requirements associated with this 
legislation.
                                 s. 922
    Section 3 of S. 922, the ``Veterans Equipped for Success Act of 
2013,'' would require VA, in collaboration with DOL, to create a 3-year 
pilot program in four locations to assess the feasibility and 
advisability of offering career transition services to eligible 
Veterans. VA provided views for this bill at the June 12, 2013, 
hearing.
    VA estimates that, if S. 922 were enacted, costs for the first year 
would be $1.9 billion (including salary, benefits, travel rent, other 
services, supplies, and equipment), and $6.7 billion over 4 years. VA 
IT costs are estimated to be $0.1 million in the first year and $0.2 
million over 4 years. IT costs include IT equipment, FTE, installation, 
maintenance, systems, and IT support.
                                 s. 927
    S. 927, the ``Veterans Outreach Act of 2013,'' would require VA to 
carry out a demonstration project to assess the feasibility and 
advisability of using state and local government agencies and nonprofit 
organizations to increase outreach to Veterans regarding VA benefits 
and services. VA would require additional resources, such as manpower, 
funds, and space, to administer the mandated grant program, comply with 
the reporting requirements, and support the advisory committee called 
for in section 5 of the bill. In addition, VA has several 
recommendations and concerns regarding particular bill language. 
Because of the central role of outreach in ensuring that Veterans know 
of the benefits they have earned and the role of outreach throughout 
the myriad missions of VHA, VBA, and the National Cemetery 
Administration, we would benefit from meeting with the Committee to 
discuss ongoing outreach efforts and the ideas represented in this 
bill.
    Section 2 of S. 927 would require VA to conduct a demonstration 
project to increase coordination of outreach efforts between VA and 
Federal, state, and local agencies and nonprofit organizations. In the 
absence of a requirement for specific appropriations dedicated to the 
implementation of the bill, VA requests that, in section 2(a), 
``shall'' be replaced with ``may.''
    Section 2(a)(2) lists ``nonprofit providers of health care and 
benefits services for veterans'' as an entity with which VA would 
coordinate outreach activities. VA would like for the bill to have 
broad reach but would like to discuss with the Committee the different 
types of entities this language could cover.
    Section 2(c)(3) would require the Secretary to ``consider where the 
projects will be carried out'' and a number of other factors. VA 
recommends the considerations of section 2(c)(3) be deleted and that VA 
be directed to include appropriate project criteria, such as location 
and other factors, in VA implementing regulations. VA is concerned 
that, under section 2(c)(5), which would limit awards to a single state 
entity to 20 percent of all grant amounts awarded in a fiscal year, 
limitations would only be established for state entities while local 
and nonprofit entities would not be subject such limitations. VA 
recommends including all eligible grantees in this paragraph. 
Similarly, under section 2(d), the 50 percent matching funds 
requirement would only apply to states while county, municipal, and 
nonprofit entities would not have this burdensome requirement. VA 
recommends including all eligible grantees in this subsection as well. 
Essentially, there should be one standard: matching funds should be 
required for all entities or no such requirement should exist. VA 
already submits a consolidated biennial report on outreach activities, 
and therefore recommends that, rather than requiring the annual report 
as prescribed by section 2(e), the biennial report already submitted 
address the grants called for in this proposed legislation.
    Section 3 would provide for cooperative agreements between the 
Secretary and states on outreach activities. VA already has an existing 
Memorandum of Agreement through the National Association of State 
Directors of Veterans Affairs that encompasses the intent of this 
legislation. Therefore, VA recommends removing this section.
    Section 4 would provide for specific budget reporting requirements 
for VA's outreach activities. VA administrations currently plan and 
track outreach budgets without a Congressionally-mandated requirement 
in order to report to VA's Office of Public and Intergovernmental 
Affairs (OPIA). However, the language of section 4 would require 
additional collection and coordination that could represent additional 
expenditures for VA. Additional manpower would be required to plan, 
coordinate, track, and report all outreach budget activities throughout 
VA. VA would be glad to discuss the requirements of this section with 
the Committee.
    Section 5 would establish an advisory committee on outreach 
activities in VA. Additional resources would be required to manage, 
plan, coordinate, support, and report on an outreach advisory 
committee's activities. In addition, VA already has several committees, 
such as the Advisory Committee on Minority Veterans, the Advisory 
Committee on Women Veterans, and the Research Advisory Committee on 
Gulf War Veterans' Illnesses, which look at outreach as a component of 
their charters. Should this additional advisory committee be 
established, VA believes that the quarterly consultation and reporting 
requirements contemplated by section 5(d) and (e) are excessive. Most 
VA committees already meet two to three times annually. VA recommends 
instead a biannual meeting requirement.
    Section 6 would require each VA medical center to establish an 
advisory board on outreach activities. VA does not support this section 
of S. 927 as it would require 152 additional advisory boards, each one 
being a potential distracter to mission workload.
    VA is unable to estimate the costs of this bill, as they would 
depend upon the scope of the grant program which, in turn, would depend 
upon amounts appropriated for such grants.
                                 s. 928
    Section 101 of S. 928, the ``Claims Processing Improvement Act of 
2013,'' would establish a working group to improve the employee work 
credit and work management systems of VBA. Not later than 90 days after 
the date of the enactment of this Act, VA would establish a working 
group to assess and develop recommendations for the improvement of the 
employee work credit and work management systems of VBA. The work group 
would be comprised of VA adjudicators, labor representatives, and 
individuals from Veterans Service Organizations (VSOs). The working 
group would develop a data-based methodology to be used in revising the 
employee work credit system and a schedule by which revisions to such 
system would be made, and would assess and develop recommendations for 
improvement of the resource allocation model. In carrying out its 
duties, the working group would review the findings and conclusions of 
the Secretary regarding previous studies of the employee work credit 
and work management systems of VBA.
    Within 180 days following establishment of the working group, VA 
would submit a progress report to Congress. Within 1 year following the 
establishment of the working group, VA would submit a report to 
Congress detailing the methodology and schedule developed by the 
working group.
    VA does not support section 101. VA is fully aware of the need to 
improve its work credit and work management systems, but does not 
believe it necessary to legislate a formal working group to carry out 
an improvement plan. VA benefited from the Center for Naval Analyses 
report, mandated by section 226, Public Law 110-389, which revealed 
needed improvements of VA's work credit and management system. It is 
vital that VA continue to improve its evolving claims processing 
system, including the enhancement of the Veterans Benefits Management 
System (VBMS) to incorporate advanced workload management 
functionalities. VBA's planned future state includes development of 
VBMS workload management capabilities that are entirely electronic. The 
workload management capabilities of VBMS are being developed in two 
steps. Currently, a working group is building the design requirements 
that will provide managers with the tools and reporting capabilities to 
manage their workload most effectively at the regional office level. 
Second, a national work queue will be developed, to include the 
capability of routing claims automatically through a pre-determined 
model, which will route claims based on VBA's priorities and the skill 
levels of our employees, essentially matching claims processors with 
the ``next best claim'' to work based on their skill levels and areas 
of expertise, as well as national workload management policies.
    As VBA moves toward the full integration of the entire claims 
process in VBMS, the capability to capture transactional data will 
allow VA to move from a points-based work credit system dependent on 
employee-user input to a system that can automatically capture 
employees' transactions, activities, claims completions, and 
timeliness, enabling VBA to measure performance against standards that 
truly reflect the desired outcome of timely and accurate completion of 
claims. VBA recognizes the importance of assessing the impact of our 
transformational initiatives on employees' job requirements and 
appropriately adjusting the work credit system. VBA established a new 
team in April 2013 to work in concert with VBMS programmers to ensure 
the requirements and functionality for employee work-credit is 
incorporated into VBMS and that a system is established that measures 
and manages the work production of employees in accordance with actions 
required by the updated claims process.
    No mandatory or discretionary costs are associated with this 
section of the bill.
    Section 102 of the bill would establish a task force on retention 
and training of claims processors and adjudicators who are employed by 
VA and other Federal agencies and departments. The task force would be 
comprised of the VA Secretary, Director of OPM, Commissioner of the 
Social Security Administration, a representative from a VSO, and other 
individuals from institutions as the Secretary considers appropriate. 
The duties of the task force would include:

    (1) Identifying key skills required by claims processors and 
adjudicators to perform the duties of claims processors and 
adjudicators in the various claims processing and adjudication 
positions throughout the Federal Government;
    (2) Identifying reasons for employee attrition from claims 
processing positions;
    (3) No later than 1 year after establishment of the task force, 
developing a Government-wide strategic and operational plan for 
promoting employment of Veterans in claims processing positions in the 
Federal Government;
    (4) Coordinating with educational institutions to develop training 
and programs of education for members of the Armed Forces to prepare 
such members for employment in claims processing and adjudication 
positions in the Federal Government;
    (5) Identifying and coordinating offices of DOD and VA located 
throughout the United States to provide information about, and 
promotion of, available claims processing positions to members of the 
Armed Forces transitioning to civilian life and to Veterans with 
disabilities;
    (6) Establishing performance measures to assess the plan developed 
under paragraph (3), assessing the implementation of such plan, and 
revising such plan as the task force considers appropriate; and
    (7) Establishing performance measures to evaluate the effectiveness 
of the task force.

    No later than 1 year after the date of the establishment of the 
task force, VA would be required to submit to Congress a report on the 
plan developed by the task force. Not later than 120 days after the 
termination of the task force, the Secretary would be required to 
submit to Congress a report that assesses the implementation of the 
plan developed by the task force.
    VA does not support section 102 because VA already has systems and 
programs in place to achieve the goals of the bill.
    As VA's claims processes evolve, VA continues to identify critical 
skills needed by adjudicators. Establishing a task force to address 
concerns at this stage would be premature and counterproductive as VA 
implements, modifies, and enhances its transformational initiatives and 
automated processing systems.
    With regard to development of a Government-wide strategic and 
operational plan for promoting employment of Veterans in claims 
processing positions in the Federal Government, VA defers to OPM. 
However, 73 percent of VBA's hires this year have been Veterans, and 
over 51 percent of VBA's current workforce is Veterans. Our attrition 
rate in disability claims processing positions was only 6 percent last 
year and 4 percent this fiscal year through June 30. VA currently 
utilizes tools in regional offices that capture reasons for attrition 
when employees leave Federal service. This information is used for 
succession planning and future hiring at the local level.
    Over the last several years, VBA has developed competency models 
for claims processing positions. The models describe the knowledge, 
skills and abilities necessary for these jobs. VBA is in the process of 
linking the models to training.
    The linked models will guide supervisors and employees as they 
develop training plans to improve capabilities and/or remediate skill 
deficits. Training to develop claims processing skill requires 
practical application using VA systems and processes that closely guard 
Veterans' privacy. Effective training requires close evaluation 
achievable only by experts in claims processing, such as is conducted 
within VA. Educational institutions are unlikely to provide meaningful 
development of claims processor skills in Veterans.
    The requirement to coordinate with educational institutions to 
develop training and programs for members of the Armed Forces seems to 
contradict the rules in section 3680A of title 38, United States Code, 
which prohibits VA from approving programs of education where more than 
85 percent of the students enrolled are in receipt of VA education 
benefits. Additionally, VA has concerns that the intent of providing 
specific training for employment for claims processing positions may 
actually limit their employment opportunities as their training would 
be specific to a position and not an industry or general career field.
    VA has partnered with other Federal agencies to include DOD, 
Department of Education, DOL, SBA, and OPM to develop a process through 
redesign of the TAP in order to achieve the President's intent for a 
``career-ready military.'' The redesign provides training to enable 
transitioning Servicemembers to meet Career Readiness Standards by 
translating military skills into Federal or private work opportunities 
and better prepare Servicemembers in making a successful transition 
from military to civilian life. VA is also responsible for delivering 
the Career Technical Training Track (CTTT) which assists Servicemembers 
in developing a plan for a technical career after departing the 
military. The CTTT is a 16-hour course targeted toward Servicemembers 
who may not choose a 4-year education option and who are seeking rapid 
employment. As part of the redesign efforts of TAP, VA partners with 
DOD and the Military Services in implementing a Capstone event to 
verify Servicemembers are career ready when departing the military. VA 
will provide support in the development of a Military Life Cycle, which 
will incorporate Career Readiness Standards throughout an individual's 
military career versus during the last few months prior to separation.
    There are no mandatory or discretionary costs associated with this 
section.
    Section 105 of S. 928 would mandate a pilot program to assess the 
feasibility and advisability of entering into memorandums of 
understanding with local governments and tribal organizations, to 
include at least two tribal organizations and 10 state or local 
governments, for the purpose of improving the quality of claims 
submitted and assisting Veterans who may be eligible for disability 
compensation in submitting claims.
    While VA supports efforts to enhance service and benefits delivery 
to all categories of Veterans to include those of tribal organizations, 
the rationale and intent behind this section of the bill is unclear. 
Therefore, VA does not support this section. A pilot is unnecessary 
given that VA regularly conducts outreach to tribal organizations. 
Further, VA works closely with State and local governments, which 
employ claims representatives to assist Veterans and their family 
members with filing claims. VA regularly trains state and county 
personnel to ensure they are equipped to assist Veterans in their 
communities.
    Costs cannot be accurately estimated without understanding the 
scope of this provision. However, it is anticipated that additional 
discretionary funds would be needed to administer the program and to 
train the local governments and tribal organizations to accurately 
discuss VA benefit programs and assist with claims.
    Section 106 of the bill would require VA, not later than 90 days 
after the date of the enactment of this Act and not less frequently 
than quarterly thereafter through calendar year 2015, to submit to the 
Senate and House Committees on Veterans' Affairs a report on the 
backlog of claims. The report would include the following elements:

    (1) For each month through calendar year 2015, a projection of the 
following:

          a. The number of claims completed;
          b. The number of claims received;
          c. The number of claims backlogged at the end of the month;
          d. The number of claims pending at the end of the month; and
          e. A description of the status of the implementation of 
        initiatives carried out by the Secretary to address the 
        backlog.

    (2) For each quarter through calendar year 2015, a projection of 
the average accuracy of disability determinations for compensation 
claims that require a disability rating (or disability decision);
    (3) For each month during the most recently completed quarter, the 
following:

          a. The number of claims completed;
          b. The number of claims received;
          c. The number of claims backlogged at the end of the month;
          d. The number of claims pending at the end of the month; and
          e. A description of the status of the implementation of 
        initiatives carried out by the Secretary to address the 
        backlog.

    (4) For the most recently completed quarter, an assessment of the 
accuracy of disability determinations for compensation claims that 
require a disability rating (or disability decision).

    VA does not oppose section 106. Although various data elements from 
this bill are already publicly available and/or provided to Congress on 
a regular basis, this section of the bill would formalize the 
transmission of specific performance data.
    No mandatory or discretionary costs are associated with this 
section.
                                 s. 930
    S. 930 would add a new subsection to section 5314 of title 38, 
United States Code, to delay the recovery of overpayments made by VA to 
individuals receiving Post-9/11 GI Bill benefits until their last 
payment or payments under that program. This new provision would not 
apply to individuals, who either completed the program of education for 
which the debt was made or failed to attend class during the two 
academic semesters following the creation of the overpayment. VA would 
be authorized to charge interest on the amount of indebtedness so that 
the delayed payment actuarially would be equal to the amount as if the 
debt were paid immediately. The new subsection would apply to all debts 
created after the date of enactment and would expire 9 years after the 
date of enactment.
    VA does not support this bill. It would require VA to delay the 
collection of debts by making deductions from the last payment or 
payments due to beneficiaries. VA would not be able to project when 
Post-9/11 GI Bill beneficiaries would use their benefits for the last 
time and the amount of the last payment. As a result, it would be 
difficult to determine when the debt should be recouped. Furthermore, 
withholding some or all the payments due to a Veteran for his/her final 
enrollment may place undue financial burden on the Veteran during his/
her last school term, potentially putting at risk the Veteran's ability 
to complete his or her program and graduate. If an overpayment remains 
after the final payment has been withheld, that overpayment would be 
the responsibility of the Veteran and would be subject to collection 
through the Treasury Offset Program if the Veteran is unable to pay out 
of pocket.
    This legislation would not apply to individuals who fail to attend 
classes in a manner consistent with ``normal pursuit'' of a program of 
education during the next two academic semesters after such 
overpayment. It is not clear what is meant by ``normal pursuit'' as 
individuals may pursue training on a part-time basis and may take short 
breaks in training periods. Furthermore, the proposed legislation 
directs VA to charge the individual interest for debts that must be 
collected. It is not clear whether interest would accrue from the date 
the overpayment is created or the date VA begins collection due to non-
pursuit of training. It is also unclear whether the debt should be 
deferred if the individual resumes ``normal pursuit'' after the debt 
collection process is initiated.
    VA does not believe that the potential benefits gained by deferring 
some Veteran debts would outweigh the increased burden Veterans may 
face to repay large amounts out-of-pocket (as there will be little to 
no benefits remaining) or the burden placed on VA to administer this 
provision. Moreover, this legislation conflicts with the intended 
spirit of the Improper Payment Elimination and Recovery Act of 2010 and 
the Debt Collection Improvement Act of 1996, both of which speak to 
proper identification and recovery of Federal debts.
    S. 930 would be effective on the date of enactment; however, its 
implementation would require extensive changes to VA's collection 
process, including labor-intensive systems changes. Thus, VA would need 
at least 18 months from the date of enactment to develop and/or amend 
systems to account for this change, train personnel on the change, and 
inform beneficiaries.
    VA estimates that enactment of S. 930 would result in benefits 
costs to VA of $233 million during the first year, $1.3 billion over 5 
years, and $2.4 billion over 10 years.
                                 s. 932
    S. 932, the ``Putting Veterans Funding First Act of 2013,'' would 
extend the authority for advance appropriations provided in the 
Veterans Health Care Budget Reform and Transparency Act to all of VA's 
discretionary accounts, effective in 2016 and in each fiscal year 
thereafter. We appreciate how Congressional support for VA advance 
appropriations for our medical care accounts has enabled a multi-year 
approach to medical budget planning and ensured continued medical 
services for Veterans. The advance medical care appropriation was 
designed to ensure continuity of critical medical operations in the 
face of fiscal uncertainty.
    A proposal to expand VA advance appropriations needs to be 
considered by the Administration as part of an across-the-government 
review of the advantages and disadvantages of such an approach not only 
for VA, but potentially other programs and agencies. Only in the 
context of such a broad review could the Administration offer an 
opinion on making such a change for VA. We cannot therefore offer a 
position on S. 932 at this time. We very much appreciate the concern 
for Veterans services reflected in the proposal and look forward to 
working with the Committee on how to best maintain the provision of VA 
benefits and services in light of fiscal uncertainties.
                                 s. 935
    S. 935, the ``Quicker Veterans Benefits Delivery Act of 2013,'' 
would revise statutes pertaining to adjudications and payment of 
disability benefits.
    Section 2 of this bill would prohibit VA from requesting a medical 
examination when the claimant submits medical evidence or an opinion 
from a non-VA provider that is competent, credible, probative, and 
adequate for rating purposes. Section 3 would add a third level of pre-
stabilization rates under section 4.28 of title 38, Code of Federal 
Regulations, that can be assigned to recently discharged Veterans. 
Currently, pre-stabilization rates include a 50-percent and 100-percent 
evaluation. This bill proposes to add a 30-percent evaluation. In 
addition, the bill would create a new ``temporary minimum disability 
rating.'' The bill would authorize such a rating for a Veteran who has 
one or more disabilities not already covered under the current 
temporary-rating scheme and ``submits a claim for such disability that 
has sufficient evidence to support a minimum disability rating.'' Under 
section 4, VA would be authorized to issue benefits payments prior to 
the month for which such payments are issued. Currently, VA issues 
benefits payments on the first of the month for the previous month's 
entitlement.
    VA does not support S. 935. VA appreciates the intent of the 
provisions, which seek to provide benefits to Veterans more 
expeditiously. However, as written, these provisions are, in some 
respects, unnecessary, unclear, and problematic to implement.
    Section 2 of the bill is duplicative of existing law. This section 
prohibits VA from requesting a medical examination when evidence that 
is submitted is adequate for rating purposes. Section 5103A(d)(2) of 
title 38, United States Code, notes that an examination or opinion is 
only required when the record does not contain sufficient medical 
evidence to make a decision. Furthermore, section 5125 of title 38, 
United States Code, explicitly notes that private examinations may be 
sufficient, without conducting additional VA examinations, for 
adjudicating claims. VA regulations are consistent with these statutory 
requirements. Therefore, this section is unnecessary and duplicative. 
VA is already allowed to adjudicate a claim without an examination if 
evidence is provided by the claimant that is adequate for rating 
purposes. There are no costs associated with section 2.
    VA does not support section 3. The intent of this provision and how 
it would be implemented are unclear. The existing pre-stabilization 
rates, 50 percent and 100 percent, are used to compensate Veterans with 
severe injuries that are unstable and which materially impair 
employability. The criteria for when the proposed 30-percent evaluation 
would be used are not specified. However, generally, a rating of 30 
percent indicates that an individual is able to participate in the 
examination process and is capable of employment. Because the Veteran 
would be required to be re-examined and re-evaluated between 6 and 12 
months after discharge, this provision would inconvenience Veterans as 
well as require additional work on the part of claims adjudicators and 
medical examiners.
    To the extent the bill would create a whole new category of 
claimants eligible to receive a temporary minimum disability rating, VA 
does not support this provision. It is unclear how this would be 
implemented (i.e., whether the term ``temporary minimum disability 
rating'' refers to the proposed 30 percent pre-stabilization rating or 
whether it refers to the current minimum compensable schedular rating 
of 10 percent. Additionally, it is unclear what is meant by the 
requirement that the claimant submit ``sufficient evidence to support a 
minimum disability rating.'' If interpreted to mean that the claimant 
need only submit evidence of a current disability to be assigned a 
temporary rating of 30 percent, such a practice would likely result in 
frequent overpayments that would later need to be adjusted. Likewise, a 
Veteran with multiple disabilities would often be undercompensated. In 
general, establishing temporary ratings means that cases will need to 
be processed twice, which is not an efficient use of resources. 
Subsection (c), which directs that cases with pre-stabilization ratings 
or temporary minimum disability ratings not be counted in the backlog 
of disability claims, raises questions about how these cases would be 
tracked and counted in VA's workload and concern about data integrity. 
VA is unable to provide costs for section 3, as the provision is 
unclear. Additional information concerning the criteria that would 
create entitlement would be required to determine costs.
    VA does not support section 4 of the bill, as its intent is 
unclear, and it could create significant administrative burdens and 
costs for VA. This provision would authorize the Secretary to certify 
benefit payments so that payments will be delivered ``before the first 
day of the calendar month for which such payments are issued.'' VA is 
already authorized to make payments prior to the first of the month 
whenever the first day of the calendar month falls on a Saturday, 
Sunday, or legal public holiday. The payment VA makes on or near the 
first of the month is payment for the prior month's entitlement. If the 
intent of section 4 is to permit VA to make this payment prior to the 
first of the month irrespective of whether that date falls on a weekend 
or holiday, we recommend replacing the phrase ``for which such payments 
are issued'' with the phrase ``in which such payments would otherwise 
be issued.'' However, if the intent is to authorize VA to deliver 
disability payments a full month in advance, such a change in procedure 
would raise several concerns. For a Veteran with an award that is 
currently ongoing, an additional month of mandatory funding would be 
required, as an extra payment would need to be made to advance payments 
to a month-in-advance status. Additionally, paying benefits in advance 
significantly increases the chances for overpayment of benefits and 
directly conflicts with the spirit of the Debt Collection Improvement 
Act and the Improper Payment Elimination and Recovery Improvement Act. 
Current processing allows VA to prevent payments from being released if 
a Veteran becomes ineligible during the month. For example, if a 
Veteran student drops out of school or passes away during the month, VA 
is able to amend his or her benefit award and prevent payment from 
being released. Paying in advance would eliminate VA's ability to 
prevent this type of improper payment. Paying benefits prior to the 
month in which they are earned would potentially result in increased 
overpayments.
    Absent clarification as discussed above, VA opposes this section of 
the bill, as it potentially would create an administrative burden and 
significant costs in the reprogramming of VA's computer systems. The 
systems used by VA do not currently allow prospective payments, and 
this section would create the need to reprogram multiple applications.
    For section 4, if the intent of the proposed bill is to release 
benefit payments on the last day of the month for which they are due, 
rather than the first of the following month, as is the current 
practice, VA sees little impact to our internal processes or Office of 
Information Technology (OIT) applications. This change would require 
that our schedule of operations be modified by at least 1 business day 
to send our bulk payment files to the Department of the Treasury 
earlier in the month so payments could be delivered (by mail or 
electronically) on the last business day of the month rather than the 
first of the following month. The Department of the Treasury does not 
anticipate this potential change would be an issue with regards to 
processing and releasing VA benefit payments.
    However, if the intent of section 4 is to issue payments in advance 
of when they are due, VA OIT systems would require significant 
modifications, which would take longer than the 90-day period allowed 
to implement this section. For example, if the intent is that payment 
for July be received prior to July 1 (e.g., June 30), rather than 
August 1, the current functionality that generates the recurring or 
monthly payment files would require significant changes. VBA has ten 
separate OIT payment applications that produce a recurring or monthly 
payment file that would need to be modified. Changes of this nature 
would require significant OIT funding that is not budgeted and re-
prioritization of planned OIT initiatives.
    If the intent of section 4 is to release benefit payments on the 
last day of the month for which they are due, rather than the first of 
the following month as is the current practice, there are no benefit 
costs or savings associated with section 4. While this provision would 
impact the timing of outlays, it would not affect obligations. If the 
intent of section 4 is to issue payments in advance of when they are 
due, there would be costs, including costs associated with the 
increased chances of overpayments. However, more information would be 
required to calculate the benefit costs in this scenario.
                                 s. 938
    S. 938, the ``Franchise Education for Veterans Act of 2013,'' would 
amend title 38 United States Code, to allow Veterans who are eligible 
for educational assistance under the All-Volunteer Force Educational 
Assistance Program (chapter 30) or the Post-9/11 Educational Assistance 
Program (chapter 33) and no longer on active duty, to pursue training 
and receive educational assistance for franchise training. The amount 
of educational assistance payable under this program shall be, within 
any 12-month period in which training is pursued, the sum of the fees 
assessed by the training establishment, a monthly housing stipend for 
each month of training pursued equal to the monthly amount of the basic 
allowance for a Servicemember with dependents in pay grade E-5 residing 
in military housing within the zip code area of the training 
establishment, and a monthly stipend in the amount equal to $83 for 
each month of training for books, supplies, equipment, and other 
educational costs or $15,000, whichever is less.
    VA supports the intent of S. 938; however, we cannot support this 
bill due to significant administrative impacts and a need for further 
refinement in order to make this policy executable and supportable. We 
are unclear how VA would determine that the franchise training pursued 
by the Veteran would result in the establishment of a franchise. 
Franchise training times vary depending on what the franchise business 
requirements are (e.g., Meineke may be 4 weeks, whereas 7-Eleven may be 
2-4 weeks). VA would have to establish ways to measure the franchise 
training and conduct adequate oversight to ensure compliance that is 
necessary for the State Approving Agencies (SAA) to approve the 
training programs. It is unclear whether any limitations should be 
established as to when VA should approve the individual pursuit of the 
franchise training. For example, it is unclear whether VA would need to 
ensure the individual who desires to open a business first provide 
business plans or proof of funding in order to establish the franchise.
    Due to the need to develop regulations to provide rules to 
administer this new benefit type, provide training to the SAAs who will 
approve the training, and provide training to the field offices on 
processing, VA recommends that this provision become effective at the 
beginning of a fiscal year but no earlier than 12 months from date of 
enactment.
    VA estimates that benefit costs associated with enactment of S. 938 
would be $1.5 million in the first year, $7.5 million over 5 years, and 
a total of $15.0 million over 10 years.
                                 s. 944
    S. 944, the ``Veterans' Educational Transition Act of 2013,'' would 
amend section 3679 of title 38, United States Code, by adding a new 
subsection at the end. The new subsection would require VA to 
disapprove any course offered by a public institution of higher 
education that does not charge Veterans and eligible dependents 
pursuing a course of education with educational assistance under the 
All-Volunteer Force Educational Assistance Program (chapter 30) or the 
Post-9/11 Educational Assistance Program (chapter 33), in-state 
tuition, and fees, regardless of their state of residence.
    Under this legislation, a ``covered individual'' would be a Veteran 
who was discharged or released from a period of no less than 180 days 
of service in the active military, naval, or air service less than 2 
years before the date of enrollment in the course concerned, or an 
individual who is entitled to assistance under section 3311(b)(9) or 
3319 of title 38 by virtue of such individual's relationship to a 
covered Veteran.
    S. 944 would apply to educational assistance provided for pursuit 
of programs of education during academic terms that begin after July 1, 
2015.
    While VA is sympathetic to the issue of rising educational costs, 
we cannot endorse this legislation until we know more about the impact. 
VA is concerned that possible reductions in course offerings could be 
the result from this requirement, which could negatively impact 
Veterans' educational choices. In-state tuition rules are set by 
individual States and are undoubtedly driven by overall fiscal factors 
and other policy considerations.
    Enactment of S. 944 may result in cost savings for VA because the 
Department would no longer make Yellow Ribbon program payments to 
public institutions of higher learning--these schools would either 
charge in-state tuition, negating the need to make up the difference 
between in-state and out-of-state tuition, or the school would cease to 
be approved for VA education benefit participation. However, as noted 
above, it is difficult to project the effect of this legislation on the 
courses offered by public educational institutions, so students may 
choose not to use their benefits at all because of reduced educational 
choices.
    VA estimates that benefit savings to the Readjustment Benefits 
account would be $70.2 million over 5 years and $206.2 million over 10 
years.
    VA estimates that there would be no additional GOE administrative 
costs required to implement this amendment.
                                s. 1039
    S. 1039, the ``Spouses of Heroes Education Act,'' would amend the 
Post-9/11 GI Bill (chapter 33 of title 38, United States Code) to 
expand the Marine Gunnery Sergeant John David Fry scholarship to 
include spouses of members of the Armed Forces who die in the line of 
duty. Currently, only children of Servicemembers who die in the line of 
duty while serving on active duty in the Armed Forces are eligible for 
such education benefits.
    This bill would make spouses eligible for education benefits under 
chapter 33 for 15 years from the date of the Servicemember's death, or 
the date on which the spouse remarries, whichever comes first.
    A surviving spouse who establishes chapter 33 eligibility based on 
this bill and is also eligible for education benefits under the 
Dependents' Educational Assistance (chapter 35) program would have to 
make an irrevocable election with respect to receipt of educational 
assistance (under one program only).
    S. 1039 also would amend section 3321(b)(4) of title 38 to specify 
that the period of eligibility for a child entitled to Post-9/11 GI 
Bill educational assistance under the Marine Gunnery Sergeant John 
David Fry scholarship expires 15 years after the child's eighteenth 
birthday.
    VA supports S. 1039, subject to Congress identifying appropriate 
offsets for the benefit costs. If enacted, this legislation would offer 
eligible surviving spouses more generous monetary benefits than they 
are currently eligible to receive. Currently, a surviving spouse of a 
Servicemember who dies in the line of duty may receive education 
benefits under chapter 35, which include a 20-year delimiting date, 45 
months of entitlement, and a current full-time monthly rate of $987. 
Under this legislation, eligible spouses would receive full tuition and 
fees at a public institution (or the maximum amount payable at private 
institutions), a housing allowance, and a books and supplies stipend of 
up to $1,000.
    Since the benefits are greater under chapter 33 than under chapter 
35, VA anticipates surviving spouses would elect to receive benefits 
under chapter 33. As a consequence, this would decrease the number of 
chapter 35 beneficiaries.
    VA estimates that, if enacted, S. 1039 would result in benefit 
costs to VA of $10.3 million during the first year, $67.7 million for 5 
years, and $163.9 million over 10 years. No administrative or personnel 
costs to VA are associated with this bill. VA IT costs are estimated to 
be $9.3 million. These costs include enhancements to the Post-9/11 GI 
Bill Long-Term Solution. If these IT enhancements could not be 
implemented, manual processing of claims would be required, which would 
result in an overall decrease in timeliness and accuracy in processing 
Post-9/11 GI Bill claims. We estimate that VA would need one year from 
date of enactment to implement this change.
                                s. 1042
    S. 1042, the ``Veterans Legal Support Act of 2013,'' would allow 
the Secretary to provide support to one or more university law school 
programs that are designed to provide legal assistance to Veterans. 
Funding for such programs would be derived from amounts appropriated 
for or made available to the Medical Services account of VA.
    VA does not support S. 1042. While VA supports the endeavors of 
university law school programs to assist Veterans in seeking VA 
benefits, it does not believe such a program would be an effective use 
of Medical Services funds.
    Under the terms of the bill, the amount that can be expended in any 
one year is limited to $1 million.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Bernard Sanders to 
                  U.S. Department of Veterans Affairs
    Question 1. Section 201 of S. 928 would amend section 7105(b)(1) of 
title 38 to require claimants seeking appellate review of a VA decision 
to file a notice of disagreement (NOD) within 180 days from the date VA 
mails such decision to the claimant. For the last three fiscal years 
please provide the following:

    i. Total number of notice of disagreements filed with VA;
    Response.

                Fiscal Year 2013:  117,472
                Fiscal Year 2012:  116,802
                Fiscal Year 2011:  126,665

    ii. Number and percentage of notice of disagreements that were 
filed within 0-30 days, 31-60 days, 61-90 days, 91-189 days, and 181-
365 days.
    Response.
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               0-30 days          31-60 days         61-90 days        91-180 days         181+ days
                                                          ----------------------------------------------------------------------------------------------
                                                             Number    Pct.     Number    Pct.     Number    Pct.     Number    Pct.     Number    Pct.
--------------------------------------------------------------------------------------------------------------------------------------------------------
FY 2013..................................................    40,819     35%     19,911     17%     10,336      9%     17,426     15%     28,980     25%
FY 2012..................................................    39,518     34%     19,726     17%     10,645      9%     18,318     16%     28,595     24%
FY 2011..................................................    40,025     32%     20,871     16%     11,613      9%     20,199     16%     33,957     27%
--------------------------------------------------------------------------------------------------------------------------------------------------------


    Question 2. VA's written testimony in regards to section 201 of 
S. 928 states ``* * * If a claimant waits until the end of the 1-year 
period to file a NOD, VA is often required to re-develop the record to 
ensure the evidence of record is up to date. Data support the 
conclusion that such late-term development delays the resolution of the 
claim.''
    a. What data supports the conclusion that late-term development 
delays resolution of the claim? Please provide this data to the 
Committee.
    Response. There is a well-established pattern within the appeals 
system that the longer an individual takes to appeal his or her 
decision; the more likely it is that further development will be 
necessary. For example, a Veteran filing an appeal after 340 days from 
the decision is much more likely to have had medical treatment during 
those 340 days than an individual that filed an appeal after 27 days. 
This requires VA to develop for such evidence, which in turn leads to a 
longer appeals resolution time.
    The table below includes data pulled from VA's Veterans Appeals 
Control and Locator System (VACOLS) on June 24, 2013. A review of 
fiscal years 2009-2012 data reveals evidence of a direct relationship 
between later filing (beyond 300 days) and longer resolution times. 
Notice of Disagreements (NOD) filed after 300 days took 36 days longer 
on average to resolve than the entire inventory of NODs, 42 days longer 
than those filed between 31-60 days, and 55 days longer than those 
filed within 30 days.
------------------------------------------------------------------------
                                                          Days to BVA
            Days from RO Decision to NOD                   Decision
------------------------------------------------------------------------
                            Fiscal Year 2012
0-30................................................              1,325
31-60...............................................              1,355
300+................................................              1,383
Average for all NODs................................              1,348
------------------------------------------------------------------------
                            Fiscal Year 2011
0-30................................................              1,175
31-60...............................................              1,182
300+................................................              1,228
Average for all NODs................................              1,196
------------------------------------------------------------------------
                            Fiscal Year 2010
0-30................................................              1,153
31-60...............................................              1,156
300+................................................              1,202
Average for all NODs................................              1,169
------------------------------------------------------------------------
                            Fiscal Year 2009
0-30................................................              1,143
31-60...............................................              1,155
300+................................................              1,201
Average for all NODs................................              1,159
------------------------------------------------------------------------


    Question 3. During a discussion of the interoperability of DOD and 
VA medical record systems, Mr. Murphy's oral testimony discussed the 
delivery by DOD of certified complete service treatment records. VA 
stated that ``* * * 97 percent of those records are being delivered 
with a certified complete statement on top.''
    a. Please provide the Committee with copies of all previous and 
current agreements, including but not limited to the December 6, 2012, 
agreement and February 22, 2013 amended agreement referenced in Fast 
Letter 13-09, between DOD and VA on certification and transfer of 
service treatment records.
    Response. The Fast Letter and agreements follow:



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Based on the December 6, 2012 agreement, Fast Letter 13-09 was 
issued on January 1, 2013, and did not require service treatment 
records (STR) certification letters to contain the Servicemember's name 
and last four digits of his or her social security number (SSN). On 
February 22, 2013, the agreement with DOD was amended to require the 
military services to provide the name and last four digits of the 
Servicemember's SSN on each certification letter. DD Form 2963, STR 
Transfer or Certification, was published on June 25, 2013, for 
implementation effective August 1, 2013. Full implementation by the 
services is expected by November 1, 2013.

    b. Please provide the Committee with the following information:

          i. Number of service treatment records, by military 
        department, received since implementation of the December 6th 
        agreement.
          Response. Please see the below chart with the number of 
        service treatment records received by branch of service from 
        January 2013 through June 21, 2013.
------------------------------------------------------------------------
                                                                Total
         Branch of Service             Jan-Mar   Apr-Jun 21    Received
------------------------------------------------------------------------
ARMY...............................      15,074      11,374       26,448
NAVY...............................      10,177       8,271       18,448
MARINE CORPS.......................       9,814       6,332       16,146
AIR FORCE..........................       8,708       8,824       17,532
COAST GUARD........................         495         545        1,040
                                    ------------------------------------
    TOTAL..........................      44,268      35,346       79,614
------------------------------------------------------------------------


          ii. Number of service treatment records, by military 
        department, with certification received since implementation of 
        the December 6th agreement.
          Response. The Records Management Center (RMC) began tracking 
        and reporting STR certification compliance in April 2012. The 
        following data was collected from April 2012 through June 21, 
        2013.
----------------------------------------------------------------------------------------------------------------
                                                                              STRs          STRs
                                                                Non-        Certified     Certified      Total
                     Branch of Service                      Availability   with 1/1/13  with 2/22/13   Received
                                                               Letter*      Guidance     Guidance**
----------------------------------------------------------------------------------------------------------------
ARMY......................................................     1,134          4,335        1,942         7,411
NAVY......................................................       559          1,552          782         2,893
MARINE CORPS..............................................       198          1,829          445         2,472
AIR FORCE.................................................       908          4,574        2,592         8,074
COAST GUARD...............................................        24            117           73           214
                                                           -----------------------------------------------------
    TOTAL.................................................     2,823         12,407        5,834        21,064
----------------------------------------------------------------------------------------------------------------
 *A non-availability letter is used when a complete STR is unavailable (i.e., Medical Only, Dental Only, or
  partial STRs).
**Letter is substantially similar to version implemented 01/01/2013, but includes Veteran's name and last 4 of
  SSN


    At the end of May 2013, the RMC Director and the five service 
branches discussed the current process and established a way forward to 
ensure STRs were complete. On June 4, 2013, the Navy posted 
Servicemembers at the RMC to assist with obtaining a certification 
letter for all STRs for both the Navy and Marines.
    DD Form 2963, STR Transfer or Certification, was published on 
June 25, 2013, for implementation effective August 1, 2013. Full 
implementation by the services is expected by November 1, 2013.

          iii. Number of service treatment records, by military 
        department, with certification received since implementation of 
        the December 6th agreement that met the requirements of Fast 
        Letter 13-09.
          Response. Please see the chart in the previous response.

          iv. Since May 31, 2013, how many service treatment records 
        have been returned to the appropriate military service because 
        they were not transmitted with the required certification 
        letter?
          Response. Since May 31, 2013, 32 STRs have been returned due 
        to lacking the required certification letter.

    c. How many service treatment records have been requested from the 
National Guard or Reserves while this agreement has been in effect and 
how many service treatment records have been received with the required 
certification?
    Response. The legacy systems do not identify Veterans based on 
service component (active or reserve). The reserve components do not 
capture whether the member is assigned to the Guard or Reserves 
specifically. Although VA has the ability to pull data from VADIR that 
will identify members of the Guard and Reserve, that information does 
not provide how many claims require STRs.

    d. If the service treatment records from one component, such as the 
National Guard are certified complete, will VA take any action where a 
veteran reports treatment during active duty with a different unit or 
component, but the treatment information is not included in the 
certified record? If so, what actions will be taken?
    Response. These records are not received as certified if the member 
is still serving. For those who have separated or retired, current 
guidance in Fast Letter 13-09 states:

          STRs are the outpatient treatment records and discharge 
        summaries of inpatient care only. The STRs do not include the 
        full inpatient treatment records or behavior health records. 
        The inpatient records and behavior health records will not 
        contain a certification letter.
          Development for additional paper STRs should only be 
        conducted on these certified STRs when:

          1. The Veteran alleges treatment at a specific military 
        treatment facility for a specific timeframe and,
          2. That treatment information is not included within the 
        certified paper STRs.

          A request for the needed paper STRs should be sent to the 
        military point of contact on the paper STRs certification 
        letter and all follow-ups should follow the guidance outlined 
        in the M21-1MR III.iii.2.I.61 titled ``General Information on 
        Special Follow-Up by Military Records Specialists.''

    Question 4. VA's written testimony indicated that the Department 
does not support section 104 of S. 928 on the basis that Indian tribes 
engage in a broad scope of governance activities, often lack veteran-
specific focus, and are not among the organizations that, by 
regulation, can recognize representatives to prepare, present or 
prosecute claims. States and regional or local organizations can 
recognize representatives to prepare, present or prosecute claims. Like 
states, some Indian tribes have departments and offices responsible for 
administering benefits and services to eligible veterans, including 
persons who participate in VA's tribal veteran representative program. 
Given that geographical challenges can result in very little 
involvement on tribal lands from organizations that have recognized 
representatives, please explain why Indian tribes should not be 
provided that same opportunity to recognize their own representatives, 
under the criteria outlined in sections 14.628 and 14.629 of title 38, 
Code of Federal Regulations.
    Response. VA's discretionary authority to recognize national, 
state, and regional/local organizations is derived from 38 United 
States Code (U.S.C.) Sec. 5902(a)(1). Pursuant to the authority granted 
in section 5902(a)(1), VA has established in 38 CFR Sec. 14.628 
requirements for recognition of organizations to assist Veterans in the 
preparation, presentation, and prosecution of claims before VA. Under 
section 14.628, an organization seeking recognition must, among other 
requirements, have as a primary purpose serving Veterans, demonstrate a 
substantial service commitment to Veterans, and commit a significant 
portion of its assets to Veterans' services. These criteria are 
consistent with the purpose of VA's recognition regulations to ensure 
that claimants for VA benefits have responsible, qualified 
representation, 38 CFR Sec. 14.626, and have been considered necessary 
characteristics of an organization that will be recognized in providing 
representation to Veterans.
    Under S. 928, as drafted, all Indian tribes, regardless of their 
size and their capability and resources to represent Veterans, and 
without applying for or meeting the requirements for VA recognition 
applicable to other organizations seeking to represent Veterans, would 
be placed on a par with the five organizations specifically identified 
by Congress in authorizing VA recognition of organizations and their 
representatives. The draft legislation would seemingly assume that all 
Indian tribes have the capability to provide qualified, responsible 
representation to Veterans and are prepared to certify to VA that 
certain of their members are qualified to represent Veterans before VA.
    Under current law, an Indian tribe Veterans service department may 
apply for VA recognition as a regional or local organization and may be 
recognized for purposes of providing representation services before VA 
if the organization satisfies the requirements for recognition under 
section 14.628. If an Indian tribe does not currently have a Veterans 
service department, a particular tribe or group of tribal Veterans 
representatives could establish a separate organization to provide 
representation services to Veteran members of Indian tribes with claims 
before VA and then apply for VA recognition as a regional or local 
organization. The organization would be required to submit information 
and documentation addressing each of the section 14.628 requirements. 
For instance, the application would have to include information 
regarding the organization and its purpose, such as a charter or bylaws 
of the organization; financial statements establishing the 
organization's financial viability; and the organization's plans 
regarding recruitment, training, and supervision of its 
representatives. If VA were to recognize such an organization, the 
organization could then certify for VA accreditation members of the 
organization who could provide representation services to Veteran 
members of Indian tribes.
    Also, currently, a member of an Indian tribe may request 
accreditation to assist Veterans in the preparation, presentation, and 
prosecution of claims for VA benefits as an agent or attorney under 38 
CFR Sec. 14.629(b) or as a representative of a currently recognized 
Veterans Service Organization under 38 CFR Sec. 14.629(a).
    Nonetheless, to the extent the intent is that the proposed 
legislation explicitly provide a means for Indian tribe Veterans 
service departments to seek VA recognition in a manner similar to state 
Veterans affairs departments, and to expressly authorize VA to 
recognize particular Indian tribe Veterans service departments for 
purposes of providing representation services if the organizations 
apply for VA recognition and meet the requirements for recognition 
under section 14.628, the insertion of ``, including organizations of 
Indian tribes (as defined in section 4 of the Indian Self-Determination 
and Education Assistance Act (25 U.S.C. 450(b)),'' after ``and such 
other organizations'' in section 5902(a)(1) would achieve that purpose 
and would be consistent with VA's current practice with respect to 
recognizing national, state, and regional or local Veterans 
organizations to ensure the provision of qualified, responsible 
representation to claimants for VA benefits.

    Question 5. Unlike the Medicaid program, VA's pension program does 
not have any set aside of assets for the spouse of an institutionalized 
veteran who is residing in a health care facility. VHA has allowed a 
set aside of assets for the spouse of a veteran receiving health care 
in a long term care facility when assessing co-payments. VHA recently 
proposed amending their asset exclusion for a spouse residing in the 
community to match the amount allowed under Medicaid. 78 FR 23702 
(April 22, 2013). S. 748 does not provide community spouses of veterans 
asset protections similar to those afforded to Medicaid recipients or 
recipients of VHA long term care. Would VA support providing similar 
protections to spouses provided by VHA to VBA pensioners?
    Response. While it is true that there is no express ``set aside'' 
of assets for the spouse of an institutionalized Veteran who has 
applied for VA pension, VA has implemented the pension program in a 
manner that prevents the impoverishment of a spouse. Under current VA 
regulations, VA will deny pension when the ``estate of the Veteran, and 
of the Veteran's spouse, are such that under all of the circumstances, 
it is reasonable that some part of the corpus of such estates be 
consumed for the Veteran's maintenance.'' In determining whether it 
would be reasonable to require such consumption, VA evaluates a number 
of factors, such as the claimant's income, whether property can be 
readily converted to cash, life expectancy, number of dependents, 
potential rate of depletion of assets, and medical expenses. This 
multi-factor evaluation generally provides a level of protection for 
spouses of institutionalized Veterans that is near the upper limit of 
the Community Spouse Resource Standard (CSRS) that Congress authorized 
for Medicaid. However, current VA regulations do not prescribe a 
bright-line net worth limit for pension eligibility that is based upon 
the CSRS or any other objective standard. The Veterans Benefits 
Administration's (VBA) Pension and Fiduciary (P&F) Service has drafted 
regulations that would establish such a limit and provide clear notice 
regarding protected assets. The draft regulations are under review 
within VA. Accordingly, VA is already taking steps to address Chairman 
Sanders' concerns.

    Question 6. VA's testimony indicated concerns with the length and 
methodology of the look back period. Please explain the impact of the 
effect of the bill's methodology on veterans who transferred 
substantial assets (such as over a million dollars) and veterans who 
have transferred an amount which does not exceed the asset amount the 
veteran would be permitted to keep and still qualify for pension.
    Response. For purposes of our response, assume that VA has 
established a net worth limit of $80,000, and that one Veteran 
transfers $80,000 prior to applying for pension and another transfers 
$1,000,000. Also assume that both Veterans transferred all of their 
resources and have no net worth when they apply for pension. Under 
S. 748, the Veteran who transferred $80,000 would not have a penalty 
period, while the Veteran who transferred $1,000,000 would have a 3-
year penalty period.
    However, if the first Veteran transferred $82,000 rather than 
$80,000, S. 748 would prescribe a penalty period based upon the entire 
$82,000 (rather than on $2,000), and the Veteran who transferred 
$82,000 would have the same 3-year penalty period as the Veteran who 
transferred $1,000,000.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Richard Burr to 
                  U.S. Department of Veterans Affairs
    Question 1. If the Department of Veterans Affairs (VA) finds that 
veterans or other VA beneficiaries need help with their finances, VA 
assigns a fiduciary to help them and also sends their names to be 
included in the National Instant Criminal Background Check System 
(NICS). At the hearing, VA testified that it could be a physical 
disability, rather than a mental condition, that leads to assignment of 
a fiduciary.
    a. Of the individuals VA has sent to the NICS list, how many are 
suffering from physical impairments, rather than mental ailments?
    Response. To clarify, VA regulations specify that determinations of 
competency for purposes of the VA fiduciary program are based on mental 
competency, and not on physical disability status. The majority of VA 
beneficiaries on the NICS list suffer from mental disabilities that 
inhibit their ability to manage their VA affairs. Some individuals 
suffer from physical disabilities with co-existing mental conditions 
that affect their capacity to handle their VA financial affairs (e.g., 
amyotrophic lateral sclerosis, Traumatic Brain Injury). VA does not 
have data on the number of incompetent beneficiaries who fall into this 
category.
    b. Once their names are sent to the NICS list, are they included on 
that list under the category for people with mental health conditions?
    Response. Incompetent Veterans and other incompetent beneficiaries 
are reported to the NICS list as mental defectives, per 18 U.S.C. 
922(g)(4).
    c. Under what legal authority does VA or the Department of Justice 
require the names of individuals with physical disabilities to be sent 
to a database for individuals with mental impairments?
    Response. Some individuals suffer from physical disabilities with 
co-existing mental conditions that affect their capacity to handle 
their VA financial affairs (e.g., amyotrophic lateral sclerosis, 
Traumatic Brain Injury). This may perhaps lead to the need to appoint a 
fiduciary to manage their VA affairs. These individuals are determined 
to be incompetent for VA purposes, and thus are reported to the NICS 
list. The Brady Handgun Violence Prevention Act of 1993 (Public Law 
103-159), as implemented by Department of Justice regulations at 27 CFR 
Sec. 478.11, requires VA to report these individuals.

    Question 2. Of the individuals VA has sent to the NICS list, how 
many are older than 85 years old?
    Response. VA has sent information on 65,725 individuals age 85 or 
older to the NICS list, including 19,627 Veterans.

    Question 3. VA beneficiaries who have trouble with their finances 
can try to keep their names off the NICS list by seeking relief from VA 
and proving they are not a risk to public safety.
    a. How many individuals have sought relief from VA through this 
process?
    Response. Since the NICS Improvements Amendments Act of 2007(NIAA) 
was effective, 236 individuals have sought relief through VA from the 
NICS list.
    b. Has VA notified all individuals with fiduciaries that this 
relief process exists? If so, how was that done and how does VA gauge 
whether that notice was effective?
    Response. Notice of the relief process is provided to an individual 
before and after a rating of incompetency. VA has received 236 requests 
for relief, thus we believe the notifications to be effective.
    c. As of June 2012, VA had granted seven requests for relief from 
the NICS reporting requirements. How many requests have now been 
granted?
    Response. To date, seven relief requests have been granted.
    d. In July 2012, VA suspended processing requests for NICS relief 
so VA could revise its policy to require anyone seeking relief to also 
undergo a criminal history background check. Is that moratorium on 
deciding NICS relief requests still in place? If not, when was it 
lifted?
    Response. As of June 20, 2013, the moratorium on deciding NICS 
relief requests was lifted.
    e. How many NICS relief requests are currently pending and how long 
on average have they been waiting for a decision?
    Response. Forty relief requests are currently pending. Because 
processing those requests was temporarily suspended, the average wait 
time rose to 292 days. Since processing has resumed, those cases will 
be expeditiously processed.
    f. Does VA plan to require veterans and their families to pay for 
the costs of any background checks?
    Response. VA does not plan to require Veterans and their families 
to pay for the costs of any background checks.
    g. Would a criminal history background check be required for young 
children who have fiduciaries?
    Response. In all cases, benefit payments to minors are made to a 
parent guardian, or fiduciary on their behalf. Mental incompetency for 
VA purposes would only become an issue for individuals age 18 or older.
    h. Would a criminal history background check be required for 
individuals of extremely advanced age with limited mobility?
    Response. All persons of age 18 or older are required to follow 
state and Federal laws requiring a criminal history background check. 
VA requires a criminal history for anyone before receiving a grant of 
relief under the NIAA.
    i. Would a criminal history background check be required if VA 
already has clear evidence that the veteran or family member is not 
dangerous?
    Response. All persons of age 18 or older would be required to 
follow state and Federal laws requiring a criminal history background 
check. VA would require a criminal history for anyone before receiving 
a grant of relief under the NIAA.
    j. Please quantify the resources that VA expects to use to 
adjudicate these requests for NICS relief, in terms of the number of 
hours worked, number of employees designated to work on these requests, 
or funding required.
    Response. Each VA regional office assigns an individual or 
individuals to make determinations for relief. The amount of hours 
worked, or funding required, would be dependent on the volume of relief 
requests received in any given time period for a particular regional 
office.

    Question 4. Last year, the Government Accountability Office (GAO) 
reported that over 200 companies are marketing financial products to 
veterans and their families in order to help them qualify for need-
based pension by manipulating their assets. GAO recommended that 
Congress create a ``look-back'' period, so VA can check whether a 
pension applicant moved assets before applying for pension. In 
response, VA indicated that it was already drafting regulations along 
those lines.
    a. Other than the GAO investigation, what led VA to believe a look-
back period may be necessary?
    Response. VBA created its Pension and Fiduciary Service (P&F) in 
2011 to improve the pension program and focus on the unique needs of 
pension beneficiaries. In its initial assessment of the program, which 
preceded GAO's investigation, P&F Service determined that current VA 
regulations did not adequately preserve the pension program for 
Veterans and survivors who have an actual need. The regulations 
permitted claimants to transfer assets prior to applying for pension, 
so long as the claimant relinquished all ownership and control over the 
assets. In addition, VBA had received complaints about financial 
planning businesses seeking to exploit asset transfers through the 
marketing of certain financial products, such as annuities and trusts, 
to Veterans and survivors. P&F Service determined that the pension 
program was at risk for becoming an estate planning tool rather than a 
needs-based program for wartime Veterans and their survivors.
    b. What is the status of those draft regulations?
    Response. The regulations are under review in VA.

    Question 5. There were a number of bills on the agenda that deal 
with the tuition costs for veterans and their family members who are 
attending public institutions of higher education.
    a. How many Post-9/11 GI Bill or Montgomery GI Bill users are 
currently attending public institutions of higher education?
    Response. While VA does not have data that will show how many Post-
9/11 GI Bill or Montgomery GI Bill users are currently attending public 
institutions of higher education, the table below shows the number of 
Post- 9/11 GI Bill beneficiaries that attended public, private for-
profit, and private nonprofit domestic institutions from August 1, 
2009, to January 17, 2013. Please note that the chart does not count 
unique program participants.

     Post-9/11 GI Bill Number Trained by  Domestic Institution Type
                    (August 1, 2009-January 17, 2013)
------------------------------------------------------------------------
                        Profit Status                           Trainees
------------------------------------------------------------------------
Public.......................................................    632,005
Private profit...............................................    325,105
Private nonprofit............................................    185,995
                                                              ----------
    Total....................................................  1,143,105
------------------------------------------------------------------------


    b. Of those, how many are estimated to be paying more than in-state 
tuition rates?
    Response. VA does not have data that will show how many VA 
education beneficiaries are paying more than in-state tuition rates.

    Question 6. Section 233 of Public Law 112-56, which included the 
VOW to Hire Heroes Act of 2011, entitled a veteran who had previously 
completed a vocational rehabilitation program and has exhausted state 
unemployment benefits to an additional 12-month period of vocational 
rehabilitation and employment services.
    a. Since this expansion has been implemented, how many veterans 
have been approved for the additional 12 months of entitlement and 
started a new vocational rehabilitation program?
    Response. Four Veterans started a new vocational program under this 
provision between May 2012 and June 2013.
    b. If few have utilized it, are there other options that should be 
considered to improve vocational rehabilitation and employment programs 
to meet the needs of veterans?
    Response. Before enactment of this law, Vocational Rehabilitation 
and Employment (VR&E) estimated that few Veterans would qualify under 
this provision. Most Veterans who meet the criteria under Section 233 
would already be found eligible under existing VR&E regulations.

    Question 7. S. 819, the Veterans Mental Health Treatment First Act, 
would incentivize veterans to seek treatment for certain conditions, 
such as Post Traumatic Stress Disorder (PTSD). A veteran may receive an 
initial rating of less than 100% but, over the years, may submit claims 
to increase the rating if the veteran's symptoms deteriorate. 
Eventually, a veteran could be rated 100 percent disabled and unable to 
work. The goal of the bill would be to provide veterans with early 
treatment and, hopefully, stop or slow down the progression to the 100 
percent and unemployable determination later in life.
    a. In total, how many veterans receive disability compensation from 
VA for PTSD?
    Response. There are 625,820 Veterans currently receiving disability 
compensation who have a service-connected PTSD rating, including 4,190 
Veterans rated 0 percent for PTSD.
    b. How many of the current generation of veterans--those who served 
in Iraq and Afghanistan--are receiving disability compensation for 
PTSD?
    Response. Of the 625,820 Veterans currently receiving compensation 
who are service-connected for PTSD, 188,903 Veterans served in Iraq and 
Afghanistan.
    c. Please provide the Committee with the number of veterans 
receiving disability compensation for PTSD since 2001. Please break 
this data out by the rating percentage.
    Response. Please see Attachment A Spreadsheet.

                                                                      Attachment A
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                           Number of Veterans Service Connected for Post Traumatic Stress Disorder
                            Fiscal Year                            -------------------------------------------------------------------------------------
                                                                       0       10     20     30      40     50      60     70      80    100      Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
2001..............................................................   1,213   17,485   12    36,421   11    30,594    6    26,899    1   34,808   147,422
2002..............................................................   1,261   17,066   17    40,879   14    35,914    6    34,254    2   39,099   168,485
2003..............................................................   1,319   17,198   22    47,119   19    43,044    7    43,536    2   44,429   196,641
2004..............................................................   1,303   16,871   26    51,778   21    49,315    7    52,242    1   49,319   220,850
2005..............................................................   1,319   17,269   28    58,252   21    56,790    8    60,553    1   53,705   247,918
2006..............................................................   1,440   18,385   25    66,236   30    63,649    7    66,360    1   56,465   272,541
2007..............................................................   1,725   21,453   30    77,678   27    72,392   12    73,936    2   60,066   307,321
2008..............................................................   1,965   24,166   28    90,206   27    82,907   17    81,681    2   63,668   344,667
2009..............................................................   2,125   26,080   30   104,375   33    94,892   15    91,952    2   67,296   386,800
2010..............................................................   2,359   28,272   40   120,780   36   109,393   17   105,075    0   71,252   437,224
2011..............................................................   2,754   31,831   54   142,634   49   128,457   21   119,885    0   75,493   501,178
2012..............................................................   3,072   31,672   64   154,107   50   152,737   26   146,835    0   83,917   572,480
                                                                   -------------------------------------------------------------------------------------
  FYTD 2013.......................................................   4,190   32,691   62   162,247   54   170,101   31   166,239    0   90,205   625,820
--------------------------------------------------------------------------------------------------------------------------------------------------------


    d. What is the average disability rating assigned when an 
individual first applies for compensation for PTSD?
    Response. The average degree of disability for Veterans who 
initially apply for service connection for PTSD is 50 percent.
    e. Can you provide the number of veterans with an initial PTSD 
rating less than 100% who eventually apply for an increased rating?
    Response. As of June 2013, 129,035 Veterans have applied for an 
increased rating for PTSD in FY 2013. Please see Sheet B of Attachment 
A for the number of Veterans that applied for an increased rating for 
PTSD by year since FY 2001.

                          Attachment A, Sheet B
Total Number of Unique Veterans per FY Who Applied for an Increased PTSD
                                 Rating
------------------------------------------------------------------------
                          Fiscal Year                             Total
------------------------------------------------------------------------
2001..........................................................       622
2002..........................................................     6,463
2003..........................................................    61,175
2004..........................................................   108,207
2005..........................................................   117,147
2006..........................................................   117,923
2007..........................................................   127,596
2008..........................................................   148,105
2009..........................................................   173,039
2010..........................................................   227,484
2011..........................................................   232,716
2012..........................................................   223,021
                                                               ---------
  FYTD 2013...................................................   129,035
------------------------------------------------------------------------

                                 ______
                                 
   Response to Posthearing Questions Submitted by Hon. Jon Tester to 
                  U.S. Department of Veterans Affairs
    Question 1. Deputy Undersecretary Coy's written testimony for 
S. 294 stated: ``Prior to these training initiatives, the grant rate 
for PTSD claims based on MST was about 38 percent. Following the 
training, the grant rate rose and at the end of February 2013 stood at 
about 52 percent, which is roughly comparable to the approximate 59-
percent grant rate for all PTSD claims.''
    a. Please provide data used by the Veterans Benefits Administration 
(VBA) to make this determination.
    Response. Please see Attachment A above, which contains grant rates 
for PTSD. As discussed in testimony, VBA conducted Military Sexual 
Trauma (MST) training in December 2011.
    b. Does the VBA have data on MST-related claims which have been 
denied or remanded at the Board of Veterans Appeals?
    Response.
----------------------------------------------------------------------------------------------------------------
                                                                                                        Other
                                                        Total      Allowed     Denied     Remanded   (dismissed/
                                                                                                      withdrawn)
----------------------------------------------------------------------------------------------------------------
FY 2013............................................        249          76          39         126            8
FY 2012............................................        257          85          38         129            5
FY 2011............................................        280          98          56         119            7
----------------------------------------------------------------------------------------------------------------


    Question 2. Please provide data and methodology used by the VA to 
determine the cost of S. 294.
    Response. Please see the following methodology.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Mark Begich to 
                  U.S. Department of Veterans Affairs
    Question 1. I see you have not weighed in on my bill S. 932, 
Putting Veterans Funding First Act of 2013. This bill will provide for 
advance appropriations for discretionary accounts other than what was 
authorized in 2009.
    I believe I have heard the Secretary mention the value of advanced 
appropriations for the medical services and I know some of the VSO's 
want to see some of the other important programs be included in 
advanced appropriations for continuity of care for veterans.
    What do you see as obstacles to this advance and tell me what the 
advantages would be for the VA? Do you see any savings in doing a two 
year budget for the other programs?
    Response. As noted in the Department's views on S. 932, the issues 
and implications raised by the expansion of advance appropriation as 
called for in S. 932 are ones that must be considered by the 
Administration in the context of Government-wide budget policy and 
operations.

    Question 2. I cosponsored Senator Burr's bill to authorize the VA 
to issue cards to veterans that identify themselves as veterans. We 
have many veterans in Alaska who do not receive health care from the 
VA, but feel they served their country and want to have an identifier 
as a Veteran. My state did pass a driver's license identifier for vets; 
however there are some businesses that do not accept it. You did not 
submit a view on this bill, and I would like you to respond to at least 
the concept and give any reason you may not support the bill.
    Response. As an advocate for Veterans, VA is pleased to see others 
recognize the service and sacrifice of these men and women.
    VA issues a single-purpose identity card for Veterans enrolled in 
VA health care. Having two VA-issued cards could cause confusion. 
Although the bill does state that the card would not by itself 
establish eligibility, there could nonetheless be misunderstandings by 
Veterans that a Government benefit is conferred by the card.
    VA neither encourages nor discourages private companies from 
recognizing Veterans for discounts and charity events. However, it is 
in the company's sole discretion to determine what documentation they 
are willing to accept to qualify for their special offers. VA 
encourages companies to accept a broad range of documents for verifying 
Veteran status to include DD Form 214, Military Retiree Identification 
Card, and state issued driver's licenses with Veterans designation.
    All states have some kind of structured identity program and 
infrastructure that are better suited to satisfy this need. Currently 
over 30 states provide Veterans designation on state drivers' licenses.
    At this time, VA does not have an estimate of the portion of our 
22.4 million Veterans that would apply for such a card. VA cannot 
produce a cost estimate for S. 778.

    Question 3. Regarding fiduciary responsibility of the VA, please 
provide me with the laws and regulations that either direct, or 
authorize, the VA to submit individuals to the National Instant 
Criminal Background Check System. Please include legal justification 
for VA submitting individuals who have physical disabilities or who 
have voluntarily surrendered their fiduciary responsibilities.
    Response. The Brady Handgun Violence Prevention Act of 1993 (Brady 
Act) (Public Law 103-159), as implemented by Department of Justice 
regulations at 27 CFR Sec. 478.11, is the legal authority that requires 
VA to report these individuals to the National Instant Criminal 
Background Check System (NICS). The Department of Justice regulations 
include within the definition of mental defective, for purposes of NICS 
reporting under the Brady Act, persons who have been determined by a 
court, board, commission, or other legal authority to lack the mental 
capacity to contract or manage their own affairs. A VA determination of 
incompetency for the purpose of the VA fiduciary program falls within 
the scope of this definition.
    Some individuals suffer from physical disabilities with co-existing 
mental conditions that affect their capacity to handle their VA 
financial affairs (e.g., amyotrophic lateral sclerosis, Traumatic Brain 
Injury). This may perhaps lead to the need to appoint a fiduciary to 
manage their VA affairs. These individuals are determined to be 
incompetent for VA purposes, and thus are reported to the NICS list.
    VA does not provide a fiduciary at an individual's request. An 
individual must meet the criteria as incompetent for managing their VA 
affairs to be assigned a fiduciary.

    Chairman Sanders. Thank you very much, Mr. Coy. Thank you 
all for being here. Before I get to my written questions, let 
me just ask if anyone wants to respond.
    As you know, probably the major issue of concern for the 
veterans' community and to this Committee has been the backlog. 
So, my question is a simple one. As we transform the entire 
system--and I think that was long overdue--I think it should 
have been done years before we began this. But be that as it 
may, as we make that transformation from paper to paperless, in 
your judgment, are we making progress?
    Mr. Coy. Sir, I will defer that question to my colleague, 
Tom Murphy. He is very well vested in that process.
    Mr. Murphy. Yes, Mr. Chairman, we are. We are making 
significant progress. We, for the first time, have VBMS fielded 
in all regional offices in the country.
    It is generation one software, but we are seeing more rapid 
development, improvements in performance of individuals and 
their ability to process claims and move them through. Over 
time we have seen the savings from not literally shipping as 
many boxes of files back and forth across the country. So, just 
those shipping fees are now taken out of the process.
    So, we are starting to see the leverage from moving to the 
paperless system; and as that transition continues over the 
next year plus, we will see more benefits of that.
    Chairman Sanders. In your judgment, do you think we will 
reach the goal, the very ambitious goal established by the 
Secretary?
    Mr. Murphy. Yes, sir, I do.
    Chairman Sanders. OK. Thank you very much.
    Mr. Coy, let me begin with you, although I believe this 
question may be best answered by Mr. Murphy. It deals with the 
Claims Processing Improvement Act which I have introduced, and 
there are a number of important provisions in that legislation 
which I am pleased to see VA indicating support for some of. I 
would like to discuss a couple of the provisions for which VA 
did not provide views.
    First, this Committee has a responsibility to exercise 
aggressive oversight of VA's efforts to address the backlog. In 
other words, once again it is beyond my comprehension why it 
took so long for VA to move from paper to paperless. I applaud 
the Secretary for finally undertaking that very ambitious goal; 
but the job of this Committee is to make sure that that goal is 
achieved.
    So, my question to you, Mr. Murphy, is, do you agree that 
this Committee and the public needs to be able to measure VA's 
progress? In other words, the Secretary, to his credit, did 
what very few people do: he put it right out there on the 
table. And correct me if I am wrong, but he said by the end of 
2015 all claims would be processed within 125 days with 98 
percent accuracy. Is that what he stated?
    Mr. Murphy. That is correct, sir.
    Chairman Sanders. OK, and what I just heard you say a 
moment ago is you believe that we are on target to reach that 
very ambitious goal.
    Mr. Murphy. Yes, I do, Mr. Chairman.
    Chairman Sanders. OK. So, what I want this Committee to be 
able to do is to make sure that we are monitoring effectively 
on a periodic basis our progress toward reaching that goal.
    Do you agree that that is a reasonable thing for the 
American people to be doing?
    Mr. Murphy. Yes, I do, Mr. Chairman, and you point out 
there are some provisions of the bill that we have not put 
official testimony on, but I can speak to that in a very 
general sense.
    What we are talking about here is specific publicly posted 
performance for all to see and understand exactly what VA is 
doing and the progress we are making toward the Secretary's 
goals of 125 days, 98 percent.
    We have been reporting publicly for some time now all of 
the performance that we have on our ASPIRE Web site available 
to everybody, and we would be interested in discussing with you 
and the Committee on any further reportings that you would be 
talking about and talking about some of the details in your 
bill.
    Chairman Sanders. Good. That is what we are talking about. 
I personally believe that visibility into actual production 
when measured against projected workload and production will 
allow stakeholders to see what benchmarks VA must hit in order 
to reach the Secretary's goals.
    In other words, here is what we want. We do not want in 
late 2015 for you to come in here and say, you know, we hoped 
that we would be able to do that but it turns out we cannot.
    We want to be monitoring you at least on a quarterly basis 
to see what your goals are, where you think you should be, and 
in fact, where you are. Does that make sense to you?
    Mr. Murphy. Yes, it does, Mr. Chairman, and I have got to 
point out some numbers showing that we are making progress in 
that regard. The backlog reduction of approximate 74,000 cases 
in our overall inventory reduction is 44,000 cases just in the 
last 45 days.
    What is significant about those numbers when we are talking 
about such a large volume of cases, it is not, well, that is 
the game changer; but it does indicate that we are at a tipping 
point. In order to break the backlog, we need to be putting 
more work out the door than is coming in and we are there 
solidly month after month, consistently now.
    Chairman Sanders. So, what you are telling us--and by the 
way, this is very good news for the American people--is that 
you think right now the backlog is decreasing. You think as the 
transformation of the system becomes firmer and we are more and 
more into digital rather than paper, you are going to see that 
backlog go down. Is that what you are telling us?
    Mr. Murphy. I am saying that the backlog, we can expect the 
backlog to continue to decrease going forward.
    Chairman Sanders. That it is decreasing and that it will 
continue to decrease?
    Mr. Murphy. The last 45 days it has decreased by over 
44,000 cases, excuse me, 44,000 inventory, 74,000 backlog. They 
are two different numbers.
    Chairman Sanders. OK. Senator Boozman, did you have some 
questions?
    Senator Boozman. Yes, sir, I do. If you would like, you can 
move to Senator Blumenthal since I gave my opening statement. 
Go ahead, sir.
    Chairman Sanders. That is kind of you.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you. Thank you, Mr. Chairman. I 
thank you all for being here and thank you for your continued 
work on a number of these areas including the claims backlog 
which is vexing not only to us but obviously to stakeholders 
across the country; so I wondered if you could distinguish, you 
mentioned 74,000 and 44,000. 74,000 is the reduction in?
    Mr. Murphy. Total inventory in the VA.
    Senator Blumenthal. And 44,000?
    Mr. Murphy. Claims that are less than 125 days plus claims 
that are over 125 days comprise the total inventory. 44,000 is 
the reduction in that number.
    Senator Blumenthal. And rather than quizzing you now, could 
you get us a report in writing with the numbers showing when 
the backlog began to decrease, in other words, when the tide 
turned; and what your projections are for coming months, let us 
say until the end of the year and as far beyond as you can 
project?
    Mr. Murphy. Yes, I understand what you are looking for, 
Senator, and I can get you the numbers showing the performance 
up to where we are today; and we will have some discussions 
about what the future looks like for the rest of the fiscal 
year.
    Senator Blumenthal. Well, when you say ``you will have,'' 
``we will have some discussions,'' do you mean you and we 
members of the Senate, or internally, ``we will have?''
    Mr. Murphy. We internally delivered to you members of the 
Senate.
    Senator Blumenthal. OK. Do you have numbers for 
Connecticut?
    Mr. Murphy. Offhand I do not, not with me today.
    Senator Blumenthal. Could you get those numbers to me?
    Mr. Murphy. Yes, Senator, I would be happy to.

    [The information requested during the hearing follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    

    Senator Blumenthal. Thank you.
    You know, I want to join my colleagues in expressing a 
sense of urgency. We said on a number of occasions how 
important it is to reduce this backlog, and I know you share 
the view that the numbers right now are unacceptable. We have 
heard that from veterans and you have heard it from us, and I 
appreciate your cooperation.
    Let me ask you about one of the issues that concerns me, 
the interoperability of the medical records system or the 
merger of the two, DOD and VA. Could you tell us what the 
status of that effort is today?
    Mr. Murphy. I can address it from the standpoint of 
processing compensation claims and what it is that I need in 
order to process claims efficiently and quickly, and that is 
tied back to the electronic delivery from the Department of 
Defense to the VA of electronic copies of their service 
treatment records.
    There are two key things that have happened recently. The 
first one is the delivery by the Department of Defense of a 
certified complete record which relieves me of the 
responsibility to continue to search for Federal records, as 
required by the statute.
    Since the beginning of June--it has been about 3 weeks now 
of full implementation of Department of Defense--97 percent of 
those records are being delivered with a certified complete 
statement on top. That is great progress forward with us 
working together with our DOD partners.
    Senator Blumenthal. And of those records that are 
automatically delivered seamlessly, they are interoperable 
without being, in effect, part of the same system. Is that what 
you are saying?
    Mr. Murphy. I think the answer to that is going to come in 
the second part of this, Senator.
    Senator Blumenthal. Sorry.
    Mr. Murphy. Today, I will take it in any form DOD can give 
it to me as quickly as they are. The DOD has committed that by 
the end of the calendar year they will deliver all of their 
medical records, certified complete like that, to us in an 
electronic format.
    Senator Blumenthal. By the end of the year, did you say?
    Mr. Murphy. This calendar year.
    Senator Blumenthal. This calendar year?
    Mr. Murphy. Yes.
    Senator Blumenthal. Sir, I apologize for interrupting. In 
effect, DOD has committed to you that by the end of the year 
2013 the two systems will fit together seamlessly and they will 
become part of the same system? I am trying to put it in 
layman's language because I do not know how technically to 
describe it and I welcome whatever comment you have.
    Mr. Murphy. Senator, you scare me with the ``get together 
seamlessly'' portion of that. I will receive that in a format 
that I can ingest----
    Senator Blumenthal. Was that not the goal of Secretary 
Panetta----
    Mr. Murphy. Yes. Absolutely.
    Senator Blumenthal. And Secretary Shinseki----
    Mr. Murphy. The key is they will give it to me in any 
format that I can receive into VBMS electronically, call it up 
at the rater's desk without additional effort, see those 
records, search those records in a format that is usable to us; 
and yes, that is the commitment.
    Senator Blumenthal. And that is by the end of the year?
    Mr. Murphy. That is by the end of this calendar year, 
correct.
    Senator Blumenthal. Great. Because my time is limited, I am 
going to jump to another topic.
    I have sponsored a measure called the Veterans Back to 
School Act that would, in effect, eliminate the 10-year limit 
on GI Bill benefits. As you know right now, GI benefits are 
limited to 10 years after separation from the service.
    In today's economy, 10 years is, in my view, no longer an 
acceptable limit because people change careers. They need new 
training. Veterans may simply be as much in need of these 
benefits after 10 years as they are 10 years before.
    Could I ask you for a position on that measure?
    Mr. Murphy. I think we are in Mr. Coy's territory now, 
Senator.
    Mr. Coy. Thank you, Senator, for that question. S. 863 
essentially, as you indicated, takes away the time limit; and 
instead of from separation, it makes it from the time that you 
start using those benefits.
    We do not yet have cleared positions on that, and so, we 
are working through that. Some of this is ``the devil is in the 
details,'' if you will.
    So, we want to make sure we give you a good, complete 
answer for the record rather than make the effort to try and do 
that very quickly, and we hope to have those cleared views to 
you very shortly.
    Senator Blumenthal. Thank you.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Blumenthal.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chair.
    Again, I appreciate the fact that it seems like we are 
getting good news regarding the claims process. I know you all 
are working very, very hard, the entire system, to get that 
resolved.
    As you know, when I visit with veterans and the mail that 
we received, that really is the overwhelming concern right now. 
Not only with veterans, but the public generally, feel like 
people that have served deserve the opportunity in a somewhat 
timely fashion at least, to get the answer one way or another 
so that they can move on.
    So again, I appreciate your efforts and I appreciate the 
fact that we seem to be seeing some improvement. That is very 
positive. So, we will be able to pass that along.
    I would just like to ask you to help me understand a little 
bit about the fiduciary issue that has come up and has for a 
long time. If VA finds that veterans or other VA beneficiaries 
need help with their finances, and you can correct me, but my 
understanding is the VA assigns a fiduciary to help them and 
also sends their names to be included in the National Instant 
Criminal Background Check System or the NICS list. That 
prevents them from purchasing or owning firearms. In some cases 
that might impact the ability of their families to possess 
firearms.
    So, I guess the questions I would have is, does VA look at 
whether a beneficiary is in any way dangerous when assigning 
the fiduciary?
    Mr. Murphy. Can I ask a clarifying question there, Senator?
    Senator Boozman. Yes.
    Mr. Murphy. Is the fiduciary being appointed dangerous, is 
that what you are asking?
    Senator Boozman. Yes--no, no, the veteran.
    Mr. Murphy. The veteran themselves?
    Senator Boozman. Yes.
    Mr. Murphy. The veteran is through the fiduciary process 
deemed not capable of managing their own finances; and by 
virtue of that, they are added to the NICS database which 
restricts them from being able to own and purchase firearms.
    Senator Boozman. Is there----
    Mr. Murphy. There is also a relief process in place. If a 
veteran thinks that they should not be on that list, they can 
file an appeal to us. There is an active, ongoing process where 
appeals are happening, and veterans gun ownership rights are 
being restored.
    Senator Boozman. Is there any correlation with not being 
able to manage your finances and committing a violent crime?
    Mr. Murphy. I do not know the answer to that question, 
Senator.
    Senator Boozman. But we should know the answer in the sense 
that that is why we are doing it.
    Mr. Hipolit. If I could address that, there was a 
determination made by public safety authorities essentially at 
the Department of Justice. When they set up the NICS program, 
they determined who would be placed on the list; and one of the 
categories they chose was people who were unable to handle 
their finances, essentially, which tie the VA's incompetence 
determinations into that process.
    So, because that is how the Justice Department set it up, 
we are required to report that information.
    Senator Boozman. So, Social Security does the same thing?
    Mr. Hipolit. They fall within the same requirements I 
believe.
    Senator Boozman. Is that correct?
    Mr. Hipolit. That is my understanding.
    Senator Boozman. Social Security, my understanding was, and 
was confirmed, does not send names.
    Mr. Hipolit. OK. Now, they may not. I think in some cases 
Social Security appoints fiduciaries without making a 
determination of incompetency, and it is our determination of 
incompetency is what kicks in the reporting requirements.
    Senator Boozman. Could it be a physical disability rather 
than a mental impairment that requires the assignment of a 
fiduciary?
    Mr. Hipolit. Yes, that is correct. It could be an injury or 
whatever.
    Senator Boozman. So, an individual like that would go on 
the NICS list also?
    Mr. Hipolit. Yes, if they are unable to handle their 
financial affairs.
    Senator Boozman. But that makes no sense if they have a 
physical impairment that would not allow them to do that.
    Mr. Hipolit. There is a relief program in place that Mr. 
Murphy mentioned which, if a person is not a threat to public 
safety, they can be relieved from the reporting requirement.
    Senator Boozman. No, I understand but it should not be that 
the onus is on them when we are putting them in a situation in 
that case with a physical impairment, it does not make any 
sense at all in regard to their wanting to commit or any 
correlation with violent crime in that regard.
    Who at VA makes the decisions about whether someone should 
have a fiduciary and do they have any law enforcement training 
or legal training? Or what is their training?
    Mr. Murphy. There are pension veteran service 
representatives that make these determinations and their 
determinations are based not from a law enforcement perspective 
but from the standpoint of is the veteran capable of managing 
their financial affairs.
    Senator Boozman. OK. How many individuals have their names 
on the NICS list as a result of the current policy?
    Mr. Murphy. That I do not have a number in front of me. I 
can tell you how many have been added to the list and have 
applied to be relieved. That number is 236.
    Senator Boozman. OK. Have you got a guess as to how many?
    Mr. Murphy. I do not. If you would like that number, I 
would be happy to take that for the record and provide you with 
the detailed numbers.
    Senator Boozman. Do you have any idea how many are 
children? How many are being added to the NICS list that are 
children?
    Mr. Murphy. No, I do not, Senator.
    Senator Boozman. OK. Elderly dependent parents? That would 
be something else we would be interested in.
    Again, like I said, to me it makes no sense when you have 
no correlation to violent crime that these individuals--I 
understand if we are picking out people who are mentally 
impaired and we need to get much more aggressive in that 
regard, not only in this situation but with others.
    But, somebody that is physically impaired, there are all 
kinds of categories that I think we would both agree that there 
is no correlation at all. So again, please, I would like the 
answers in writing. Thank you.
    Thank you, Mr. Chair, for your indulgence.

    [The information requested during the hearing follows:]
Response to Request Arising During the Hearing by Hon. John Boozman to 
                  U.S. Department of Veterans Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Sanders. Thank you, Senator Boozman.
    Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    Actually, I want to follow-up. It was not my intent to 
follow-up on your question but I know, Senator Boozman, you and 
I have done several pieces of legislation together including 
this one. I have a piece of legislation pending with Senator 
Pryor, Flake, and Graham on this specific issue because there 
has been no proven correlation between financial affairs and 
someone committing or could potentially commit an act of 
violence.
    There is no evidence, unless you have some; and I get what 
you are saying. I feel some uncomfortable conversation coming 
at me because you are kind of responding to the Justice 
Department's decision.
    If I can, I would like to get from you whatever the public 
safety authority, Justice Department, issued this as an added 
item, whatever documentation they created this, because there 
is no connection.
    And, there are many veterans that are denied their Second 
Amendment rights because they are unable to manage their 
financial affairs but they are not violent, they are not 
potentially violent, they are not at risk to themselves or 
others.
    And so, could you provide us that? You do not have to 
answer this, but I sense some uncomfortable positioning in your 
responses to Senator Boozman and I get where this came from, 
that you are responding to that.
    Mr. Hipolit. Yes, Senator, there were Justice Department 
regulations that set that up and we would be pleased to provide 
you with background information on that.
    Senator Begich. We would like that. Again, our bill is to 
try to rectify this problem because it just seems unfair. We 
have to take and weigh someone's constitutional right, whatever 
that right is, is something we need to be very careful about.
    At the same time, we need to recognize there are 
individuals that are at risk and we need to balance that.
    Mr. Murphy, you had some information regarding how many 
have been accepted into that system, how many are appealing, 
and then also what the timetable is from their initial appeal, 
or relief I guess is the word to use. And then what the outcome 
of that was.
    Would you mind giving us something on that also?
    Mr. Murphy. We would be happy to, Senator.

    [The information requested during the hearing follows:]
 Response to Request Arising During the Hearing by Hon. Mark Begich to 
                  U.S. Department of Veterans Affairs
    Response. As of April 17, 2013, the cumulative total of VA 
incompetent beneficiaries is 143,580. A demographic breakdown is shown 
below:
------------------------------------------------------------------------------------------------------------------------------------------------
Veterans...................................................      83,764
Surviving Spouses..........................................      42,636
Helpless Adult Children....................................      14,291
Minor Children.............................................       2,733
Dependent Parents..........................................          86
Other Adults...............................................          70
                                                            ------------
  TOTAL....................................................     143,580
------------------------------------------------------------------------


    Senator Begich asked for data on the special NICS appeals process: 
how many have asked for a review, the time it takes for the appeal 
process, and the number of requests for relief granted/denied/not yet 
decided.
    Response. Please note that NICS relief is not an appeal, it is a 
separate process. As of April 17, 2013, VA received 236 requests for 
relief from the NICS reporting requirements. Breakdown is as follows:
------------------------------------------------------------------------------------------------------------------------------------------------
Granted....................................................           7
Denied.....................................................         153
Pending....................................................          53
Competency Restored........................................          23
                                                            ------------
  TOTAL....................................................         236
------------------------------------------------------------------------


    Senator Begich. OK. Thank you.
    Let me move on to another subject matter. Again actually 
Senator Boozman and I have a bill entitled Putting Veterans 
Funding First Act, S. 932. We gave advance appropriations for 
part of the VA but not all of it, so this bill would complete 
fully giving advanced appropriations to the VA.
    Tell me what you think of this and would you be supportive 
of this legislation. Again, it just seems logical from a 
standpoint of saving money, saving time, and creating 
opportunity for the VA to do their work rather than processing 
paper all the time.
    Who would like to?
    Mr. Coy. I will take that, Senator.
    Unfortunately, the short answer is we are still putting 
together our cleared views on this.
    Senator Begich. Can I interrupt you for just 1 second.
    Mr. Coy. Yes.
    Senator Begich. And I do not mean to be negative, only 
because of our time here. But, are you putting that together? 
Is OMB influencing that outcome of what you are putting 
together?
    The reason I ask is that OMB will always sanitize the heck 
out of everything. So, I am looking for what you all think as 
the department that has to run an agency of the magnitude that 
you have to run.
    So, you do not have to answer. I do not mean to be--I just 
get frustrated with OMB sanitizing everything before coming in 
front of a Committee.
    Mr. Coy. I will take your advice and not insert that, Sir.
    [Laughter.]
    Senator Begich. OK. Your answer is an answer but go ahead. 
I did not mean to----
    Mr. Coy. We have seen where it has been very useful for our 
colleagues at VHA.
    Senator Begich. Right.
    Mr. Coy. But again we do not have our cleared position to 
put forth yet.
    Senator Begich. Understood. OK.
    Mr. Coy. We are looking at it very vigorously and it is 
within VA at this point to put together those cleared views.
    Senator Begich. Fantastic. I would look forward and maybe 
we can ask the other side of VA at one point what they saw as 
their savings and opportunity. That might help us convince, and 
I say ``us,'' meaning OMB to think about the right decision 
here.
    Mr. Coy. Aye, aye.
    Senator Begich. I'll leave it at that.
    Let me go on to one last quick thing. There is a bill that 
I cosponsored with Senator Burr but I do not see it, though I 
may be wrong. You did not supply a view on it, which is about 
issuing cards to veterans that identify themselves as veterans 
so then they can benefit from community benefits that are 
available.
    It would not be used to determine their--it would not be 
used to go into the VA as it were but it would be their card to 
say, I am a veteran and therefore I might get certain benefits 
out in the community.
    You did not have a view on that. So, I am wondering if you 
are reviewing that or you are just going to keep neutral on it 
or help me out there.
    Mr. Coy. Right now, again my short answer is we do not have 
cleared views on that yet.
    Senator Begich. OK.
    Mr. Coy. What we have seen is about 50 percent of the 
States now have a driver's license where they have identified 
veterans on there as well.
    Senator Begich. Right.
    Mr. Coy. And we have seen that as a pretty useful tool. We 
are also looking at a number of things through our eBenefits 
portal where veterans can quickly get the information necessary 
to identify them as a veteran.
    But with respect to physically issuing ID cards, we are 
putting together those costs and views to be able to figure out 
what our official position is on that and we will get that to 
you, sir, as soon as we can.
    Senator Begich. Very good. Thank you very much.
    Thank you, Mr. Chairman for the time.
    Chairman Sanders. Thank you, Senator Begich.
    We are going to hear from the VSOs in 1 second but before 
we do I want to go back to Mr. Murphy because you are dealing 
with what is the most contentious issue facing the VA right 
now.
    What I want you to do in a very brief period of time is to 
tell this Committee how we got to where we are today in terms 
of the backlog, what the VA is doing to transform the system, 
where you think we are today, and where we are going to be by 
the end of 2015. You got all of a minute to do that.
    Mr. Murphy. A minute. Well, let us start at the end. The 
Secretary has put out a rather aggressive goal: 2015; 98 
percent; 125 days. You asked me previously are we going to hit 
that goal. The answer is yes.
    Chairman Sanders. So, let me stop here. What you are saying 
again for the public record is that you believe by the end of 
2015 every benefit filed by a veteran will be processed within 
125 days with 98 percent accuracy.
    Am I hearing you correctly?
    Mr. Murphy. You are hearing me correctly.
    Chairman Sanders. OK.
    Mr. Murphy. It gives me chills. It is a very aggressive 
goal.
    Chairman Sanders. It is an aggressive goal.
    Mr. Murphy. But, I honestly believe we are going to hit 
that number and I am not saying that as an uneducated 
individual. You are asking me what are the things that we are 
doing, and you have heard Under Secretary Hickey many times 
talk about people processing technology.
    That truly is the thing that all together are going to 
solve this. There is no single system that is going to come in 
that is going to be a silver bullet, VBMS, and make everything 
work. VBMS if left alone without other changes will just make a 
bad system worse.
    So, there are other things that have to go on here in terms 
of training, education, the quality of hiring, the processes 
that we are doing, the legislative proposals that you are 
bringing before us now and have done so over the last couple of 
years are bearing fruit and helping us develop this as well.
    You asked how did we get here? We are at the end of in 
excess of 10 years of war and still going. There is a very 
large number of veterans returning from conflict and they are 
filing claims when they do. These veterans have had injuries 
and conditions and it is having its effect on VA.
    If you look at the number of claims that we are getting, 
you look at not just the number of claims but the complexity 
and the number of issues that are in those claims, just to say 
that we have got 25, 50, 100 percent more claims does not begin 
to address the workload that has really increased.
    A claim that formerly came in with three contentions it is 
now coming in with 12 to 15. That is three to four to five 
times the work to complete that same claim. But, we have not 
seen the same level of increase in resources in terms of 
personnel in order to do that.
    On top of that, there are presumptive conditions that were 
right decisions on the part of the Secretary that were put in 
place to take care of veterans from previous conflicts.
    Chairman Sanders. Agent Orange.
    Mr. Murphy. Agent Orange, specifically. There is a 
peripheral neuropathy presumption that we are going to see here 
shortly. Several other areas in there that have been right 
decisions, right things to do for veterans that did not stop us 
from making those decisions and we are seeing the consequences 
of those today.
    On the other side of that, we are at a turning point where 
we are starting to see the work go the opposite direction in 
terms of volume and the work coming through the door faster 
than the number of resources that we have.
    When you take all of those and put them in place, I think 
that adds to success at the end of 2015.
    Chairman Sanders. OK. Thanks very much.
    Gentlemen, thank you very, very much.
    Now, we would like to hear from the veterans service 
organizations.
    [Pause.]
    I want to thank the service organizations, all of them, 
including those that are not here this morning for the help 
that they have given us in trying to assess the problems they 
have seen in the veterans community as well as their very 
specific thoughts on legislation and how we can address some of 
those problems.
    We are delighted this morning to have with us Jeffrey Hall, 
who is the Assistant National Legislative Director for the 
Disabled American Veterans.
    Ian de Planque, who is the Deputy Legislative Director for 
The American Legion.
    Colonel Robert F. Norton, who is the Deputy Director, 
Government Relations, Military Officers Association of America.
    And, Ryan Gallucci, who is the Deputy Director, National 
Legislative Service for the Veterans of Foreign Wars.
    We thank you all for being here this morning.
    Mr. Hall.

   STATEMENT OF JEFFREY HALL, ASSISTANT NATIONAL LEGISLATIVE 
              DIRECTOR, DISABLED AMERICAN VETERANS

    Mr. Hall. Thank you, Mr. Chairman. Good morning to you and 
Members of the Committee.
    On behalf of the DAV and our membership of 1.2 million war-
time service-disabled veterans, we appreciate the opportunity 
to offer our views regarding the legislation being considered 
by this Committee. My full written statement has been submitted 
for the record so I will limit my oral remarks today to only 
just a few of those bills.
    Mr. Chairman, as you and the Members of the Committee are 
well aware, the VA is currently in the process of 
comprehensively transforming its claims processing system to 
address the unacceptably large backlog of claims.
    DAV has and will continue to urge that the focus of all 
claims process reform efforts be centered on quality and 
accuracy to ensure that every veteran's claim is done right the 
first time.
    Regarding S. 928, the Claims Processing Improvement Act of 
2013, it contains numerous provisions to help reform the 
current system but I am just going to highlight a few seconds 
here.
    With respect to Section 101, DAV has long supported calls 
for scientifically studying how VBA determines its resource 
needs which must be based on a true measure of how much work 
can be done accurately by its employees.
    While we support the general intent of the working group 
proposed by this section, we offer the following 
recommendations, Mr. Chairman.
    First, the working group must expand its focus beyond just 
a work credit system to developing a data driven model for 
determining VBA's total resource needs now and into the future.
    Second, the working group should not study the VBA's work 
management system at a time when VBA is in the middle of 
changing it. Doing so would be premature in light of the VBA's 
new organizational model and the VBMS system being implemented.
    We suggest waiting until a time after the new system has 
been working and in place for a while in order to determine 
whether these changes are or will be successful.
    Finally, because Section 101 mandates that the Secretary 
shall implement the recommendations of this working group, DAV 
is concerned about the lack of details on the membership of the 
working group, operating rules of the group, how decisions will 
be made and votes taken, and how recommendations will be 
presented by the working group.
    Section 201 would reduce the filing period of a notice of 
disagreement from the current 1-year period to 180 days from 
the date of the decision. The DAV is opposed to this measure as 
we do not see any positive effect resulting from this change 
toward the backlog of claims.
    DAV supports Section 202 to improve the appeals process by 
allowing the Board of Veterans Appeals to use videoconferencing 
hearings as a default hearing while allowing the claimant to 
retain the absolute right to appear in person before the board.
    We do, however, recommend that this is clearly explained 
and outlined in the notice of appeal rights and appeals form 
which the veteran receives.
    Regarding S. 819, the Veterans Mental Health Treatment 
First Act of 2013, this creates a new early intervention and 
treatment program for veterans suffering from PTSD, depression, 
anxiety disorder, or related substance abuse disorder.
    The DAV strongly supports early intervention and mental 
health treatment, prevention of chronic disability, and 
promotion of recovery. Likewise, we are generally supportive of 
providing financial support such as a wellness stipend to 
veterans who are willing to commit to this program of treatment 
as it would provide a means of income while undergoing 
treatment itself.
    However, we cannot support the bill in its current form 
because it constrains disabled veterans from applying for 
service-connected disability compensation or an increased 
rating for these covered conditions simply in order to gain the 
full amount of the wellness stipend.
    We believe that early treatment provisions and wellness 
stipend payments must be decoupled from any proposal which 
would have any adverse impact on a veteran applying for 
disability compensation or claim for an increased rating.
    Furthermore, such programs should begin as a pilot program 
to help determine the level of interest and whether or not it 
is likely to achieve its intended purpose. However, we would be 
pleased to work with the Committee to possibly find a workable 
solution on this matter.
    DAV strongly supports S. 893, the Veterans Compensation 
Cost of Living Adjustment Act of 2013, to increase compensation 
and DIC rates effective December 1 of 2013.
    Mr. Chairman, the DAV applauds you and Ranking Member Burr 
for not mandating that the COLA be rounded down to the next low 
whole dollar amount. DAV has a long-standing resolution to 
discontinue this unfair practice and we are very pleased that 
it was not included in the bill.
    The DAV also applauds you, Mr. Chairman, for your stalwart 
leadership and efforts opposing the chained consumer price 
index, which we, too, oppose.
    Finally, the DAV strongly supports S. 932, the Putting 
Veterans Funding First Act of 2013. In the same way that 
advance appropriations for VA health care have helped insulate 
and protect VHA from the disruptive budget fights each year, we 
believe that expanding advance appropriations to the VA's 
remaining discretionary programs, including VBA, could have 
similar positive affects on helping to address the backlog of 
pending claims.
    Mr. Chairman, the DAV thanks the Committee for their 
tireless efforts toward improving the lives of service-disabled 
veterans and their families.
    This concludes my remarks. I will be happy to answer any 
questions.
    [The prepared statement of Mr. Hall follows:]
Statement of Jeffrey C. Hall, Assistant National Legislative Director, 
                    Disabled American Veterans (DAV)
    Chairman Sanders, Ranking Member Burr and Members of the Committee: 
Thank you for inviting the DAV (Disabled American Veterans) to testify 
at this legislative hearing of the Senate Veterans' Affairs Committee. 
As you know, DAV is a non-profit veterans service organization 
comprised of 1.2 million wartime service-disabled veterans dedicated to 
a single purpose: empowering veterans to lead high-quality lives with 
respect and dignity. DAV is pleased to be here today to present our 
views on the bills under consideration by the Committee.
                                  s. 6
    S. 6, the Putting Our Veterans Back to Work Act of 2013, would 
reauthorize the VOW to Hire Heroes Act of 2011, to provide assistance 
to small businesses owned by veterans, to improve enforcement of 
employment and reemployment rights of members of uniformed services. 
This legislation would expand the VOW to Hire Heroes Act of 2011 by 
reauthorizing the Veterans Retraining Assistance Program (VRAP) 
allowing an additional 100,000 participants through April 2016.
    Other matters highlighted in S. 6 include extending through 
December 2016, the allowance for VA vocational rehabilitation & 
employment services to members of the Armed Forces with severe injuries 
or illnesses, and would also extend through March 2016, additional 
rehabilitation programs for those who have exhausted rights to 
unemployment benefits under state law, as well as the creation of a 
unified web-based employment portal identifying Federal employment, 
unemployment and training. S. 6 would also afford grants to the 
Department of Homeland Security and the Attorney General for the 
purpose of hiring firefighters and law enforcement officers.
    Finally, this legislation would require employment of veterans as 
an evaluation factor in solicitations for contracts by certain 
prospective contractors, while also improving employment and 
reemployment rights of members of the uniformed services with respect 
to states and private employers and suspension, termination, or 
debarment of contractors for repeated violations of such rights.
    In accordance with several DAV resolutions, we support enactment of 
this comprehensive legislation as it would improve the employment, 
training, and rights of service-disabled veterans and improve their 
transition from military service into civilian employment.
                                 s. 200
    S. 200 would amend title 38, United States Code, to authorize the 
interment in national cemeteries under the control of the National 
Cemetery Administration of individuals who served in combat support of 
the Armed Forces in the Kingdom of Laos between February 28, 1961, and 
May 15, 1975.
    DAV has no resolution or position on this matter.
                                 s. 257
    S. 257, the GI Bill Tuition Fairness Act of 2013, would require 
courses of education provided by public institutions of higher 
education that are approved for purposes of the educational assistance 
programs administered by the Secretary of Veterans Affairs to charge 
veterans tuition and fees at the in-state tuition rate.
    DAV has no resolution or position on this matter.
                                 s. 262
    S. 262, the Veterans Education Equity Act of 2013, would provide 
equity for tuition and fees for individuals entitled to educational 
assistance under the Post-9/11 Educational Assistance Program of the 
Department of Veterans Affairs (VA) who are pursuing programs of 
education at the institutions of higher learning.
    DAV has no resolution or position on this matter.
                                 s. 294
    S. 294, the Ruth Moore Act of 2013, would improve the disability 
compensation evaluation procedure of the Secretary of Veterans Affairs 
for veterans with mental health conditions related to military sexual 
trauma. In accordance with DAV Resolution Nos. 030 and 204, we support 
enactment of this legislation.
    This bill would change the standard of proof required to establish 
service connection for veterans suffering from certain mental health 
conditions, including Post Traumatic Stress Disorder (PTSD), resulting 
from military sexual trauma that occurred in service.
    In November 2010, VA modified its prior standard of proof for PTSD 
related to combat veterans by relaxing the evidentiary standards for 
establishing in-service stressors if related to a veteran's ``fear of 
hostile military or terroristic activity.'' Under this change, VA is 
now able to award entitlement to service connection for PTSD even when 
there is no official record of such incurrence or aggravation in 
service, provided there is a confirmed diagnosis of PTSD coupled with 
the veteran's written testimony that the PTSD is the result of an 
incident that occurred during military service, and a medical opinion 
supporting a nexus between the two.
    S. 294 would buildupon that same concept and allow VA to award 
entitlement to service connection for certain mental health conditions, 
including PTSD, anxiety and depression, or other mental health 
diagnosis described in the current version of the Diagnostic and 
Statistical Manual for Mental Disorders (DSM), which a veteran claims 
was incurred or aggravated by military sexual trauma experienced in 
service, even in the absence of any official record of the claimed 
trauma. Similar to the evidentiary standard above for PTSD, the veteran 
must have a diagnosis of the covered mental health condition together 
with satisfactory lay or other evidence of such trauma and an opinion 
by the mental health professional that such covered mental health 
condition is related to such military sexual trauma, if consistent with 
the circumstances, conditions, or hardships of such service even in the 
absence of official record of such incurrence or aggravation in such 
service and if so all reasonable doubt will be resolved in favor of the 
claimant.
    DAV Resolution No. 204 states that, ``[e]stablishing a causal 
relationship between injury and later disability can be daunting due to 
lack of records or certain human factors that obscure or prevent 
documentation of even basic investigation of such incidents after they 
occur * * *'' and that, ``[a]n absence of documentation of military 
sexual trauma in the personnel or military unit records of injured 
individuals prevents or obstructs adjudication of claims for 
disabilities for this deserving group of veterans injured during their 
service, and may prevent their care by VA once they become veterans * * 
*.'' Further, DAV Resolution No. 030 states that, ``[p]roof of a causal 
relationship may often be difficult or impossible * * *'' and that, ``* 
* * current law equitably alleviates the onerous burden of establishing 
performance of duty or other causal connection as a prerequisite for 
service connection * * *.''
    Correspondingly, in accordance with DAV Resolution Nos. 030 and 
204, we support enactment of S. 294 as it would provide a more 
equitable standard of proof for service-disabled veterans who suffer 
from serious mental and physical traumas in environments that make it 
difficult to establish exact causal connections.
    We would also note that the House Veterans' Affairs Committee 
recently adopted an amendment to a companion bill that replaced the 
language of this legislation with a ``Sense of Congress'' resolution, 
thereby significantly weakening the intent of this legislation. We 
would urge this Committee to retain the statutory language in S. 294 as 
it moves through the legislative process.
                                 s. 373
    S. 373, the Charlie Morgan Military Spouses Equal Treatment Act of 
2013, would amend titles 10, 32, 37, and 38 of the United States Code, 
to add a definition of spouse for purposes of military personnel 
policies and military and veteran benefits that recognizes new state 
definitions of spouse.
    DAV has no resolution or position on this matter.
                                 s. 430
    S. 430, the Veterans Small Business Opportunity and Protection Act 
of 2013, would amend title 38, United States Code, to enhance treatment 
of certain small business concerns for purposes of VA contracting goals 
and preferences. Specifically, this bill would improve the treatment of 
a service-disabled veteran-owned small business (SDVOSB) after the 
death of the disabled veteran. Current law allows 10 years to transfer 
a SDVOSB from a surviving spouse if the disabled veteran was rated 100 
percent at time of death or who died as a result of a service-connected 
condition. This measure would allow for a transition period of three 
years for veterans rated less than 100 percent at time of death or 
whose death is not a result of a service-connected condition.
    In accordance with DAV Resolution No. 168, we support enactment of 
this legislation.
                                 s. 492
    S. 492 would amend title 38, United States Code, to require states 
to recognize the military experience of veterans when issuing licenses 
and credentials to veterans. Essentially this measure would improve 
employment for veterans by removing particular restrictions or 
unnecessary requirements for certain veterans. Specifically, as a 
condition of a grant or contract under which funds are made available 
to a state, the state must establish a program for a state-administered 
examination for each veteran seeking a license or credential issued by 
such state.
    Additionally, the state will issue a license or credential to such 
veteran without requiring training or apprenticeship, provided the 
veteran receives a satisfactory examination score and has 10 years or 
more of experience in a military occupational specialty that, as 
determined by a state, is similar to a civilian occupation for which 
such license or credential is required by the state.
    In accordance with DAV Resolution No. 194, we support enactment of 
S. 492 as it would improve transition from military service and the 
employment of service-disabled veterans.
                                 s. 495
    S. 495, the Careers for Veterans Act of 2013, would amend title 38, 
United States Code, to require Federal agencies to hire veterans and 
require states to recognize the military experience of veterans when 
issuing licenses and credentials to veterans.
    This legislation is supported by a number of DAV resolutions; 
accordingly, DAV supports enactment of this measure.
                                 s. 514
    S. 514 would amend title 38, United States Code, to provide 
additional educational assistance under Post-9/11 Educational 
Assistance to veterans pursuing a degree in science, technology, 
engineering, math, or an area that leads to employment in a high-demand 
occupation.
    DAV has no resolution or position on this matter.
                                 s. 515
    S. 515 would amend title 38, United States Code, to extend the 
Yellow Ribbon G.I. Education Enhancement Program to cover recipients of 
Marine Gunnery Sergeant John David Fry scholarship.
    DAV has no resolution or position on this matter.
                                 s. 572
    S. 572, the Veterans Second Amendment Protection Act, would clarify 
the conditions under which certain persons may be treated as 
adjudicated mentally incompetent for certain purposes.
    DAV has no resolution or position on this matter.
                                 s. 629
    S. 629, the Honor America's Guard-Reserve Retirees Act of 2013, 
would amend title 38, United States Code, to recognize the service in 
the reserve components of the Armed Forces of certain persons by 
honoring them with the status only as veterans under law.
    DAV has no resolution or position on this matter.
                                 s. 674
    S. 674, the Accountability for Veterans Act of 2013, would require 
prompt responses from the heads of covered Federal agencies when the 
Secretary of Veterans Affairs requests information necessary to 
adjudicate claims for benefits under laws administered by the 
Secretary. Specifically, this legislation would require the Department 
of Defense (DOD), Social Security Administration (SSA), and National 
Archives and Records Administration (NARA), to respond to VA's request 
for information not later than 30 days from such request by providing 
the requested information or an explanation why the requested 
information could not be provided within the 30-day time period, and an 
estimate as to when the requested information will be furnished. If the 
VA's request for information has not been satisfied, additional 
requests shall be made in the same manner as the initial request and 
the claimant will be notified.
    When a claim is submitted to VA, the largest delay in the overall 
process resides within the development stage and usually involves VA 
not receiving requested information from private and Federal sources, 
which is necessary for VA to properly adjudicate a claim for benefits. 
While unanswered requests from private sources, such as treating 
physicians, are unacceptably burdensome, it is even more troublesome 
when requests for information go unanswered by the Federal Government. 
When this occurs, the claim spends months, even years, in a vortex of 
delay in processing and providing earned benefits to veterans and their 
families. When a covered agency is the custodial source of the 
information requested by VA then that agency is responsible to promptly 
furnish the information or a reasonable explanation as to why the 
information cannot be furnished. It is simply unconscionable that 
veterans and their families wait as long as they do for an answer to 
their claim, but to have this compounded by complacency or blatant 
disregard by a covered agency to furnish the requested information in a 
timely manner is beyond reproach.
    While this legislation may not solve this problem in every case, 
DAV agrees with the purpose of S. 674, which is to hold DOD, SSA and 
NARA accountable in furnishing the information requested by VA so a 
claim for benefits can be properly adjudicated in a timely manner.
    For the foregoing reasons and in accordance with DAV Resolution No. 
205, we support the enactment of S. 674 as it would improve the VA 
claims process for service-disabled veterans.
                                 s. 690
    S. 690, the Filipino Veterans Fairness Act of 2013, would amend 
title 38, Untied States Code, to deem certain service in the organized 
military forces of the Government of the Commonwealth of the 
Philippines and the Philippine Scouts to have been active service for 
the purpose of obtaining benefits under programs administered by the 
Secretary of Veterans Affairs.
    DAV has no resolution or position on this matter.
                                 s. 695
    S. 695, the Veterans Paralympic Act of 2013, would amend title 38, 
United States Code, to extend the authorization of appropriations for 
the Secretary of Veterans Affairs to pay a monthly assistance allowance 
to disabled veterans who are training or competing for the Paralympic 
Team and authorization of appropriations for the Secretary of Veterans 
Affairs to provide assistance to United States Paralympics, Inc.
    While DAV does not have a resolution specific to this issue, we do 
support the intent of the legislation as it empowers disabled veterans 
to live high quality lives with respect and dignity.
                                 s. 705
    S. 705, the War Memorial Protection Act of 2013, would amend title 
36, United States Code to ensure that memorials commemorating the 
service of the United States Armed Forces may contain religious 
symbols.
    DAV has no resolution or position on this matter.
                                 s. 735
    S. 735, the Survivor Benefits Improvement Act of 2013, would amend 
title 38, United States Code, to improve benefits and assistance 
provided to surviving spouses of veterans under laws administered by 
the Secretary of Veterans Affairs. DAV supports Section 2 of the bill, 
which would extend from two years to five years, for the initial period 
for increased DIC for surviving spouses with children. DAV also 
supports Section 3 of the bill as it would expand the eligibility to 
DIC, health care, and housing loans for surviving spouses by lowering 
the age from 57 to 55 for those spouses who remarry.
    Section 4 of the bill would allow benefits for children of certain 
Thailand service veterans born with spina bifida in the same manner as 
children of Vietnam service veterans who were exposed to an herbicide 
agent. DAV has no resolution or position regarding this matter.
    Finally, Section 5 of S. 735 would initiate a pilot program to 
provide grief counseling in retreat settings for surviving spouses of 
veterans who die while serving on active duty in the United States 
Armed Forces. DAV supports the principle of Section 5 of the bill as it 
would provide support and counseling to grieving spouses and children 
who are coping with the death and loss of the veteran.
                                 s. 748
    S. 748, the Veterans Pension Protection Act, would amend title 38, 
United States Code, to require the Secretary of Veterans Affairs to 
consider the resources of individuals applying for nonservice-related 
pension that were recently disposed of by the individuals for less than 
fair market value when determining the eligibility of such individuals 
for such nonservice-related pension.
    DAV has no resolution or position on this matter.
                                 s. 778
    S. 778 would authorize the Secretary of Veterans Affairs to issue 
cards to veterans that identify them as veterans, including name and 
photo, whether or not the veteran is enrolled the VA health care system 
or in receipt of benefits such as education, compensation or non-
service related pension.
    While DAV has no resolution or position on this matter we recommend 
this be a collaborative effort between the two principle agencies; DOD 
issuing this type of identification card to those eligible at time of 
discharge, and VA issuing this type of identification card to those 
already separated from military service.
                                 s. 819
    S. 819, the Veterans Mental Health Treatment First Act of 2013, 
creates a new program for provision of mental health care and 
rehabilitation for veterans suffering from service-related Post 
Traumatic Stress Disorder (PTSD), depression, anxiety disorder, or a 
related substance abuse disorder. DAV supports the provisions of this 
bill that promote early intervention in mental health treatment, 
prevention of chronic disability, and promotion of recovery. However, 
we cannot support the bill in its current form because it restricts the 
rights of disabled veterans to apply for service-connected disability 
compensation for those disabilities under VA care. We believe that 
early treatment provisions and wellness stipend payments must be 
decoupled from any proposal to deny veterans the ability to apply for 
disability compensation during the treatment phase.
    S. 819 would establish a new approach to dealing with veterans who 
are diagnosed with PTSD, depression, anxiety disorder or substance 
abuse disorder that, in the judgment of a VA physician, is related to 
military service. Financial support, known as a ``wellness stipend,'' 
would be provided to veterans who are willing to commit to a VA 
treatment plan with substantial adherence to that plan for a specified 
period of care. In order to be eligible for the wellness stipend, the 
veteran would be required to agree not to file a VA disability 
compensation claim for the covered conditions for one year or the 
duration of the treatment program, whichever time period would be 
shorter. Duration of treatment would be individualized and determined 
by the attending VA clinician. Under the program, there would be two 
proposed levels of wellness stipends. Receipt of the full wellness 
stipend would depend on the veteran having no service-related rating 
for PTSD, depression, anxiety disorder, or related substance abuse, and 
having no claim pending for one of the conditions mentioned.
    Veterans with no service-connected rating or claim pending for the 
conditions mentioned who agreed not to file a new or an increased 
disability claim for one of the conditions and in addition agreed to 
``substantial compliance'' with a prescribed treatment plan for those 
conditions for the duration of the prescribed program (or 12 months, 
whichever is sooner), would receive $2,000 immediately payable upon 
diagnosis; $1,500 payable every 90 days while in the treatment program 
upon clinician certification of substantial compliance with the 
treatment regimen; and $3,000 payable at the conclusion of the time-
limited treatment program. Under this proposal, the gross stipend for 
these veterans would be $11,000.
    This bill also would propose that any veteran, with a new or 
increased disability claim pending for PTSD, depression, anxiety 
disorder or related substance abuse, would receive only a partial 
wellness payment at identical intervals but totaling only up to 33% of 
the rates discussed above. Any participating veteran who failed to 
comply with the conditions of the program would be removed from the 
program, resulting in cessation of the stipends. The program would 
limit a veteran's participation to a single enrollment unless VA 
determined that extended participation would provide the veteran 
additional assistance in recovery.
    As we have stated, we support efforts to increase early 
intervention in order to increase the chances for recovery. Multiple 
independent reports and scientific studies provide ample evidence for 
pursuing early intervention for PTSD and other service-related mental 
health problems, for promoting recovery, and for providing adequate 
financial support so that veterans have the resources to engage fully 
in necessary treatment. Participation in treatment and counseling is 
often an intensive and time consuming process and so financial 
stipends, such as those proposed by this bill, would give veterans at 
least a modicum of support to concentrate on participating as full 
partners in their therapy.
    However, DAV strongly opposes any provision that attempts to link 
wellness stipend payments to a veteran's right to file a disability 
claim. While progression in science has enhanced our ability to 
recognize and treat the mental health consequences of service in combat 
including PTSD, the treatments are not universally effective. PTSD and 
major depression tend to remit and recur. There is no justification for 
the view that participation in evidence-based therapy will eradicate 
the illness or eliminate the need for a claim for disability.
    In addition to the above concerns, we recognize the challenges that 
VA faces in establishing the administrative systems and management of 
mental health treatment programs. In order to increase the chances for 
success, DAV recommends that VA incorporate the following components 
into any new early intervention mental health treatment program design:

    <bullet> VHA has struggled to provide timely access to mental 
health services to all veterans seeking care. In order to carry out any 
new programs, such as those outlined in this bill, while continuing to 
meet current demand for mental health services, VA will need to recruit 
and retain additional highly skilled, dedicated mental health 
providers.
    <bullet> Every veteran enrolled in such programs should be assigned 
to a care manager to coordinate care and jointly track personal 
treatment and recovery plans.
    <bullet> VA mental health providers should receive ongoing 
continuing medical education, intensive training and clinical 
supervision to ensure that they have the skills and capability to 
deliver the latest evidence-based treatments.
    <bullet> VA should offer certifications to professionals for PTSD 
treatment, competency in veterans' occupational health, and cultural 
competency in veterans and military life.

    Most of the military members who serve in combat will return home 
without injuries and readjust in a manner that promotes good health. 
However, it is the responsibility of our Nation to treat veterans who 
return with war wounds, both visible and invisible, and to fully 
support their mental health recoveries. Moreover, we believe that while 
wellness stipend payments could facilitate their recovery, they are not 
an adequate or acceptable substitute for fair and equitable disability 
compensation for service-related conditions.
    In summary, DAV supports the provisions of this bill that promote 
early intervention in mental health treatment, prevention of chronic 
disability, and promotion of recovery. However, we cannot support the 
bill in its current form because it restricts the rights of disabled 
veterans to apply for service-connected disability compensation. We 
suggest that the health care provisions and wellness stipend payments 
be decoupled from the proposal to deny veterans the ability to apply 
for disability compensation during the treatment phase.
    While DAV cannot offer our full support to S. 819, we would be 
happy to work with the Committee to see if there are additional ways to 
create incentives for veterans to seek early treatment for mental 
health conditions without forcing them to surrender their earned right 
to seek other VA benefits.
                                 s. 863
    S. 863, the Veterans Back to School Act of 2013, would amend title 
38, United States Code, to repeal time limitations on the eligibility 
for use of educational assistance under All-Volunteer Force Educational 
Assistance Program and to improve veterans' education outreach.
    DAV has no resolution or position on this matter.
                                 s. 868
    S. 868 would require the Secretary of Defense to establish a 
process to determine whether individuals claiming certain service in 
the Philippines during World War II are eligible for certain benefits 
despite not being on the Missouri List.
    DAV has no resolution or position on this matter.
                                 s. 889
    S. 889 would amend title 10, United States Code, to improve the 
Transition Assistance Program (TAP) of the DOD. Specifically, this 
legislation would expand the current TAP for those who plan to use 
educational assistance by codifying the instruction and overview of 
such educational assistance, testing to determine academic readiness, 
instruction on how to finance post-secondary education, and instruction 
in the benefits and other programs administered by the Secretary of 
Veterans Affairs.
    In light of the difficulty faced by many transitioning 
servicemembers, especially those with service-related disabilities, 
S. 889 will provide certain expansion and improvement to the current 
TAP program within each respective branch of the military. Allowing 
these individuals the maximum assistance in obtaining their benefits, 
education, and employment as they exit military service is absolutely 
imperative.
    In accordance with DAV Resolution No. 199, we support the enactment 
of S. 889.
                                 s. 893
    S. 893, the Veterans' Compensation Cost-of-Living Adjustment Act of 
2013, would provide for an increase, effective December 1, 2013, in the 
rates of compensation for veterans with service-connected disabilities 
and the rates of dependency and indemnity compensation (DIC) for the 
survivors of certain disabled veterans.
    Although a cost-of-living adjustment (COLA) was passed last year at 
the modest increase of 1.7%, each of the prior two years, there was no 
increase in the rates for compensation and DIC because the Social 
Security index used to measure the COLA did not increase. Many disabled 
veterans and their families rely heavily or solely on VA disability 
compensation or DIC as their only means of financial support and have 
struggled during these difficult times. While the economy has faltered, 
their personal economic circumstances have been negatively affected by 
rising costs of many essential items, including food, medicines and 
gasoline. As inflation becomes a greater factor, it is imperative that 
veterans and their dependents receive a COLA and DAV supports enactment 
of this legislation.
    Mr. Chairman, DAV applauds you and Ranking Member Burr for not 
mandating that the COLA be rounded down to the next lowest whole dollar 
amount. DAV has a longstanding resolution to discontinue this unfair 
practice. The ``round down'' practice was initially enacted to be a 
temporary cost savings measure, but has now been in effect for nearly 
20 years. This temporary cost saving measure has resulted in the loss 
of millions of dollars to veterans and their families since its 
inception and long overdue to be discontinued. As such DAV thanks you 
for your forward thinking to remove the ``round down'' provision.
    DAV also applauds your leadership and efforts with respect to 
opposing the ``chained'' consumer price index (CPI). DAV joins your 
opposition to this or any similar attempt at progressively eroding 
annual COLAs by replacing the current CPI formula used for calculating 
the annual Social Security COLA with the Bureau of Labor Statistics' 
new formula, commonly termed the ``chained CPI.'' The conversion to 
using the ``chained CPI'' is intended to significantly reduce the rates 
paid to Social Security recipients in the future, thereby lowering the 
overall Federal deficit, which would come at great cost to disabled 
veterans; a group, as you know, that has already demonstrated great 
sacrifice to this Nation. Balancing the budget on the backs of disabled 
veterans is simply unacceptable and we thank you for your stalwart 
opposition the ``chained CPI.''
                                 s. 894
    S. 894 would amend title 38, United States Code, to extend expiring 
authority for work-study allowances for individuals who are pursuing 
programs of rehabilitation, education, or training under laws 
administered by the Secretary of Veterans Affairs, and to expand such 
authority to certain outreach services provided through congressional 
offices.
    DAV has no specific resolution on this matter; however, the purpose 
of this legislation is to provide economic assistance to veterans and 
disabled veterans in VA programs. DAV supports the principle intent of 
the bill, because it would help empower disabled veterans.
                                 s. 922
    S. 922, the Veterans Equipped for Success During Transition Act of 
2013, would provide in-state tuition to transitioning veterans. 
Essentially this legislation would create a pilot program to provide 
subsidies to employers of certain veterans and members of the Armed 
Forces, as well as a pilot program to provide career transition 
services to veterans.
    Employment for service-disabled veterans is a priority for DAV and 
we support the principle of the legislation, which is to improve 
transition from military service by encouraging employers to hire 
veterans. We are, however, unclear why Section 2 of the bill excludes 
veterans between the ages of 35 and 54, and why Section 3 of the bill 
excludes veterans over the age of 30. Finding employment can be 
extremely difficult for veterans following military service, and even 
more challenging for veterans with service-related disabilities. 
Limiting these pilot programs to veterans of a particular age would 
increase the already difficult employment process for service-disabled 
veterans. While DAV supports the principle of this legislation, we 
believe S. 922 should be expanded to include all veterans, regardless 
of age, and should include more incentives for hiring disabled 
veterans.
                                 s. 927
    S. 927, the Veterans' Outreach Act of 2013, would authorize a 
demonstration project to assess the feasibility and advisability of 
improving VA's outreach efforts by awarding grants to state and local 
government agencies, as well as private nonprofit organizations. The 
purpose of these demonstration grants would be to measure whether such 
partnerships are successful and should be continued and expanded in 
order to increase veterans awareness of the benefits and services that 
VA offers to them, their families and survivors.
    Mr. Chairman, like you, DAV is strongly committed to educating 
veterans about all of the services, benefits and programs provided by 
the Federal Government as a result of their service. Working through a 
core of more than 300 National Service Officers and Transition Service 
Officers, DAV reaches out to hundreds of thousands of veterans every 
year in order to educate and assist them in availing themselves of 
their earned benefits. Dozens of other veterans services organizations 
are also engaged in continual outreach to veterans across the country.
    In addition, DAV strongly supports chapter 63 of title 38, United 
States Code, which currently requires VA to engage in outreach 
activities and to report on them to Congress on a regular basis. We are 
also aware of the efforts that states and local government agencies 
have undertaken, particularly in recent years, to ensure that veterans 
are aware of the full range of benefits and services available to them 
and their families.
    However, although S. 927 would authorize new grants from VA to 
states, local governments and nonprofits, the legislation does not 
specifically authorize any additional funding for these purposes, nor 
does it require that additional appropriations be provided to fund such 
grants. As such, funding for such outreach activities might have to be 
taken from existing health care or benefit programs, both of which are 
already hard pressed to meet current demand. Too often new programs are 
funded by taking resources away from existing health care programs 
serving veterans, especially disabled veterans, and we would not be 
supportive of expanding outreach programs at the expense of existing 
programs for disabled veterans.
    Further, in conducting any such demonstration projects or any 
similar studies about expanded outreach, VA must carefully examine the 
additional costs that would accrue as a result of such outreach. A 
critical part of any such studies must be the cost of providing 
additional services and benefits to those veterans, family members and 
survivors who are brought into VA as a result of expanded outreach 
activities. DAV would not be supportive of an outreach program if it 
resulted in existing services and benefits being reduced for current 
recipients in order to provide benefits and services to new veterans, 
particularly if resources were cut for disabled veterans. Congress must 
ensure that any new outreach activities of the VA have sufficient 
funding, not just for the outreach activities themselves, but also for 
the resultant increased cost of veterans benefits and services by the 
those veterans who would be brought into the VA system.
    Mr. Chairman, DAV believes the Federal Government has a moral 
obligation to provide veterans, their families and survivors with all 
of the benefits and services they have earned through their sacrifice 
to this Nation, and that includes an obligation to make them aware of 
these benefits and services. But without a guarantee of sufficient 
funding, expanded outreach would end up being a hollow promise and 
could result in a decrease of benefits and services to those veterans 
who currently rely on VA.
                                 s. 928
    S. 928, the Claims Processing Improvement Act of 2013, contains 
numerous provisions intended to improve the processing of claims for 
disability compensation under laws administered by the Secretary of 
Veterans Affairs. As this Committee is well aware, VA is currently in 
the process of comprehensively transforming its claims processing 
system in order to address the unacceptably large backlog of pending 
claims. DAV has and will continue to urge that the focus of all claims 
process reform efforts must be first and foremost on quality and 
accuracy in order to ensure that every veteran's claim is done right 
the first time.
    Section 101 of the bill would establish a working group to study 
and make recommendations to improve the employee work credit and work 
management systems of the Veterans Benefits Administration (VBA). DAV 
has long supported calls for scientifically studying how VBA determines 
its resource needs, which must be based on an accurate measure of how 
much work can be done accurately by its employees. While we support the 
general intent of the working group proposed by this Section, we would 
make several recommendations to better focus the efforts in the context 
of the current transformation.
    First, we believe that the focus of the working group should be on 
developing a scientific, data-driven model for determining the 
resources needed to accurately process the volume of work now and in 
the future, as well as how to allocate those resources amongst VBA's 
regional offices. The core of this resource needs model must be an 
accurate determination of how much work VBA employees can accurately 
produce at each position and experience level. Importantly, this model 
must be sufficiently dynamic to quickly adjust to changes in the laws 
and regulations governing disability compensation.
    Second, we would recommend that the working group not study VBA's 
work management system at this time. As this Committee is aware, VBA 
has just completed implementing a brand new organization model for 
processing claims, and has not yet completed rolling out its new 
Veterans Benefits Management System (VBMS) to all regional offices, 
both of which make comprehensive changes to VBA's work management 
systems. As such, it would be premature to study whether or not these 
new systems are or will be successful, much less recommend 
comprehensive changes to them, for the next couple of years.
    Finally, the language of Section 101 mandates that the Secretary 
``shall'' implement the recommendations of this working group. As such 
it is imperative that the membership and operating rules of the working 
group are clearly delineated, including the total number of voting 
members, how decisions are made and votes taken, and how 
recommendations will be presented.
    Section 102 of the bill would establish a task force on the 
retention and training of VBA claims processors and adjudicators. DAV 
has been a longtime advocate for improvements to be made in the 
training of VBA employees in order to improve quality and accuracy. As 
such, DAV supports enactment of this section of the bill.
    Section 103 would streamline the requests for Federal records other 
than VA records. DAV agrees that the VA is burdened greatly in the 
development stage of a claim by not being able to retrieve records, or 
receive them in a timely manner, especially from a Federal agency. An 
even greater burden is shouldered by the veteran claimant who must 
endure unacceptable delay in processing the claim or a denial simply 
because the records weren't provided to VA at its request.
    As part of VA's duty to assist a claimant in obtaining evidence 
necessary to substantiate a claim, title 38, United States Code, 
section 5103A states the Secretary will make reasonable efforts to do 
so, including private records. While it is not defined in the law how 
many attempts to obtain records must be made, we do not believe the 
claim should languish or the VA left in an endless cycle of requests 
simply because a private entity does not or will not respond to such 
requests.
    However, when the records identified by the claimant are in custody 
of a Federal agency, we do not believe VA should be allowed to limit 
its requests. Section 103 of this legislation states the Secretary 
shall not make fewer than two attempts to obtain Federal records, which 
essentially means VA will make no more than two requests. DAV believes 
the claimant would be gravely penalized by limiting the requests made 
by VA simply because of the lack of cooperation between Federal 
agencies.
    Additionally, we believe this section should require the Federal 
agency the records are requested from to provide the records to the VA, 
or a response as to why the records cannot be provided, within 30 days 
of VA's request.
    Although we appreciate the intent of this legislation to provide 
quicker decisions for veterans whose claims are pending because Federal 
agencies do not respond to VA requests for records, we are concerned 
that this legislation removes rather than increases pressure on those 
Federal agencies. Instead, we believe that the provisions in S. 674 
requiring greater accountability for Federal agencies through stricter 
reporting is a better approach and more likely to lead to more accurate 
decisions for veterans.
    DAV is not opposed to Sections 104, 105 and 106 of this bill.
    Section 201 would modify the filing period of a Notice of 
Disagreement (NOD) to decisions from the VA by reducing the currently 
allowed one year period to 180 days from the date of the decision. 
Currently the vast majority of claimants who file an NOD already do so 
within 180 days. As such, one can reasonably ascertain claimants who 
don't file within 180 days need the additional time to obtain and 
submit additional evidence in support of their claim. As such, DAV is 
opposed to Section 201 of the bill, as we do not see any positive 
effect resulting from this change at this time.
    Section 202 would allow the Board of Veterans' Appeals (Board) to 
automatically select videoconference hearings to be scheduled for 
claimants desiring a hearing before the Board, unless the claimant 
specifically requests to appear in person before the Board. With the 
large number of claimants DAV represents, especially before the Board, 
we understand the benefits of the videoconference hearing process, 
specifically a claimant being able to be heard by the Board in a much 
faster and cost efficient manner. In fact, DAV encourages claimants 
desiring to have a hearing before the Board to do so by way of 
videoconference. As such, DAV supports this section of the bill as it 
would improve the timeliness of the appeal process; however, a veteran 
must always retain the right to have an in-person hearing if so 
desired. Further, we recommend the notice of appeal rights sent to a 
claimant include the automatic scheduling for a videoconference hearing 
before the Board along with the right to appear in person before the 
Board.
    DAV is not opposed to sections 203, 301, 302, 303 and 304 of the 
bill.
    Section 305 of the bill would provide an extension of temporary 
authority for disability medical examinations to be performed by 
contract physicians. If enacted, this section of the bill would extend 
this authority through December 31, 2014. The results from contracted 
examinations have been positive in the way of faster scheduling, more 
thorough, and better interaction with the physician providing the 
examination. As such, DAV supports this section of the bill, although 
we would like to see the authority extended further due to the positive 
feedback we have received from claimants and our National Service 
Officers, as well as employees in the VBA who review these 
examinations. With respect to the reporting requirement in this section 
of the bill, DAV is not clear of its actual purpose or what is hoped to 
be gained. While we have no reservation about requiring VA to provide a 
report about this process, we do question the requirement that VA do so 
at a time when the backlog of claims continues to grow.
                                 s. 930
    S. 930 would require the Secretary of Veterans Affairs, when there 
is an overpayment of benefits under Post-9/11 Educational Assistance, 
to deduct amounts for repayment from the last months of educational 
assistance entitlement.
    DAV has no resolution or position in this matter.
                                 s. 932
    S. 932, the Putting Veterans Funding First Act of 2013, would 
authorize advance appropriations for all discretionary accounts within 
the VA, effective in the first and subsequent budgets submitted by the 
President following the date of enactment. While DAV does not have a 
resolution supporting the precise idea of advance appropriations for 
these purposes, DAV Resolution No. 216 seeks to ensure full 
implementation of legislation to guarantee sufficient, timely and 
predictable funding for VA health care. As this Committee is aware, DAV 
and the entire veterans' service organization community strongly 
supported reformed appropriations legislation for VA health care, 
finally enacted as Public Law 111-81, the Veterans Health Care Budget 
Reform and Transparency Act of 2009. In the same vein as Public Law 
111-81 and the positive impact it has had on VA health care, S. 932 
seeks to provide the same support to veterans, their families and 
dependents, through all VA discretionary accounts.
    As this Committee also knows well, Federal programs, including the 
VA, have often been stymied in their responsibilities because they are 
forced to operate on flat or reduced spending plans constrained by 
continuing resolutions. If every VA program were funded in advance of 
need, VA decisionmakers and staff would gain confidence that funds were 
available long before the beginning of each budget year. This certainty 
would enable them to plan in more rational ways to ensure that 
veterans, their survivors and dependents, receive the benefits and 
services they have earned without delay or disruption, and would ensure 
VA's myriad programs would be able to operate more efficiently; from a 
business perspective, and without the distraction of being managed in 
an irrational, continuing resolution environment.
    For each operative year of advance appropriations for VA health 
care, the Committees on the Budget have provided budget waivers to 
protect against points of order that would have prevented legislation 
containing advance appropriations due to restrictions under the 
governing Congressional Budget and Impoundment Act of 1974. Mr. 
Chairman, we believe advance appropriations for all VA accounts should 
be permanently insulated from points of order, not by uncertain and 
individual waivers to be given; the necessity for waivers to block 
points of order should be eliminated as this bill is considered by 
Congress. DAV requests these actions be taken, either in amending 
S. 932 itself, or in conjunction with the jurisdiction of the Committee 
on the Budget.
    Additionally, Mr. Chairman, Public Law 111-81 contained language 
requiring the Comptroller General to evaluate and report on the 
accuracy and sufficiency of VA's formulation of its health care budgets 
covering fiscal years 2011, 2012 and 2013. We believe this monitoring 
and reporting function has provided a meaningful and effective source 
of oversight of VA's internal budgeting processes, and leads to more 
accurate and sufficient budgeting over time. This authorizing language 
requiring GAO reviews was not included as a permanent part of the Code, 
so it has reached its sunset effective at the end of this fiscal year. 
We ask that consideration be given to making this mandate a permanent 
part of title 38, United States Code, and extending a new multi-year 
mandate to the GAO as an amendment to this bill.
    Based upon DAV's practical observation, Public Law 111-81 has 
positively changed behavior in VA health care. This legislation would 
bring more stability, predictability and timely appropriations to all 
of VA. As such, in accordance with DAV Resolution No. 216, we support 
enactment of S. 932 and urge Congress to move this legislation forward 
as a high priority.
                                 s. 935
    S. 935, the Quicker Veterans Benefits Delivery Act of 2013, would 
improve the VA disability claims process by prohibiting the Secretary 
of Veterans Affairs from requesting unnecessary medical examinations 
for veterans who have submitted sufficient medical evidence from non-VA 
medical professionals, which is competent, credible, probative and 
otherwise adequate for rating purposes.
    Additionally, S. 935 would expand the pre-stabilization rating 
criteria under section 4.28 of title 38, Code of Federal Regulations, 
by adding a 30 percent level to the already established 50 percent and 
100 percent level of disability for separating servicemembers suffering 
from wounds, injuries or illnesses that are not completely healed. 
Similarly, this bill would allow for a temporary minimum rating to be 
assigned to a veteran with one or more disabilities and sufficient 
evidence to support a minimum rating.
    While we are certainly supportive of providing a temporary minimum 
rating, which may dramatically improve the timeliness of the disability 
claims process for many veterans and VA alike, we believe the language 
of section 3 of the bill is too broad. First, expanding the pre-
stabilization rating process to include a 30 percent level of 
disability would only serve to allow VA to use this percentage as the 
automatic base level for incompletely or unhealed conditions versus the 
already capable percentage of 50 percent, which would undoubtedly 
become obsolete. We believe the 30 percent rating level would be more 
appropriate under the temporary minimum rating portion of section 3, 
which would allow a VA rater to, upon initial review of the evidence, 
establish that service connection is warranted for at least one 
disability, provide a temporary rating of at least 30 percent while the 
overall claim is being processed. This would allow veterans and their 
families to begin receiving compensation and provide eligibility for a 
plethora of other Federal and state benefits while the full claim is 
being processed.
    Last, S. 935 would provide for benefit payments to be made at the 
first of a month for the coming month instead of the current practice 
of benefit payments being made at the end of the month for the 
immediately passing month.
    As such, in accordance with DAV Resolution No. 205, we support 
enactment of S. 935.
                                 s. 938
    S. 938, the Franchise Education for Veterans Act of 2013, would 
amend title 38, United States Code, to allow certain veterans to use 
educational assistance provided by the VA for franchise training. 
Specifically, this legislation would expand education and training 
opportunities under the All-Volunteer Force Educational Assistance 
Program by allowing veterans to utilize a portion of their educational 
benefit toward franchise training. DAV recognizes not every veteran or 
service-disabled veteran learns in the same manner or has the same goal 
of achieving an educational degree; however, we believe there are many 
veterans and service-disabled veterans who, unfortunately, allow their 
education benefit entitlement to expire unused as they do not want to 
pursue an education degree type program.
    In accordance with DAV Resolution No. 001, we support enactment of 
S. 938, as it would expand the use of the VA provided education benefit 
and empower service-disabled veterans to use their education benefit in 
a manner conducive to their own employment interests and goals.
                                 s. 939
    S. 939 would amend title 38, United States Code, to treat certain 
misfiled documents as motions for reconsideration of decisions by the 
Board of Veterans' Appeals (Board). Under current law, when a veteran 
claimant receives an adverse decision from the Board, he or she has 120 
days to file a Notice of Appeal with the United States Court of Appeals 
for Veterans Claims (Court). Many veteran claimants, especially those 
without representation, do not distinguish the Court tribunal as being 
separate from the VA, specifically the Board or the agency of original 
jurisdiction (AOJ), primarily the VA Regional Office where the claim 
originated.
    When a veteran claimant receives a final, adverse decision from the 
Board he or she may inadvertently file their Notice of Appeal directly 
with the Board or the AOJ within the 120-day period rather than the 
Court. If the Board or AOJ does not forward the Notice of Appeal to the 
Court on behalf of the veteran claimant within the 120-day appeal 
period, the veteran claimant may forfeit their appeal rights and the 
Board's decision would become final and binding.
    S. 939 would afford certain protection to a veteran claimant who 
submits to the Board or AOJ a document expressing disagreement with the 
Board's decision within 120 days of such decision. This legislation 
would require VA to treat such documents as a motion for 
reconsideration to the Board's decision; unless the document clearly 
expresses the intent of a veteran claimant to appeal the Board's 
decision to the Court.
    As such, in accordance with DAV Resolution No. 205, we support 
enactment of S. 939.
                                 s. 944
    S. 944, the Veterans' Educational Transition Act of 2013, would 
require courses of education provided by public institutions of higher 
education that are approved for purposes of the All-Volunteer Force 
Educational Assistance Program and Post-9/11 Educational Assistance to 
charge veterans tuition and fees at the in-State tuition rate.
    DAV has no resolution or position on this matter.
                                s. 1039
    S. 1039, the Spouses of Heroes Education Act, would expand the 
Marine Gunnery Sergeant John David Fry scholarship to include spouses 
of members of the Armed Forces who die in the line of duty.
    DAV has no resolution or position on this matter.
                                s. 1042
    S. 1042, the Veterans Legal Support Act of 2013, would authorize 
the Secretary of Veterans Affairs to provide support to university law 
school programs that are designed to provide legal assistance to 
veterans. Specifically, this bill would authorize financial support of 
$1,000,000 total derived from VA Medical Services account to fund this 
program, which is intended to provide financial support to university 
law school programs that provide legal assistance to veterans; 
assistance including filing and appealing VA claims in addition to 
other civil, criminal and family legal matters.
    S. 1042 does not provide details about the purpose of the funding 
nor the activities of the individuals involved in providing legal 
assistance. It is not clear whether these individuals would be 
accredited representatives; what if any training in this process will 
be required; what type of accessibility to VA systems and records will 
be afforded; what level of representation will be provided, etc. We 
believe there are many questions contained within this bill that are 
unanswered in its broad language and more specific information is 
necessary to fully understand the goal of this bill.
    While DAV does not have a resolution on this matter, we are 
concerned about the funding for this bill being taken from the VA 
Medical Services account, or any other VA account. Too often, new 
programs are funded by taking resources away from existing health care 
programs serving veterans, especially disabled veterans. DAV opposes 
funding any program at the expense of existing programs for disabled 
veterans, especially to fund a program to afford representation, which 
may or may not have a cost to the veteran, when organizations like DAV 
and other veteran service organizations have a rich history and provide 
professional advocacy services and representation with no government 
funding and no cost to the veteran.
                                s. 1058
    S. 1058, the Creating a Reliable Environment for Veterans' 
Dependents Act, would expand section 2012 of title 38, United States 
Code, to authorize per diem payments for the purpose of furnishing care 
to dependents of homeless veterans to grant recipient entities who 
provide comprehensive service programs for homeless veterans as covered 
under section 2011 of the same title.
    DAV has no resolution or position on this matter.

    Mr. Chairman, this concludes my testimony and I would be happy to 
answer any questions from you or Members of the Committee.

    Chairman Sanders. Thank you very much, Mr. Hall.
    Mr. de Planque.

 STATEMENT OF IAN DE PLANQUE, DEPUTY LEGISLATIVE DIRECTOR, THE 
                        AMERICAN LEGION

    Mr. de Planque. Good morning, Mr. Chairman and other 
Members of the Committee. I want to thank you on behalf of The 
American Legion for having us here, and I want to thank you 
especially for the large slate of bills that are being 
considered and the dedicated and tireless work of your staffs 
and the Members to bring such an ambitious slate to the 
forefront.
    I just want to touch on a couple of those things, one of 
which deals with the in-state tuition rates for veterans using 
the GI Bill benefits.
    As you know, The American Legion has a long-standing 
history with the GI Bill. We helped craft of the original GI 
Bill. We have been working tirelessly on this issue for a long 
time.
    We have strong support for S. 257 because it supports the 
widest number of veterans getting access to in-state tuition, 
and this is very important. We feel it is the one that puts the 
veterans first, not the States necessarily, not the schools 
necessarily. It is the one that has the interest of the 
veterans at heart.
    It is a difficult issue. There has been a lot of criticism 
of a variety of things regarding it. Using military tuition 
assistance at public schools has already been recognized at the 
Higher Education Opportunity Act of 2008. This is something 
that has already been agreed to.
    If you look at veterans, if you look at the servicemembers, 
they are a very small group of people, the only group of people 
who really have trouble maintaining the residency requirements 
to get these in-state tuition rates.
    We have already recognized that for active-duty 
servicemembers it needs to apply across all the veterans. When 
they stood there, when they took that oath, when they went to 
serve, they did not serve to defend Virginia, they did not 
serve to defend North Carolina, they served to defend the 
entire country.
    The entire country owes that back. All Americans in every 
State owe a debt of gratitude to the men and women who served 
in the Armed Forces.
    In addition, public universities are nonprofit institutions 
that get special privileges such as massive Federal and State 
government subsidies and tax exemptions based on the assumption 
that they are good stewards of the public trust.
    Granting in-state rates should be seen as part of that 
exercise of trust. Student veterans face many challenges in 
pursuing higher education. There is no reason why obtaining in-
state tuition rates should be one of them.
    We have seen with the original GI Bill what the dividend 
paid back to the country was. That is why we passed the new GI 
Bill for the veterans of the current wars; and to get that 
dividend, to get the maximum return on that dividend, we need 
to make sure that we are extending this benefit and making sure 
there is fairness there.
    Regarding fairness, I also want to talk about the Ruth 
Moore Act, S. 294, because it is essentially an issue of 
fairness. We have recognized already within the disability 
claims system that there are difficulties for combat veterans 
proving Post Traumatic Stress Disorder, stressors, issues of 
that nature. The reason they recognize it was because they knew 
in combat it is hard to keep records.
    There are very incomplete records. There are very 
inaccurate records. When you are sitting there engaging, 
fixing, destroying the enemy, you do not stop to take notes of 
every single thing that goes on. There was a recognition of 
this and so they came up with relaxed evidence standards.
    Well, we heard Senator Tester talking this morning about 
how as many as 85 percent of military sexual trauma crimes can 
go unreported. We know that in the past records of these 
incidents have been thrown out after a year or 3 years by 
mandatory regulations. We know this is something where the same 
condition exists.
    There is poor recordkeeping and victims of these terrible, 
terrible crimes that happen in the service are having to suffer 
again because we will not relax the evidence standards.
    The Ruth Moore Act would fix that. It will help bring them 
to the same standard that we treat the heroes of combat. We 
need to treat all of our heroes in the same way, and this is 
very important to us.
    I also want to take a moment to thank you especially, but 
the Committee as a whole, for working to help fight chained CPI 
for veterans with the cost of living increase. This is 
something that we cannot afford: to take these most vulnerable 
people, our disabled veterans and elderly veterans, and make 
them bear the brunt.
    Everybody always talks about how we are not going to 
balance the budget on the backs of our veterans. Well, that is 
what the chained CPI is doing. So, we want to thank you for 
continuing your flight on that, and The American Legion is 
happy to answer any questions that you have. Thank you.
    [The prepared statement of Ian de Planque follows:]
    Prepared Statement of Ian De Planque, Deputy Director, National 
              Legislative Commission, The American Legion
    Chairman Sanders, Ranking Member Burr and distinguished Members of 
the Committee, On behalf of Commander Koutz and the 2.4 million members 
of The American Legion, we thank you and your colleagues for the work 
you do in support of our servicemembers and veterans as well as their 
families. The hard work of this Committee in creating significant 
legislation has left a positive impact on our military and veterans' 
community.
    Nationwide, The American Legion has over 2,600 accredited service 
officers to ensure veterans receive the benefits to which they are 
entitled at no cost to those veterans. Not only do we advocate for the 
2.4 million members in our organization, but also the millions of 
veterans who do not hold membership; in short, we live by the motto ``a 
veteran is a veteran'' and is deserving of representation when seeking 
VA benefits. We recognize the necessity to adequately compensate 
veterans and veterans' families for disabilities incurred during 
service to our Nation.
    As a grassroots organization, The American Legion draws upon the 
strength of its membership to provide guidance on policies in the form 
of resolutions passed during annual national conventions or at meetings 
of the National Executive Committee. The will of the membership of the 
Legion is expressed through these resolutions, which support or oppose 
policy decisions on topics of concern, whether for veterans, the 
children and youth of America, a strong national defense, or the 
principles of Americanism. The support and positions of The American 
Legion on any legislation is derived from the guidance of these 
resolutions and the founding documents of our organization.
          s. 6: putting our veterans back to work act of 2013
    To reauthorize the VOW to Hire Heroes Act of 2011, to provide 
assistance to small businesses owned by veterans, to improve 
enforcement of employment and reemployment rights of members of the 
uniformed services, and for other purposes.
    This expansive bill renews many provisions of the VOW to Hire 
Heroes Act, supported by The American Legion in 2011, and expands on 
many of the provisions of that law, as well as offering other solutions 
to continue to address veterans' employment concerns.
    The American Legion has been the leading veterans' voice in getting 
veterans back to work as those who have served this Nation have 
suffered from unemployment rates fully two thirds or more higher than 
their comparative civilian cohort. Annually, The American Legion has 
worked with the Chamber of Commerce on hundreds of hiring fairs and put 
countless thousands of veterans back to work. Ensuring that the 
Nation's protectors are matched up with the jobs their military service 
has prepared them for is a top priority of The American Legion.
    As an organization, we were deeply involved in the creation of the 
unified employment portal for online government hiring through 
development stages with the Department of Labor and the Office of 
Personnel Management. As the Nation's largest wartime veterans 
organization, The American Legion is certainly cognizant of the many 
benefits to hiring veterans and supports increases to the weight of 
influence in determining an overall score, when considering the hiring 
veterans, as an evaluation factor in solicitations for contracts.
    At every stage of this Nation's history, veterans of the Armed 
Forces have been vital to building the infrastructure of progress and 
the backbone of the labor force. This bill contains many important 
improvements to the employment environment for veterans to ensure they 
continue to provide the key role in America's workforce they have 
always enjoyed.
    The American Legion supports this legislation.
                                 s. 200
    A bill to amend Title 38, United States Code, to authorize the 
interment in national cemeteries under the control of the National 
Cemetery Administration of individuals who served in combat support of 
the Armed Forces in the Kingdom of Laos between February 28, 1961 and 
May 15, 1975, and for other purposes.
    The American Legion has no position on this legislation.
              s. 257: gi bill tuition fairness act of 2013
    Directs the Secretary of Veterans Affairs (VA), for purposes of the 
educational assistance programs administered by the Secretary, to 
disapprove courses of education provided by public institutions of 
higher education that do not charge tuition and fees for veterans at 
the same rate that is charged for in-state residents, regardless of the 
veteran's state of residence.
    The American Legion is synonymous with veterans' education, and was 
instrumental in the first, and most recent GI Bills' passage designed 
to help the modern-day veteran navigate the confusing world of 
education benefits. The main reason for the Post-9/11 GI Bill was that 
VA education benefits were no longer sufficiently keeping pace with 
fast-rising tuition costs. Working with Congress, The American Legion 
stressed the need for a ``21st Century GI Bill'' that would provide 
benefits worthy of today's veterans, while offering similar 
opportunities afforded to those who fought in World War II.
    Critics have said that S. 257 sets a dangerous precedent for other 
non-resident students utilizing Federal aid programs. The American 
Legion strongly disagrees because military servicemembers and military 
veterans are the only cohort of Americans who cannot satisfy residency 
requirements for in-state tuition because of circumstances beyond their 
control. Recognizing these unique circumstances, servicemembers are 
already offered this reasonable accommodation when using military 
Tuition Assistance at public schools through the Higher Education 
Authorization Act; however, once a servicemember leaves the military 
this protection goes away.
    The Post-9/11 GI Bill only pays in-state tuition and eligible fees. 
Veterans who settle in states other than their state of residence upon 
separating from the service are initially charged ``out-of-state'' 
tuition, which means they must pay the difference between the resident 
and non-resident charges of that state's tuition. Servicemembers are 
not given the option to move to any state and establish residency prior 
to their separation from the Armed Forces, which can lead to financial 
burdens.
    State policies have adjusted in the last decade to allow active and 
reserve members to access in-state tuition rates, but separating 
servicemembers (future veterans) must fulfill established residency 
time requirements to establish state residency and access in-state 
tuition rates beginning the day they are discharged, and receive no 
credit for living in that state while they were serving there during 
their active duty commitment. The Yellow Ribbon Program, included in 
the Post-9/11 GI Bill, supplements costs above the ``in-state'' tuition 
rate by matching contributions made by an institution of higher 
learning (IHL) toward veterans' education; however, cuts to education 
scholarship programs have hindered effective implementation of this 
program.
    Over the last couple of years, we have heard from countless 
veterans who, because of the nature of military service, have had a 
difficult time establishing residency for purposes of obtaining in-
state tuition rates. Under current rules, 40,000 student-veterans have 
to pay the difference between in-state tuition, which is covered by the 
Post-9/11 GI Bill, and out-of-state tuition if they are attending 
school as a nonresident. Because of this, many of our student-veterans 
are unable to use their GI Bill benefits at an institution of higher 
education of their choice or are required to pay thousands of dollars 
in out-of-pocket expenses in nonresidential tuition rates. This added 
financial burden undermines the original intent of the program.
    Additionally, public colleges and universities have significantly 
raised the costs of out-of-state tuition to offset decreasing revenues 
due to state budget cuts. Circumstances such as these pose significant 
challenges to using this important benefit. Because of this, and 
through resolution,\1\ The American Legion is working hard to ensure 
the Post-9/11 GI Bill receives appropriate enhancements to continually 
improve how this vital benefit functions for the servicemembers who 
utilize the benefits.
---------------------------------------------------------------------------
    \1\ Resolution No. 327: Support Legislation to Improve the Post-9/
11 GI Bill, AUG 2012.
---------------------------------------------------------------------------
    The American Legion is addressing this issue on several fronts, and 
in addition to supporting Federal legislation, continues to lead a 
state-by-state initiative to introduce, advocate for, and support state 
legislation that would waive the residency requirements for separating 
veterans, which would grant them access to in-state tuition at public 
colleges and universities, regardless of their residency status.
    Veterans shouldn't be penalized just because their residence of 
enlistment was in another state, or be made to assume tremendous 
financial burdens due to the recent change in law which often caps GI 
Bill benefits far short of the high out-of-state rates. Therefore, this 
legislation is absolutely essential to thousands of veterans who were 
promised this assistance for their college education when the Post-9/11 
GI Bill was originally passed, and is vital to giving veterans an equal 
opportunity to afford the school of their choice.
    We were pleased to support this bipartisan effort, S. 257, which 
would require public colleges and universities to give veterans in-
state tuition rates even though they may not be considered residents. 
The requirement would apply to state schools which have programs that 
are eligible to receive funding under the GI Bill.
    The American Legion supports this bill.
             s. 262: veterans education equity act of 2013
    To amend title 38, United States Code, to provide equity for 
tuition and fees for individuals entitled to educational assistance 
under the Post-9/11 Educational Assistance Program of the Department of 
Veterans Affairs who are pursuing programs of education at institutions 
of higher learning, and for other purposes.
    The American Legion understands that the goal of this bill is 
similar to that of S. 257. We thank Senator Durbin for taking this 
issue seriously and introducing legislation in an effort to ensure more 
equitable reimbursement for student-veterans attending public schools. 
The American Legion supported this initiative in the last Congress, but 
we must explain why we have refined our position on this issue.
    Public colleges and universities have significantly raised the 
costs of out-of-state tuition to offset decreasing revenues due to 
state budget cuts, making any tuition discount all the more costly. 
Circumstances such as these pose significant challenges to using this 
important benefit. Because of this, many of America's student-veterans 
are unable to use their GI Bill benefits at a school of their choice or 
are required to pay thousands of dollars in out-of-pocket expenses in 
nonresidential tuition rates.
    Since 1862, with the passage of the Morrill Act, institutions of 
higher education have always received some form of education subsidies. 
However, it was not until 1944 with the passage of the Servicemen's 
Readjustment Act of 1944--the original GI Bill--which allowed World War 
II veterans to attend college at no cost, that those institutions of 
higher education began receiving their first major subsidy for students 
in higher education. The GI Bill is widely admired legislation, but 
like many subsidy programs it led to substantial wasteful spending and 
abuse. Some colleges and universities used Federal funds for extraneous 
purposes, such as swimming pools and stadiums, while others increased 
tuition rates charged to veterans. There were also cases of outright 
fraud by schools aimed at garnering extra Federal funds.
    Interestingly, the rise in student subsides coupled with the rise 
of tuition and other college expenses over the last several decades, 
has brought a significant spotlight on institutions of higher 
education. This, added to the current reality of education spending 
cuts, has lead institutions of higher education to view the Post-
9/11 GI Bill funding as nothing more than another source of subsidy to 
fill the void these cuts have created.
    The American Legion believes that increasing GI Bill funding to 
higher educational institutions is potentially harmful on many fronts; 
it encourages bloat and inefficiency, and is an unfair burden on 
taxpayers. It also poses a threat to the core strengths of American 
higher education, including institutional autonomy, competition, and 
innovation. While we cannot support S. 262, we sincerely appreciate 
Senator Durbin's interest in this issue and we look forward to working 
with him on a fair solution for our current and future student-
veterans.
    The American Legion does not support this bill.
                     s. 294: ruth moore act of 2013
    To amend title 38, United States Code, to improve the disability 
compensation evaluation procedure of the Secretary of Veterans Affairs 
for veterans with mental health conditions related to military sexual 
trauma, and for other purposes.
    The American Legion's accredited representatives at county service 
offices, regional offices, and the Board of Veterans' Appeals have 
acknowledged that a unique situation exists for victims of military 
sexual trauma (MST). MST is often an unreported crime, or even in the 
best cases poorly documented, and when MST is reported as the result of 
sexual assault or rape it is not uncommon for a lackluster 
investigation to occur resulting in the perpetrator of the crime never 
to be brought to justice.
    On March 26, 2013, the Institute of Medicine (IOM) released a 
study: Returning Home from Iraq and Afghanistan: Assessment of 
Readjustment Needs of Veterans, Servicemembers, and Their Families. 
According to the study, ``[M]ilitary sexual trauma has been occurring 
in high rates throughout the U.S. Armed Forces, including the Iraq and 
Afghanistan theaters. Sexual harassment and assaults disproportionately 
affect women; they have both mental and physical ramifications, and in 
many cases these victims have a difficult time readjusting.'' As 
evidenced by this study, a staggering number of veterans reported 
suffering MST; over 48,000 women and 43,000 men have reported 
experiencing military sexual trauma.
    S. 294 addresses concerns raised repeatedly by The American Legion 
regarding MST. In testimony provided by The American Legion before the 
House Veterans' Affairs Subcommittee on Disability Assistance and 
Memorial Affairs on July 18, 2012, Lori Perkio, Assistant Director for 
The American Legion Veterans Affairs and Rehabilitation Division, 
pointed to changes by VA in 2010 regarding combat zones and Post 
Traumatic Stress Disorder, and stated The American Legion's position 
that the same consideration should be applied to MST victims as well. 
Both combat zones and MST related injuries are similar, and both types 
of claims reflect situations where there is a known and acknowledged 
culture of inadequate record keeping. Regulations allow for extra 
latitude on behalf of combat veterans to reflect the lack of record 
keeping, but the same consideration is not extended to rape and assault 
survivors, though their trauma is no less devastating.
    The American Legion believes that VA should review ``military 
personnel files in all MST claims and apply reduced criteria to MST-
related PTSD to match that of combat-related PTSD.'' \2\ S. 294 
adequately meets the criteria of American Legion resolution 295 by 
setting up similar criteria for MST victims as those in effect for 
combat victims.
---------------------------------------------------------------------------
    \2\ Resolution No. 295: Military Sexual Trauma (MST), AUG 2012.
---------------------------------------------------------------------------
    The American Legion supports this bill.
  s. 373: charlie morgan military spouses equal treatment act of 2013
    A bill to amend titles 10, 32, 37, and 38 of the United States 
Code, to add a definition of spouse for purposes of military personnel 
policies and military and veteran benefits that recognizes new State 
definitions of spouse.
    The American Legion has no position on this legislation.
 s. 430: veterans small business opportunity and protection act of 2013
    A bill to amend title 38, United States Code, to enhance treatment 
of certain small business concerns for purposes of Department of 
Veterans Affairs contracting goals and preferences, and for other 
purposes.
    The American Legion has long been an advocate for amending the law 
to protect the Service Disabled Veteran Owned Business (SDVOB) status 
and has stated so through resolution.\3\ The American Legion works with 
veteran business owners all over the world, and has seen first-hand how 
the death of a veteran business owner creates an immediate and 
prejudicial hardship on the surviving spouse and family of the deceased 
veteran. The American Legion strongly supports the changes proposed in 
this legislation as they will properly improve and increase the 
benefits bequeathed to the veterans' spouses or dependents who inherit 
a veteran owned business. The bill would increase the time period for a 
100 percent disabled veteran's spouse who has died as a result of a 
service-connected condition, to ten years, and would establish a 
benefit of three years for a 100 percent disabled veteran who dies as a 
result of a non-service-connected condition.
---------------------------------------------------------------------------
    \3\ Resolution No. 323: The Status of Service-Disabled Veteran-
Owned Business After the Death of the Veteran Owner, AUG 2012.
---------------------------------------------------------------------------
    The American Legion supports this legislation.
                                 s. 492
    To amend title 38, United States Code, to require States to 
recognize the military experience of veterans when issuing licenses and 
credentials to veterans, and for other purposes.
    The American Legion applauds Senator Burr and his colleagues for 
their work in support of America's servicemembers, veterans, and their 
families, as well as for the introduction of this legislation. Since 
1996, The American Legion has worked tirelessly; first to bring this 
issue to the forefront of national attention, and second to work on a 
comprehensive solution to this issue.
    The American Legion believes that legislation designed to withhold 
funding could seriously slow, or stall the positive momentum The 
American Legion and Department of Defense have made, and continue to 
make at both national and state levels.
    At present, some states accept national certifications for 
licensure purposes, and will award a license when presented with a 
certification certificate. The American Legion believes that states 
should administer an examination or accept a nationally recognized 
certification as an equivalent for licensure purposes, as opposed to 
completion of a passing score that is based on national accepted 
practices.
    It is the opinion of The American Legion that the success of 
improving accessibility to state licensing and certification for 
veterans who possess equivalent skillsets will require the full 
cooperation of the state boards. We believe that in order for that to 
happen, the Federal Government must do its part to develop new 
regulations, and make changes to existing programs, policies and 
practices to support and reinforce what is happening in many states and 
across the credentialing industry. If Congress withholds funding from 
states, this will not be possible.
    As currently written, The American Legion cannot support S. 492. We 
appreciate Senator Burr's efforts in this issue and we look forward to 
working with him on a solution for our current and future 
servicemembers, veterans, and their spouses that will advance the 
efforts to provide a uniformed and seamless transition for our Nation's 
military trained professionals.
    The American Legion does not support this bill.
                s. 495: careers for veterans act of 2013
    To amend title 38, United States Code, to require Federal agencies 
to hire veterans, to require States to recognize the military 
experience of veterans when issuing licenses and credentials to 
veterans, and for other purposes.
    This broad reaching legislation takes a multifaceted approach to 
improving career prospects for veterans by addressing not only hiring 
of veterans, but also through improvements in the Federal Government's 
acceptance of military experience and certifications and improvements 
in contracting goals and preferences for veteran owned small 
businesses.
    The bill would require the heads of Federal agencies to develop 
plans and work in conjunction with the Office of Personnel Management 
(OPM) to increase Federal hiring of veterans to include 10,000 covered 
veterans over the next five years. The American Legion recognizes 
better than anyone the unique contributions and strengths veterans 
bring to employers and is a devoted advocate for increasing Federal 
hiring of veterans. The American Legion urges all executives in 
government to enforce veterans' preference in their respective agencies 
\4\, and strongly supports veterans' preference hiring and efforts to 
support such.
---------------------------------------------------------------------------
    \4\ Resolution No. 330: Support Veterans' Preference in Public 
Employment, AUG 2012.
---------------------------------------------------------------------------
    Other provisions of the bill supported by The American Legion 
include support for improvements to state One-Stop Centers,\5\ the 
modification of treatment under contracting goals and preferences for 
small business owners after the death of disabled veteran owners,\6\ as 
well as the expansion of the contracting goals and preferences of the 
VA regarding veteran owned businesses.
---------------------------------------------------------------------------
    \5\ Resolution No. 295: Support Priority of Service for Veterans in 
All State Employment Services Agencies' (SESA) One-Stop Centers, AUG 
2004.
    \6\ Resolution No. 323: The Status of Service-Disabled Veteran-
Owned Business after the Death of the Veteran Owner, AUG 2012.
---------------------------------------------------------------------------
    The American Legion supports this bill
                                 s. 514
    A bill to amend Title 38, United States Code, to require states to 
provide additional Educational Assistance under Post-9/11 Educational 
Assistance to Veterans pursuing a degree in science, technology, 
engineering, math or an area that leads to employment in a high demand 
occupation, and for other purposes
    The American Legion supports Senator Brown's pending legislation, 
S. 514, which seeks to provide additional educational assistance under 
the Post-9/11 GI Bill to better assist veterans pursuing a degree in 
science, technology, engineering, math or an area that leads to 
employment in a high-demand occupation.
    Based on our research, The American Legion believes that the United 
States, in the face of increasing competition, needs to maintain its 
hard won status as the world leader in science, technology, 
engineering, and math. Currently, there is high demand for jobs in 
these areas and our servicemembers, who have been screened, tested, and 
highly trained in a great number of highly technical military 
specialties, stand ready to significantly contribute to these sectors 
through innovation and ingenuity. Unfortunately, degrees in these kinds 
of programs can often cost more or last longer than other programs of 
education, making them a less desirable option for transitioning 
servicemembers who are concerned with starting new careers and 
supporting their families.
    This legislation provides additional funding for individuals in 
these types of educational programs that will assist the United States 
in maintaining its technological leadership in the international 
community, while supporting our continued national commitment to 
education in these fields of study. The Secretary of Veterans Affairs 
should be given the discretion to allocate additional funds for 
students participating in such programs as deemed appropriate. In 
August 2012, The American Legion passed resolution 153, because our 
members believe that it is imperative to the Nation's continued world 
leadership and economic prosperity as well as aerospace and military 
superiority \7\ to ensure that these skills remain a top priority 
throughout our American system of education.
---------------------------------------------------------------------------
    \7\ Resolution 153: Support for NASA and Advancements in 
Aeronautical and Space Research, AUG 2012.
---------------------------------------------------------------------------
    The American Legion supports this bill.
                                 s. 515
    A bill to amend title 38, United States Code, to extend the Yellow 
Ribbon G.I. Education Enhancement Program to cover recipients of Marine 
Gunnery Sergeant John David Fry scholarship, and for other purposes.
    The John David Fry Scholarship was created by Public Law 111-32 in 
honor of Marine Gunnery Sergeant John David Fry, and amends the Post-9/
11 GI Bill to include the children of servicemembers who die in the 
line of duty after September 10, 2001.
    The American Legion is deeply committed to the plight of the 
children whose parents die on active duty in service to this Nation. 
The American Legion established the Legacy Scholarship Fund to help 
meet the shortfalls these children experience, in an attempt to make up 
for significant shortfalls in government money allotted to these 
children--the Federal Government gives these children a college 
education stipend worth about $37,000. Taking into account living 
expenses, textbooks and rising tuitions; this benefit covers little 
more than half of the basic college costs in the most affordable 
situations, and the price tag of higher learning will only continue to 
rise. The most conservative estimates predict a 5-percent annual 
increase, meaning that in 16 years the most affordable college 
education will rise to a staggering $132,800.
    The American Legion has long been a champion in the passage and 
improvement of the GI Bill; from the passage of the original GI Bill in 
World War II, through the passage of the Post-9/11 GI Bill--and through 
several iterations of Post-9/11 GI Bill Improvement Acts. The American 
Legion supports the full transferability of GI Bill benefits through 
resolution 296,\8\ and to leave the children of those who have made the 
ultimate sacrifice behind in Yellow Ribbon benefits seems contrary to 
the spirit of the laws enacted to provide education as a reward for 
service and sacrifice. This promise is the heart of the GI Bill.
---------------------------------------------------------------------------
    \8\ Resolution 296: Amending the Eligibility for the Transfer of 
the Post-9/11 GI Bill Educational benefits, AUG 2012.
---------------------------------------------------------------------------
    The American Legion supports this legislation.
                 s. 572: veterans second amendment act
    A bill to amend title 38, United States Code, to clarify the 
conditions under which certain persons may be treated as adjudicated 
mentally incompetent for certain purposes.
    It is both sad and ironic that the veterans' community, a community 
in which each and every member swore to uphold the Constitution of the 
United States, to include the 2nd Amendment, requires advocacy to 
maintain its constitutional right to bear arms. Unless deemed unfit to 
possess weapons by a judicial authority with the full benefit of due 
process, The American Legion believes that each veteran, regardless of 
disability, should maintain the right to possess a firearm. Any 
constitutional right should be protected with this same expectation of 
careful scrutiny to ensure no right is removed without due process.
    On December 2, 2012, NBC News published an article regarding 
veteran hunting trips as a form of therapy for combat veterans.\9\ 
Throughout the Nation, numerous organizations organize hunting trips 
for veterans; and even the Department of Veterans Affairs (VA) has 
acknowledged the positive effects of shooting firearms for some 
veterans. Jose Llamas, community and public affairs officer for VA's 
National Veterans Sports Program stated that hunting is included in a 
veteran's health-life plan, and at various adaptive sports summits 
throughout the Nation, veterans can enjoy target shooting as well as 
competitive marksmanship competitions. Additionally, a recent $25,000 
grant was made to the Grand Junction, Colorado, VA Medical Center, to 
purchase the necessary equipment for veterans to hunt.
---------------------------------------------------------------------------
    \9\ http://usnews.nbcnews.com/_news/2012/12/02/15575983-florida-
guide-uses-hunting-as-rustic-therapy-for-combat-veterans?lite.
---------------------------------------------------------------------------
    Furthermore, there are concerns that the threat of being placed on 
a list that might deny them their 2nd Amendment rights could act as a 
deterrent for veterans who might otherwise seek treatment. When the 
positive effects of therapy for conditions such as Posttraumatic Stress 
Disorder (PTSD) are so important, driving veterans away for fear of 
repercussions such as confiscation of firearms could only exacerbate 
existing stigmas.
    During the 94th National Convention of The American Legion, 
Resolution 68 was passed. According to the resolution, ``The American 
Legion reaffirms its recognition that the Second Amendment to the 
Constitution of the United States guarantees each law-abiding American 
citizen the right to keep and bear arms; and, be it finally resolved, 
that the membership of The American Legion urges our Nation's lawmakers 
to recognize, as part of their oaths of office, that the Second 
Amendment guarantees law-abiding citizens the right to keep and bear 
arms of their choice, as do the millions of American veterans who have 
fought, and continue to fight, to preserve those rights, hereby advise 
the Congress of the United States and the Executive Department to cease 
and desist any and all efforts to restrict these right by any 
legislation or order.''
    The American Legion supports this bill.
           s. 629: honor america's guard-reserves act of 2013
    A bill to amend title 38, United States Code to recognize the 
service in the reserve components of certain persons by honoring them 
with status as veterans under law.
    This legislation honors, as a veteran, any person entitled to 
retired pay for non-regular (reserve) service or, but for age, would be 
so entitled. The bill provides that such person shall not be entitled 
to any benefit by reason of such recognition.
    Since the inception of the all-volunteer force, members of the 
National Guard and reserve have stood side-by-side with their active 
duty counterparts, ready to answer the call to protect the Nation. As 
embodied in the recently adopted Resolution No. 10,\10\ The American 
Legion believes those who have taken that solemn oath and stepped 
forward to serve their country, the Armed Forces of the United States; 
whether active duty, reserve, or National Guard, deserve the title 
``Veteran.''
---------------------------------------------------------------------------
    \10\ Resolution No. 10: Support Veteran Status for National Guard 
and Reserve Servicemembers MAY 2013.
---------------------------------------------------------------------------
    The American Legion supports this legislation.
            s. 674: accountability for veterans act of 2013
    To require prompt responses from the heads of covered Federal 
agencies when the Secretary of Veterans Affairs requests information 
necessary to adjudicate claims for benefits under laws administered by 
the Secretary, and for other purposes.
    The American Legion processes thousands of veteran disability 
claims each year, and is acutely aware of the vital need for the 
interagency cooperation necessary to develop a Fully Developed Claim 
(FDC). Historically, VA has called upon Federal agencies such as 
Department of Defense, Social Security Administration (SSA), and 
Internal Revenue Service (IRS) to provide necessary documents to 
support various claims submitted by veterans. In December 2012, Allison 
Hickey, VA Under Secretary for Benefits, announced a program created 
between VA, SSA, and IRS eliminating the need for veterans receiving 
pension benefits to complete the Eligibility Verification Report (EVR). 
This serves as the example of a positive relationship between VA and 
other Federal entities.
    The American Legion has called upon Congress to ``to pass 
legislation that requires VA be held accountable for achieving the VA 
Secretary's stated goal to achieve an operational state for VA in which 
no claim is pending over 125 days and all claims have an accuracy rate 
of 98 percent or higher, which is detailed in American Resolution 99.'' 
\11\ As we are calling upon VA to adjudicate claims in a timely and 
accurate manner, accordingly, it is only appropriate that we also allow 
for VA to have the all available tools to accomplish the stated 
objectives. If a separate government entity holds a veteran's records 
that are pertinent to a VA claim, then that entity should comply with 
VA's request in a timely manner and provide the necessary required 
documentation.
---------------------------------------------------------------------------
    \11\ Resolution No. 99: Increase the Transparency of the Veterans 
Benefits Administration's (VBA) Claims Processing.
---------------------------------------------------------------------------
    The American Legion supports this bill.
             s. 690: filipino veterans fairness act of 2013
    To amend title 38, United States Code, to deem certain service in 
the organized military forces of the Government of the Commonwealth of 
the Philippines and the Philippine Scouts to have been active service 
for purposes of benefits under programs administered by the Secretary 
of Veterans Affairs.
    In brief, this bill will strike the word ``not'' in two subsections 
in section 107 of title 38, U.S.C.. By striking this word and the 
remainder of the subsections the U.S.C. will read:

          (a) Service before July 1, 1946, in the organized military 
        forces of the Government of the Commonwealth of the 
        Philippines, while such forces were in the service of the Armed 
        Forces of the United States pursuant to the military order of 
        the President dated July 26, 1941, including among such 
        military forces organized guerrilla forces under commanders 
        appointed, designated, or subsequently recognized by the 
        Commander in Chief, Southwest Pacific Area, or other competent 
        authority in the Army of the United States, shall be deemed to 
        have been active military, naval, or air service for the 
        purposes of any law of the United States conferring rights, 
        privileges, or benefits upon any person by reason of the 
        service of such person or the service of any other person in 
        the Armed Forces.
          (b) Service in the Philippine Scouts under section 14 of the 
        Armed Forces Voluntary Recruitment Act of 1945 shall be deemed 
        to have been active military, naval, or air service for the 
        purposes of any of the laws administered by the Secretary.

    Also, this bill introduces additional wording for determination of 
eligibility. It charges the Secretary shall take into account any 
alternative documentation regarding such service, including 
documentation other than the Missouri List, that the Secretary 
determines relevant.
    This bill adds a report the Secretary shall submit to the Committee 
on Veterans' Affairs of the Senate and House of Representative that 
includes:

          (a) The number of such individuals applying for benefits 
        pursuant to this section during the previous year; and
          (b) The number of such individuals that the Secretary 
        approved for benefits.
    The American Legion has no position on this legislation.
                s. 695: veterans paralympics act of 2013
    A bill to amend Title 38, United States Code, to extend the 
Authorization of appropriations for the Secretary of Veterans Affairs 
to pay a monthly assistance allowance to Disabled Veterans training or 
competing for the Paralympics team, and the authorization of 
appropriations for the Secretary of Veterans Affairs to provide 
assistance to United States Paralympics, Inc., and for other purposes.
    The American Legion has no position on this legislation.
              s. 705: war memorial protection act of 2013
    A bill to amend Title 36, United States Code, to ensure Memorials 
commemorating the service of the United States Armed Forces may contain 
religious symbols, and for other purposes.
    As an organization whose motto reads ``For God and Country'' the 
notion that memorializing those who have served and sacrificed on 
behalf of this Nation could be rendered devoid of recognition of their 
faith is alien and abhorrent. The American Legion was a leading voice 
in the fight to protect the Mojave Cross in the California desert to 
honor the sacrifices of the fallen. The American Legion was a leading 
voice ensuring families of veterans in National Cemeteries have their 
religious faith recognized as a part of funeral services. While faith 
is an intensely personal matter to a great majority of our veterans, 
The American Legion believes that a veteran's choice to recognize his 
or her particular faith on his or her own personal memorial is in 
keeping with the protections of all personal choices guaranteed to any 
American citizen under any other circumstance.
    That such a bill would even be considered necessary is 
disheartening, but The American Legion will always protect the rights 
of those who serve to enjoy their First Amendment protection to freely 
express their religious affiliation on their grave markers. We thank 
Ranking Member Burr for taking up this fight.
    The American Legion supports this legislation.
           s. 735: survivor benefits improvement act of 2013
    To amend title 38, United States Code, to improve benefits and 
assistance provided to surviving spouses of veterans under laws 
administered by the Secretary of Veterans Affairs, and for other 
purposes.
    S. 735 addresses several areas that would improve the quality of 
life for dependents receiving VA benefits, to include Dependency and 
Indemnity Compensation (DIC). The American Legion family has hundreds 
of thousands of members that are directly affected by this provision, 
and has previously called upon Congress to eliminate the age criteria 
for a surviving spouse to remarry and continue to receive DIC 
benefits.\12\
---------------------------------------------------------------------------
    \12\ Resolution No. 44: Dependency and Indemnity Compensation.
---------------------------------------------------------------------------
    Thailand and herbicide exposure has been a continual concern for 
The American Legion. As the regulations currently read, a veteran who 
served in Thailand during the Vietnam Era has to prove exposure to 
Agent Orange and other herbicides; this process has proven to be 
burdensome for both veterans and surviving spouses. As a result, a 
veteran who may have been exposed to herbicides while serving in 
Thailand may not have received the entitled benefits associated with 
herbicide exposure. Equally as important, widows of veterans exposed to 
herbicides that may have met their demise due to a condition associated 
with herbicide exposure are ineligible for benefits, such as DIC. 
Additionally, children of veterans who have served in Thailand that may 
have been born with conditions associated with the veteran's herbicide 
exposure have also been identified as ineligible for benefits.
    The American Legion has repeatedly called for a full recognition of 
veterans that served in Thailand between January 9, 1962, and May 7, 
1975, to be recognized as presumptively exposed to herbicides and 
``seek legislation to amend title 38, United States Code, section 1116, 
to provide entitlement to these presumptions for those veterans who 
were exposed to Agent Orange while serving in areas other than the 
Republic of Vietnam where Agent Orange was tested, sprayed, or stored 
and has called for this recognition through resolution number 
199.''\13\ Ultimately, it is our belief that a veteran, no matter where 
the herbicide exposure occurred, should be entitled to the same benefit 
as veterans that were exposed to herbicides in Vietnam.
---------------------------------------------------------------------------
    \13\ Resolution No. 199: Agent Orange.
---------------------------------------------------------------------------
    The American Legion supports this bill.
                s. 748: veterans pension protection act
    To amend title 38, United States Code, to require the Secretary of 
Veterans Affairs to consider the resources of individuals applying for 
pension that were recently disposed of by the individuals for less than 
fair market value when determining the eligibility of such individuals 
for such pension, and for other purposes.
    The American Legion and our network of over 2,600 service officers 
regularly work with veterans and their families to ensure they receive 
the benefits they deserve. Over the last several years, it has become 
more apparent that predatory actors are moving in and taking advantage 
of elderly veterans in a vulnerable position, by engaging in 
questionable business practices which can fleece a veteran of their 
money while offering false promises of pension programs to pay for 
elder care facilities.
    While The American Legion is tremendously appreciative of Senator 
Wyden's attention to this issue, and this legislation's aim is 
admirable--seeking to protect veterans from these predatory practices 
by increasing the look back period when examining veterans' assets, The 
American Legion has reservations as to whether or not this is the most 
appropriate measure to provide relief to veterans and their families. 
Research conducted through The American Legion's network of service 
providers shows, that this new look back period would affect surviving 
spouses of veterans who need benefits, as well as questions how VA 
would be able to address the increased workload of the look back period 
when pension centers struggle to address their existing workload.
    However, as this is a matter of concern, The American Legion 
continues to work with the expertise of our service officers, 
membership and staff to determine a course of action which would 
provide remedy in this situation. When such a remedy is determined, 
then by our own resolution process our membership, will The American 
Legion be able to ratify a plan for taking action. Due to the 
complexity of the situation, there is no consensus and therefore we can 
neither support nor oppose this course of action.
    The American Legion has no position on this legislation.
                                 s. 778
    To authorize the Secretary of Veterans Affairs to issue cards to 
veterans that identify them as veterans, and for other purposes.
    The American Legion recognizes that many states currently provide 
driver's licenses indicating a licensed driver is a veteran. For 
veterans residing in these states, a veteran can proudly prove service 
to this Nation. Additionally, for retail outlets that may offer 
discounts for veterans, a government sanctioned identification card 
would require the necessary proof of military, naval, or air service. 
Some outlets no longer accept as proof of service a copy of a DD-214 as 
the document does not provide a photograph of the veteran.
    Beyond the lack of photograph provided on a DD-214 is the form 
itself and how it could cause harm to the veteran through repeatedly 
showing the form in public. Public review of a DD-214 would reveal the 
veteran's Social Security number and other personal privacy 
information. In this age of widespread identity theft, it is possible a 
veteran's identity could be stolen simply through proving veteran's 
status at a retail outlet by displaying their DD-214; so in short, it 
could be a heavy price to pay due to trying to receive a discount at a 
retail outlet.
    The American Legion has passed resolution number 43 that encourages 
state governments to include a veteran identifier on drivers' 
licenses.\14\ A nationwide veteran's card could accomplish the same 
goal of having identification indicating veteran status without 
including the veteran's Social Security number.
---------------------------------------------------------------------------
    \14\ Resolution No. 43: Veteran Coding on Driver's Licenses.
---------------------------------------------------------------------------
    The American Legion supports this bill.
       s. 819: veterans mental health treatment first act of 2013
    A bill to amend title 38, United States Code, to require a program 
of mental health care and rehabilitation for veterans for service-
related Post Traumatic Stress Disorder, depression, anxiety disorder, 
or a related substance use disorder, and for other purposes.
    This bill calls for VA to start mental health treatment for 
veterans regardless of whether or not they have been service-connected 
for a mental health condition. The bill would prohibit veterans from 
seeking service connection during that period, but would provide 
alternative forms of compensation to the veteran during the treatment 
period.
    The American Legion is deeply concerned about the mental health 
care received by America's veterans. Mental health care is one of the 
components examined by the System Worth Saving Task Force through our 
annual visits to VHA medical facilities. The American Legion maintains 
an Ad Hoc Committee on PTSD and TBI to continually research new 
information on these concerns facing American veterans.
    While The American Legion applauds efforts to get veterans into 
treatment, and through resolution number 109 works to monitor the 
ongoing effectiveness \15\ of the Mental Health Strategic Plan of VHA, 
we are concerned about the lack of ability for veterans to apply for 
service connection during this period. The longer a veteran waits from 
discharge from service, the more difficult it can be to find 
appropriate records and ultimately obtain service connection for 
injuries incurred or aggravated by military service. It would be 
troubling to realize that a veteran could lose out on lifetime service 
connection and health care for a mental health condition in the 
interest of short term obtaining mental health care.
---------------------------------------------------------------------------
    \15\ Resolution 109: The Department of Veterans Affairs Mental 
Health Services, AUG 2012.
---------------------------------------------------------------------------
    The American Legion is willing to work with Ranking Member Burr to 
find a way to make this program effective without reducing a veteran's 
rights to service connection, but cannot support the bill at this time.
    The American Legion does not support this legislation.
              s. 863: veterans back to school act of 2013
    To amend title 38, United States Code, to repeal time limitations 
on the eligibility for use of educational assistance under All-
Volunteer Force Educational Assistance Program, to improve veterans 
education outreach, and for other purposes.
    The Montgomery GI Bill for active duty servicemembers and veterans 
requires each enrolled servicemember to make a non-refundable 
contribution up front. In return, they can use their entitlement--up to 
36 months--to help pay for education, apprenticeship, and job training. 
However, the entitlement automatically expires 10 years after the 
veteran leaves active duty service. According to the Department of 
Veterans Affairs, nearly 30 percent of eligible veterans are unable to 
use any of their Montgomery GI Bill education benefits and most 
eligible veterans are only able to access a portion of them before the 
10-year limit is reached.
    This legislation would change the expiration from 10 years after 
the veteran leaves active duty service to 10 years after the veteran 
begins using the benefit. The American Legion, by resolution,\16\ 
supports changes to the delimiting dates for the Montgomery GI Bill. In 
addition, the provisions to support and extend offices of veterans' 
affairs to more campuses are especially timely and relevant given the 
increasing number of student-veterans on campuses and their unique 
needs.
---------------------------------------------------------------------------
    \16\ Resolution 301: Eliminate delimiting dates for the Montgomery 
GI Bill and Post-9/11 GI Bill, AUG 2012.
---------------------------------------------------------------------------
    The American Legion supports this bill.
             s. 868: filipino veterans promise act of 2013
    A bill to require the Secretary of Defense to establish a process 
to determine whether individuals claiming certain service in the 
Philippines during World War II are eligible for certain benefits 
despite not being on the Missouri List, and for other purposes.
    This bill is aligned in purpose with S. 690, the Filipino Veterans 
Fairness Act.
    The American Legion has no position on this legislation.
        s. 893: veterans compensation cost of living act of 2013
    A bill to amend title 38, United States Code, to provide for annual 
cost-of-living adjustments to be made automatically by law each year in 
the rates of disability compensation for veterans with service-
connected disabilities and the rates of dependency and indemnity 
compensation for survivors of certain service-connected disabled 
veterans.
    The American Legion strongly supports a periodic cost-of-living 
adjustment (COLA) for veterans reflective of increased expenses due to 
inflation and other factors. However, there are many factors currently 
being considered regarding the calculation of COLA that merit 
discussion.
    Within The American Legion's Code of Procedures, accredited 
representatives are advised under no circumstances should they cause 
harm to veterans' claims for benefits. Current provisions contained in 
the President's 2014 proposed budget, as well as in amendments to other 
bills that have been introduced from time to time, would replace the 
current Consumer Price Index (CPI) used to calculate increases to 
Social Security COLA with a so-called Chained CPI (C-CPI). Through 
chaining VA benefits to the new C-CPI and COLA for Social Security 
benefits, the veteran community would indeed be harmed. On December 19, 
2012, Dean Stoline, Deputy Director of The American Legion Legislative 
Division, stated that a chained CPI is misguided policy and ``would 
have significant deleterious effect on the benefits of millions of 
veterans.''
    Chairman Sanders has provided evidence that displays the long term 
negative effect upon the veteran community should Congress mandate a C-
CPI approach to determining COLA increases. According to a press 
release from Sen. Sanders' office, the proposal would cut VA disability 
benefits for a 30-year-old veteran by more than $13,000 a year by age 
45, $1,800 a year by age 55, and $2,260 a year by age 65. Senior 
citizens who retire by age 65 would see their Social Security benefits 
reduced by about $650 a year by the time they reach 75, and more than 
$1,000 a year when they turn 85. These cuts would certainly place many 
veterans and their families' economic security in peril.
    By resolution \17\ ``The American Legion support[s] legislation to 
amend title 38, United States Code, section 1114, to provide a periodic 
COLA increase and to increase the monthly rates of disability 
compensation; and * * * oppose[s] any legislative effort to 
automatically index such [COLA] adjustments to the [COLA] adjustment 
for Social Security recipients, non-service-connected disability 
recipients and death pension beneficiaries.'' The opposition to direct 
and automatic connection to the Social Security policies reflects the 
understanding that veterans and specifically disabled veterans 
represent a unique subsection of the American community, and their 
unique concerns should receive individual consideration when 
determining the need for periodic increases for cost of living.
---------------------------------------------------------------------------
    \17\ Resolution No. 178: Department of Veterans Affairs (VA) 
Disability Compensation, AUG 2012.
---------------------------------------------------------------------------
    The American Legion encourages Congress to seriously examine the 
disastrous long term negative consequences of C-CPI for veterans. The 
long-term negative effects created through permitting C-CPI for VA 
benefits could cause serious financial harm to millions of veterans.
    The American Legion supports an increased Cost-of-Living Adjustment 
for veterans, but would like to see the legislation amended to ensure 
veterans' COLA is protected from being changed to reflect a C-CPI model 
to the detriment of disabled veterans.
                                 s. 894
    A bill to amend Title 38, United States Code, to extend expiring 
authority for work-study allowances for individuals who are pursuing 
programs of rehabilitation, education, or training under the laws 
administered by the Secretary of Veterans Affairs, to expand such 
authority to certain outreach services provided through congressional 
offices, and for other purposes
    This bill is an extension of the Department of Veterans Affairs 
authority to offer certain work-study allowances for student-veterans 
due to expire mid-year. The American Legion has long supported the 
Department of Veterans Affairs work-study program as defined through 
resolution number 296 \18\ and supports this initiative to maintain as 
many of these work-study opportunities as possible.
---------------------------------------------------------------------------
    \18\ Resolution No. 296: Support the Development of Veterans On-
The-Job Training Opportunities, AUG 2004.
---------------------------------------------------------------------------
    This program provides a valuable benefit to student-veterans and 
that benefit is often multiplied many times over when, for example, 
they are allowed to perform outreach services to servicemembers and 
veterans furnished under the supervision of a State Approving Agency 
employee. This is just one instance of the important work that is 
accomplished by these student-veterans.
    The American Legion supports this bill.
            s. 922 veterans equipped for success act of 2013
    A bill to require the Secretary of Labor to carry out a pilot 
program on providing wage subsidies to employers who employ certain 
veterans and members of the Armed Forces and require the Secretary of 
Veterans Affairs to carry out a pilot program on providing career 
transition services to young veterans, and for other purposes.
    When veterans return to the workforce either right off of active 
duty service or after obtaining a college degree, they still face 
challenges in obtaining gainful employment. One of the barriers is the 
lack of experience in the private sector, which is why The American 
Legion has passed resolutions \19\ that support programs that encourage 
employers to create on-the-job training (OJT) opportunities for 
veterans and programs that provide financial incentives for employers 
who hire and provide training for veterans. The American Legion 
believes that the two pilot programs called for in this bill are 
complimentary to the OJT program already in place in the Department of 
Veterans Affairs. The range of veterans eligible for an OJT opportunity 
in the private sector is increased to those that have exhausted their 
GI Bill benefits and older veterans whose GI Bill benefits have 
expired. Further, on top of incentivizing employers to participate, the 
eligibility parameters of the pilot programs allows for more corporate 
employers to participate.
---------------------------------------------------------------------------
    \19\ Resolution No. 18: Authorization to Seek Grants for Training 
and Job Placement for Veterans.
Resolution No. 296: Support The Development of Veterans On-the-Job 
Training Opportunities.  
Resolution No. 313: Support for the Military Transition Program.
---------------------------------------------------------------------------
    The American Legion supports this bill.
                 s. 927: veterans outreach act of 2013
    A bill to require the Secretary of Veterans Affairs to carry out a 
demonstration project to assess the feasibility and advisability of 
using State and local government agencies and nonprofit organizations 
to increase awareness of benefits and services for veterans and to 
improve coordination of outreach activities relating to such benefits 
and services, and for other purposes.
    This legislation calls upon VA to increase outreach to the veterans 
of America to utilize the services available to them. With over 22 
million veterans in America, surprisingly The American Legion has found 
that only a fraction of those veterans utilize the services provided to 
them.
    The American Legion is deeply committed to getting the word out to 
veterans about the benefits they have earned through their hard service 
and sacrifice on behalf of this great Nation. With over 2.4 million 
members, and thousands of Posts located in every town nationwide, our 
organization is uniquely positioned within the veterans' community to 
spread the word, but such efforts work best when in partnership with 
the VA. The American Legion has over a dozen resolutions calling on 
greater efforts in outreach from VA in every field, from women's health 
care to volunteer work, and to benefits related to exposure to Agent 
Orange. The American Legion is committed to working with VA to reach 
every corner of the veterans' community.
    While state and local authorities are an important component of 
outreach, it is our hope VA recognizes the most important partnership 
for reaching veterans is with The American Legion and with other non-
profit Veteran's Service Organizations.
    The American Legion supports this legislation.
           s. 928: claims processing improvement act of 2013
    A bill to improve the processing of claims for compensation under 
laws administered by the Secretary of Veterans Affairs, and for other 
purposes.
    The purpose of this legislation is to provide a multi-faceted 
approach to dealing with the claims backlog. The rising claims backlog 
has increasingly become a problem with the Veterans Benefits 
Administration (VBA), and the past three years have seen the backlog 
leap from approximately 37 percent of all claims pending past the 
target goal of 125 days to nearly 70 percent of all claims now pending 
over 125 days. All of this is occurring while VA struggles to increase 
the accuracy of processing.
    The American Legion, with over 2,600 accredited service officers 
nationwide, is deep in the trenches of the war against the backlog. On 
a daily basis, American Legion service officers help thousands of 
veterans navigate the complex and convoluted system to receive benefits 
they have earned by becoming disabled while serving their country, and 
has recently partnered with The White House and the VA to spearhead the 
Fully Developed Claim (FDC) initiative The American Legion is an 
industry recognized expert in this area and has decades of experience 
in this area.
    This bill is broad in its reach and scope, and is best addressed by 
breaking it down into its component sections.
Section 101--
    This section directs the establishment of a working group to 
improve employee work credit and work management systems. The American 
Legion has already submitted to Congress and the VA proposals on how 
the work credit system must be fixed to include better accounting for 
accuracy as a measurable quantity. As it stands now, employees receive 
the same credit whether work is done properly or inaccurately, and such 
a system must be amended to take credit away for inaccurate work, but 
also to reward workers who take the necessary time to get the job done 
right the first time. The American Legion has tried to work with all 
parties to get a better system implemented, rather than waiting upon 
the work of a study group. The sooner VA can amend their work credit 
system, the sooner the system can better serve veterans.
Section 102--
    This section directs the establishment of a task force on retention 
and training at VA. Certainly VA employees have problems with 
retention, and the work is complicated enough that continually 
retraining the work force is counterproductive. The American Legion 
reiterates the concern that simply appointing another task force or 
study commission only further delays actual progress on remedying the 
issue.
Section 103--
    This section addresses efforts to obtain information from other 
Federal agencies. The American Legion has been vocal in their concerns 
about the breakdown of communication between VA and DOD in combining 
efforts on a Virtual Lifetime Electronic Record. Rather than work on a 
single system which would vastly improve communication between 
agencies, VA and DOD continue to walk down separate and individual 
paths. Improvements in communications between VA and all Federal 
agencies is an important part of the disability claims process and The 
American Legion supports improvements in this area.
Section 104--
    This section deals with recognition of the phrase ``Indian tribes'' 
with respect to subsection 5902(a)(1) of Title 38 of the United States 
Code. The American Legion has no position on this section.
Section 105--
    This section deals with creating pilot programs with tribal and 
local governments to improve the claims quality of disability 
compensation claims. The American Legion has no position on this 
section.
Section 106--
    This section requires quarterly progress reports on the progress of 
VA in eliminating the backlog. The American Legion is concerned about 
the lack of intermediary benchmarks from VA regarding reaching their 
goal of 98 percent accuracy and no claim pending longer than 125 days. 
Certainly some level of reporting to show clear progress would help 
with what has often been a lack of transparency in this area.
Section 201--
    This section would reduce the filing deadline for an appeal from 
one year to 180 days. The American Legion opposes any reduction in a 
veteran's appellate rights.
Section 202--
    This section calls for all hearings to be conducted before the 
Board of Veterans Appeals through video hearings. Although it allows 
for a process for a veteran to request a personal hearing, it is 
unclear what the appellate rights are in this case. The American Legion 
retains concerns that whatever process is in place must be in the best 
interest of the veteran, and not simply a more expedient measure for 
the Board to alleviate the burden of communicating with the veteran. 
While there may be some improvement in the schedule to hear from 
veterans, it is important that veteran's concerns must be held 
paramount in these decisions.
Section 301--
    This section extends operational authority for the Manila Regional 
Office. The American Legion agrees with the importance of maintaining 
operations to serve veterans in the Philippines.
Section 302--
    This section extends the period for scheduling medical exams for 
veterans receiving temporary disability ratings for severe mental 
disorders from six months to 540 days. The American Legion has no 
position on this extension.
Section 303--
    This section extends the marriage delimiting date for surviving 
spouses of Persian Gulf War veterans to qualify for death pension to a 
date ten years after the Persian Gulf War ends. As long as the war 
remains open, this benefit and all associated benefits must be extended 
to reflect the ongoing nature of the conflict.
Section 304--
    This section adjusts effective dates for benefits eligibility based 
on veterans' children. The American Legion has no position on this 
section.
Section 305--
    This section extends temporary authority for performing medical 
examinations by contract physicians. The American Legion recognizes the 
importance of these contract examinations in fulfilling examinations 
for disability and compensation purposes, especially in the midst of 
the backlog. Renewal of the contracting authority is important at this 
critical juncture.

    The American Legion supports portions of this bill and holds no 
position on other portions. The American Legion opposes reducing the 
appellate rights of veterans, especially as concerned in sections 201 
and 202.
           s. 932: putting veterans funding first act of 2013
    A bill to amend title 38, United States Code, to provide for 
advance appropriations for certain discretionary accounts of the 
Department of Veterans Affairs.
    This bill, as is the case with the companion legislation H.R. 813 
in the House of Representatives, recognizes the importance of providing 
timely, predictable funding for the Department of Veterans Affairs and 
would, as is the case with medical funding because of advanced 
appropriations, require Congress to fully fund the VA discretionary 
budgets a year ahead of schedule. The American Legion helped lead the 
way in the fight for advance appropriations for medical funding. In the 
current political climate, with sequestration and budget battles 
lurking around every corner, it is important to help set aside 
veterans' funding as separate and distinct from these battles. This is 
a bipartisan notion, as all Americans agree that those who have 
sacrificed through their service should not bear the brunt of squabbles 
and political infighting.
    The current budgets of VA must grapple with ongoing efforts to 
address infrastructure insufficiencies in construction, IT and other 
projects, and advance funding would make the planning necessary to 
avoid undue waste possible.
    The arbitrary budget axe has become a very real fear in the current 
political landscape. Politicians from both sides repeat the oft cited 
pledge ``not to balance the budget on the backs of our veterans.'' This 
legislation would help protect veterans from just such uncertainties. 
Resolutions of The American Legion advocate protections for advance 
funding for medical budgets \20\ and for protecting VA from PAY-GO 
provisions.\21\ It is time to ensure all of VA's budgets are protected.
---------------------------------------------------------------------------
    \20\ Resolution 180: Assured Funding for VA Medical Care, AUG 2012.
    \21\ Resolution 200: Exempt VA Benefits and Services from PAY-GO 
Provisions, AUG 2012.
---------------------------------------------------------------------------
    The American Legion supports this legislation.
                                 s. 939
    A bill to amend Title 38, United States Code, to treat certain 
misfiled documents as motions for reconsideration of decisions by the 
Board of Veterans Appeals, and for other purposes.
    The American has seen first-hand how misfiled documents can 
severely harm a veteran pursuing assistance or service-connected 
disability recognition from the Department of Veteran Affairs. This 
bill attempts to help address issues of confusion, wherein a veteran 
mistakenly files documents intended for the Court of Appeals for 
Veterans Claims (CAVC) to the Board of Veterans Appeals (BVA). Many 
veterans are unaware that their appellate rights transfer between 
branches of government, moving from the Executive to the Judicial 
branch. The American Legion is intimately familiar with the appeals 
process, and the confusing notification letters sent to veterans by VA, 
and that these documents are extremely difficult for the average person 
to make sense of. Certainly for unrepresented veterans, the legal 
options available to them are confusing, and may subsequently file 
their notice of ``dissatisfaction with the determination of the BVA'' 
to the incorrect entity.
    The veterans' disability claims process has long been recognized as 
``uniquely pro-claimant'' by the courts, and in this spirit, The 
American Legion wants the benefit of the doubt extended to veterans at 
every step of the process. While more must be done to help direct 
veterans to accredited representation to help make sense of these 
processes, veterans should not be penalized unduly for a failure to 
understand every complexity of the arduous appeals process when there 
is a reasonable chance to view their claim in a favorable light.
    The American Legion supports this legislation.
          s. 944: veterans' educational transition act of 2013
    To amend title 38, United States Code, to require courses of 
education provided by public institutions of higher education that are 
approved for purposes of the All-Volunteer Force Educational Assistance 
Program and Post-9/11 Educational Assistance to charge veterans tuition 
and fees at the in-State tuition rate, and for other purposes.
    The American Legion applauds Chairman Sanders and Ranking Member 
Burr for joining the push to prevent public colleges and universities 
from charging student veterans out-of-state tuition with the 
introduction of this legislation. However, we believe S. 257, which has 
a companion bill that has cleared committee in the House, should be the 
vehicle through which we offer our veterans reasonable in-state tuition 
protections while using their Post-9/11 GI Bill benefits.
    S. 944 has limitations not included in the S. 257 or the House bill 
which are very disconcerting. In-state tuition would be required only 
for veterans who are within two years of separation from active duty 
when they enroll. They would have to live in the state while attending 
school. The bill would exclude those servicemembers who served less 
than 180 days and qualify for 40% of Post-9/11 GI Bill funding. 
Finally, it would allow VA to waive in-state tuition to institutions of 
higher learning if the Secretary determines such a waiver is 
appropriate.
    These provisions concede too much to states and their public 
colleges and universities to the detriment of America's veterans. 
Opponents of legislation to require in-state rates claim that it can 
potentially discourage the veteran from pursuing post-secondary 
education altogether if states or schools choose to opt out; however, 
accruing huge financial burdens is more detrimental to these veterans 
in our view. As public colleges and universities seek ways to recoup 
decreasing revenues, many have significantly raised the costs of out-
of-state tuition. The cap for GI Bill benefits often falls short of 
that high out-of-state rate. Furthermore, because of the nature of 
military service, veterans, and beneficiaries, often have a difficult 
time establishing residency for purposes of obtaining in-state tuition 
rates. Circumstances such as these, which oftentimes require them to 
live in certain areas, especially during the time when they are 
separated from the uniformed services, pose significant challenges when 
they wish to use this important benefit.
    Critics have also said that legislation of this type sets a 
dangerous precedent for other non-resident students utilizing Federal 
aid programs. The American Legion strongly disagrees because military 
servicemembers and military veterans are the only cohort of Americans 
who cannot satisfy residency requirements for in-state tuition because 
of circumstances beyond their control. Recognizing these unique 
circumstances, servicemembers are already offered this reasonable 
accommodation when using military Tuition Assistance at public schools 
through the Higher Education Authorization Act of 2008; however, once a 
servicemember leaves the military this protection goes away. Therefore, 
states have already conceded the point that educating those who serve 
is not only a Federal financial obligation and have agreed to make this 
reasonable accommodation for those currently serving. They should do 
the same for our veterans for the same reasons. That states have 
already made arrangements to do so before also demonstrates that 
complaints about the obstacles to amending state tuition laws are 
overblown and, in fact, disingenuous.
    After all, all Americans, in every state, owe a debt of gratitude 
to the men and women who served in the Armed Forces of the United 
States. In addition, public universities are nonprofit institutions 
that get special privileges, such as massive Federal and state 
government subsidies and tax exemptions, based on the assumption that 
they are good stewards of the public trust. Granting in-state rates 
should be seen as part of the exercise of this trust. Student-veterans 
face many challenges pursuing higher education, there is no reason why 
obtaining in-state tuition should be one of them. By requiring public 
colleges and universities that receive GI Bill benefit payments to 
offer all veterans in-state tuition, Congress stays true to the intent 
of the GI Bill by enabling our veterans to pursue a higher education 
and jobs skills through the benefits they have earned.
    We thank Chairman Sanders and Ranking Member Burr for their 
leadership on this issue and look forward to working with all 
stakeholders to ensure we can pass reasonable in-state tuition 
protections for currently-enrolled GI Bill beneficiaries and future 
student-veterans.
    The American Legion cannot support this bill as written.

    Chairman Sanders. Thank you very much, Mr. de Planque.
    Colonel Norton.

   STATEMENT OF COLONEL ROBERT F. NORTON, USA (RET.), DEPUTY 
 DIRECTOR, GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION 
                           OF AMERICA

    Colonel Norton. Thank you, Mr. Chairman. Good morning.
    First, I want to join with my colleagues in thanking you 
and all the Members of the Committee and your staffs for the 
great work that went into putting together this very ambitious 
slate of bills, most of which we strongly support.
    Mr. Chairman, on behalf of the 380,000 members of the 
Military Officers Association of America, it is an honor for me 
to be here today to present our views on some of the bills 
before you. My statement addresses almost all of them, and I 
will limit my remarks to just a few of these measures.
    First, S. 6, Putting Our Veterans Back to Work Act, would 
extend transition services deadlines under the VOW to Hire 
Heroes Act and for other purposes. We strongly support the 
bill.
    As of May 1, almost 45,000 older veterans were being 
trained in a career field under the VRAP program of the VOW 
Act. We commend the Committee and the VA for launching the 
program and strongly support extending the deadlines in the 
legislation.
    We also recommend a grandfathering provision to allow 
veterans who cannot finish a licensing requirement within the 
1-year period required to be allowed to complete that licensure 
or certification program, and we also suggest that 4-year 
colleges that offer licensing and certification programs be 
allowed to participate in the VRAP.
    MOAA supports S. 430, the Veteran Small Business 
Opportunity and Protection Act. It would allow a surviving 
spouse of a service-disabled veteran to acquire the ownership 
interest in a small business of the deceased veteran for 
purposes of eligibility for VA service-disabled, small business 
contracting goals and preferences.
    The Careers for Veterans Act, S. 495, helps our 
transitioning veterans by requiring States to recognize the 
exceptional training and experience provided in military 
service toward the award of a civilian license or certification 
in a comparable field. MOAA strongly supports S. 495.
    S. 629, the Honor America's Guard and Reserve Retirees Act. 
Its sole purpose is honor, to honor certain career reservists 
who have served their Nation faithfully for more than 20 years 
but during that service did not perform any duty on formal 
active duty orders.
    On Veterans' Day, Memorial Day, and other days celebrating 
our national heritage and honoring all those who served and 
sacrificed on behalf of our country, there are tens of 
thousands of career National Guard and Reserve members who 
cannot stand up to be recognized as veterans of the Armed 
Forces alongside their colleagues.
    S. 629 specifically prohibits the award of any veterans 
benefits. Its only and exclusive purpose is honor. I think the 
best way to sum up this bill is from the letter of a retired 
New York Army National Guard master sergeant who wrote 
recently, ``I served for 2 weeks at Ground Zero in Manhattan 
after the attacks on our homeland on September 11, 2001. Later 
I served in Germany supporting the deployment of our forces for 
operations in Iraq but I am not a veteran of the Armed Forces 
of the United States.''
    On his behalf and on the behalf of tens of thousands of 
other career reservists MOAA strongly supports S. 629.
    S. 735, the Survivor Benefits Improvement Act, addresses a 
long-standing MOAA goal: to allow surviving military spouses to 
retain their dependency and indemnity compensation payments if 
they remarry after age 55, and that would make it consistent 
with all other Federal survivor programs. Along with the other 
provisions in this bill, we strongly support your bill, the 
Survivor Benefits Improvement Act.
    We also support S. 928, your bill, Mr. Chairman, the Claims 
Processing Improvement Act. The bill requires the VA to report 
on progress toward achieving its goal of eliminating the claims 
backlog by 2015 and for other purposes.
    Finally, I would like to be in the Greek chorus to Senator 
Merkley and Senator Heller and thank them for their leadership 
in introducing S. 1039, the Spouses of Heroes Education Act.
    S. 1039 would authorize Gunnery Sergeant John David Fry 
Scholarships to spouses of members of the Armed Forces who died 
in the line of duty after September 10, 2001.
    As Senator Merkley and Senator Heller pointed out, the Fry 
Scholarships provide post-9/11 GI Bill benefits for the 
children of fallen members of our Armed Forces who died in the 
line of duty.
    Unfortunately, their parents, the surviving spouses, are 
not eligible for them. Instead, they are left with an inferior 
educational assistance benefit, DEA.
    Under DEA, a survivor receives only $987 per month for 
full-time study, but no housing allowance and no book stipend. 
Without access to the Fry Scholarships, surviving spouses of 
the Afghanistan and Iraq conflicts will have difficulty paying 
for the cost of an education and better preparing their small 
children to use the Fry Scholarship when they are of age. MOAA 
strongly supports this bill, S. 1039, the Spouses of Heroes 
Education Act.
    Mr. Chairman, thank you again for your leadership on these 
benefit issues and I look forward to your questions.
    [The prepared statement of Colonel Norton follows:]
  Statement of Colonel Robert F. Norton, USA (Ret.), Deputy Director, 
     Government Relations, Military Officers Association of America


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Sanders. Colonel, thank you very much.
    Mr. Gallucci.

     STATEMENT OF RYAN GALLUCCI, DEPUTY DIRECTOR, NATIONAL 
         LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS

    Mr. Gallucci. Thank you, Mr. Chairman.
    On behalf of the VFW, the Nation's largest and oldest 
organization of combat veterans, I want to thank you and 
Members of the Committee for the opportunity to present our 
thoughts on today's bills.
    With the wars drawing down, the active duty force set to 
contract, and more than one million veterans expected to enter 
the workforce soon, the VFW believes the Senate must do all it 
can to ensure our veterans are prepared to compete in an ever-
changing civilian marketplace.
    We thank the Committee for its efforts last Congress to 
prepare our veterans through reforms like the VOW to Hire 
Heroes Act and the Improving Transparency and Education 
Opportunities for Veterans Act, and we look forward to working 
with this Committee this session to build on those initiatives.
    For the VFW's views on each of the benefits bill on our 
ambitious agenda, I refer you to my prepared remarks. For the 
balance of my time, I will focus on several initiatives to 
protect our student veterans.
    First on S. 257, the GI Bill Tuition Fairness Act. The 
post-9/11 GI Bill was designed to offer a free public education 
to eligible veterans, allowing them to treat college as a full-
time job without worrying about financial stability.
    Unfortunately, Student Veterans of America report that only 
one out of every five veterans attending a public school can 
attend at the in-state rate.
    Currently, the VA can only reimburse veterans at public 
schools for the cost of an in-state education, meaning veterans 
who do not qualify as in-state receive meager reimbursement for 
college.
    As a result, veterans either drop out or find other ways to 
pay for college through Federal financial aid, full-time 
employment, or student loans even if they make a good faith 
effort to legally reside in the State and attend a public 
school.
    Recently separated veterans may be legal residents in one 
State, as my colleague Ian pointed out, but if military duty 
took them to another State, they will not qualify for in-State 
tuition because they have not been physically present in their 
home State long enough.
    Furthermore, many States require students to establish in-
state eligibility prior to enrollment, meaning current students 
can never qualify regardless of their legal residency or where 
they have established domicile.
    Critics have said that S. 257 sets a dangerous precedent 
for other nonresident students utilizing Federal aid programs. 
The VFW disagrees. Servicemembers and veterans are the only 
cohort of Americans who cannot satisfy in-state tuition 
requirements because of circumstances beyond their control.
    As a result, servicemembers are already offered in-State 
tuition when using military tuition assistance at public 
schools. However, once a servicemember leaves the military, 
that protection goes away.
    Post-9/11 GI Bill recipients should not be penalized for 
their honorable service when they cannot satisfy in-State 
tuition requirements. The VFW believes that Congress must allow 
these veterans to attend at the in-state rate, which is why we 
proudly support S. 257.
    Next, on S. 262, the Veterans Education Equity Act, the VFW 
understands that the goal of this bill is similar to S. 257, 
and we thank Senator Durbin for his attention to this issue. 
The VFW supported a similar bill last Congress but we have 
withdrawn our support this term because we believe we have 
better identified the problem.
    The problem is that recently separated veterans cannot meet 
stringent in-state tuition requirements because of their 
military service and in many cases can never attend at the in-
state rate because they are already enrolled.
    S. 262 seeks to increase compensation for nonresidents, but 
the VFW believes that offering veterans more money only puts a 
Band-Aid on the problem. In-state tuition fixes it.
    The VFW recently learned that higher education interest 
groups have rallied in support of S. 262 in lieu of offering 
in-state tuition. To the VFW, these groups only see veterans as 
dollar signs in uniform.
    We believe it would be irresponsible to put the VA and the 
American taxpayers on the hook for more money when we know that 
these schools can and should deliver a quality education to our 
veterans at the in-state rate.
    Last Congress this bill was a good stopgap measure that 
would have lessened the financial burden on out-of-State 
veterans attending public schools. Unfortunately, this bill 
does not solve the inherent problem.
    While we cannot support S. 262, we sincerely appreciate 
Senator Durbin's leadership on this issue, and we look forward 
to working with all stakeholders on a fair solution for student 
veterans.
    Finally, we come to your bill, S. 944, the Veterans 
Educational Transition Act. As we stated in our written 
testimony, the VFW consistently hears from veterans who say 
that financial uncertainty is a critical barrier to finishing 
college, and we thank you, Mr. Chairman, and Ranking Member 
Burr for your attention to this issue by seeking to offer in-
state tuition to recently separated veterans.
    While S. 944 offers some clarification on beneficiaries 
eligible for in-state tuition, the VFW is concerned about how 
some of the restrictions will be interpreted by States, and we 
oppose allowing the Secretary to waive compliance.
    This is why the VFW prefers the protections offered by 
S. 267, though I must clarify. We believe this is a very 
serious issue that demands attention and we are willing to come 
to the table with all stakeholders to craft a quality bill that 
protects our student veterans and offers reasonable compliance 
standards for schools.
    I also wanted to echo my colleagues since I have 20 seconds 
left and thank you for your support to killing the chained CPI 
idea. We all agree that this is a reduction in benefits to our 
veterans and something that we absolutely will not support.
    Chairman Sanders, Ranking Member Burr, Members of the 
Committee, this concludes my testimony and I am happy to answer 
any questions you may have on any of the bills on 
consideration.
    [The prepared statement of Mr. Gallucci follows:]
   Prepared Statement of Ryan M. Gallucci, Deputy Director, National 
   Legislative Service, Veterans of Foreign Wars of the United States
    Mr. Chairman and Members of the Committee: On behalf of the men and 
women of the Veterans of Foreign Wars of the U.S. (VFW) and our 
Auxiliaries, I would like to thank you for the opportunity to testify 
on today's pending legislation. As the wars wind down and the military 
plans to shrink the active duty force, VA anticipates that more than 
one million veterans will seek to access their earned benefits within 
the next few years. The VFW applauds this Committee's work to address 
benefit-access and transitional issues during the last Congress and we 
are encouraged to see that the Committee continues to take this 
situation seriously.
    The VFW is honored to share our thoughts on today's bills in an 
effort ensure our veterans have the opportunities they have earned to 
succeed after leaving military service. Specifically, our testimony 
will focus on nine veterans' economic opportunity bills, S. 257, 
S. 262, S. 492, S. 495, S. 514, S. 863, S. 894, S. 922 and S. 944. We 
will also offer VFW's brief thoughts on the other bills pending before 
the Committee.
              s. 257, gi bill tuition fairness act of 2013
    The Post-9/11 GI Bill was intended to offer a free, public 
education and a modest living stipend to eligible veterans, allowing 
them to treat college as a full-time job without worrying about 
financial stability. Unfortunately, Student Veterans of America reports 
that only one out of every five veterans attending a public school is 
eligible to attend at the in-state rate.
    Current law only allows VA to reimburse veterans attending public 
schools for the cost of an in-state education, meaning veterans who 
cannot qualify for in-state tuition will only receive meager 
reimbursement for college. This oversight forces veterans to either 
drop out or find other ways to pay for college through Federal 
financial aid programs, full time employment or amassing student loan 
debt even when they make a good faith effort to legally reside in a 
state and attend a public school.
    Specifically, recently-separated veterans may be legal residents of 
a particular state, but if their military duty has taken them to an 
installation in another state, they will not qualify as residents when 
they seek to attend a public college or university because they have 
not been physically present in the state long enough to qualify as a 
resident for tuition purposes. Furthermore, once a veteran matriculates 
to the public school of their choice, many states restrict them from 
establishing residency because of their status as a full-time student.
    The VFW believes that Congress must allow Post-9/11 GI Bill-
eligible veterans to attend at the in-state rate, which is why we 
proudly support S. 257.
    Critics have said that S. 257 sets a dangerous precedent for other 
non-resident students utilizing Federal aid programs. The VFW 
vehemently disagrees with this notion because military servicemembers 
and military veterans are the only cohort of Americans who cannot 
reasonably satisfy residency requirements for in-state tuition because 
of circumstances beyond their control. Recognizing these unique 
circumstances, servicemembers are already offered this reasonable 
accommodation when using military Tuition Assistance at public schools 
through the Higher Education Authorization Act. However, once a 
servicemember leaves the military, this protection goes away.
    Eleven states already offer in-state tuition to veterans, eight 
states offer conditional waivers for veterans in certain circumstances, 
and 16 states have legislation pending. Of the states that have passed 
in-state tuition initiatives for veterans, both Republican and Democrat 
state leaders have all agreed that the financial benefits for the state 
far outweigh the illusory financial burdens that some in higher 
education believe would be detrimental to institutional budgets--
particularly since graduates of public colleges and universities 
traditionally pursue careers close to their alma mater.
    When Ohio passed its in-state tuition waiver in 2009, then- Gov. 
Ted Strickland said of in-state tuition, ``It delivers real support to 
veterans while helping strengthen Ohio's strategic plan for higher 
education, which calls for attracting and keeping talent in the state. 
Who better to have as part of Ohio's colleges and universities, 
workforce and communities than the veterans who have served, led, and 
protected our country?''
    When Virginia passed its law in 2011, Gov. Bob McDonnell said 
``These men and women have served our country; it is essential that we 
continue to work to better serve them. Veterans are the kind of 
citizens we want in the Commonwealth and that we want as part of our 
workforce.''
    When Louisiana passed its law in 2012, Gov. Bobby Jindal said, 
``This new law encourages members of the U.S. military--who are the 
best trained professionals in the world--to pursue an education in our 
state, which will be an economic boost, but most importantly, it's yet 
another means for us to thank these brave men and women for their 
service.''
    The Post-9/11 GI Bill is a Federal program designed to help our 
Nation's heroes acquire the skills necessary to build a successful 
career after military service. Our veterans served the Nation; not a 
particular state. They should not be penalized for their honorable 
service when they cannot satisfy strict residency requirements for 
tuition purposes. The VFW regularly hears from student-veterans who 
confirm that financial uncertainty is the most significant roadblock to 
persistence and graduation. To combat this, it only makes sense to 
allow our student-veterans to attend college at a reasonable rate when 
seeking to use their earned Post-9/11 GI Bill benefits, and we hope the 
Committee moves quickly to pass this legislation.
             s. 262, veterans education equity act of 2013
    The VFW understands that the goal of this bill is similar to that 
of S. 257. We thank Senator Durbin for taking this issue seriously and 
introducing legislation that seeks to offer more equitable 
reimbursement for student-veterans attending public schools. The VFW 
supported this initiative in the last Congress, but we must explain why 
we have withdrawn support this term.
    This session, we believe we have better identified the problem. The 
problem is that recently-separated veterans cannot meet stringent 
residency requirements for in-state tuition because of their military 
service, and once enrolled, they cannot legally establish residency 
because of their status as full-time students.
    S. 262 seeks to increase the compensation veterans attending a 
public school as non-residents can receive, but the VFW believes that 
throwing money at this problem does not solve it.
    In the last few weeks, the VFW has learned that many interest 
groups representing higher education--particularly public colleges and 
universities--have rallied in support of S. 262 in lieu of offering in-
state tuition to recently-separated veterans attending public colleges 
on the Post-9/11 GI Bill. To the VFW, these groups only see our 
veterans as dollar signs in uniform. We believe it would be 
irresponsible to put VA and the American taxpayers on the hook for more 
money when we know these schools can and should deliver a quality 
education at the in-state rate.
    In the last session, this bill was a good stop-gap measure that 
would have lessened the financial burden on student-veterans attending 
public schools at the out-of-state rate. Unfortunately, this bill does 
not solve the problem. While we cannot support S. 262, we sincerely 
appreciate Senator Durbin's interest in this issue and we look forward 
to working with all stakeholders on a fair solution for our student-
veterans.
                                 s. 492
    A bill to amend title 38, United States Code, to require States to 
recognize the military experience of veterans when issuing licenses and 
credentials to veterans, and for other purposes.
    The VFW supports S. 492, and we thank Ranking Member Burr for his 
continued support to closing the civilian/military licensing and 
credentialing gap. This bill's language is also included as a part of 
S. 495, but we support this initiative as a stand-along bill as well.
    This bill is a reasonable way to ensure that states will allow 
experienced military professionals to sit for licensing exams, while 
still ensuring states have the autonomy to issue professional licenses 
as they see fit. States will not have to relax their standards for 
professionals operating within their borders, but experienced veterans 
will not be unnecessarily burdened with satisfying duplicative training 
requirements.
                    s. 495, careers for veterans act
    The VFW supports S. 495, which is the latest iteration of Ranking 
Member Burr's veterans' jobs legislation from the end of last Congress.
    The VFW continues to believe that this bill leverages existing 
resources in an effort to ensure our veterans have access to a variety 
of job opportunities within the Federal Government, and that private 
industry has quality incentives to hire and retain veterans.
    This bill also extends additional protections for surviving spouses 
of veteran entrepreneurs by offering more time for survivors to 
continue the business as if it remained veteran-owned. The VFW has 
called on Congress to offer these kinds of protections for survivors 
and we encourage the Senate to take swift action on this.
                                 s. 514
    A bill to amend title 38, United States Code, to provide additional 
educational assistance under the Post-9/11 Educational Assistance to 
veterans pursuing a degrees in science, technology, engineering, math 
or an area that leads to employment in a high-demand occupation, and 
for other purposes.
    The VFW supports S. 514, which seeks to provide additional 
educational assistance under the Post-9/11 GI Bill to better assist 
veterans pursuing a degree in science, technology, engineering, math or 
an area that leads to employment in a high-demand occupation. Currently 
there is high demand for jobs in these areas and our servicemembers 
stand to significantly contribute to these sectors through innovation 
and ingenuity. Unfortunately degrees in these kinds of programs can 
often cost more or last longer than other programs of education, which 
is why we support giving the Secretary the discretion to allocate 
additional funds for students participating in such programs as deemed 
appropriate.
              s. 863, veterans back to school act of 2013
    The VFW supports Senator Blumenthal's proposal to reinstate the 
Veterans Education Outreach Program (VEOP). However, we do not support 
changing the delimiting dates on the Montgomery GI Bill, and cannot 
support this bill as drafted.
    The VFW believes that extending Montgomery GI Bill eligibility to 
ten years after first use is not a sound policy for veterans. Unlike 
other veterans' benefits, Montgomery GI Bill beneficiaries signed a 
contract upon enlistment outlining the specific terms of their GI Bill 
benefits. While the VFW understands that veterans have paid into the 
program and that the nature of our economy has changed significantly 
since the Montgomery GI Bill was signed into law, we believe this sets 
a bad precedent for beneficiaries and creates unreasonable bureaucratic 
hurdles and unsustainable financial burdens for those who administer 
the benefit.
    The VFW believes a more responsible solution to close the skills 
gap for veterans who are no longer entitled to VA education benefits is 
to extend eligibility for the Veterans Retraining Assistance Program 
(VRAP), which offers up to 12 months of Montgomery GI Bill-style 
benefits to unemployed veterans who are ineligible for other VA 
education programs.
    The VFW would support stand-alone legislation to reinstate VEOP, 
which served as a critical resource for student-veterans transitioning 
into college life. While VA does offer some support to veterans on 
college campuses through VetSuccess on Campus, resources for this 
program are extremely limited and the scope of services provided are 
narrow. VEOP would ensure the anticipated 1 million veterans entering 
academic life the in the next few years would have all of the resources 
necessary to succeed on campus.
                                 s. 894
    A bill to amend title 38, United States Code, to extend expiring 
authority for work-study allowances for individuals who are pursuing 
programs of rehabilitation, education, or training under laws 
administered by the Secretary of Veterans Affairs, to expand such 
authority to certain outreach services provided through congressional 
offices, and for other purposes.
    This bill is an extension and expansion of VA's authority to offer 
work-study allowances for student-veterans. The VFW has long supported 
the VA work-study program and we would proudly support this initiative 
to extend the program. The VFW also appreciates Chairman Sanders' 
effort to extend the program for the offices of Members of Congress. 
However, we believe that the draft bill should extend the authority to 
June 30, 2018, to match the extension offered in H.R. 1453.
           s. 922, veterans equipped for success act of 2013
    The VFW understands Chairman Sanders' goal with this legislation, 
but we have concerns over establishing two new government subsidy 
programs to hire and train veterans. First, the VFW believes that a new 
pilot program for on-the-job training (OJT) administered by Department 
of Labor is duplicative to VA's OJT program--particularly for the 
cohort of veterans 18-30 outlined in this legislation.
    Veterans in this age demographic are already eligible to 
participate in VA OJT using their earned GI Bill benefits. Such OJT 
programs already have minimal bureaucratic hurdles for businesses to 
meet, and even officials involved in veterans' education admit that OJT 
is underutilized. Creating a new pilot program will only create 
confusion and additional bureaucratic hurdles for both businesses and 
veterans that wish to participate.
    Next, the VFW is worried that government subsidies to hire young 
veterans and veterans near retirement age sets a bad precedent for the 
veterans' community. The VFW understands that these two groups of 
veterans have faced significant disadvantages in a down economy. 
However, we also believe that government subsidies will exacerbate 
misconceptions that such veterans are ``charity cases'' in need of a 
government hand-out for the opportunity to work.
    Instead, the VFW has leaned heavily on resources that make the 
business case for hiring veterans by demonstrating how veterans can 
succeed in the workplace, such as recent reports from the Syracuse 
University Institute on Veterans and Military Families and the Center 
for a New American Security.
    The VFW understands that these proposals are simply pilot programs, 
but we believe such new programs would create further confusion for 
veterans seeking to navigate the complex system of more than 18 Federal 
programs focusing on career readiness for servicemembers, veterans and 
dependents, as reported by the Government Accountability Office in 
2012.
    The VFW believes that the best way to ensure veterans find 
meaningful careers is to focus on professional development and 
credentialing while in uniform, bolstering transition services through 
the military Transition Assistance Program, fostering information-
sharing across relevant Federal and state agencies when servicemembers 
separate, improving access to existing veterans' employment and 
training resources, and demonstrating to employers how veterans will 
contribute to their workforce.
    The VFW understands that Chairman Sanders is very concerned about 
the high unemployment numbers facing our veterans. We thank the 
Chairman for his leadership on this issue and we look forward to 
helping move initiatives through this Committee that will make our most 
at-risk unemployed veterans marketable in the civilian workplace.
          s. 944, veterans' educational transition act of 2013
    The VFW thanks Chairman Sanders and Ranking Member Burr for their 
attention to this serious issue and for introducing legislation that 
seeks to address this major financial burden for many of our recently-
separated student-veterans. However, the VFW prefers that S. 257, which 
has a companion bill that has cleared committee in the House, serve as 
the vehicle through which we offer our veterans reasonable in-state 
tuition protections while using their Post-9/11 GI Bill benefits.
    The VFW applauds this bill for including protections for military 
dependents using transferred Post-9/11 GI Bill benefits, since the 
transience of military life often also precludes them from establishing 
residency for tuition purposes. We also support limiting the scope of 
the bill to cover students receiving GI Bill benefits. By adding this 
caveat, we ensure that schools can reasonably comply with the in-state 
tuition policy, since they can easily identify enrolled beneficiaries. 
We hope to see these provisions in any in-state tuition package that 
advances.
    However, as drafted, this bill raises several major issues for the 
VFW. First, the VFW opposes any proposition that would give the 
Secretary of Veterans Affairs the discretion to waive compliance with 
the in-state tuition protection. School systems will have two years to 
come into compliance with the policy, meaning every state legislature 
will have an opportunity to address any state-specific issues caused by 
the change. The VFW believes that among the states that currently say 
they cannot comply, many will simply wait out the two-year compliance 
period and insist on an exemption from the Secretary. While the VFW 
believes that noncompliance would create a public affairs nightmare for 
these university systems, we can easily avoid this by insisting that 
public university systems who receive GI Bill compensation must comply 
with this reasonable protection for their student-veterans, as we 
outlined in our testimony in support of S. 257.
    Next, the VFW is concerned that much of the language in S. 944 
could be subject to broad interpretation by states that would allow 
them to quickly charge veterans as out-of-state students after the 
first semester. Specifically, Section 2(a)(3) allows schools to require 
veterans to ``demonstrate an intent to establish residency in the State 
in which the institution is located.'' While this seems like a 
reasonable accommodation, the VFW recognizes that many states preclude 
students living in campus-owned properties from taking steps to 
demonstrate residency because their housing is considered temporary. In 
states where this is a factor, students are precluded from establishing 
domicile, registering to vote, or even changing their driver's license. 
The VFW can easily see a scenario where student-veterans who are forced 
to live in campus housing would only receive one semester of in-state 
tuition before the university deems them ineligible for failing to 
demonstrate intent to establish residency. The VFW suggests either 
striking this section or clarifying that a ``letter of intent'' would 
prove sufficient for student-veterans who cannot take other legal steps 
to establish residency.
    Next, the VFW worries that language limiting service to 180 
continuous days of active duty and two years post-separation excludes 
many veterans eligible for and currently using Post-9/11 GI Bill 
benefits. We recommend changing the date to 90 days to cover all 
Chapter 33-eligible veterans and changing the delimiting date to cover 
all years of eligibility for both Chapter 30 and Chapter 33 programs. 
The VFW understands that the goal of the two-year delimiting date is to 
offer reasonable accommodation to transitioning servicemembers who 
cannot satisfy residency requirements due to military service. However, 
the VFW is also concerned that veterans who currently attend under 
Chapter 33 will not be covered by the two-year limit, and veterans who 
experience any lapse in enrollment or who enroll part time will lose 
their status as in-state for tuition purposes.
    We understand that the Chairman and Ranking Member have put 
significant effort into a comprehensive bill that will protect student-
veterans, but not place an unnecessary burden on school systems that 
seek to serve them. However, the VFW is worried that this legislation 
as drafted would still leave many student-veterans in a gray area, 
offering too much flexibility to school systems with no intention to 
comply.
    We thank Chairman Sanders and Ranking Member Burr for their 
leadership on this issue, and we look forward to working with all 
stakeholders to ensure we can pass reasonable in-state tuition 
protections for currently-enrolled GI Bill beneficiaries and future 
student-veterans.
Additional Bills Under Consideration:
          s. 6, putting our veterans back to work act of 2013
    The VFW supports this bill, which offers additional employment 
incentives and opportunities for recently-separated veterans like 
extension of VRAP and additional protections for veterans from 
employers who knowingly violate the Uniformed Servicemembers Employment 
and Reemployment Rights Act (USERRA).
                                 s. 200
    A bill to amend title 38, United States Code, to authorize the 
interment in national cemeteries under the control of the National 
Cemetery Administration of individuals who served in combat supports of 
the Armed Forces in the Kingdom of Laos between February 28, 1961 and 
May 15, 1975, and for other purposes.
    The VFW has no official position on this legislation.
                     s. 294, ruth moore act of 2013
    The VFW strongly supports this legislation and believes that it is 
long overdue. S. 294 would relax evidentiary standards for tying mental 
health conditions to an assault, making it easier for Military Sexual 
Assault (MST) survivors to receive VA benefits.
    Current regulations put a disproportionate burden on the veteran to 
produce evidence of MST--often years after the event and in an 
environment which is often unfriendly--in order to prove service-
connection for mental health disorders.
    With the extraordinarily high incidence of sexual trauma in the 
military and the failure of many victims to report the trauma to 
medical or police authorities, it is time Congress amends this 
restrictive standard.
    This legislation does that by providing equity to those suffering 
from Post Traumatic Stress Disorder, anxiety, depression and other 
mental health diagnoses that are often related to MST. It puts MST in 
line with VA's standard of proof provided to combat veterans who suffer 
from PTSD.
    This bill will allow those who have suffered from sexual violence 
in the military to get the care and benefits they deserve. The VFW 
urges Congress to pass this legislation quickly, but we are also 
disappointed to see the House companion bill, H.R. 671, amended to only 
``direct'' VA to improve its policies on Military Sexual Trauma (MST), 
weakening the original intent of the bill.
  s. 373, charlie morgan military spouses equal treatment act of 2013
    The VFW has no official position on this legislation.
 s. 430, veterans small business opportunity and protection act of 2013
    The VFW support S. 430 and the similar language included as part of 
Ranking Member Burr's S. 495. Survivors of veteran entrepreneurs must 
have reasonable protections to continue doing business as if the entity 
remained veteran-owned. The VFW has called on Congress to offer these 
kinds of protections for survivors and we encourage the Senate to take 
swift action on this either as stand-alone legislation or through 
S. 495.
                                 s. 515
    A bill to amend title 38, United States Code, to extend the Yellow 
Ribbon G.I. Education Enhancement Program to cover recipients of Marine 
Gunnery Sergeant John David Fry scholarship, and for other purposes.
    A current statutory loophole excludes eligible dependents of a 
servicemember killed in action from enhanced tuition reimbursement 
available through the Yellow Ribbon Program. This simple legislative 
fix will provide Fry Scholarship recipients with the same benefits as 
other Chapter 33-eligible beneficiaries. The VFW proudly supports this 
bill and we encourage the Senate to quickly pass this legislation.
            s. 572, veterans second amendment protection act
    The VFW supports S. 572, which would provide a layer of protection 
for veterans who might be seeking or undergoing mental health care for 
service-related psychological disorders from losing their Second 
Amendment right. Adding a provision that will require a finding through 
the legal system that the veteran's condition causes a danger to him or 
herself or others will prevent a veteran's name from being 
automatically added to Federal no-sell lists.
       s. 629, honor america's guard-reserve retirees act of 2013
    The VFW strongly supports this legislation, which would give the 
men and women who chose to serve our Nation in the Reserve component 
the recognition that their service demands. Many who serve in the Guard 
and Reserve are in positions that support the deployments of their 
active duty comrades to make sure the unit is fully prepared when 
called upon. Unfortunately, some of these men and women serve at least 
20 years and are entitled to retirement pay, TRICARE, and other 
benefits, but are not considered a veteran according to the letter of 
the law. Passing this bill into law will grant Guard and Reserve 
retirees the recognition their service to our country deserves.
    Critics are concerned that this bill will allow Guard and Reserve 
retirees to legitimize claims for other veterans' benefits like health 
care or education moving forward. The VFW disagrees because such 
retirees are already eligible to participate in military health care 
programs after age 65; they are still entitled to file a disability 
claim for injuries sustained during military duty; and they already 
have access to VA education programs like the Montgomery GI Bill 
Reserve Select or even the Post-9/11 GI Bill contingent on the nature 
of their military service.
            s. 674, accountability for veterans act of 2013
    The VFW supports this bill, which will require other Federal 
agencies to promptly respond to a Secretary of Veterans Affairs request 
for information that will assist in adjudicating a VA claim for 
benefits. VA is held under focused scrutiny for the slow processing of 
claims for benefits. This bill will require agencies to provide VA with 
requested information within 30 days or provide a rationale and an 
estimated time of delivery. In passing this legislation, other agencies 
can be held accountable for any delays that are caused by their slow 
response for information required to adjudicate a claim.
                 s. 690, filipino veterans act of 2013
    The VFW has no official position on this legislation.
                s. 695, veterans paralympic act of 2013
    The VFW believes that rehabilitation through sports fosters healthy 
living, physical fitness, and a competitive spirit for our disabled 
veterans, many of whom have suffered catastrophic injuries in the line 
of duty. VFW Posts and Departments around the country consistently 
support rehabilitative sports in their communities, which is why we are 
proud to support extending VA's collaboration with United States 
Paralympics, Inc. through 2018.
    By supporting responsible rehabilitative sports initiatives like 
those provided by the U.S. Paralympic Team, the VFW believes that 
combat-wounded veterans will not simply overcome their injuries, but 
also discover new personal strengths and abilities.
              s. 705, war memorial protection act of 2013
    The VFW has no official position on this legislation.
           s. 735, survivor benefits improvement act of 2013
    The VFW is happy to support Chairman Sander's bill to expand 
Federal assistance to the nearly 350,000 surviving spouses and children 
receiving benefits from VA. Extending supplemental Disability Indemnity 
Compensation (DIC) payments to survivors with children from two years 
to five years gives survivors reasonable time to adjust to what is 
often a very difficult financial period in their lives.
    By allowing those who remarry after age 55 to retain DIC, 
healthcare, housing and educational assistance, this bill fulfills a 
longstanding VFW goal to level the playing field for survivors of 
fallen servicemembers and other survivors who receive Federal benefits. 
Current law cancels benefits if a surviving spouse remarries before age 
57.
    The VFW also supports expanding spina bifida care to children whose 
parents served during the Vietnam era, but would recommend striking 
``exposure to herbicide agents'' and replacing it with ``service in 
Thailand'' as the qualifier for benefits. We believe making this small 
change will lessen the burden of proof and offer timely access to 
health care, compensation and supportive services for affected 
children.
    Finally, the VFW supports creation of a pilot program to provide 
grief counseling in retreat settings for surviving spouses. The retreat 
setting offers a unique and therapeutic environment for peer-to-peer 
support while helping to provide participants with the necessary tools 
to manage grief and begin the healing process. VFW has heard positive 
stories from a similar pilot program involving women veterans, and we 
are happy to support the same goals for those who lost a loved one on 
active duty.
                s. 748, veterans pension protection act
    The VFW supports the passage of S. 748. Current law allows VA 
pension claimants to transfer assets to lower their net worth prior to 
applying for pension benefits. Other means-tested assistance programs 
have a ``look-back'' period that prevents a claimant from disposing of 
assets below fair market value.
    Because there is disparity between the programs, veterans who are 
seeking pension benefits from VA can put themselves into a ``penalty 
period,'' precluding them from receiving assistance from programs like 
Medicaid for up to three years when applying for other assistance 
programs. Since VA lacks a ``look-back,'' veterans are being solicited 
by financial institutions that state they can shelter assets and assist 
in successfully claiming VA pension. In many cases, these institutions 
are charging large service fees and in some cases placing the veteran's 
assets into annuities that cannot be accessed during their expected 
lifetime without withdrawal fees.
    GAO released a report in June 2012, outlining the need for VA to 
adopt a ``look-back'' period when determining eligibility for VA's 
need-based pension. This bill would provide for a three-year look back 
and penalty period that could not exceed 36 months. In passing this 
legislation, VA will protect veterans from falling victim to aggressive 
marketing that can diminish their assets and prevent them from 
receiving other finical assistance when they need it most.
                                 s. 778
    A bill to authorize the Secretary of Veterans Affairs to issue 
cards to veterans that identify them as veterans, and for other 
purposes.
    The VFW opposes the passage of S. 778, a bill to authorize the 
Secretary of VA to issue ID card to any veteran for use as validation 
of veteran status. The VFW believes that states are better suited to 
provide veterans with identification that verifies veteran status. 
Forty-three states already provide or are in the process of providing a 
``veteran'' designation on state-issued driver's licenses or state 
issued non-driver's license ID cards. The infrastructure already exists 
within each state's Department of Motor Vehicles to provide picture 
identification to its citizens, whereas the VA would have to expand its 
capability to accommodate the increase in veteran requests for an ID 
card. The VFW encourages the remaining seven states to pass legislation 
to provide for veterans status on their existing state-issued driver's 
licenses and ID cards.
       s. 819, veterans mental health treatment first act of 2013
    The VFW does not support this legislation which would create a 
program of mental health care and rehabilitation for veterans who are 
diagnosed by a VA physician with service-related PTSD, depression or 
anxiety. Those who comply with the treatment regimen of the program 
would be paid a stipend during participation, not to exceed a total of 
$11,000. Although the VFW appreciates the effort to offer a new 
approach to solving the difficult problem of mental health 
rehabilitation, we feel that this legislation contains serious flaws.
    The VFW does not support the idea of asking veterans not to submit 
applications for disability compensation while participating in the 
program. Even with the payments for treatment that this bill would 
provide, we cannot support legislation that will require veterans to 
temporarily forgo any benefits to which they may be entitled. This is 
especially true in the case of a veteran who would ultimately receive a 
high rating for a mental health disorder, even after completing the 
program. The total monetary value of the wellness stipend could 
potentially be far less than that of an award of service-connected 
disability compensation, harming the veteran financially.
                 s. 868, filipino veterans promise act
    The VFW has no official position on this legislation.
        s. 889, servicemembers' choice in transition act of 2013
    The VFW recently testified in support of the House companion, H.R. 
631, and we are proud to support Senator Boozman's bill. S. 889 
reflects the changes recently passed by the House Veterans' Affairs 
Committee, clarifying that Department of Defense (DOD) must deliver the 
education component of the military Transition Assistance Program (TAP) 
to all interested transitioning servicemembers.
    The VFW has long served as a vocal advocate for student-veterans, 
and we believe that TAP plays a critical role in ensuring that 
transitioning servicemembers are academically and financially prepared 
for college. The VFW has been generally satisfied with the newly-
developed education curriculum for TAP, but we are concerned that the 
military had no plans to adequately deliver the training to those who 
need it, since participation in individualized tracked curricula will 
neither be mandatory, nor will sufficient staff be provided.
    DOD has instead decided that servicemembers will need to meet 
``career readiness standards'' in the track of their choice, including 
education. To the VFW, this does not satisfy the VOW to Hire Heroes Act 
mandate to deliver ``assistance in identifying employment and training 
opportunities, help in obtaining such employment and training * * *'' 
in accordance with title 10, U.S.C., Sec. 1144 (a), since the goal of 
veterans' education benefits is to train veterans to enter the job 
market.
    DOD insists that it is building a life cycle model for military 
professional development that will include education goals, but the VFW 
remains concerned that the new model will still fail to adequately 
prepare servicemembers for civilian life. We prefer the model set forth 
in S. 889, which acknowledges the finite timeframe services can 
dedicate to preparing separating servicemembers for civilian life, but 
also ensures potential student-veterans can make knowledgeable college 
choices.
  s. 893, veterans' compensation cost-of-living adjustment act of 2013
    Disabled veterans, their surviving spouses and children depend on 
their disability and dependency and indemnity compensation to bridge 
the gap of lost earnings and savings that the veteran's disability has 
caused. Each year, veterans wait anxiously to find out if they will 
receive a cost-of-living adjustment. There is no automatic trigger that 
increases these forms of compensation for veterans and their 
dependents. Annually, veterans wait for a separate Act of Congress to 
provide the same adjustment that is automatic to Social Security 
beneficiaries.
    The VFW supports this legislation that will bring parity to VA 
disability and survivor recipients' compensation by providing a COLA 
beginning December 1, 2013, so long as VA disability, pension and 
survivor benefits continue to be calculated with the currently used 
Consumer Price Index--W, and not change the calculations for these 
adjustments to the Chained--Consumer Price Index.
                 s. 927, veterans' outreach act of 2013
    The VFW often hears from veterans who are confused by the dearth of 
information about veterans' benefits, veteran-specific services, and 
community resources. Since 2001, thousands of new non-profit and 
community organizations have popped up, seeking to meet the needs of 
servicemembers, veterans and their families. Some provide tremendous 
resources and services, like the Wounded Warrior Project, Student 
Veterans of America, Fisher House, Team Rubicon, or Team Red White and 
Blue. Others have rightfully come under fire from charity watchdogs for 
seeking to exploit the good will of the American people.
    Saturation of the marketplace and the availability of information 
through online and social channels have left many veterans confused. 
The VFW and our partners in the veterans' community have seen this 
before and we proudly help any veteran who reaches out navigate this 
complex system to the best of our ability. But we can't do it alone.
    Chairman Sanders' bill would insist that the Federal Government 
take a hard look at how it disseminates information about veteran-
specific services to the men and women who need it. It seeks to improve 
coordination among Federal, state and community resources to ensure 
that information can be delivered in a timely manner. The VFW believes 
these efforts are long overdue and we are proud to support this 
legislation, and continue our work with Federal, state and local 
agencies who seek to inform veterans of the programs and services 
designed to serve them.
           s. 928, claims processing improvement act of 2013
    The VFW generally supports the concept of this bill and we thank 
Chairman Sanders for his attention to the VA disability claims backlog. 
The current wait times to process VA disability claims remains woefully 
insufficient, and the VFW has consistently testified for nearly 20 
years that the disability claims backlog demands leadership and 
decisive action.
    We support many of the provisions in this bill, such as creating a 
study group to evaluate how VA administers work credit for claims 
processors, establishing a task force on training and retention for 
raters, providing education and training for transitioning 
servicemembers to assist in claims-processing, and streamlining how VA 
acquires military records.
    However, the VFW has several concerns about the current bill. 
First, the VFW opposes reducing a veteran's appeal period from one year 
to 180 days. To the VFW, this clerical change will not affect the 
backlog, since rated claims are no longer considered pending. Instead, 
this will only hurt veterans who wish to appeal their rating decisions, 
and only further exacerbate VA bureaucratic hurdles when veterans seek 
exemptions from the 180-day filing period.
    Next, the VFW wants to clarify that when VA requests records from 
the military, VA must summarize why they stop development after a 
second attempt to acquire records.
    Next, the VFW worries that formally adopting VA's 125-day backlog 
goal, while ambitious, does not accurately reflect the steps required 
for proper claim development in certain circumstances. We also believe 
that is unnecessary to formally codify ``pending,'' since this is 
already defined in VA regulations and introduces an unnecessary 
redundancy in the code.
                                 s. 930
    A bill to amend title 38, United States Code, to require the 
Secretary of Veterans Affairs, in cases of overpayments of educational 
assistance under Post-9/11 Educational Assistance, to deduct amounts 
for repayment from the last months of educational assistance 
entitlement, and for other purposes.
    The VFW supports this bill, which would protect student-veterans 
from facing significant financial hardships and allow a student veteran 
to charge their individual overpayment to entitlement. A student-
veteran's enrollment status can change month to month by adding or 
dropping units, or based on an institution's academic calendars. When 
these payments change so frequently, lack of due process and poor 
communication does not allow the veteran a reasonable path to 
understand whether or not they have received an overpayment in a timely 
manner.
    The VFW understands that VA overpayments must be recouped in order 
for benefit programs to work efficiently, but the VFW is also concerned 
that debt collections for a benefit as complicated as the Post-9/11 GI 
Bill can cause significant financial hardships for both veterans and 
their schools. Organizations representing school certifying officials, 
like the National Association of Veterans Program Administrators 
(NAVPA), report that VA's assignment of debt collections to schools and 
students, as well as erroneous offsets have been inconsistent across 
the board.
    By allowing VA to tack debts to the end term of a benefit, we offer 
veterans the flexibility to continue attending without facing potential 
financial hardships.
    While the VFW supports this bill, we also recognize that this is 
just a stop-gap measure to protect student-veterans, but does not 
tackle the major issue through which schools and veterans report that 
VA poorly communicates the results of an assigned overpayment from the 
Regional Processing Office in a timely manner and can result in the 
recoupment of other Federal funds from schools through the Treasury's 
tax offset program which in turn may result in the school reassigning 
the debt to the student and/or placing a veteran's credit in jeopardy. 
Either way the student veteran's educational goals are in jeopardy. VA 
must clarify its policies on debt collections. Debt notices must be 
clear and both veterans and schools should be able to take quick steps 
to resolve any outstanding debts. We look forward to working with the 
Committee to resolve this issue in an equitable way that not only 
protects veterans and schools, but also ensures VA can properly 
administer its benefit programs in a responsible manner.
           s. 932, putting veterans funding first act of 2013
    The VFW is proud to support this bill, which is a companion to H.R. 
813. In March, VFW Commander-in-Chief John Hamilton made the case for 
why Congress needed to offer advance appropriations for all VA 
programs. Advance appropriations would prevent disruptions or delays to 
existing or proposed programs and services that occur when budgets are 
not passed in a timely manner. As we have seen with Advance 
Appropriations for VA's medical care accounts, when VA knows how much 
funding they will receive, they can better plan and more responsibly 
spend their annual budget. By including all accounts under Advance 
Appropriations, building projects will not be halted, IT development 
will not be delayed and essential services and staffing levels will not 
be threatened by arbitrary cutbacks.
             s. 935, quicker veterans benefits delivery act
    The VFW supports the intent of this legislation, but we have 
serious concerns with the bill as written. The VFW supports the 
provision to mandate VA's acceptance of private medical evidence that 
is competent, credible, probative, and otherwise adequate for purposes 
of making a decision on a claim. However, we believe that the bill must 
also clarify that VA must not order an additional exam for the veteran 
unless VA has provided a thorough explanation as to why the private 
medical evidence proved insufficient for establishing service 
connection and determining a rating.
    Next, the VFW understands and supports the goal of lowering the 
threshold with which VA can deliver temporary disability ratings for 
veterans, but we believe the concept in this bill requires further 
development. The VFW believes that this bill would unintentionally 
incentivize VA to deliver temporary disability ratings with no required 
follow-up. The bill currently also exempts VA from considering claims 
with a temporary rating as ``backlogged'' for the purposes of reporting 
to Congress.
    The VFW understands that the wait time for disability rating 
decisions remains a national embarrassment that demands innovative 
solutions. We thank Senator Franken for his attention to this issue and 
his continued support of our veterans. Though we cannot support this 
bill in its current form, we look forward to working with Senator 
Franken to craft a bill that will best serve the needs of our disabled 
veterans.
          s. 938, franchise education for veterans act of 2013
    The VFW is proud to support this bill, which will allow veterans to 
tap into their earned education benefits for established professional 
development programs offered by franchisors. The VFW has long held that 
the GI Bill is a professional development tool designed to help 
veterans secure the skills necessary to succeed in the marketplace. 
Allowing veteran franchisees to use their earned education benefits for 
legitimate industry training seems like a reasonable extension of non-
degree professional training already offered through the GI Bill.
    However, the VFW must ensure that State Approving Agencies, which 
already approve or disapprove on-the-job training and apprenticeship 
programs for GI Bill eligibility, also have oversight in approval and 
disapproval of franchise education programs to ensure training is 
relevant and necessary for the success of the franchisee.
    Veterans, by nature, are more entrepreneurial than their civilian 
counterparts, and veterans who own franchises are more likely to 
succeed than civilian franchisees. Considering both of these factors, 
providing educational resources for veterans to operate their own 
franchises is a reasonable way to not only encourage business ownership 
among veterans, but also a way to foster success and build the economy 
with proven leaders.
                                 s. 939
    A bill to amend title 38, United States Code, to treat certain 
misfiled documents as motions for reconsideration of decisions by the 
Board of Veterans' Appeals, and for other purposes.
    When a veteran seeks to appeal his or her rating decision with the 
Board of Veterans' Appeals, paperwork must be filed with the board in a 
timely manner. If the veteran fails to file within the designated time 
period, their motion to reconsider will be dismissed by the board. 
However, many times the paperwork is confusing and veterans will 
mistakenly seek to file their motion to reconsider with the VA regional 
office of original jurisdiction for the claim. When this happens, the 
regional office must process the paperwork and forward it to the Board 
within the allotted time or the veteran's motion will be dismissed. To 
avoid this unreasonable burden on veterans who make a good faith effort 
to file a motion for reconsideration before the deadline, the VFW 
agrees that misfiled documents postmarked within the allotted time 
should also be treated by the Board as a motion for reconsideration. 
The VFW is proud to support this bill.
               s. 1039, spouses of heroes education act:
    The Marine Gunnery Sgt. John D. Fry Scholarship Program offers the 
surviving children of fallen servicemembers the opportunity to earn a 
quality education. This bill would expand Fry Scholarship opportunities 
to surviving spouses and the VFW is proud to support this initiative. 
Military spouses often must sacrifice careers of their own to support 
the service obligations of their loved ones. By extending this kind of 
educational opportunity to a surviving spouse, we demonstrate our 
commitment to serving not only the servicemember, but also the one ones 
they may leave behind.
              s. 1042, veterans legal support act of 2013
    While the VFW understands the intent of this bill, we cannot 
support it as written. We have concerns about VA using funds from its 
Medical Services accounts to fund higher education programs. The VFW 
would prefer to see states that offer veterans treatment courts to work 
with law schools to provide legal resources to veterans.
 s. 1058, creating a reliable environment for veterans' dependents act
    While VA has made considerable progress in mitigating the factors 
that contribute to veteran homelessness, the problem continues to 
disproportionately affect the veterans' community. Sadly, veterans of 
the current conflicts are experiencing homelessness in different ways.
    The VFW supports this legislation as an additional resource in the 
fight to end homelessness among veterans. Recent statistics show that 
the number of homeless women veterans and homeless veterans with 
children are on the rise. Current VA programs do not provide adequate 
services for veterans with dependent children, leaving many without 
access to resources critical to finding and maintaining permanent 
housing.
    Senator Heller's and Senator Murray's legislation would allow those 
who qualify as a grant recipient under Section 2011 of title 38, U.S.C. 
to also receive funding to furnish care for a dependent of a homeless 
veteran. By providing per diem payments for a dependent you will allow 
the veteran time needed to begin receiving supportive services designed 
to help them achieve stability, increase employment skills, and obtain 
greater independence.
    VFW believes this is a wonderful example of how to strengthen 
partnerships within the community to help meet the goal of ending 
homelessness by 2015, and we urge the Committee to pass this bill 
quickly.

    Chairman Sanders, Ranking Member Burr and distinguished Members of 
the Committee, this concludes my statement and I am happy to answer any 
questions you may have.

    Chairman Sanders. Well, let me begin by thanking you all 
not only for your excellent testimony this morning but for your 
years of service for veterans in this country.
    What I have believed from day one when I assumed this 
position is that we cannot be successful unless we fully 
understand the problems and that we work with the service 
organizations who represent millions of veterans to try to find 
solutions for those problems. That is what we are going to do 
and that is what we are going to continue to do.
    So, we may not be able to do everything everybody wants but 
I think, as I have heard this morning, you are aware that we 
are working on a very ambitious set of legislation and we are 
going to continue to do that.
    We are holding a markup in about a month to go over some of 
these issues. We will be continuing our progress into next 
year. But, at the end of the day, I want to do my best with 
this Committee to make sure that within our limited financial 
resources, acknowledging that we cannot do everything we want 
to do.
    We have a long list of every one of the issues that are of 
concern to the veterans community and do our best to address 
them all, health care, benefits, et cetera.
    Let me start off by touching on an issue that some of you 
have touched on. I know you have gone on to other areas, 
important areas, as well--education, et cetera--but, I want to 
get back to the issue that we have perhaps heard most about in 
the last year and that is the backlog of claims.
    My question is very simple. Do you believe the VA is making 
progress in addressing this very serious problem?
    Mr. Hall, why do you not begin.
    Mr. Hall. We believe that the VA is making progress, but we 
simply cannot ascertain the amount of progress that they have 
made because we have not been provided any type of milestone 
data.
    Chairman Sanders. As you know, that is exactly what we want 
to be able to do.
    Mr. de Planque.
    Mr. de Planque. I would absolutely like to associate myself 
with that. I am recalling the famous expression, ``in God we 
trust, all others we verify.'' I mean I think there has been a 
very strong good faith effort by the VA. I think they are 
working very hard. We have had excellent discussions with some 
of the people in this room. The dialog----
    Chairman Sanders. Sorry to interrupt you. Do you feel you 
have access to the VA? Have you been able to give your views 
about where we should be going to the VA?
    Mr. de Planque. Our staff has been able to communicate very 
well generally with the VA. However, in terms of having bench 
marks, milestones; are we meeting markers; what is the plan; 
what is the plan if we are going to get down to this 125 days 
and 98 percent accuracy.
    If we are here, where do we need to be in 3 months from 
now, where do we need to be 6 months from now, where do we need 
to be a year from then? Those sorts of things we have not seen, 
but in terms of when we have a question we try to raise it and 
speak to the VA, it would be wrong to say that they are not 
communicative. They have been very communicative and they have 
tried to work with us.
    The American Legion worked closely with VA and other groups 
who have worked with them on the fully developed claims process 
which has made an impact in processing time on some of the 
claims.
    So, there are definitely ways that they are communicating 
with us. They are taking input. We would like to see more in 
terms of putting out benchmarks showing that they are reaching 
those markers and that some of the errors of the past are not 
made.
    Chairman Sanders. You know, that is exactly what our 
legislation proposes to do.
    Colonel Norton, are we making progress or not?
    Colonel Norton. Yes, we are making progress. They are 
making progress, Mr. Chairman, but we continue to point out 
that the long pole in the tent is the electronic medical record 
or the lack thereof. We still need that. It is not there yet.
    I would point out in commenting on the VA panel earlier 
that four out of every ten of initial claims that are coming 
into the VA today are from members of the National Guard and 
the Reserve.
    In a recent hearing, General Hickey, in response to a 
question from Senator Tester, pointed out that there were, in 
her words, complications with getting National Guard and 
Reserve records.
    So, we would like more information about the so-called DOD 
guarantee that by the end of this calendar year the records, 
the medical records, will be certified complete and available 
for adjudication.
    We want to see that for the entire force, not just for the 
active duty force because so many of our National Guard and 
Reserve members, tens of thousands of them, have served two, 
three, and even four tours of active duty. They deserve the 
same speedy treatment as everybody else in the total force 
team.
    Chairman Sanders. How has your relationship been with the 
VA? Are they listening to what you have to say?
    Colonel Norton. Yes, they are listening. We have, I would 
say, a very good relationship. There are regular meetings with 
senior VA officials. They welcome us in. They listen to our 
thoughts. They provide good information. We support the team 
that is in place.
    But we, too, join with our colleagues in wanting to see 
specific measurements set out to meet production and quality 
goals month to month as we move toward 2015.
    Chairman Sanders. We agree with you.
    Mr. Gallucci.
    Mr. Gallucci. Thank you, Chairman Sanders.
    The VFW agrees with our partner organizations here at the 
table that the situation is improving. We also echo calls for 
specific benchmarks for how VA intends to meet its 2015 goal.
    Specifically, we also support improving the information 
flow from the Department of Defense. One of our concerns was 
the announcement from DOD that they are going to once again 
solicit a new integrated health care record.
    Our concern is also that they've guarantee to deliver 
electronically by the end of the year certified complete health 
care records. Our concern is if they deliver this 
electronically is it in PDF format or is it in a format that VA 
can easily read through its Vista system?
    This seems to be a major problem for the military. I have 
seen it with colleagues of mine who served in Iraq and 
Afghanistan when their files go missing or when they cannot 
acquire them from DOD in a timely manner.
    Chairman Sanders. During your testimony, Mr. Gallucci, you 
and others touched on the higher education problems that we are 
having with tuition issues which I do not want to get into now. 
We take what you have said seriously.
    Let me move to employment, which is a big issue. The bottom 
line, briefly, starting with Mr. Hall, what would you like to 
see us do to make sure that we improve capabilities in terms of 
getting jobs for returning servicemembers?
    Mr. Hall. Well, I think there is a lot of pretty good 
legislation that is geared at that and we would like to see 
that, you know, continue in that way; but I think the one thing 
that I would like to comment on specifically is the Transition 
Assistance Program in the military because that is where it 
starts. That would be the first leg of many steps that they 
have to do.
    Chairman Sanders. Are we making progress through that 
program? Is it an improved program?
    Mr. Hall. According to our transition service officers 
there at military installations, there are improvements being 
made but I think there is still a lot of work left to do in 
that regard.
    Chairman Sanders. Mr. de Planque.
    Mr. de Planque. In terms of, is the transition program 
better than the one I went through in 2005; it is head and 
shoulders better.
    Is there still room for improvement? Absolutely. But I 
think that is an area that is being worked on and I think that 
is something essential in terms of that hand off. I think that 
is one of the reasons a lot of us have spoken about the GI Bill 
and tuition and the fact that protection of the in-state 
tuition rates goes away the second you step out of these 
services. That is kind of critical and we have seen a lot of 
examples with that.
    Making more on-the-job training robust would be another 
thing, you know, that we would like to see improvements toward. 
I think that there are a lot of efforts toward that. I think 
managing that transition handoff is very important, but also 
not forgetting those servicemembers who transitioned 2 years 
ago and are still looking for work.
    You know, we have to find ways to double back and make sure 
that we are not missing those people as they slip off of the 
statistics because, obviously, the longer you stay unemployed 
the more difficult it is to get back into the workforce.
    It is a terribly difficult thing to go through and I know a 
number of people who have gone through it, particularly people 
who have served in the Guard and Reserve. We have talked about 
the Guard and the Reserve and having to keep one foot in the 
civilian world and one foot in the military world and 
constantly get jerked back and forth between those two places.
    It is difficult to find employers who are going to stick 
with you through that. They are not going to say it up front 
that they are not hiring you because they are not happy about 
the possibility of losing an employee for a year but that 
certainly exists out there, so we need to look into more of 
those aspects, as well.
    Chairman Sanders. Thanks.
    Colonel Norton.
    Colonel Norton. Thank you, Mr. Chairman. Let me preface my 
comment on the employment situation by saying that we have had 
in MOAA a very robust career transition services capability for 
many, many years.
    Last year, we conducted hundreds of workshops for all 
grades, not just officers, around the country and we provided 
counseling for about 10,000 military men and women.
    One of the things we emphasize is that it is not just about 
converting the military skill equally into some civilian skill. 
It is also about acquiring broader skills that help you 
transition into the civilian work force.
    That is why we believe that your bill, S. 922, has 
potential. We do believe that it would have to be closely 
monitored. The pilot programs that are being set up certainly 
offer a great opportunity for our young veterans and our older 
veterans, as well, to gain or regain exposure and experience in 
the civilian workplace.
    It is a different environment all together than what they 
have experienced on active duty. Many of these young men and 
women enter the Armed Forces at age 18. They have never had 
civilian work experience.
    So, at the end of the day, it is about gaining a whole 
range of civilian-related skills and exposure that will then 
help to enable them to move forward.
    We would like to see your bill used in conjunction with the 
VOW to Hire Heroes Act and the GI Bill, in other words, 
basically making it a work-study program. But we think you are 
headed in the right direction on that legislation.
    Chairman Sanders. Colonel, thank you very much.
    Mr. Gallucci.
    Mr. Gallucci. Thank you, Mr. Chairman.
    There are a few points that we consistently hit on. We 
touched on many of them in our testimony on ways to improve the 
employment situation for veterans. One would be to extend and 
improve the VRAP program.
    As my colleague, Colonel Norton, said, improving it to open 
access to 4-year institutions and also allowing eligible 
veterans to use it for certain kinds of remediation.
    We have heard a number of great success stories of veterans 
who have taken advantage of VRAP but we have also heard stories 
of veterans who have hit bumps in the road in accessing their 
benefits.
    An example that I used in my testimony was in Erie, 
Pennsylvania, where the University of Pennsylvania, Erie 
Campus, serves as a de facto community college. There are no 
community colleges in the area so VRAP-eligible veterans are 
fairly limited in the kinds of programs that they can access.
    In addition to that, examining VA's on-the-job training and 
apprenticeship program in addressing your bill, S. 922, we did 
have some disagreement on the approach that it took.
    Our main concern is the duplicity in a pilot program for 
on-the-job training and apprenticeships with what already 
exists at VA. But, that being said, it has come to our 
attention that in States like your homestate, Vermont, there is 
one person responsible for approving education programs who 
also has the collateral duty of approving on-the-job training 
and apprenticeship programs which means that their reach is 
very limited. Their capacity to approve those programs is also 
very limited so it does warrant looking at other options to 
make sure that veterans have those kind of opportunities.
    Next, I want to build on what my colleague Jeff said about 
the Transition Assistance Program. It has certainly improved 
but our main concern is access to those resources once a 
servicemember has left active duty.
    We know that the Committee managed to move a pilot program 
to offer those resources to veterans after they leave the 
military last session. But, we want to make sure when we are 
talking about the transition GPS and the military life cycle of 
transition that we also take into account that many 
servicemembers do not know the kinds of problems they are going 
to face until they physically leave the military. You cannot 
anticipate all the challenges that you will face.
    So, our recommendation to the Department of Defense, VA, 
Labor, and the other relevant agencies has consistently been to 
ensure that the veterans can access these resources whether it 
is the TAP briefings or the TAP modules after service even if 
it is through something as simple as the eBenefits portal.
    Finally, ease of access to the tax credits and consistently 
working to build a career-ready force as my colleague, Colonel 
Norton, said in making sure that servicemembers can acquire 
skills that will translate once they leave the military.
    Chairman Sanders. Gentlemen, thank you very much for your 
testimony and your response to the questions. I do not need you 
to answer this publicly but as a favor I want you to be 
thinking about if we are going to improve and expand existing 
programs, we need money to do that; and one of the ways that I 
hope to find funds is I need your help in telling us what 
programs, in your judgment, are no longer working at the VA, no 
longer efficient.
    I need your help basically to tell us where there is waste. 
We are looking at a budget of almost $150 billion. Not every 
nickel there is spent as effectively as it can be.
    So as the world changes, we want the VA to change and 
become more efficient but I need your help to identify those 
areas as well. OK?
    Gentlemen, thank you very much for being here today.
    This meeting is now adjourned.
    [Whereupon, at 12:01 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


              Prepared Statement of Hon. Johnny Isakson, 
                       U.S. Senator from Georgia
    I would like to thank Chairman Sanders and Ranking Member Burr for 
holding this hearing on pending benefits legislation. I remain 
committed to ensuring that the United States lives up to the promises 
we have made to our Nation's service men and women. The members of the 
Senate Veterans' Affairs Committee and other colleagues have worked 
diligently to address the needs of veterans from all eras, and I look 
forward to marking up these bills in the near future.
    Of course, when we talk about veterans' benefits we must make sure 
that they are delivered in a timely manner to the veterans and their 
families. I continue to have concerns regarding the VA disability 
claims backlog, and I think the current situation is inexcusable. I 
will work with my colleagues on the Committee to ensure that any claim 
submitted is decided in a timely and accurate manner.
    I would like to highlight a few bills that I have cosponsored and 
think will help address some of the needs veterans have.
    I would like to thank Chairman Sanders for introducing S. 893, the 
Veterans' Compensation Cost-of-Living Adjustment Act of 2013. As 
compensation payments are based on the Consumer Price Index and 
historically tied to adjustments made to Social Security, I am proud to 
cosponsor this bill, which ensures veterans will receive a cost-of-
living adjustment, too. I believe it is important that veterans are 
given proper compensation for the sacrifices made in service to our 
country, and am glad all of the Committee members have shown a similar 
commitment.
    Next, I am an original cosponsor of S. 495, the Careers for 
Veterans Act of 2013, introduced by Ranking Member Burr. I believe we 
must enable servicemembers to translate the valuable skills they honed 
during their military service into successful civilian careers. It is 
important that the Federal Government be a model employer of veterans, 
and this bill requires that Federal agencies use the Veterans 
Recruitment Appointment authority to hire no fewer than 10,000 veterans 
into existing vacancies. The VA and the Department of Defense already 
use VRA extensively, and I think the rest of the Federal Government 
could benefit from it as well. This bill also enables veterans to use 
their military training to acquire credentials and licenses 
administered by the states. It requires states to develop examinations 
for the credentials and licenses for veterans to take without 
additional training or apprenticeships if they meet certain criteria. I 
believe that this bill will help veterans use their skills as 
effectively in the civilian workforce as they did during their military 
service.
    I am happy to continue my support of the disabled veterans training 
or competing for the U.S. Paralympic Team. There are four grantees in 
the state of Georgia doing good work for disabled veterans. I am happy 
to cosponsor this bill and thank Senator Boozman and Senator Begich for 
introducing the bill this Congress.
    Finally, I am an original cosponsor of S. 705, the War Memorial 
Protection Act of 2013. Our military has always fought to protect the 
rights enshrined in Constitution and the Bill of Rights, including the 
freedom to express religious beliefs. This bill would ensure that 
religious symbols, regardless of affiliation, are allowed to be part of 
military memorials that commemorate those who served or paid the 
ultimate price in service to their country.
                                 ______
                                 
  Prepared Statement by Hon. Mazie K. Hirono, U.S. Senator from Hawaii
    Thank you Chairman Sanders for your remarks.
    Today we will be considering a number of bills related to veterans' 
benefits. Our Nation's veterans answered the call to duty and served 
and sacrificed in defense of liberty and freedom. Support for 
servicemembers and their families, whether on active duty, during the 
transition back home, or as they settle into civilian life as veterans, 
is our country's responsibility.
    While I have cosponsored a number of bills before the Committee 
today aimed to help fulfill our obligation to our Nation's veterans, I 
would like to focus on legislation related to Filipino World War II 
Veterans.
    I want to associate myself with the testimony of my colleague from 
Hawaii, Senator Schatz, in support of S. 690, the Filipino Veterans 
Fairness Act.
    Filipino veterans, many of whom live in Hawaii, are those that 
answered the call of President Franklin D. Roosevelt and served 
honorably alongside our Armed Forces during World War II. They fought 
shoulder to shoulder with American servicemen; they sacrificed for the 
same just cause.
    President Roosevelt made a promise to provide full veterans' 
benefits to those who served with our troops but Congress denied these 
rights in passing the 1946 Rescission Act. And while we have made 
appreciable progress, we have not yet achieved the full equity that 
Filipino veterans deserve.
    S. 690 would deem service in the organized military forces of the 
Government of the Commonwealth of the Philippines and the Philippine 
Scouts to have been active service for purposes of benefits under 
programs administered by the Department of Veterans Affairs (VA).
    I want to thank the Military Officers Association of America for 
their support and urge my colleagues to support S. 690.
    I recognize the concerns voiced by the VA and others on this bill 
and want to state that as a policymaker I think we should consider 
multiple proposals and ways to provide equity to these veterans.
    I also wish to speak in support of S. 868, the Filipino Veterans 
Promise Act, I cosponsored with Sen. Heller which seeks to resolve 
issues surrounding the implementation of the Filipino Veterans Equity 
Compensation Fund.
    The bill would establish a process to determine whether individuals 
claiming certain service in the Philippines during World War II are 
eligible for compensation from the fund despite not being on the 
National Personnel Records Center list used by the VA.
    The American Recovery and Reinvestment Act of 2009 established the 
Filipino Veterans Equity Compensation (FVEC) Fund that provides a one-
time benefit payment to eligible Filipino World War II veterans.
    Over 45,000 claims were received and processed. While more than 
18,000 claims have been approved, over 24,000 were denied and around 
4,500 denied claims have been appealed.
    To determine the Filipino veterans eligible for FVEC payment, the 
Department of the Army relies on an official Guerrilla list that was 
created in 1948 in the immediate post-war period.
    However, many possible inaccuracies in the official Guerrilla list, 
which is maintained and searched by the National Archives' National 
Personnel Records Center (NPRC) in St. Louis, Missouri, have been 
identified. The NPRC has noted name variation issues and the existence 
of other U.S. records verifying service in addition to the Guerilla 
list. This has resulted in the reversal of denial decisions by the VA.
    In light of evidence that the current process needs improvement and 
that these Filipino veterans are now in the 80s and 90s, the urgency to 
resolve this issue cannot be emphasized enough.

    I look forward to working with the Committee, Secretary Shinseki, 
and Secretary Hagel on this issue and urge my colleagues support these 
bills.
                                 ______
                                 
    Prepared Statement of Hon. Harry Reid, U.S. Senator from Nevada
    Mr. Chairman, For over a decade, we have sent men and women into 
battle. After two wars, we have spent hundreds of billions of dollars, 
tens of thousands have come back wounded, and 6,709 servicemembers have 
paid the ultimate price. Moreover, as our Nation's heroes transition 
into civilian life, they are increasingly faced with a new battle--
trying to find a job.
    Unemployment is an issue facing all Americans, especially in 
Nevada, but veteran unemployment numbers are routinely higher than the 
national average. In fact, as of March 2013, roughly 783,000 veterans 
were unemployed and looking for work, including 207,000 post-9/11 
veterans. For me, this is simply shameful. Our servicemembers who are 
currently fighting to protect the freedoms we all enjoy should be 
focused on the task at hand, not worried about what they will do when 
they come home. And those who have already left the military should be 
able to put the skills and experience they have developed in the most 
highly trained military in the world to use.
    To combat this problem, I introduced one of the first pieces of 
legislation during the 113th Congress: the Putting our Veterans Back to 
Work Act of 2013 (S. 6). Whether by equipping veterans with the skills 
they need to succeed in today's workforce or helping them get their own 
small businesses off the ground, this bill honors the sacrifice of the 
men and women who served in our Armed Forces and builds upon the great 
work the Senate Veterans' Affairs Committee has undertaken in the past 
several years to help veterans find jobs.
    Specifically, this legislation reauthorizes the transition, 
retraining, and employment services created by the VOW to Hire Heroes 
Act. It also further enhances the VOW to Hire Heroes Act by creating a 
new, unified, online employment portal for veterans seeking information 
regarding Federal employment and jobs training resources; provides 
grants to first-responders for hiring and re-hiring needs; and directs 
agency heads to favorably consider contractors that employ a 
significant number of veterans for contracts of $25 million.
    S. 6 is also instrumental in strengthening our vow to protect 
employment rights for all veterans. This legislation enables the 
Attorney General to investigate and file suit against a pattern or 
practice of Uniformed Services Employment and Reemployment Rights Act 
(USERRA) violations by a state or private employers; allows Federal 
agencies to suspend and debar Federal contractors who repeatedly 
violate the employment and reemployment rights of members of the Armed 
Services; and provides the Special Counsel with authority to subpoena 
attendance, testimony, and documents from Federal employees and 
agencies in order to carry out investigations related to USERRA.
    Finally, this legislation helps veteran small business owners. S. 6 
codifies the Patriot Express Loan Program into law. This program has 
been an invaluable resource for small businesses owned by veterans, 
servicemembers, and their families by providing loans of up to 
$500,000. This legislation also raises the Small Business 
Administration Surety Bond Cap to $5 million, enabling many veteran-
owned small businesses to compete for larger contracts.
    I appreciate Chairman Sanders and the Veterans' Affairs Committee 
for taking the time to consider this valuable piece of legislation that 
is so badly needed. Putting veterans back to work is a key priority for 
Senate Leadership during the 113th Congress, and moving forward, you 
can count on my support in working with the Veterans' Affairs Committee 
to ensure that our Nation's commitment to veterans does not end with 
their tours of duty.
                                 ______
                                 
             Prepared Statement of Hon. G.K. Butterfield, 
                U.S. Representative from North Carolina
    Chairman Sanders and Ranking Member Burr, Thank you for the 
opportunity to submit written testimony to your committee. I regret 
that I was unable to testify in person.
    I urge the Committee to support S. 262, the Veterans Education 
Equity Act of 2013, introduced by Senator Dick Durbin (IL). I 
introduced identical legislation in the House of Representatives in the 
112th and 113th Congresses. The Veterans Education Equity Act seeks to 
equalize veterans' tuition and fee benefits under the Post-9/11 G.I. 
Bill by resolving an inequity in the existing law that unintentionally 
allots more education funds to veterans enrolled in private colleges 
than those in public institutions. Last Congress, the House Veterans' 
Affairs Subcommittee on Economic Opportunity held a legislative hearing 
on an identical version of the Veterans Education Equity Act.
    Enacted in January 2011, the Post-9/11 Veterans' Educational 
Improvements Assistance Act caps the amount of education benefits for 
veterans enrolled in private colleges at $18,077.50, and limits the 
education benefit for veterans who attend public colleges to the amount 
charged for in-state tuition and fees. This law unintentionally burdens 
a significant number of American veterans, requiring them to pay 
thousands of dollars out-of-pocket in non-resident tuition and fees. In 
certain states, this can add up to more than $100,000 in costs, which 
has resulted in veterans dropping out of college, transferring to 
another school, or assuming significant student debt. The Veterans 
Education Equity Act is essential to more than 20,000 veterans who are 
paying for school out-of-pocket although they were promised full 
funding for their college education.
    The table below illustrates how S. 262 would improve current law by 
showing its impact on Post-9/11 G.I. Bill education aid available to 
veterans at four institutions in North Carolina:



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    At Elizabeth City State University (ECSU), in-state tuition and 
fees are $2,776 per year and out-of-state tuition and fees are $13,633. 
Under current law, a veteran with North Carolina residency attending 
ECSU would have his full tuition covered. A veteran who is not a 
resident of North Carolina would be charged $13,633 but only receive 
$2,776 in education benefits, so he would owe $10,857 out-of-pocket. 
However, if that veteran chose to attend Chowan University which costs 
$11,405, his education benefits would cover full tuition and fees. The 
Veterans Education Equity Act would equalize benefits for veterans who 
choose to attend public or private institutions.
    Last year there were 516 veterans at University of North Carolina 
institutions and 667 veterans in North Carolina Community Colleges who 
would be immediately impacted should this bill become law. In my 
District, Air Force veteran Edward Bailey, who attended East Carolina 
University (ECU), faced $6,000 in charges before classes began in fall 
2011 after the Post-9/11 Veterans' Educational Improvements Assistance 
Act became law. He was forced to take out a $5,000 loan and borrow 
$1,000 from friends to stay in school. In his final year of school, he 
was forced to pay for $30,000 in tuition and fees. Marine Corps veteran 
Nan Lopata, who also attended ECU, received G.I. benefits to cover full 
tuition and fees for her first semester in spring 2011, only to face 
$6,800 in charges before her second semester in fall 2011. She was 
unable to afford to continue as a full-time student, delaying her 
graduation. But worse, she must shoulder her misfortune without relief 
because the United States did not honor their commitment to her. Two 
other students attending ECU--James and Mary Murtha--received full 
tuition G.I. benefits for their first three academic years before 
receiving bills in fall 2011 totaling $38,000 to complete their senior 
years. Their father, active duty Marine Corps Colonel Brian Murtha, was 
forced to withdraw $36,000 from his retirement funds. We owe it to 
veterans and their families to protect the benefits they were promised 
when they joined our military.
    I am concerned that the alternative legislative approach being 
considered in this hearing, S. 257, would create unintended 
consequences that could negatively impact veterans and our higher 
education system. The bill would require every public institution, as a 
condition of participating in the Post-9/11 G.I. Bill program, to 
charge every veteran no more than the in-state rate. In the vast 
majority of states, public institutions do not have the authority to 
grant in-state tuition rates to out-of-state veterans--those decisions 
are a matter of state law controlled entirely by the state legislature. 
If a state legislature is unable or unwilling to make the changes 
called for in this bill, all veterans would be prohibited from using 
their Post-9/11 G.I. Bill benefits to attend that state's public 
institutions. While I appreciate and share the goals of the bills' 
sponsors, the legislation would allow an inappropriate level of Federal 
intrusion and would result in significant harm to veterans' ability to 
attend public institutions of their choosing. In my home state of North 
Carolina, there are many outstanding public institutions such as North 
Carolina Central University, East Carolina University, and Elizabeth 
City State University; to name a few, that are providing veterans with 
an excellent education and important support programs and services.
    S. 257 is an unfunded mandate which sets a dangerous precedent by 
shifting responsibility for veterans' benefits from the United States 
Department of Veterans Affairs (VA) to the states. The bill is 
significantly more expensive to taxpayers than the Veterans Education 
Equity Act which focuses specifically on correcting the inequity in 
current law for the 20,000 veterans who are impacted. The actual cost 
and impact of S. 257 is uncertain and warrants further investigation. 
In fact, in an April House subcommittee hearing on identical companion 
legislation, VA Deputy Under Secretary for Economic Opportunity Curtis 
L. Coy testified, ``VA cannot offer support for this legislation 
because of its uncertain impact on the availability of educational 
choices for Veterans, Servicemembers, or their dependents.'' I strongly 
agree with Mr. Coy's assessment: S. 257 should not move forward until 
such time as the Committee can assure itself that the bill will not 
result in unintended and negative consequences for veterans.
    We owe our veterans every opportunity to get a quality education 
and enter the workforce with the tools needed to compete. Our broad 
coalition including 45 cosponsors and seven higher education groups 
urge the Committee to consider the positive impacts this legislation 
will have for our Nation's veterans. If we do not correct this problem, 
up to 20,000 veterans could face paying as much as $100,000 in out-of-
pocket tuition costs in a tough economy, and at a time when 9.2 percent 
of veterans are unemployed. Let's treat all of our veterans fairly by 
passing the Veterans' Education Equity Act out of committee and helping 
it become law.

Enclosure from the American Association of State Colleges and 
Universities follows.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
    Prepared Statement of Dr. Muriel A. Howard, President, American 
         Association of State Colleges and Universities (AASCU)
    Thank you Chairman Sanders, Ranking Member Burr, and other 
distinguished Senators for affording me this opportunity to submit 
testimony on the role of AASCU institutions in providing affordable 
access to higher education for our veterans; I commend the Committee 
for exploring this topic. My name is Dr. Muriel Howard and I have the 
honor of serving as the president of the American Association of State 
Colleges and Universities (AASCU). Now in its 51st year, AASCU is a 
national leadership association consisting of over 400 presidents, 
chancellors and system heads of public four-year colleges and 
universities. The group is diverse in its membership, ranging from 
small, liberal arts institutions enrolling a few hundred students to 
research-intensive universities that enroll tens of thousands of 
students.
    AASCU will be providing written testimony on two bills before the 
Committee: S. 257, the proposed ``GI Bill Tuition Fairness Act of 
2013,'' and S. 262, the proposed ``Veterans Education Equity Act of 
2013.'' Both bills would essentially provide in-state tuition rates for 
our veterans, something AASCU as an organization strongly supports. 
However, we have significant concerns about the mechanism used in 
S. 257 that would shift the cost burden for Post-9/11 GI Bill Benefits 
from the Federal Government to the states. Since many institutions of 
higher education do not have independent tuition-setting authority, 40 
state legislatures would need to change state laws in order to comply 
with the bill. Many states have enacted minimum residency requirements 
that students must meet to be eligible for in-state tuition rates. For 
example, in the District of Columbia, to receive the in-state tuition 
rate, a veteran must reside in the District for a full year to become 
eligible. We have concerns regarding the practicality of having 
multiple states change their laws regarding in-state tuition for 
veterans in a short period of time. Thus, we conclude that S. 262 
includes language that is a preferred method for providing in-state 
tuition. The procedure in S. 262 would avoid confusing our veterans and 
not put additional stress on overburdened state budgets still 
recovering from a recession.
               s. 262--the veterans education equity act
    In short, The Veterans Education Equity Act addresses the 
unintentional harm to veterans enrolled as out-of-state students at 
public institutions of higher education resulting from the passage of 
the Veterans Educational Assistance Improvements Act, Public Law 111-
377. After passage of the 9/11 Veterans Educational Assistance Act of 
2008, the Department of Veterans Affairs (VA) began the unenviable task 
of implementing the legislation in a very short period of time. The VA 
established a tuition and fee payment schedule for each state in order 
to do so. In creating this structure, the VA separately determined the 
highest amount in tuition and in required fees charged to a student 
attending a public institution, rather than combining tuition and 
required fees into one amount as is the standard practice in higher 
education billing procedures. This structure resulted in veterans 
attending public institutions having all or nearly all of their tuition 
and fee charges paid via their Post-9/11 GI Bill benefits regardless of 
whether they were considered an in-state or out-of-state student.
    The major focus of Public Law 111-377 was to revamp the tuition and 
fee structure first established by the VA. The legislation established 
two criteria: those veterans attending public institutions would 
receive benefits equal to in-state tuition and fee charges, while 
veterans attending private institutions would receive the lesser of 
$18,000 or their actual charges for tuition and fees. Congress, when 
drafting this legislation, thus created an inequity considerably 
reducing benefits for those veterans attending public institutions 
located outside of their home state. The benefit for in-state tuition 
and fee charges is worth, on average, about $8,655 per year and does 
not pay the full tuition and fee costs at public institutions located 
outside a veteran's home state. Out-of-state tuition and fees at public 
four-year institutions averaged $21,706 in 2012-13 (College Board 
Trends in Pricing, 2012, p. 3). On the contrary, if one of our veterans 
chooses to attend an out-of-state private institution, he or she will 
automatically qualify for up to $18,000 per year. Simply put, a veteran 
who chooses to attend a public institution is entitled to, on average, 
less than half of the benefit of a veteran who chooses to attend a 
private institution. S. 262 would remedy this inequity.
    AASCU supports S. 262 as the preferred method to provide in-state 
tuition for our veterans. We believe that this bill would not shift 
additional cost burdens on institutions and states along with providing 
what amounts to in-state tuition by leveling off the payment disparity 
between public and private colleges. Finally, this bill would avoid 
creating additional confusion for our veterans. Forty states would not 
need to update state laws in order to be eligible to receive benefits 
from the Federal Government.
                s. 257--the gi bill tuition fairness act
    S. 257 would require the Secretary of Veterans Affairs to deny GI 
Bill benefits to veterans who are not charged in-state tuition rates. 
Moreover, this bill would not allow any veteran or their dependents 
enrolled at a public institution to receive GI Bill benefits if that 
institution does not offer in-state tuition to all veterans. As stated 
previously, AASCU strongly supports offering in-state tuition rates to 
veterans. However, we are concerned that this bill could create more 
problems than it actually solves.
    S. 257, as currently written, would require institutions to 
convince state legislatures to alter their tuition laws on a state-by-
state basis. Currently only 10 states provide in-state tuition to 
veterans regardless of their state of legal residence. We do not think 
it is realistic to expect 40 states to substantially amend their state 
tuition laws prior to August 1, 2014.
    It is important to remember that the majority of public colleges 
and universities in the United States do not set their individual 
tuition or control the state policies governing tuition. Postsecondary 
tuition policy in the remaining 40 states is set by state legislatures, 
a statewide coordinating board, or other state entities with authority 
to set tuition for institutions. In addition, many states have 
established clear criteria for who is eligible to receive in-state 
tuition benefits. Currently, only 10 States offer in-state tuition to 
qualified veterans immediately after they move into the state. Thus, 
state legislatures would ultimately be required to change the residency 
treatment of veterans. This is a potentially difficult obstacle in many 
states.
    Given the complexity of tuition-setting policies across 40 states, 
it is quite likely that institutions will not be legally permitted to 
charge in-state rates regardless of their desire to serve veterans. 
Veterans seeking to enroll in public institutions in those states would 
need to find other, more than likely costlier, programs in order to 
utilize their GI Bill benefits. Veterans would be forced to either move 
to a state that offered in-state tuition, go to a more expensive 
private nonprofit institution, attend a for-profit college or abandon 
their plans to attend college.
    This will create a scenario of confusion since many veterans arrive 
on campus with the full expectation of receiving their GI Bill benefit. 
Public institutions would be forced to inform veterans that they would 
not be eligible to use those benefits in states where in-state tuition 
has not been specifically approved for veterans. Further, no new 
additional veterans, whether designated in-state or out-of-state 
residents, would be permitted to use their GI Bill benefits in the 
state. Thus, AASCU envisions further confusion which could potentially 
discourage veterans from pursuing any postsecondary education as well 
as creating a negative atmosphere toward veteran-friendly public 
institutions that are legally bound by the laws of the states in which 
they are located.
    Veterans usually decide to remain in local communities after the 
end of a tour of duty in a specific location where they may not be 
considered state residents for a variety of reasons including their 
minor children being already established in local K-12 schools 
(particularly those minor children with special needs), their spouses' 
employment, their family's integration into the local community, their 
caregiving responsibilities for other family members, and so forth. If 
they are located in a state that is unable or has yet to alter 
residency treatment for veterans, significant disruption to the family 
unit could occur. A veteran would explore options at a campus, not be 
able to use their GI Bill benefits there, and be forced to move to a 
state offering in-state tuition in order to receive their benefits. 
Passage of this measure would create a hodge-podge of eligible and 
ineligible states.
    Further, we ask if the Committee has considered the treatment of a 
veteran who is forced to move to another state as a result of family 
obligations such as caring for an ill or aging parent? If a veteran is 
attending classes at an institution within a state that has automatic 
in-state tuition eligibility for veterans, but moves to one that does 
not in order to satisfy family obligations such as caregiving, the 
veteran, through no fault of his or her own, will no longer be eligible 
to use GI Bill benefits in order to complete coursework.
    It may also be instructive for the Committee to understand the 
nature of in-state versus out-of-state tuition and fee rates. One way 
of looking at an established out-of-state rate is to consider it as the 
full cost to the institution of educating a student. Since public 
institutions receive support from the state in order to provide its 
residents with an education--a priority of the state--the in-state 
tuition and fee rate reflects the cost to the institution after 
factoring in the state subsidy. Thus, an in-state rate is supported by 
state taxpayers. Out-of-state surcharges, therefore, are an attempt for 
the state to recoup the costs of educating those students whose 
education has not been supported by state taxpayers. Passage of this 
bill would shift paying for veterans' education--established under the 
original post-World War II GI Bill and all its successive iterations as 
a Federal Government obligation--to the states, but only for veterans 
attending public institutions.
    This inequitable treatment would punish public institutions--and 
only public institutions for the legal inability to set their own 
tuition and fees. It would not affect private non- and for-profit 
institutions that charged, on average respectively, $29,056 and $15,172 
for tuition and fees in 2012-13 (College Board Trends in Pricing, 2012, 
p. 10). Thus, it would end up costing veterans--and public 
institutions, that educate the majority of Americans--rather than 
helping them. Therefore, AASCU does not support the punitive aspects of 
S. 257.
                                 ______
                                 
Prepared Statement of Max Cleland, Secretary, American Battle Monuments 
                               Commission
              s. 705--war memorial protection act of 2013
    Mr. Chairman and Members of the Committee: Thank you for the 
invitation to submit written testimony on S. 705, the ``War Memorial 
Protection Act of 2013.''
    The American Battle Monuments Commission believes its existing 
statutory framework provides the Commission with sufficient authority 
to execute its mission. Accordingly, we would not expect S. 705 to have 
any impact on Commission authorities or operations.
                                 ______
                                 
       Letter from American Coalition for Filipino Veterans, Inc.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Prepared Statement of Laura W. Murphy, Director; Vania Leveille, Senior 
     Legislative Counsel; and Elayne Weiss, Legislative Assistant, 
     Washington Legislative Office, American Civil Liberties Union
    On behalf of the American Civil Liberties Union (ACLU) and its more 
than a half million members, countless additional supporters and 
activists, and 53 affiliates nationwide, we commend the Senate 
Veterans' Affairs Committee for bringing attention to the problems 
survivors of military sexual trauma face when applying for disability 
benefits from the Department of Veterans Affairs (VA).
    For decades, the ACLU has worked not only to end discriminatory 
treatment within our military,\1\ but also to prevent and respond to 
gender-based violence and harassment in the workplace and to ensure 
women's full equality. The ACLU also works to hold governments, 
employers and other institutional actors accountable so as to ensure 
that women and men can lead lives free from violence.
---------------------------------------------------------------------------
    \1\ Most recently, In November 2012, the ACLU initiated a lawsuit, 
on behalf of the Service Women Action Network and other plaintiffs, 
against the Department of Defense challenging the ground combat 
exclusion. Over the years, we have also successfully challenged 
military recruitment standards and military academy admissions policies 
that discriminated against women; fought for servicewomen to receive 
the same military benefits as their male counterparts; and defended the 
rights of pregnant servicewomen; and advocated for servicewomen's 
access to reproductive health care.
---------------------------------------------------------------------------
    Over the last several years, Congress, the Department of Defense 
and the VA have grappled with the scourge of sexual harassment, sexual 
assault and rape within the military. Although a variety of proposals 
have been implemented and some progress has been made to prevent and 
respond to sexual assault, sexual harassment and rape in the military, 
the problem is deeply-rooted and persists. More than 3,300 reports of 
sexual assault were made in FY 2012,\2\ but we know that the incidence 
of sexual assault is significantly underreported. The Pentagon 
estimated that 26,000 incidents of sexual assault occurred in 2012 
alone,\3\ and that one in three women serving in the military has been 
sexually assaulted.\4\ While such statistics alone are alarming, the 
problem of military sexual assault is compounded by the fact that 
servicemembers who leave the service find that the trauma they 
experienced as a result of sexual assault is not adequately recognized 
by the VA.
---------------------------------------------------------------------------
    \2\ Department of Defense, Annual Report on Sexual Assault in the 
Military: Fiscal Year 2012, Volume I, 3 (2013), available at http://
www.sapr.mil/media/pdf/reports/FY12_DOD_
SAPRO_Annual_Report_on_Sexual_Assault-VOLUME_ONE.pdf.
    \3\ Id. at 25.
    \4\ James Risen, Military Has Not Solved Problem of Sexual Assault, 
Women Say, N.Y. Times, Nov. 2, 2012 at A15, available at http://
www.nytimes.com/2012/11/02/us/women-in-air-force-say-sexual-misconduct-
still-rampant.html?pagewanted=all&_r=0.
---------------------------------------------------------------------------
    The ACLU supports the Ruth Moore Act of 2013 (S. 294), which would 
remove current barriers that far too often prove insurmountable for 
sexual assault survivors who apply for disability compensation for Post 
Traumatic Stress Disorder (PTSD) and other mental health conditions. 
Congress should act quickly to enact this legislation.
  i. congressional action is needed to ease the evidentiary burden of 
  proof survivors of sexual assault must meet when seeking disability 
                               benefits.
    Veterans who were sexually assaulted during their service in our 
Armed Forces, and who now seek disability benefits, for conditions such 
as PTSD and depression, face enormous barriers. Data obtained through a 
FOIA lawsuit, filed in 2010 by the ACLU and the Service Women's Action 
Network (SWAN) against the VA and the Department of Defense, shows that 
only 32 percent of PTSD disability claims based on military sexual 
trauma were approved by the Veterans Benefits Administration (VBA), 
compared to an approval rate of 54 percent of all other PTSD claims 
from 2008-2010. Moreover, of those sexual assault survivors who were 
approved for benefits, women were more likely to receive a lower 
disability rating than men, therefore qualifying for less compensation.
    Despite the disparity in approved claims uncovered by the FOIA 
lawsuit, the VA has indicated that it is unwilling to amend 38 CFR 
Sec. 3.304(f), the current regulation governing the claims process for 
PTSD.\5\ In 2011, the VA issued a ``fast letter'' to all VA Regional 
Offices (VAROs) reiterating the current policy while also emphasizing 
that the regulation should be interpreted liberally to give a veteran's 
claim the benefit of the doubt.\6\ The letter provided further guidance 
for what secondary markers--evidentiary signs, events or 
circumstances--a claims officer should seek out and review in 
determining the validity of a disability claim. While we commend the VA 
for providing such guidance, it fails to address the problem. Although 
the VA specifically ``developed regulations and procedures that provide 
for a liberal approach to evidentiary development and adjudication of 
[ ] claims,'' \7\ the subjective nature of the current policy actually 
works against survivors of sexual assault.
---------------------------------------------------------------------------
    \5\ See Invisible Wounds: Examining the Disability Compensation 
Benefits Process for Victims of Military Sexual Trauma: Hearing Before 
the Subcomm. on Disability Assistance & Mem'l Affairs of the H. Comm. 
on Veterans' Affairs, 112th Cong. (2012) (statement of Anu Bhagwati, 
Executive Director, Service Women's Action Network).
    \6\ See Training Letter 11-05 from Thomas J. Murphy, Director, 
Compensation & Pension Services, to all VA Regional Offices (Dec. 2, 
2011).
    \7\ Id.
---------------------------------------------------------------------------
    The VA's regulations explicitly treat veterans who suffer from PTSD 
based on sexual trauma differently from all other PTSD claims, 
including those related to combat and hostile military activity. Even 
when a veteran can establish a diagnosis of PTSD and his or her mental 
health provider connects PTSD to sexual assault during service, the VA 
``is not required to accept doctors' opinions that the alleged PTSD had 
its origins'' \8\ in the claimant's military service. The VA reasoned 
that while such a diagnosis may constitute credible evidence, it is not 
always probative.\9\ As a result, the VA requires additional evidence, 
such as records from law enforcement authorities, hospitals, or mental 
health facilities, that generally does not exist. As the Department of 
Defense itself acknowledges, the vast majority of servicemembers who 
are assaulted do not report that assault because of the retaliation 
they are likely to face.
---------------------------------------------------------------------------
    \8\ Godfrey v. Brown, 8 Vet. App. 113, 121 (1995).
    \9\ Post-Traumatic Stress Disorder Claims Based on Personal 
Attacks, 67 Fed. Reg. 10330 (Mar. 7, 2002) (codified in 38 CFR pt. 3).
---------------------------------------------------------------------------
    Another problem faced by veterans is that until recently, the 
Department of Defense retained restricted reports of sexual assault for 
only 5 years; after that time the records were destroyed.\10\ On 
average, a veteran who was assaulted waits 15 years after leaving the 
service to file a disability claim with the VA.\11\ Because of this 
delay and the Pentagon's former record retention policy, veterans who 
were sexually assaulted are effectively cutoff from accessing critical 
evidence substantiating their disability claim to the VA. Likewise, as 
more time passes before a veteran seeks disability benefits, the harder 
it becomes for that individual to later prove a claim of sexual assault 
through secondary markers, such as statements from fellow 
servicemembers or deterioration in work performance. People move away, 
while documents are lost or discarded.
---------------------------------------------------------------------------
    \10\ The National Defense Authorization Act for FY 2013 changed 
this policy so that now DOD must retain these documents for 50 years, 
but only at the request of the servicemember. Pub. L. No. 112-239, 
Sec. 577, 126 Stat. 1632, 1762.
    \11\ Dep't of Veterans Affairs, Veterans Health Initiative: 
Military Sexual Trauma 58 (2004), available at http://
www.publichealth.va.gov/docs/vhi/military_sexual_trauma.pdf.
---------------------------------------------------------------------------
    Even when a veteran is able to present evidence to a claims 
examiner, whether the claim is approved is ultimately determined by a 
subjective standard that differs from examiner to examiner leading to 
inconsistent outcomes.\12\ Moreover, VAROs have seen high workforce 
turnover and the time period over which new employees receive training 
on adjudicating claims has been significantly reduced from one year to 
just eight weeks.\13\ As the VA grapples with the overwhelming number 
of outstanding benefits claims, which now total almost 900,000,\14\ 
unprepared and overburdened employees may not have the time or the 
skill set needed to properly investigate and adjudicate complex sexual 
assault disability claims.
---------------------------------------------------------------------------
    \12\ A study commissioned by the VA reported that ``rating 
decisions often call for subjective judgments.'' Inst. For Def. 
Analyses, Analysis of Differences in Disability Compensation in the 
Department of Veterans Affairs, Volume 1: Final Report, S-3 (2006), 
available at http://www.va.gov/VETDATA/docs/SurveysAndStudies/
State_Variance_Study-Volumes_1_2.pdf. See also Title Redacted by 
Agency, Bd. Vet. App. 0318972 (2003) (veteran's claim was denied 
despite presenting substantial evidence corroborating his sexual 
assault, including documentation of erratic behavior, sworn statements 
attesting to military performance issues, and records of mental 
counseling and treatment for sexual transmitted diseases.).
    \13\ Focusing on People: A Review of VA's Plans for Employee 
Training, Accountability, and Workload Management to Improve Disability 
Claims Processing: Hearing Before H. Comm. on Veterans' Affairs, 113th 
Cong. (2013) (submission for the record of The American Federation of 
Government Employees).
    \14\ Rick Maze, VFW defends VA official, despite continued backlog, 
FED. TIMES (Mar. 20, 2013, 4:19 PM), http://www.Federaltimes.com/
article/20130320/DEPARTMENTS04/303200003/VFW-defends-VA-official-
despite-continued-backlog.
---------------------------------------------------------------------------
    While the VA stands by its current policy, it is clear that the 
Department is not achieving its mission to ``treat all veterans and 
their families with the utmost dignity and compassion.'' \15\ Instead 
the VA has created an unfair standard that sets sexual assault 
survivors up to fail in claiming the disability benefits they deserve.
---------------------------------------------------------------------------
    \15\ U.S. Dep't of Veterans Affairs, About VA: Mission, Core Values 
& Goals, available at http://www.va.gov/about_va/mission.asp (last 
visited Apr. 15, 2013).
---------------------------------------------------------------------------
    The Ruth Moore Act would rectify the current policy and bring 
fairness to the claims process. Under S. 294, the VA would be required 
to treat PTSD claims related to sexual assault the same way it treats 
all other PTSD claims: by accepting the veteran's lay testimony as 
sufficient proof that the trauma occurred ``in the absence of clear and 
convincing evidence to the contrary.'' \16\ This standard will help 
reduce the number of inconsistent and arbitrary adjudication decisions 
that result from applying a subjective standard and will decrease the 
risk of veterans experiencing further trauma as they navigate the 
claims process.
---------------------------------------------------------------------------
    \16\ Ruth Moore Act of 2013, S. 294, 113th Cong. Sec. 2(a) (2013).
---------------------------------------------------------------------------
      ii. s. 294's reporting requirement helps ensure government 
                            accountability.
    The ACLU works to hold our government accountable for responding to 
and taking proactive measures to end the cycle of violence in our 
country. For this reason, in 2010 we filed a Federal lawsuit against 
the Department of Defense and the VA for their failure to respond to 
our FOIA requests seeking records documenting incidents of sexual 
assault, sexual harassment, and domestic violence in the military and 
how the government addresses this violence. The goal of the lawsuit was 
to ``obtain the release of records on a matter of public concern, 
namely, the prevalence of [military sexual trauma] (MST) within the 
armed services, the policies of DOD and the VA regarding MST and other 
related disabilities, and the nature of each agency's response to 
MST.'' \17\
---------------------------------------------------------------------------
    \17\ Complaint at 2, Serv. Women's Action Network v. U.S. Dep't of 
Def., No. 3:2010cv01953 (D. Conn. Feb. 23, 2011).
---------------------------------------------------------------------------
    Given our past work in advancing government accountability, we 
strongly support the provision in the bill that requires the VA to 
submit an annual report to Congress that includes statistics, such as 
the number sexual assault-related claims that were approved or denied, 
and the average time it took the VA to adjudicate a claim.

    Should you have any questions, please don't hesitate to contact our 
Senior Legislative Counsel.
                                 ______
                                 
      Letter from American Civil Liberties Union and Other Groups


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
          Prepared Statement of the American Chemical Society


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
Prepared Statement of American Federation of Government Employees, AFL-
                  CIO and the AFGE National VA Council
                                overview
    The American Federation of Government Employees and the AFGE 
National VA Council (hereinafter ``AFGE''), the exclusive 
representative of employees processing disability claims at the 
Department of Veterans Affairs (Department) Veterans Benefits 
Administration (VBA) Regional Offices (ROs) support the Department's 
Transformation efforts and appreciate the opportunity to share our 
views on Section 101 of S. 928, the Claims Processing Improvement Act 
of 2013, which would establish a working group to improve VBA's 
employee work credit and work management systems. AFGE commends 
Chairman Sanders' leadership in introducing legislation to create a new 
work credit system through collaboration between the Department, 
employee representatives, and veterans service organizations. Creating 
a more effective, scientifically designed, databased system for 
measuring the personnel hours and other resources required to 
accurately decide veterans' claims the first time will help reduce 
VBA's backlog of benefits claims and better serve our Nation's 
veterans. AFGE urges this Committee to provide ongoing oversight of the 
work group's efforts to design and implement this new work credit 
system.
                    composition of the working group
    AFGE commends Chairman Sanders for proposing to increase 
collaboration among interested parties to fix the current, broken work 
credit system. AFGE also supports the provision in the bill for 
Congressional oversight of progress of the working group.
    AFGE also supports the requirement in the bill to include frontline 
employees recommended by a labor organization in the working group. 
Frontline employees provide a unique perspective on workplace issues 
and the current work credit system, and will play a valuable role in 
identifying much needed improvements for a new work credit system. 
Their input will be especially critical during the current period of 
Transformation when many new processes are being implemented. It is 
critical that labor representatives are able to select these employees 
as well in order to ensure true collaboration with VA management and 
stakeholders.
    AFGE supports requirements in S. 928 for regular oversight and 
reporting to Congress. The reports outlined in Section 101(e) are 
thorough and allow for several opportunities for Congressional 
oversight and adjustment. For example, the bill allows for 
implementation of changes following the first report after 180 days, 
which will allow positive changes to the work credit system to take 
place prior to the final report from the working group.
    The mandate in Section 101(c) (3) to create a new resource 
allocation model will also make long overdue changes in the claims 
process. Currently, VBA deprives low performing offices of resources, 
rather than shifting resources to strengthen the capacity of these 
offices. VBA must change its resource allocation model to support 
struggling Regional Offices, and AFGE supports Chairman Sanders' focus 
on this issue.
    AFGE urges the Committee to include in Section 101(b)(2) specific 
language regarding the number of work group representatives from the 
Department, labor and veterans' community to ensure effective 
collaboration in the work group.
    AFGE also requests that work group's duties be expanded to include 
consultation with an independent subject matter expert to design and 
conduct a scientific, databased, time motion study. This study will 
serve as the foundation of the new databased methodology. Under VBA's 
current work credit system, Veteran Service Representatives (VSRs), 
Rating VSRs (RVSRs), and Decision Review Officers (DROs) complete 
numerous time consuming steps in the adjudication process for which 
they receive no credit, as discussed more fully below. These tasks are 
both critical to VBA's ability to process claims and the agency's 
customer service for veterans. Despite assertions made by VBA in the 
past, the agency has never completed a data driven time motion study to 
analyze the time needed for each of these tasks. Similarly, AFGE 
recommends incorporating an independent third party expert in the 
assessment phase of the workgroup in Section 101(c)(1). Finally, in 
order to ensure that the new work credit system is properly designed, 
this independent entity must be able to provide ongoing oversight and 
input, and have regular access to all work group participants.
                  current work credit system problems
    As noted, VBA has never had a formal work credit system in place 
that is based on actual data reflecting the amount of time required to 
process specific types and components of claims. The current work 
credit system does not include an inventory of employees' daily tasks. 
The agency has made a few perfunctory efforts to establish a more 
reliable set of measures over the years. However, AFGE has not seen any 
work credit study or work credit system based on actual data.
    Some of the main problems with the current work credit system 
include:

    <bullet> Lack of consistency
    <bullet> Lack of a solid methodology
    <bullet> Failure to update its ``system''
    <bullet> Lack of participation from the front line employees and 
veterans service officers with direct knowledge of the work process
    <bullet> Lack of work credit for a variety of tasks

    The only study AFGE is aware of is the 2008 IBM Gap Analysis study. 
IBM's main work credit recommendation was to provide work credit for 
developing and rating issues, rather than claims as a whole. When IBM 
tested these performance measures on 150 RVSRs, they found the 
employees produced at a higher quality and used far less excluded time 
while rating cases. However, the study did not break down the time for 
every piece of rating and development. The study is also outdated now 
with VBMS' implementation.
    Depriving employees of the proper credit for critical work needed 
to get claims processed accurately and timely the first time hurts 
veterans by increasing errors and delays.
           vba employee survey on current work credit system
    AFGE conducted an informal survey of Regional Offices to identify 
how well the current work credit system measures (or does not measure) 
the hours and skills required to complete different tasks. Responses 
from employees working in approximately a dozen different offices 
indicated widespread inconsistencies in how much work credit is awarded 
for the same tasks. Perhaps more troubling, employees in every Regional 
Office and position are required to perform daily tasks for which they 
are provided zero credit or only partial credit. By denying credit for 
significant tasks, the current work credit system increases workplace 
stress, puts pressure on employees to rush through claims, and results 
in unwarranted negative performance ratings.
    More specifically, employees reported that they receive inadequate 
or zero work credit for the following tasks:

    <bullet> Deferred ratings: Deferred ratings occur on a daily basis 
in Regional Offices. It is important to spend time on these issues 
since the veteran should be assisted and informed accurately about 
additional medical evidence they will need for their claim. However, 
RVSRs do not receive any credit for cases where there is a deferred 
rating (for example, cases deferred back to the VSR because additional 
medical evidence is required). It is typical for a RVSR to have at 
least one deferred rating every day that requires two hours of work to 
write up medical opinions, tag pages where additional evidence is 
needed, and write an opinion for each issue being deferred--without any 
credit. For example, an RVSR is working on a case where the veteran has 
claimed ten issues, but only two can be rated. The RVSR must spend 
significant time on the other eight issues. In this situation, the RVSR 
will receive credit for only two issues, rather than ten.
    <bullet> Multi-issue and complex cases: VSRs are not given adequate 
credit for rating a case with significantly more issues or complexity. 
Employees receive additional credit for completing cases with at least 
three issues. However, veterans are regularly filing claims cases with 
dozens of issues. VSRs do not receive any additional credit for 
developing a case with thirty issues versus a case with three issues. 
Employees also are denied sufficient credit for processing cases 
involving complex claims such as military sexual trauma and TBI.
    <bullet> VSR work by RVSRs: RVSRs regularly work on developing 
cases (VSR work). Sometimes, RVSRs will receive a case to rate that 
needs additional development. Other times, Regional Offices do not have 
the proper ratio of VSRs to RVSRs; consequently, there are not enough 
cases to rate. In both of these instances, RVSRs work on developing 
cases, yet they receive no credit for this work.
    <bullet> Mentoring: VBA's more senior claims processors receive no 
credit for assisting or mentoring newer employees.
    <bullet> Productive time lost due to breakdowns in VBMS: VBMS is in 
the process of being rolled out nationally. However, the system still 
has frequent and significant malfunctions, at both the RO and national 
levels. During VBMS shutdowns or malfunctions, employees receive no 
adjustment to their work credit requirements for lost production time. 
This has become a major issue with VBA's recent enactment of mandatory 
overtime for employees. For example, employees reported that VBMS 
shutdown on May 30, 2013 during mandatory overtime hours. Mandatory 
overtime cannot possibly be productive if employees are consistently 
dealing with a system that breaks down on a regular basis.
    <bullet> Supplemental development: VSRs can take credit for 
supplemental development, while RVSRs and DROs cannot. However, VSRs 
must complete an Advanced Development Course in order to request 
medical opinions. At one Regional Office, VSRs regularly request 
medical evidence, despite the course not being offered for several 
years. This is inconsistent across VBA.
    <bullet> Training: Employees are not given sufficient work credit 
for time spent during trainings. Often times, training is shifted away 
from classroom instruction to reading slides or a packet at their desk 
with less time allotted by managers than required by the curriculum. 
Employees are consistently not given enough work credit for the time it 
takes to go through this type of training.

    The absence of a valid work credit system exacerbates the well 
documented problem of VBA managers manipulating backlog data to improve 
performance measures. The newest Fast letter from Undersecretary Hickey 
on long pending cases has an admirable goal of processing cases that 
have been pending for a long period of time. Veterans who fought for 
this Nation deserve to have their claims processed in a timely manner, 
and waiting over two years for a decision from VBA is unacceptable. 
However, in practice, this newest quick fix from VBA shifts difficult, 
time consuming cases to high performing office where employees are 
denied any additional credit for processing these more challenging 
cases. If Regional Offices are going to dedicate their efforts to this 
essential yet difficult task, employees must receive the proper work 
credit.
Section 102
    Section 102 of S. 928 establishes a task force on retention and 
training of VBA employees working as claims processors and 
adjudicators. AFGE recommends adding a provision to S. 928 Section 
102(b) to require the inclusion of employees on this task force, based 
on the recommendations of their labor representatives.
    Proper retention techniques and training of a strong workforce will 
play an essential role in helping to lower the backlog of veterans' 
claims. Input from frontline employees is essential in determining 
inadequacies with training, inconsistencies across Regional Offices, 
issues related to career growth, and general morale.
    AFGE believes it is essential to have frontline employees provide 
input into decisions related to retention and training in order to 
provide a wide and accurate scope of the workplace in VBA. A consistent 
theme throughout the ROs is that VBA management takes a ``one size fits 
all'' approach when creating their training materials. The training is 
not broken up between specific offices, and longtime employees receive 
the same training as newer employees. There is also no consideration of 
areas of performance when determining which type of training to give 
which employees. In the past, when employees have not been able to 
provide input, the training program suffers.

    Thank you for the opportunity to provide input from AFGE and its 
National VA Council on this important legislation.
                                 ______
                                 
           Prepared Statement of Stephen Peters, President, 
               The American Military Partner Association
    Chairman Sanders, Ranking Member Burr, and Members of the 
Committee: Thank you holding this hearing today, and for your 
dedication to our servicemembers, veterans, and their families. We are 
forever grateful to you for continuing to ensure our military families 
receive the support they deserve for their service to our great Nation.
    You are considering a wide range of benefits bills here today that 
would impact the lives of our Nation's veterans and their families. 
However, there is one bill in particular that I would like to focus our 
testimony on because of the disproportionate impact it would have on 
our community and on the lives of so many military families--the 
Charlie Morgan Military Spouses Equal Treatment Act.
    As the Nation's largest non-profit, non-partisan resource and 
support network for lesbian, gay, bisexual, and transgender (LGBT) 
military families, the American Military Partner Association (AMPA) is 
committed to connecting, supporting, honoring, and serving the partners 
and spouses of America's LGBT servicemembers and veterans. Our 
membership spans all branches of the military, every state in the 
Nation, and a wide range of experiences that all military families 
endure--including multiple members whose spouses have paid the ultimate 
sacrifice while serving.
    Currently, the Department of Veterans Affairs (VA) and the 
Department of Defense (DOD) are limited in what benefits may be made 
available to the same-sex spouses of servicemembers and veterans. The 
Charlie Morgan Military Spouses Equal Treatment Act of 2013 would 
require the VA and the DOD to: (1) recognize any legal marriage by a 
state that permits same-sex marriage; and (2) grant access to military 
and veteran's related benefits to the spouses of all servicemembers.
    There are more than 100 benefits granted to servicemembers, 
veterans, and military families based upon marital status, yet many of 
these are denied to same-sex military spouses and their families. While 
the previous Secretary of Defense, Leon Panetta, ordered the extension 
of a select number of benefits to same-sex domestic partners (the full 
extension of which has yet to be implemented), there are still critical 
areas of support and benefits that the same-sex spouses of 
servicemembers and veterans are and will continue to be be denied 
without passage of this bill.
    Of direct relation to this Committee are the benefits provided 
through the VA to surviving spouses. Currently, surviving legal spouses 
who happen to be of the same gender are denied access to benefits like 
dependency and indemnity compensation, survivor's pension, dependent's 
educational assistance, and home loans. Nothing could be more 
dishonorable than to deny the legal spouse of a fallen servicemember 
critically needed support and benefits simply because of their gender. 
Regardless of their gender, these spouses hurt too when their loved one 
dies or is injured--both emotionally and financially. As a nation that 
is committed to honoring all who serve and supporting those they leave 
behind, this flaw in our current veterans benefits framework must be 
corrected.
    One of AMPA's members in North Carolina, Tracy Dice Johnson, is the 
first known same-sex military spouse to lose her wife to war. Tracy's 
wife, North Carolina National Guardsman Staff Sergeant Donna Johnson, 
was killed in action in Afghanistan on October 1, 2012, by a suicide 
bomber while on patrol. When Staff Sergeant Johnson was killed, Tracy 
did not receive the proper notification from the Army because she is 
not recognized as the primary next-of-kin. Tracy sadly had to find out 
about her wife's death through someone else. At Donna's funeral, Tracy 
had to watch the flag of her fallen wife be given to someone else, 
something no military spouse should ever have to endure. Even though 
they were legally married, Tracy is not recognized as the military 
spouse that she undoubtedly is. To add insult to injury, she is still 
denied all of the surviving spouse benefits provided to heterosexual 
military and veteran spouses by our government.
    The Charlie Morgan Military Spouses Equal Treatment Act would 
correct this injustice by extending vital benefits to same-sex military 
and veteran spouses. The bill itself is named after the late Charlie 
Morgan, who served as a Chief Warrant Officer in the New Hampshire 
National Guard. Charlie recently died of cancer, leaving behind her 
wife and daughter. Charlie's widow, Karen, is also denied all of the 
survivor benefits normally afforded to heterosexual widows of 
servicemembers and veterans.
    There are numerous other military and veterans benefits and support 
services that same-sex spouses and their families are excluded from, 
such as access to military and veterans health programs, financial 
support for expensive moves to new duty stations, access to military 
family housing, family housing allowances at the ``with dependent'' 
rate, and even command sponsorship for overseas duty stations. All are 
denied simply because the legally wed spouse is of the same gender as 
the servicemember or veteran. While these selfless Americans 
voluntarily commit their lives in defense of our Nation, our Nation has 
turned it's back on their families.
    These military families serve and sacrifice just as much for our 
freedom as their heterosexual counterparts, yet they do it all without 
the same level of support and benefits. They continue to sacrifice and 
serve because they believe in the goodness and righteousness of the 
United States of America and in the mission of our Armed Forces. The 
least our Nation can do in return is provide them and their families 
with access to the same benefits and support as everyone else who 
serves.
    The Charlie Morgan Military Spouses Equal Treatment Act would 
finally honor all who serve and have served by providing equal access 
to support and benefits to these honorable warriors and their families. 
Most importantly for this Committee, it would ensure that the spouses 
of the fallen are properly cared for and receive the dignity, respect, 
and support they rightly deserve.
    I truly appreciate your consideration of the impact this bill would 
have on the lives of our military families. We owe these families more 
than our gratitude; we owe them the proper support that they too 
deserve. Thank you.
                                 ______
                                 
 Prepared Statement of Maggie Garrett, Legislative Director, Americans 
               United For Separation of Church and State



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
         Letter from the Association of the United States Navy


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 
          Prepared Statement of the U.S. Department of Defense
    Chairman Sanders, Ranking Member Burr and Members of the Committee, 
the Department of Defense (DOD) appreciates the opportunity to comment 
on pending legislation before this Committee. We are committed to 
providing our Servicemembers and veterans with the support and benefits 
they are deserved, and ensuring the partnership between DOD and the 
Department of Veterans Affairs (VA) works toward those ends. Included 
in this written statement are our views on legislation that DOD has a 
direct equity. Thank you again for this opportunity and the continued 
support of this Committee and Congress.
s. 373, the charlie morgan military spouses equal treatment act of 2013
    S. 373 would change the current definition of spouse to include a 
person of the same sex lawfully married under the law of the state 
where the marriage occurred. This proposal would enact an exception to 
the DOMA for the sole purpose of defining the word ``spouse'' in titles 
10, 32, 37, and 38, United States Code. The Department of Defense 
supports the extension of benefits to same-sex domestic partners of 
military members to the fullest extent allowable under the law.
    s. 495, careers for veterans act of 2013, section 3; and s. 492
    While the Department appreciates the intent of this legislation 
(Section 3 of S. 495 and S. 492 are identical) to assist our Veterans 
by eliminating barriers to credentialing and licensing at the state 
level, there are, however, two areas we would like to highlight.
    The proposed legislation could potentially withhold funding from 
two Department of Labor programs specifically designed to assist 
Veterans with employment--the Disabled Veteran's Outreach Program and 
the Local Veterans Employment Representatives.
    Also by limiting participation to Veterans who have, ``* * * not 
less than 10 years of experience in a military occupational specialty * 
* *'' the proposed legislation misses the Veteran demographic with the 
highest rates of unemployment. According to the Bureau of Labor 
Statistics, the 2012 annual average unemployment rate for Veterans aged 
18 to 24 was 20.4%. The requirement for 10 years of experience 
effectively prevents mid to lower grade Servicemembers from taking 
advantage of this section of the proposed legislation. Younger 
Servicemembers who decide to depart the military after their first or 
second enlistment will not be eligible to take advantage of this 
proposal.
       s. 629, honor america's guard-reserve retirees act of 2013
    This bill would add to chapter 1, title 38, United States Code, a 
provision to honor as Veterans, based on retirement status, certain 
persons who performed service in reserve components of the Armed Forces 
but who do not have service qualifying for Veteran status under 38 
U.S.C. Sec. 101(2). The bill provides that such persons would be 
``honored'' as Veterans, but would not be entitled to any benefit by 
reason of the amendment.
    Under 38 U.S.C. Sec. 101(2), Veteran status is conditioned on the 
performance of ``active military, naval, or air service.'' Under 
current law, a National Guard or Reserve member is considered to have 
had such service only if he or she served on active duty, was disabled 
or died from a disease or injury incurred or aggravated in line of duty 
during active duty for training, or was disabled or died from any 
injury incurred or aggravated in line of duty or from an acute 
myocardial infarction, a cardiac arrest, or a cerebrovascular accident 
during inactive duty training.
    S. 629 would eliminate these service requirements for National 
Guard or Reserve members who served in such a capacity for at least 20 
years. Retirement status alone would make them eligible for Veteran 
status.
    DOD recognizes that the National Guard and Reserves have admirably 
served this country and in recent years have played an even greater 
role in our Nation's overseas conflicts. Nevertheless, the Department 
does not support this bill because it represents a departure from 
active service as the foundation for Veteran status. This bill would 
extend Veteran status to those who never performed active military, 
naval, or air service, the very circumstance which qualifies an 
individual as a Veteran. Thus, this bill would equate longevity of 
reserve service with the active service long ago established as the 
hallmark for Veteran status. The Department does not concur with 
expanding the definition and calling this population ``veterans,'' even 
if that does not entail qualification for associated benefits.
    Additionally, this provision as written is likely to cause 
significant confusion amongst the population of those who have served, 
and under S. 629 would be called ``veterans,'' yet not be qualified for 
any additional benefits.
            s. 674, accountability for veterans act of 2013
    This bill states that whenever the Secretary of Veterans Affairs 
submits a request for information, that the head of a covered agency 
has no more than 30 days to provide all information that the Secretary 
determines is necessary to adjudicate a claim for a benefit under a law 
administered by the Secretary.
    DOD and VA have both agreed to a 45 day timeframe to allow any and 
all last minute medical care documentation, particularly coming back 
from TRICARE network providers, time to ``catch up'' to the Service 
Treatment Record and be interfiled prior to sending the Service 
Treatment Record to VA. This agreement enabled DOD to dramatically 
decrease the volume of late and loose flowing medical documentation to 
the VA Records Management Center and provides greater likelihood that 
the Service Treatment Record is complete upon transfer to VBA. Thus, 
the proposed legislation of implementing a 30 day requirement is not 
feasible and would undermine the current DOD/VA efforts in this arena.
            s. 690, filipino veterans fairness act of 2013; 
                 s. 868, filipino veterans promise act
    The Department opposes S. 690 and S. 868 regarding the 
identification of individuals claiming service in the Philippines 
during World War II, because the current and effective process is 
consistent with the process used for other conflicts, ensures the 
service of claimants is properly authenticated, and results in 
claimants receiving all benefits to which they are entitled.
    The requirements for validating the qualifying service of Filipino 
Guerillas who belonged to the U.S. Army Forces in the Far East (USAFFE) 
and non-USAFFE Guerillas were established in the wake of the U.S. 
Government's robust ``Guerilla Recognition Program'' that operated in 
the Philippines from 1945-1948. The Army's service validation tools, 
which include operational records, rosters, and other documents that 
identify USAFFE and non-USAFFE Guerillas, were created as part of an 
extremely thorough public outreach effort, spanning across the 
Philippines, to identify and record any service of Philippine nationals 
in support of the Allied war effort. This information was developed and 
collected in direct coordination with the Philippine Authorities to 
serve as a mechanism by which the Army could assess future claims.
    Over the years, the U.S. Army spent a significant amount of time 
reviewing its qualifying service verification policies and procedures 
for potential USAFFE and non-USAFFE Filipino Guerillas. Changing the 
validation process for potential Filipino Veterans of World War II 
could result in inequity between special population groups associated 
with other past conflicts and could generate an unprecedented number of 
new claims that could not be verified given the passage of time. The 
current process has been well-tested and has proven to be effective and 
efficient in ensuring that the service of claimants is properly 
authenticated with a view to ensuring that claimants receive all 
benefits to which they may be entitled.
        s. 889, servicemembers' choice of transition act of 2013
    While we support the premise of this legislation, namely to ensure 
Servicemembers are informed of their GI Bill benefits and how to access 
those benefits to support the attainment of their educational goals, we 
believe adding more time to the existing Transition curriculum as 
stated in Section 10 is not the best approach. The VA currently 
provides GI Bill benefits information within the mandatory (VOW Act) 
Transition VA Benefits briefings and we believe the best approach is to 
leverage and build on the existing curriculum to ensure Servicemembers 
are well informed of how to access their GI Bill Benefits to support 
the attainment of their educational goals. Additionally, the testing 
provision contained in section 2(a)(3) duplicates the admissions 
testing process already in place at academic institutions requiring 
admissions testing. Moreover, requiring Servicemembers to take a test, 
as required by this legislation, when they are applying to institutions 
of higher learning that do not require such a test for admission, 
places an undue burden and potential additional costs on 
Servicemembers, which their non-Servicemember counterparts are not 
required to bear.
                                 ______
                                 
     Letter from Judith T. Won Pat, Ed.D., Office of the Speaker, 
                         32nd Guam Legislature


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
           Letter from Rev. Dr. C. Welton Gaddy, President, 
                          Interfaith Alliance


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
     Prepared Statement of Iraq and Afghanistan Veterans of America
------------------------------------------------------------------------
Bill #            Bill Name                Sponsor          Position
------------------------------------------------------------------------
   S.6 Putting Our Veterans Back    Reid              Support
        to Work Act of 2013
------------------------------------------------------------------------
 S.200 Bill to authorize the        Murkowski         No Position
        interment in national
        cemeteries individuals who
        served in combat support
        of the Armed Forces of
        Laos
------------------------------------------------------------------------
 S.257 GI Bill Tuition Fairness     Boozman           Support
        Act of 2013
------------------------------------------------------------------------
 S.262 Veterans Education Equity    Durbin            No Position
        Act of 2013
------------------------------------------------------------------------
 S.294 Ruth Moore Act of 2013       Tester            Support
------------------------------------------------------------------------
 S.373 Charlie Morgan Military      Shaheen           Support
        Spouses Equal Treatment
        Act of 2013
------------------------------------------------------------------------
 S.430 Veterans Small Business      Heller            Support
        Opportunity and Protection
        Act of 2013
------------------------------------------------------------------------
 S.492 Bill to require States to    Burr              Support
        recognize the military
        experience of veterans
        when issuing licenses and
        credentials to veterans
------------------------------------------------------------------------
 S.495 Careers for Veterans Act of  Burr              Support
        2013
------------------------------------------------------------------------
 S.514 Bill to provide additional   Brown             No Position
        educational assistance to
        veterans pursuing STEM and
        other high-demand
        occupation degrees
------------------------------------------------------------------------
 S.515 Bill to extend the Yellow    Brown             Support
        Ribbon G.I. Education
        Enhancement Program
------------------------------------------------------------------------
 S.572 Veterans Second Amendment    Burr              Support
        Protection Act
------------------------------------------------------------------------
 S.629 Honor America's Guard-       Pryor             Support
        Reserve Retirees Act of
        2013
------------------------------------------------------------------------
 S.674 Accountability for Veterans  Heller            Support
        Act of 2013
------------------------------------------------------------------------
 S.690 Filipino Veterans Fairness   Schatz            No Position
        Act of 2013
------------------------------------------------------------------------
 S.695 Veterans Paralympic Act of   Boozman           Support
        2013
------------------------------------------------------------------------
 S.705 War Memorial Protection Act  Burr              No Position
        of 2013
------------------------------------------------------------------------
 S.735 Survivor Benefits            Sanders           Support
        Improvement Act of 2013
------------------------------------------------------------------------
 S.748 Veterans Pension Protection  Wyden             Support
        Act
------------------------------------------------------------------------
 S.778 Veterans ID Card Act         Burr              Support
------------------------------------------------------------------------
 S.819 Veterans Mental Health       Burr              Support
        Treatment First Act of
        2013
------------------------------------------------------------------------
 S.863 Veterans Back to School Act  Blumenthal        Support
        of 2013
------------------------------------------------------------------------
 S.868 Filipino Veterans Promise    Heller            No Position
        Act
------------------------------------------------------------------------
 S.889 Servicemembers' Choice in    Boozman           Support
        Transition Act of 2013
------------------------------------------------------------------------
 S.893 Veterans' Compensation Cost- Sanders           Support
        of-Living Adjustment Act
        of 2013
------------------------------------------------------------------------
 S.894 Bill to extend the VA's      Sanders           Support
        work-study allowance
        program and expand the
        program to include
        outreach within
        Congressional offices
------------------------------------------------------------------------
 S.922 Veterans Equipped for        Sanders           Support
        Success Act of 2013
------------------------------------------------------------------------
 S.927 Bill to require the VA to    Sanders           Support
        carry out a demonstration
        project to increase
        awareness of benefits and
        services
------------------------------------------------------------------------
 S.928 Claims Processing            Sanders           Review
        Improvement Act of 2013
------------------------------------------------------------------------
 S.932 Putting Veterans Funding     Begich            Support
        First Act of 2013
------------------------------------------------------------------------
 S.935 Quicker Veterans Benefits    Franken           Support
        Delivery Act
------------------------------------------------------------------------
 S.938 Franchise Education for      Moran             Support
        Veterans Act of 2013
------------------------------------------------------------------------
 S.939 Bill to treat certain        Blumenthal        Support
        misfiled documents as
        motions for
        reconsideration of
        decisions by the Board of
        Veterans' Appeals
------------------------------------------------------------------------
 S.944 Bill to require courses of   Sanders           No Position
        education provided by
        public institutions of
        higher education to charge
        veterans tuition at the in-
        state rate
------------------------------------------------------------------------


    Chairman Sanders, Ranking Member Burr, and Distinguished Members of 
the Committee: On behalf of Iraq and Afghanistan Veterans of America 
(IAVA), I would like to extend our gratitude for being given the 
opportunity to share with you our views and recommendations regarding 
these important pieces of legislation.
    IAVA is the Nation's first and largest nonprofit, nonpartisan 
organization for veterans of the wars in Iraq and Afghanistan and their 
supporters. Founded in 2004, our mission is critically important but 
simple--to improve the lives of Iraq and Afghanistan veterans and their 
families. With a steadily growing base of over 200,000 members and 
supporters, we strive to help create a society that honors and supports 
veterans of all generations.
    IAVA strongly believes that all veterans must have access to 
quality health care, education, and employment resources. The men and 
women who volunteer to serve in our Nation's military do so with the 
understanding that they and their families will be cared for as 
promised both during their period of service and after their period of 
service as well. IAVA stands with you in faithfully supporting 
legislation that helps to accomplish these goals.
                                  s. 6
    IAVA supports S. 6, the Putting Our Veterans Back to Work Act of 
2013, which would extend critical aspects of the VOW to Hire Heroes Act 
and the Wounded Warrior Act. This bill will make a difference for 
veterans who are currently unemployed and servicemembers who will be 
entering the civilian workforce in the future. By passing the VOW to 
Hire Heroes Act, Congress sent veterans a clear message--we've got your 
back. This legislation contains critical provisions that we believe 
will help veterans find jobs, and it could not have come at a better 
time. Veteran unemployment still remains high, but Congress has 
recognized that the greatest investment they could make is supporting 
the New Greatest Generation. This bill forwards that goal.
                                 s. 200
    IAVA has no position on S. 200, which would make an individual 
eligible for interment in a national cemetery if they served in combat 
in support of the Armed Forces of Laos between February 28, 1961, and 
May 15, 1975, and at the time of death the individual was a U.S. 
citizen or lawfully admitted alien.
                                 s. 257
    IAVA strongly supports S. 257, the GI Bill Tuition Fairness Act of 
2013, which would grant in-state status at public colleges and 
universities for all veterans using the GI Bill. For those who elect to 
return to school after completing their military service obligations, 
the GI Bill has been a remarkable personal development and economic 
mobility tool for our Nation's veterans, and a tremendously successful 
investment for our country. The new, Post-9/11 GI Bill in particular 
has also been a tremendous boon for veterans of the wars in Iraq and 
Afghanistan who deserve the same opportunities and adjusted benefit 
levels as were afforded to veterans of previous generations.
    But with the entry of millions of new veterans into the ranks of 
those now utilizing their earned education benefits, the need for 
various adjustments and fixes to the program have come to light over 
the years. Given that Congress and the American people agree that all 
veterans deserve a fair opportunity to be able to utilize their 
benefits without undue hardship, this body has generally been amenable 
to quickly addressing these various issues as they have come up. S. 257 
would fix another one of these benefit access and utilization issues by 
allowing veterans to attend public colleges and universities at their 
respective in-state rates and, thereby, actually be able to afford to 
go to school and live comfortably using their Post-9/11 GI Bill 
benefits.
    Because of the nature of military service, servicemembers are 
required to move around according to the needs of their service. 
Typically that means they are forced to settle down and reside for 
years in communities outside of their original state of residence. 
Servicemembers who are stationed at a particular base or post may live 
in that state for years, buy a home in that state, shop and pay local 
taxes to that state, raise a family in that state, and generally become 
part of the community in that locale. However, that servicemember is 
technically still not considered a resident of that state. So if he or 
she retires or ends his or her term of service in that state and wants 
to stay local and go back to school as a new veteran in the place where 
he or she has already functionally settled, that servicemember would 
nevertheless be considered a non-resident as a new veteran there and 
would be forced to pay the often-exorbitant out-of-state tuition rates 
for his or her education there.
    Veterans who wind up living in an area outside of their home states 
through no fault or choice of their own because of the obligations 
associated with serving their country in uniform should not be denied 
the opportunity to use their deserved and earned education benefits to 
cover the full cost of their education in an area where they have 
already become functional--but not technical--residents simply because 
of their military service. This bill would remedy that gap in tuition 
and residency fairness and ensure that all veterans can take advantage 
of the promise of the Post-9/11 GI Bill without undue hardship.
                                 s. 262
    IAVA has no position on S. 262, the Veterans Education Equity Act 
of 2013, would allow veterans who are considered non-residents of the 
state school they attend to receive up to $18,077 in tuition benefits, 
the same benefit that would be available to that veteran if attending a 
private institution. IAVA supports the residency and tuition issues 
that S. 262, aims to solve. However, it is IAVA's belief that the 
method for resolving these issues laid forth in this bill is not the 
most viable and beneficial solution available for veterans. IAVA feels 
that better solutions exist, such as those covered in S. 257, but we 
nevertheless recognize and support the mutual goal of both pieces of 
legislation.
                                 s. 294
    IAVA supports S. 294, the Ruth Moore Act of 2013, which would 
change the standard of proof so that official records are not required 
to sufficiently document an incident of military sexual trauma (MST) to 
the VA. Creating, obtaining or maintaining official records of MST has 
proven difficult for many victims over the years. As a result of this 
bill, veterans who say they were victims of MST would have their claim 
accepted if a mental health professional says their condition is 
consistent with sexual trauma and that other evidence does not rebut 
their claim. This legislation would shift the burden of proof by 
directing decisions to be resolved with ``every reasonable doubt in 
favor of the veteran.''
    For years, combat veterans also faced similar problems as Military 
Sexual Trauma (MST) survivors in claiming benefits by having to provide 
documentation of a combat event that led to their PTSD. On numerous 
occasions, tangible documentation was incredibly difficult to produce. 
To address this, the VA made changes that allowed veterans' personal 
accounts of the incident(s) to serve as sufficient proof of a traumatic 
event if accompanied by diagnosis of PTSD and a medical link. The Ruth 
Moore Act would apply these same practices and principles to victims of 
MST.
                                 s. 373
    IAVA supports S. 373, the Charlie Morgan Military Spouses Equal 
Treatment Act of 2013, which would make additional benefits available 
to all military spouses and families. This bill would require the 
Departments of Defense and Veterans Affairs to honor any marriage that 
has been legally recognized by a state and provide a number of key 
benefits to the spouses of all servicemembers.
    This bill is a natural extension of our mission to advocate for the 
best interests of our troops, veterans and their families. IAVA 
supports equality under the law for every member of our community. No 
servicemember or veteran should ever be treated as a second-class 
citizen by our country. However, when the family of any member of the 
Armed Forces is denied benefits, that's exactly what happens. This 
policy undermines the morale and welfare of our troops and, by 
extension, the readiness of our Armed Forces.
                                 s. 430
    IAVA supports S. 430, the Veterans Small Business Opportunity and 
Protection Act of 2013, which would allow small businesses bequeathed 
to spouses and dependents of veterans and of servicemembers killed in 
the line of duty to be treated as disabled veteran-owned small 
businesses for the purpose of VA contracting goals and preferences. In 
the troubling time following the death of a family member, surviving 
spouses and dependents need as much assistance as we can provide. This 
legislation would ensure that the VA's useful small-business benefits 
and incentives get passed on to those spouses and dependents and that 
this critical source of family income can be sustained.
                                 s. 492
    IAVA supports S. 492, which would enhance the transition of 
servicemembers to the civilian workforce and help reduce the veteran 
unemployment rate. Today's veterans are highly skilled and better 
trained than ever, yet their unemployment rate remains high. This 
legislation would require a state to issue a license or credential to a 
veteran who has already passed the necessary exams within that state 
and has demonstrated use of the specific skill while a member of the 
Armed Forces. Thus, it would eliminate certain unnecessary and 
repetitive steps that veterans encounter too frequently in today's job 
market.
                                 s. 495
    IAVA supports S. 495, the Careers for Veterans Act, which would 
require the Director of Office of Personnel Management (OPM) to 
coordinate with Federal agencies and departments to hire 10,000 
veterans to fill existing vacancies over the next five years. The bill 
would also require the Secretary of Labor to establish a one-stop job 
search center with a list of all Web sites and applications identified 
as beneficial for veterans trying to navigate their way through the job 
market. This bill would help create long-term, sustainable jobs for 
America's veterans by transitioning the skills they gained through 
their service into jobs in the civilian workforce. By making licenses 
and credentials in their chosen fields more accessible, this bill is a 
rational approach to addressing the long-term employment needs of our 
Nation's veterans.
                                 s. 514
    At this point in time, IAVA has no position on S. 514, which would 
allow the VA to provide greater levels of assistance to those veterans 
pursuing science, technology, engineering, math degrees than it does to 
veterans pursuing programs of higher education in other fields.
                                 s. 515
    IAVA supports S. 515, which would make the child of an individual 
who died while serving on active duty eligible for the Yellow Ribbon 
Program. The Yellow Ribbon Program has received much attention and many 
accolades since its inception. This program is designed to help 
``bridge the gap'' caused by schools charging tuition and fees higher 
than the Post-9/11 GI Bill would cover. The Yellow Ribbon Program of 
the Post-9/11 GI Bill will help make graduate schools and private 
universities more affordable for a veteran's surviving family member.
                                 s. 572
    IAVA supports S. 572, the Veterans Second Amendment Protection Act, 
which would end a capricious process through which the government 
strips veterans and other VA beneficiaries of their Second Amendment 
rights. Veterans who have a had fiduciary appointed to act on their 
behalf on financial matters are reported to the FBI's National Instant 
Criminal Background Check System (NICS), a system which prevents 
individuals from purchasing firearms in the United States. The 
Veterans' Second Amendment Protection Act would require a judicial 
authority to determine that a VA beneficiary poses a danger to himself 
or others before VA may send their names to be listed in the FBI's 
NICS.
                                 s. 629
    IAVA supports S. 629, the Honor America's Guard-Reserve Retirees 
Act of 2013, which would grant full veteran status to members of the 
Guard and Reserve components who have served at least 20 years, but who 
were not called up for active duty. The men and women who have served 
in uniform for 20 or more years as Guard or Reserve members should be 
recognized as military veterans too, but are being overlooked. This 
legislation corrects that error. We must honor the sacred contract 
between a grateful nation and all veterans who make unselfish 
sacrifices in defense of freedom.
                                 s. 674
    IAVA supports S. 674, the Accountability for Veterans Act of 2013, 
which would require prompt responses from covered Federal agencies when 
those agencies are asked for information necessary to adjudicate claims 
by the VA. According to the VA's own figures, nearly 70 percent of 
claims are backlogged, a number that is unacceptably high. Such long 
wait times can delay the dispensing of benefits and the awarding of 
compensation and, in turn, can have a devastating impact on veterans 
and their families.
    In order to reduce the wait time that veterans are facing during 
the claims process, this legislation would hold agencies accountable on 
the submission of requested evidence in a timely manner. This 
accountability will help accelerate the claims process by ensuring that 
the necessary medical information has been collected to produce an 
accurate disability rating. This legislation would also keep veterans 
better informed about the status of their claims. Any effort that can 
make the claims process more efficient and more lucid will have a 
positive impact on the livelihood of our veterans.
                                 s. 690
    At this point in time, IAVA has no position on S. 690, the Filipino 
Veterans Fairness Act of 2013, which would adjust the disbursement of 
benefits for certain veterans of WWII. As always, IAVA is incredibly 
humbled by the display of patriotism from those who served our country 
in a time of war across all generations.
                                 s. 695
    IAVA supports S. 695, the Veterans Paralympic Act of 2013, which 
would extend through the 2018 fiscal year a joint program operated by 
the U.S. Department of Veterans Affairs and the U.S. Olympic Committee 
that funds grants to a host of adaptive sports programs for disabled 
veterans across the country. The bill would ensure that disabled 
veterans in local communities throughout the country continue to have 
opportunities for rehabilitation, stress relief, and higher achievement 
through adaptive sports.
                                 s. 705
    IAVA has no position on S. 705, the War Memorial Protection Act of 
2013, which would ensure that memorials commemorating the service of 
the United States Armed Forces may contain religious symbols. 
Nevertheless, IAVA strongly believes that American military memorials 
stand as an important public reminder of the sacrifices made by our men 
and women in uniform.
                                 s. 735
    IAVA supports S. 735, the Survivor Benefits Improvement Act of 
2013, which would expand benefits for surviving spouses and continue to 
enhance the VA's ability to ensure that a veteran's family members are 
able to establish some stability in their lives after sacrificing so 
much. This bill would provide grief counseling in retreat settings to 
survivors whose spouses died while on active duty; expand benefits for 
children with Agent Orange-related spina bifida, to include those whose 
parent or parents served in Thailand; extend supplemental payments to 
survivors with children for five years after the veteran's death 
instead of the current two; and change remarriage rules so that 
survivors who remarry can continue receiving benefits under the same 
rules that apply to other Federal benefits. Current rules cancel 
benefits for a spouse who remarries before age 57, but allow benefits 
to be restarted if the marriage ends. This bill would change the age to 
55.
                                 s. 748
    IAVA supports S. 748, the Veterans Pension Protection Act, which 
would help discourage abuses within the low-income veterans' pension 
program by establishing a three-year ``look back'' period for 
individuals applying for benefits. By strengthening the pension program 
and implementing protections to put a stop to abuse, this bill would 
safeguard pension benefits so they would be there for those who 
genuinely need them.
                                 s. 778
    IAVA supports S. 778, the Veterans ID Card Act, which would provide 
a simple mechanism by which those who served could readily prove their 
status as veterans. Currently only veterans who served at least 20 
years or who have a service-connected disability are able to get an ID 
card from the VA establishing their service. The only option available 
for all other veterans is to carry a DD-214, which is impractical and 
unrealistic. This bill would make the veteran ID card available to all 
who served.
                                 s. 819
    IAVA supports S. 819, the Veterans Mental Health Treatment First 
Act of 2013, which would place a stronger emphasis on treating veterans 
with mental health disorders and would also provide prevention and 
wellness incentives for veterans to seek treatment. Should a veteran 
choose to enroll in the voluntary program, that veteran would work with 
a VA clinician to develop an individual mental health treatment plan. A 
veteran who is diagnosed with a service-connected mental health issue 
(i.e. PTSD, anxiety, depression) would be eligible for enrollment, 
regardless of his or her disability claim status.
                                 s. 863
    IAVA supports S. 863, the Veterans Back to School Act of 2013, 
which would eliminate the time restriction on using Montgomery GI Bill 
benefits. Those benefits currently expire ten years from the date that 
an individual separates from the military. This legislation would allow 
education benefits to expire ten years from the date of first use, 
which would give veterans greater flexibility to take advantage of 
their benefits.
    This legislation would also reauthorize the Veterans Education 
Outreach Program (VEOP) to provide funding for campus-based outreach 
services to veterans. VEOP provided formula grants to institutions of 
higher education based on the number of enrolled veterans receiving 
veterans' educational benefits or vocational rehabilitation services. 
After more than 12 years of war, more and more veterans are going back 
to school, and this legislation would help expand veterans education 
outreach and further enrich veterans' academic endeavors.
                                 s. 868
    IAVA has no position on S. 868, the Filipino Veterans Promise Act, 
which would require the DOD to collaborate with military historians on 
a process to potentially make adjustments to the Approved Revised 
Reconstructed Guerilla Roster of 1948, also known as the ``Missouri 
List.'' As always, IAVA is incredibly humbled by the display of 
patriotism from those who served our country so bravely in a time of 
war.
                                 s. 889
    IAVA supports S. 889, the Servicemembers' Choice in Transition Act 
of 2013, which would enhance the content of the Transition Assistance 
Program for servicemembers who are preparing to reintegrate into the 
civilian world, go back to school using their VA education benefits, 
and/or enter the civilian job market. This bill constitutes a positive 
step in the right direction toward equipping troops with the knowledge 
and skills they need to be successful as new veterans.
    We cannot simply turn new veterans loose into the civilian world 
and expect them to be successful, just as we would not release them as 
new troops onto a battlefield without proper acculturation and 
training. A strong, comprehensive, substantive, and consistent 
Transition Assistance Program is vital to ensuring servicemembers' 
successful transition back into civilian life, and to ensuring the 
security and stability of their families.
                                 s. 893
    IAVA supports S. 893, the Veterans' Compensation Cost of Living 
Adjustment Act of 2013, which would give qualified disabled veterans 
and their dependents annual Cost of Living Adjustments (COLA) 
adjustments starting in December 2013. Tough economic times have placed 
a heavy burden on our wounded veterans and the limited resources they 
are afforded. IAVA believes this piece of legislation will help protect 
the financial stability of our disabled veterans and their families as 
costs increase over time.
                                 s. 894
    IAVA supports S. 894, which would extend the VA's work-study 
allowance program to 2016 and expand the program to include outreach 
within Congressional offices. This outreach would include distributing 
necessary information to servicemembers and veterans as well as their 
dependents about the benefits and services available through the VA as 
well as preparing any paperwork related to claims benefits. IAVA 
believes that this bill would benefit veterans by granting them 
valuable experience in the Federal Government and will benefit 
Congressional offices by substantially increasing the number of 
veterans helping other veterans.
                                 s. 922
    IAVA supports S. 922, the Veterans Equipped for Success Act of 
2013. As Congress knows well, today's veterans are highly skilled and 
better trained than ever before, yet their unemployment rate remains 
far too high. While the most recent unemployment statistics show 
promising indications of increasing opportunities for our nations 
veterans, younger veterans are still experiencing difficulty finding 
adequate employment in the current job market. Addressing this problem 
remains a top priority for the veteran community, and IAVA supports 
this legislation because it will provide employment resources to 
veterans in general and to younger veterans specifically.
                                 s. 927
    IAVA supports S. 927, the Veterans Outreach Act of 2013, which 
would require the VA to carry out a demonstration project to increase 
awareness of benefits and services. Too often, veterans express 
frustration about not knowing if the VA is capable of providing 
assistance on a variety of issues. Part of the VA's mission is to make 
veterans' lives better by getting them the right information about 
their benefits at the right time.
    IAVA welcomes legislative proposals focused on better informing 
veterans about the benefits and services available to them from the VA. 
Further, IAVA supports the continued establishment and strengthening of 
partnerships between the VA and other state, local, and non-
governmental organizations for the benefit of America's veterans, which 
this bill aims to accomplish.
                                 s. 928
    IAVA supports S. 928, the Claims Processing Improvement Act of 
2013. Far too many veterans are stuck in the VA's claims backlog and 
their numbers have been increasing exponentially over the past few 
years. At present, over 860,000 VA claims are pending and over 569,000 
(or 66.2%) of those claims are backlogged. This legislation would offer 
a wide array of support and solutions to help improve VA claims-related 
processes and capabilities, expand veterans' ability to conveniently 
appeal claims decisions, and provide for extensions of other important 
benefits and authorities.
    Of particular note within this bill is the establishment of working 
groups and task forces which collectively would mirror the work and 
resemble the constitution of the backlog commission or task force for 
which IAVA has been advocating. However, rather than a piecemeal 
approach to the establishment of these entities, IAVA supports a 
comprehensive approach under the authority of one task force. Since the 
problems related to the conditions under which the claims backlog has 
grown to such immense proportions are systemic and multidimensional, 
IAVA favors a comprehensive look at these problems and comprehensive 
solutions rather than a piecemeal approach.
    Ending the disability claims backlog is one of IAVA's top 
priorities. As such, IAVA encourages the adoption of solid legislation 
that would provide long-term support and solutions to improve the 
timeliness and accuracy of VA disability claims processing, expand 
appeals rights for veterans, and improve upon other benefits and 
authorities designed to serve veterans and their families.
                                 s. 932
    IAVA supports S. 932, the Putting Veterans Funding First Act, which 
would require Congress to fully fund the Department of Veterans 
Affairs' discretionary budget a year in advance, ensuring that all VA 
accounts will have predictable funding in an era where continuing 
resolutions and threats of government shutdowns are all too frequent. 
America's veterans have already paid their debt to this country and in 
return for their service, our Nation promised them care and benefits to 
help transition back into civilian life. This bill would fulfill that 
obligation by ensuring that crucial VA services are not affected by 
Washington's partisan budgetary oscillations, and that the care and 
benefits veterans have earned are delivered to them in a timely manner.
                                 s. 935
    IAVA supports S. 935, the Quicker Veterans Benefits Delivery Act of 
2013, which would prevent the VA from requesting a medical examination 
to further assess a disability if a veteran submits medical evidence 
provided by a ``competent, credible, probative, and otherwise 
adequate'' non-VA medical professional in support of a disability 
claim. This legislation would require the VA to maximize the use of 
private medical evidence, which would conserve VA resources and enable 
swifter, more accurate rating decisions for veterans. VA should be a 
beneficial resource and efficient adjudicator, not a veteran's biggest 
obstacle to disability compensation.
                                 s. 938
    IAVA supports S. 938, the Franchise Education for Veterans Act of 
2013, which would allow veterans interested in purchasing a business 
franchise to use up to $15,000 in VA educational assistance program 
funds to pay for franchise education and training programs. IAVA 
believes that veterans can benefit from such programs just as much as 
they can benefit from other programs and courses of study for which VA 
educational assistance can be utilized, and that a greater array of 
such educational and training programs will encourage veterans to start 
business that will improve their own livelihoods as well as the overall 
health of the American economy.
                                 s. 939
    IAVA supports S. 939, which would protect a veteran's appeal rights 
before the United States Court of Appeals for Veterans Claims when the 
veteran mistakenly files a document with the VA and the document is not 
transmitted to the appropriate office in a timely fashion. This bill 
would instead treat that document as a motion for reconsideration 
before the Court of an adverse decision by the Board of Veterans 
Appeals in certain circumstances. The failure of VA to notify a veteran 
promptly of a filing error or to forward the document to the 
appropriate court or office should not deprive a veteran of the right 
to have a case reviewed on appeal. The VA should be a beneficial 
resource and a veteran's strongest advocate, not an obstacle to 
compensation or care.
                                 s. 944
    At this point in time, IAVA has no position on S. 944, the 
Veterans' Educational Transition Act of 2013, which would require 
courses of education provided by public institutions of higher 
education to charge veterans tuition at the in-state rate as long as 
the veteran separated within the last two years before enrollment. IAVA 
supports the tuition issue that S. 944 aims to solve. However, it is 
IAVA's belief that the method for resolving the issue put forth in this 
bill is not the most viable and beneficial solution available for 
veterans. IAVA feels that better solutions exist, such as those covered 
in S. 257, but we nevertheless recognize and support the mutual goal of 
both pieces of legislation.

    We again appreciate the opportunity to offer our views on these 
important pieces of legislation, and we look forward to continuing to 
work with each of you, your staff, and the Committee to improve the 
lives of veterans and their families. Thank you for your time and 
attention.
                                 ______
                                 
Letter from Philip Smith, National Liaison & Washington, DC, Director, 
                        Lao Veterans of America

                              Lao Veterans of America, Inc.
                                      Washington, DC, May 15, 2013.
Hon. Bernard Sanders
Chairman,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.
        RE: May 15, 2013, Hearing on Pending Veterans Benefits 
      Legislation & S. 690, The Filipino Veterans Fairness Act of 
                                 2013.
    Dear Chairman Sanders, Vice Chairman Burr and Senate Veterans' 
Affairs Committee Members: On behalf of the Lao Veterans of America, 
Inc. (LVA) and the Lao Veterans of America Institute (LVAI), the 
Nation's largest Laotian and Hmong-American veterans organizations with 
over 55,000 members across the United States, we write in support of 
important legislation S. 690, The Filipino Veterans Fairness Act of 
2013, introduced by Senator Brian Schatz of Hawaii.
    The Filipino Scouts, and Filipino veterans, are indeed special 
heroes that deserve the attention and support of this Committee. These 
veterans courageously served in bloody defense of the Philippines, and 
America's Armed Forces, during World War II, and the brutal invasion 
and occupation of their island homelands by Imperial Japanese Army and 
naval forces. The Filipino veterans endured unspeakable suffering and 
helped turn the tide of battle. These veterans deserve the full support 
of the United States, and the U.S. Senate Veterans' Affairs Committee.
    We appeal to you Chairman Sanders, Vice Chairman Burr, and all of 
the Senate Veterans' Affairs Committee Members, to act decisively, and 
unanimously, in support of passage of S. 690, The Filipino Veterans 
Fairness Act of 2013. It is critical for America to provide long-
overdue fairness, and full veterans benefits, to all Filipino veterans 
who served during World War II.
    Time is running out for these elderly Filipino veterans and their 
families from World War II.
    We sincerely appreciate Senator Brian Shatz's leadership on this 
important matter as well as the work of his staff on this issue.
    Like the Filipino veterans of World War II, the Lao and Hmong 
veterans served in defense of freedom and America's interests in 
Southeast Asia when they were under relentless and bloody attack. 
Laotian and Hmong veterans uniquely served in the ``U.S. Secret Army'' 
defending the Kingdom of Laos and U.S. national security interests 
during intense combat the Vietnam War. The Lao and Hmong veterans truly 
know, understand and appreciate the full meaning of sacrifice on behalf 
of the defense of their homeland and the United States, having shed 
much blood and tears, and having saved the lives of many American 
soldiers, pilots and aircrews in defense of freedom.
    The Lao- and Hmong-American veterans of America's war in Indochina, 
respectfully and humbly submit this appeal to you in support of S. 690 
and all of the Filipino veterans of World War II. Please do not forget 
them, especially as Senator Schatz and others seek to memorialize the 
American and Filipino victims of the Bataan Death March.
    We hope that the Senate Veterans' Affairs Committee, and the U.S. 
Senate, will immediately act to pass this important legislation.
            Sincerely,
                                              Philip Smith,
                       National Liaison & Washington, DC, Director.
                                 ______
                                 
       Letter from National Academy of Elder Law Attorneys, Inc.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
   Prepared Statement of Scott Levins, Director, National Personnel 
      Records Center, National Archives and Records Administration
    Thank you, Chairman Sanders, for giving me the opportunity to 
discuss S. 674, Accountability for Veterans Act of 2013. The National 
Archives and Records Administration (NARA) is deeply committed to 
serving our Nation's veterans and supporting the needs of the 
Department of Veterans Affairs (VA).
    NARA's National Personnel Records Center (NPRC) provides storage 
and reference services on the military personnel and medical records of 
nearly 60 million veterans. The center responds to approximately 5,000 
requests each day. Most requests come directly from veterans and their 
next of kin; however, NPRC receives approximately 1,250 requests per 
day from the VA for the temporary loan of original records needed to 
adjudicate claims.
    The VA has a liaison office co-located at the NPRC facility and the 
two offices work closely to ensure VA's prompt access to essential 
records. During the first 35 weeks of fiscal year 2013 NPRC responded 
to nearly 218,000 requests from the VA. The average response time has 
been 2.2 workdays.
    Recognizing the importance of providing timely access to records, 
NPRC has worked with the VA to develop a process that enables the 
electronic transmission of requests, prompt delivery of responsive 
records, bar code tracking of records, and electronic status updates. 
Our systems are designed to accommodate the receipt and processing of 
bulk electronic files created by the VA, which include hundreds 
(sometimes thousands) of new requests each day. The VA is also able to 
submit individual requests electronically. Automatic email 
notifications are sent to acknowledge the receipt of new requests. If 
our systems determine that a responsive record is temporarily 
unavailable, the request is placed on backorder for thirty days or 
until the record is returned to file, whichever is sooner. In instances 
where a responsive record is not immediately available (approximately 
5% of requests), electronic notifications are made to the VA.
    In addition to providing status updates through an electronic 
portal available to VA users, we also provide the VA with direct access 
to our production system. This access enables VA staff to delve deeper 
into order fulfillment details concerning specific requests and to run 
ad hoc queries and reports concerning work volumes and response times.
    NPRC also has a staff member appointed to serve as a liaison with 
the VA to ensure continuous, effective communication concerning 
fluctuations in workload, troubleshooting system issues, or any other 
issues involving service delivery to the VA.
    NPRC is already exceeding the response time and notification 
standards outlined in S. 674 and should be able to continuously meet 
the requirements going forward.
    NPRC is committed to serving America's veterans and proud of its 
efforts to effectively support the VA in doing the same. We hope this 
information is helpful; we appreciate your interest in this important 
subject.
                                 ______
                                 
          Prepared Statement of National Governors Association


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
Prepared Statement of Peter J. Duffy, COL., US Army (Ret.), Legislative 
       Director, National Guard Association of the United States
    Thank you for all you have done for our veterans since 9/11 and for 
this opportunity to present this statement for the record.
            background--unique citizen servicemember/veteran
    The National Guard is unique among components of the Department of 
Defense (DOD) in that it has the dual state and Federal missions. While 
serving operationally on Title 10 active duty status in Operation Iraqi 
Freedom (OIF) or Operation Enduring Freedom (OEF), National Guard units 
are under the command and control of the President. However, upon 
release from active duty, members of the National Guard return as 
veterans to the far reaches of their states, where most continuing to 
serve in over 3,000 armories across the country under the command and 
control of their Governors. As a special branch of the Selected 
Reserves they train not just for their Federal missions, but for their 
potential state active duty missions such as fire fighting, flood 
control, and providing assistance to civil authorities in a variety of 
possible disaster scenarios.
    Since 9/11, over a half a million National Guard members have 
deployed in contingency operations to gain veteran status. When they 
return from deployment, they are not located within the closed 
structure of a 24/7 supported active military installation, but rather 
reside in their home town communities where they rely heavily on the 
medical support of the Veterans Administration (VA) when they can 
overcome time and distance barriers to obtain it.
    Using the National Guard as an operational force requires a more 
accessible mental health program for members and their families post-
deployment in order both to provide the care they deserve as veterans 
and to maintain the necessary medical readiness required by deployment 
cycles. It cannot be a simple post-deployment send off by the active 
military of ``Good job. See you in five years.'' To create a seamless 
medical transition from active duty to the VA, an improved medical 
screening of our members before they are released from active duty is 
essential to identify the medical issues that will be passed to the VA. 
The Department of Defense must also recognize its responsibility of 
sharing the burden with the VA in funding mental health care for our 
National Guard members between deployments.
    The Department of Defense must also be called to task for the 
mishandling and disappearance of National Guard medical records in the 
OIF/OEF theaters and the shoddy administration of Guard and Reserve 
demobilization. Statistics published last year by the VA show that the 
VA denies National Guard and Reserve disability benefit compensation 
claims at four times the rate of those filed by active duty veterans. 
Lacking clear records to establish the service connection for their 
injuries, our Guard members face failure when they later file their VA 
disability claims for undocumented physical and behavioral injuries. 
This is a blot on the integrity of our Federal Government in its 
treatment of our veterans. This Committee must seriously and separately 
in another hearing consider legislation to establish a presumption of 
service connection for certain war common injuries of National Guard 
and Reserve veterans who later file disability benefit compensation 
claims based upon those injuries.
    Military service in the National Guard is uniquely community based. 
The culture of the National Guard remains little understood outside of 
its own circles. When the Department of Defense testifies before 
Congress stating its programmatic needs, it will likely recognize the 
indispensable role of the more cost efficient National Guard as a vital 
operational force, but it will say little about, and seek less to, 
redress the benefit disparities, training challenges, and unmet medical 
readiness issues for National Guard members and their families at the 
state level before, during, and after deployment. We continue to ask 
Congress to give the Guard a fresh look with the best interests of the 
National Guard members, their families, and the defense of the homeland 
in mind.
correct the disprportionate denial rate for reserve component veterans' 
    disability benefit compensation claims with service-connection 
                     presumptions for key injuries
    According to Veterans Administration statistics published in 
May 2012, it is denying adjudicated disability benefit compensation 
claims for Reserve Component (RC) Global War on Terror at four times 
the rate of active duty GWOT veterans according to a published VA 
May 2012 report.
    Years of neglect in the Office of the Secretary of Defense with the 
demobilization process for RC members returning home from GWOT 
deployment and the inadequate capturing of theater medical records for 
the RC have come home to roost.
    Area theater commands in Operation Iraqi Freedom and Operation 
Enduring Freedom did not establish a reliable method for preserving in-
theater records of the RC. Congress heard testimony during the peak 
years of OIF in 2007 that some medically evacuated RC members sometimes 
returned stateside with medical records resting on their supine chests.
    Moreover, too many members of the Guard and Reserve have been 
allowed to slip through the medical cracks at demobilization stations 
resulting in widespread under identification of service-connected 
injuries at that critical separation point.
    A variety of reasons were at play to include inadequate screening 
by medical personnel at the demobilization site; the reluctance of 
returning members to report disabling injuries at distant 
demobilization sites to avoid the risk of further separations from home 
after lengthy deployments; or simply the late onset of symptoms after 
discharge from exposures to chemical hazards, Traumatic Brain Injury or 
Post Traumatic Stress Disorder.
    The six most frequent injuries for which the VA awards disability 
benefit compensation are tinnitus; back or cervical strain; PTSD; leg 
flexion limitations; degenerative spinal arthritis; of the spine; and 
migraine. Service connection presumptions for these injuries presented 
for RC GWOT veterans would help to mitigate the disproportionate denial 
rate afflicting Guard and Reserve disability benefit compensation 
claims.
  pass s. 629 to bestow veteran status on national guard and reserve 
               military members with 20 years of service
    NGAUS in concert with The Military Coalition has long sought 
legislation authorizing veteran status under Title 38 for National 
Guard and Reserve members of the Armed Forces who are entitled to a 
non-regular retirement under Chapter 1223 of 10 U.S.C. but were never 
called to title10 active service other than for training purposes 
during their careers--through no fault of their own.
    Many Members of Congress may not know that a reservist can complete 
a full Guard or Reserve career but not earn the title of ``Veteran of 
the Armed Forces of the United States,'' unless the member has served 
on Title 10 active duty for other than training purposes.
    Drill training, annual training, and title 32 service responding to 
domestic natural disasters and defending our Nation's airspace, borders 
and coastlines do not qualify for veteran status.
    Reserve-component members who served 20 years gave the government a 
blank check to send them anywhere in the world but through no fault of 
their own were never deployed or in some cases even allowed to be 
deployed.
    Yet, an active-duty member whose entire short-term enlistment tour 
is spent in less rigorous domestic assignments to domestic posts and 
bases on Title 10 status will fully qualify, not just for veterans 
status, but for all veterans' benefits. This disparity is unfair and 
must end.
    S. 629 would not bestow any benefits other than the honor of 
claiming veteran status for those who honorably served and sacrificed 
as career reserve component members but were never ordered to Title 10 
active service. They deserve nothing less than this recognition. 
Authorizing veteran status for career RC service would substantially 
boost the morale of the RC without a cost consequence.
    Opposition to this bill in the past has been grounded in a myth 
that passage would open the floodgates of new veteran benefits for this 
group. That is just not the case or even allowable under the law. 
S. 629 explicitly guards against this possibility. Moreover, ``pay go'' 
laws in effect bar the default triggering of any new entitlements. It 
is time to move past the unfounded ``camel's nose under the tent'' fear 
that has held back this legislation. Its companion bill , H.R. 679, is 
poised to pass the House imminently.
                  fully leverage the vet center model
    For behavioral support, Guard veterans often look to the stellar 
Vet Centers located throughout the country where they and their 
families can obtain confidential peer to peer counseling as well as 
behavioral treatment from on site clinicians; telehealth programs; or 
from referrals to fee based clinicians paid for and pre approved by the 
Vet Centers.
    Confidentiality is vital in bringing our veterans still serving in 
the Guard to treatment in order to assuage real concerns about the 
sharing of medical records with the Department of Defense which VA 
medical centers are authorized to do. The fee basing of referred care 
by the Vet Center to community providers establishes a model for this 
Committee to consider expanding to close the treatment gaps in our 
rural communities. A voucher program administered by the Vet Centers 
authorizing paid for treatment to qualified community providers would 
maximize scheduling flexibility and plug direct access gaps to care for 
our Guard veterans.
      pass s. 927 and expand its outreach to fund community-based 
                           mental health care
    S. 927 pending before this Committee reflects the need for the VA 
to better leverage and fund existing community resources in caring for 
our veterans. It warrants immediate passage with an expanded feature 
that would fund veterans' access to community based care. Too often 
that care has relied on pro bono service providers or state/community 
care facilities stressed for funding.
    The issues of veterans' unemployment and mental health maintenance 
cannot be separated. Before veterans can maintain gainful employment in 
a challenging job environment, they must be able to maintain a healthy 
mental status and establish supportive social networks.
    In 2007, the Rand Corporation published a study titled, ``The 
Invisible wounds of War.'' It found that at the time 300,000 veterans 
of Operation Iraqi Freedom and Operation enduring Freedom suffered from 
either PTSD or major depression. This number can only have grown after 
five more years of war. The harmful effects of these untreated 
invisible wounds on our veterans hinder their ability to reintegrate 
with their families and communities, work productively, and to live 
independently and peacefully.
    Rand recommended that a network of local, state, and Federal 
resources centered at the community level be available to deliver 
evidence-based care to veterans whenever and wherever they are located. 
Veterans must have the ability to utilize trained and certified 
services in their communities. In addition to training providers, the 
VA must educate veterans and their families on how to recognize the 
signs of behavioral illness and how and where to obtain treatment.
    VA and Vet Center facilities are often located hundreds of miles 
from our National Guard veterans living in rural areas. Requiring a 
veteran, once employed, to drive hundreds of miles to obtain care at a 
VA facility necessitates the veteran taking time off from work for 
reasons likely difficult to explain to an employer. Most employees can 
ill afford to miss work, particularly after an extended absence from 
deployment in the case of our Guard veterans. The VA needs to leverage 
community resources to proactively engage veterans in caring for their 
mental health needs in a confidential and convenient manner that does 
not require long distance travel or delayed appointments.
    To facilitate the leveraging of mental health care providers in our 
communities, the VA through its Office of Mental Health Services or 
through its highly effective Vet Centers can actively exercise its 
authority to contract with private entities in local communities, or 
creatively implement a voucher program that would allow our veterans to 
seek fee-based treatment locally with certified providers outside the 
brick and mortar of the Veterans Administration facilities and even the 
Vet Centers.
    The Vet Center in Spokane for example serves an area as big as the 
state of Pennsylvania. It is not practical for veterans in this 
catchment area to drive hundreds of miles to seek counseling or 
behavioral clinical care. That Vet Center pre screens fee based 
providers to whom it will refer veterans for confidential treatment in 
its management area. It also monitors the process to make sure the 
veteran is actually receiving care paid for by the Vet Center. This 
system already works. However, a voucher process would improve 
efficiencies by relieving the Vet Center of its scheduling burden by 
allowing the veteran to directly make his or her own appointment with 
providers as needed.
    The VA and Vet Centers also need to fully leverage existing state 
administrative mental health and veteran networks. Working with the 
state mental health care provider licensing authorities, community 
providers certified by the VA or Vet Center to treat veterans could be 
identified at the state agency level with vouchers to pay for treatment 
by those providers. The various state departments of veterans affairs 
are often in a better position to effectively administer such outreach 
programs given the more extensive lists of veterans in their sates than 
those possessed by the VA or Vet Centers.
    Several of our veterans have fallen through the cracks of the VA 
health care system, and will continue to do so. According to the 
Vietnam Veterans of America, last year only 30% of our veteran 
population had enrolled in VA medical programs. Many veterans end up in 
the care of state social service programs in cooperation with state and 
national veteran organizations. The VA has the authority to assist in 
maintaining this safety net of care for veterans in a stressful 
economic climate for our states with a voucher program or expanded 
contracting with private entities. It needs to act.
     hippa confidentiality must be observed with mental health care
    Most of our National Guard veterans of OIF/OEF eligible for VA care 
post-deployment are still serving with their units and subject to 
redeployment. Given the evolving electronic medical records 
interoperability between the VA and the Department of Defense (DOD), a 
confidentiality issue exists relative to mental health treatment 
records for these veterans who remain in the military who do not want 
their records shared by the VA with their military commanders for fear 
of career reprisals.
    It is essential that HIPPA confidentiality be maintained by the VA 
for the mental health treatment records of these veterans to encourage 
their treatment with VA providers. Our Vet Centers already operate with 
full confidentiality which makes them the service center of choice for 
Guard members who want to maintain confidentiality of their mental 
health counseling records to protect against perceived negative 
repercussions in their units. HIPPA rules pragmatically require 
observance of confidentiality but draw the line with patients who are 
dangers to themselves or their communities whose cases must be 
reported.
    It is critical that confidentiality be established as soon as 
possible legislatively with the VA much the same as it is currently 
observed in Vet Centers. We believe that the VA is operating under 
advice from its legal staff that all VA medical records can be 
transferred to DOD. Lack of confidentiality will chill the treatment 
process and is likely contributed to the under utilization of VA 
medical care by our veterans.
  require the va to fully implement section 304 of the caregivers and 
 veterans omnibus health services act 0f 2009, public law 111-163, to 
    provide mental health services to veterans of oif/oef and their 
        immediate family members veterans using private entities
    Post-deployment, our National Guard members and their families 
heavily rely on the VA for mental health care. Congress recognized as 
much in passing The Caregivers and Veterans Omnibus Health Services Act 
of 2009, Public Law 111-163, enacted May 6, 2010, now requires the VA 
to reach out not just to veterans but to their immediate families as 
well to assist in the reintegration process.
    The law also urged the VA Secretary to contract with community 
mental health centers and other qualified entities to provide the 
subject services in areas the Secretary determines are not adequately 
served by other health care facilities or Vet Centers of the Department 
of Veterans Affairs. It is not clear how thoroughly the VA has fully 
taken advantage of this authority to contract with private entities to 
deliver community based mental health services.
    Section 304 of the Family Caregiver Act required the VA to make 
full mental health services available also to the immediate family 
members of OIF/OEF veteran for three years post-deployment. However, 
the VA delayed for at least two years in making the full range of its 
Office of Mental Health Services (OMHS) programs available to immediate 
to families as required by Section 304. It is not clear today that the 
program has been fully implemented.
    Section 304 was enacted on May 6, 2010. For many, the three year 
post-deployment period will begin to lapse in 2013. The VA OMHS needed 
to fully comply with Section 304 in a timely manner. Because the VA's 
unreasonably delayed implementation of this important program, this 
Committee needs to consider extending the subject three year post-
deployment limitation period another three years to allow family 
members to access their care.
    It also needs to lean harder on the VA to fully utilize its 
contracting authority to better leverage private entities and to use a 
voucher system described above to make community based treatment more 
accessible and convenient. Our veterans and their immediate families 
may be a small subset, but they are worth it.
   the department of defense must cooperatively work with the va in 
 screening behavioral health care needs of our members before they are 
                       released from active duty
    At all stages of PTSD and depression, treatment is time sensitive. 
However, this is particularly important after onset, as the illness 
could persist for a lifetime if not promptly and adequately treated, 
and could render the member permanently disabled. The effects of this 
permanent disability on the member's entire family can be devastating. 
It is absolutely imperative that members returning from deployment be 
screened with full confidentiality at the home station while still on 
active duty by trained and qualified mental health care providers from 
VA staff and/or qualified health care providers from the civilian 
community. These providers could include primary care physicians, 
physician assistants, and nurse practitioners who have training in 
assessing psychological health presentations. Prompt diagnosis and 
treatment will help to mitigate the lasting effects of mental illness. 
This examination process must be managed by the VA in coordination with 
the National Guard Director of Psychological Health for the respective 
state, and the state's Department of Mental Health to allow transition 
for follow up treatment by the full VA and civilian network of 
providers within the state.
    As an American Legion staffer at Walter Reed once stated, the main 
problem for Reserve Component injured servicemembers is that they are 
``rushed out of the system'' before their service-connected injuries 
and disability claims have been resolved. Our injured members should 
not be given the ``bum's rush'' and released from active duty until a 
copy of their complete military medical file, including any field 
treatment notes, has been transferred to the VA, their discoverable 
service-connected military medical issues have been identified, any 
service-connected VA disability physicals have been performed similar 
to what is provided to the active forces before they are released from 
active duty, and the initial determination of any service-connected VA 
disability claim has been rendered. Unless medically not feasible, our 
members should be retained on active duty in their home state for 
treatment to discourage them from reporting injures out of fear of 
being retained at a distant demobilization site.
    It is absolutely necessary to allow home station screening for all 
returning members by trained health care professionals who can screen, 
observe, and ask relevant questions with the skill necessary to elicit 
medical issues either unknown to the self-reporting member, or 
unreported for fear of being retained at a far removed demobilization 
site. In performing their due diligence before the issuance of an 
insurance policy, insurance companies do not allow individuals to self 
assess their health. Neither should the military. If geographical 
separation from families is causing some to underreport, or not report, 
physical or psychological combat injuries on the PDHA, then continuing 
this process at the home station for those in need would likely produce 
a better yield at a critical time when this information needs to be 
captured in order for prompt and effective treatment to be 
administered.
    Please see the copy of a November 5, 2008 electronic message to 
NGAUS from Dr. Dana Headapohl set forth in the Appendix that still 
pertains. Dr. Headapohl strongly recommended a surveillance program for 
our members before they are released from active duty. Dr. Headapohl 
opined then the obvious in stating that inadequate medical screening of 
our members before they are released from active duty is ``unacceptable 
to a group that has been asked to sacrifice for our country.'' 
(emphasis added)
                               conclusion
    Thank you for that you have done for our veterans since 9/11. 
Please view our efforts as part of a customer feedback process to 
refine and improve the ongoing vital and enormous undertaking of the 
VA. Our National Guard veterans, both still serving and separated, will 
remain one of your largest base of customers who will continue to 
require your attention. Thank you for this opportunity to present.
                                 ______
                                 
   Prepared Statement of Angela Bailey, Associate Director, Employee 
  Services, and Chief Human Capital Officer, U.S. Office of Personnel 
                               Management
    Thank you for the opportunity to provide this statement for the 
record related to the June 12, 2013 hearing on pending veterans 
benefits legislation. Specifically, the Committee has requested the 
Office of Personnel Management's (OPM's) input on section 2 of S. 495, 
the Careers for Veterans Act of 2013.
    Our Nation's veterans have sacrificed tremendously in service to 
our country, and we have an obligation to support them upon their 
separation from the Armed Forces. This Administration has supported 
that obligation repeatedly through the years, and OPM has been a proud 
partner in the efforts to employ greater numbers of veterans in the 
Federal workforce. While OPM believes that S. 495 is a well-intended 
bill, it is important to highlight existing work being carried out to 
employ veterans with the Federal Government.
    Presently, when applying for Federal employment, veterans may take 
advantage of special hiring authorities for veterans. For example, a 
veteran applying for Federal employment may do so under the Veterans' 
Recruitment Appointment (VRA). It is an excepted authority that allows 
agencies to appoint eligible veterans without competition at any grade 
level up to and including GS-11 or equivalent. VRA provides the 
opportunity for eligible veterans to train for two years in a position. 
Additionally, the Veterans Employment Opportunity Act of 1998 (VEOA), a 
competitive service appointing authority used when filling permanent, 
competitive service positions, affords veterans the opportunity to 
compete with current Federal employees. Veterans who are 30 percent or 
more disabled may be appointed non-competitively. Disabled veterans may 
also use Schedule A appointing authority for an excepted service 
appointment. Finally, disabled veterans who are eligible for training 
under the Department of Veterans Affairs (VA) vocational rehabilitation 
program may enroll for training or work experience at an agency under 
the terms of an agreement between the agency and VA.
    In addition to the special hiring authorities, veterans have also 
been subject to targeted outreach by the Administration. As part of 
these efforts, on November 9, 2009, President Barack Obama signed 
Executive Order 13518, Employment of Veterans in the Federal 
Government, which establishes the Veterans Employment Initiative (VEI). 
The VEI is a strategic approach to helping the men and women who have 
served our country in the military find employment in the Federal 
Government. Under the VEI, OPM and partner agencies developed the 
Government-wide Veterans' Recruitment and Employment Strategic Plan for 
FY 10-12, an important tool in the implementation of the President's 
Executive Order. The plan outlined strategies the Federal Government 
subsequently used to improve employment opportunities for veterans in 
the executive branch. Presently, the Veterans' Recruitment and 
Employment Strategic Plan for FY 13-15 is under development. 
Additionally, Veteran Employment Program Offices have been established 
in the 24 agencies covered under Executive Order 13518. Further, OPM 
has created the Feds Hire Vets Web site to provide a single point for 
providing veterans' employment information to veterans, their families, 
and hiring managers. OPM has also created a Government-wide marketing 
campaign on the value of our veterans and toolkits were provided to 
Federal agencies to aid in their efforts to hire veterans. Finally, OPM 
conducted the Veterans Employment Symposium which provided essential 
learning to human resources professionals and hiring managers. This 
symposium was followed by web-based training applications in the areas 
of veterans' appointing authorities and veterans' preference.
    OPM has worked with other agencies on the implementation of the VOW 
(Veterans Opportunity to Work) To Hire Heroes Act of 2011 (``the VOW 
Act''). The VOW Act, which requires Federal agencies to treat active 
duty servicemembers as veterans, disabled veterans, or preference 
eligibles for purposes of appointment in the competitive service when 
these servicemembers submit a certification of expected discharge or 
release from active duty under honorable conditions along with their 
applications for Federal employment, was passed in the last Congress 
and is another tool in assisting veterans in obtaining Federal 
employment.
    The efforts of OPM and other Federal agencies, through the Council 
on Veterans Employment, to employ veterans in Federal service are 
already paying dividends. In FY 2012, veterans accounted for 28.9 
percent of all new hires in the Federal Government which is the highest 
percentage of veteran new hires in the past twenty years and exceeds FY 
2011 which was the previous all-time high. Additionally, the number of 
veterans in Federal employment has steadily grown from 25.8 percent of 
the Federal workforce in FY 2009 to 29.7 percent in FY 2012. Since FY 
2009, 263,754 new hires in the Federal Government have been veterans.
    OPM welcomes efforts that support employment of veterans, and is 
actively engaged with agencies to increase the number of veterans in 
the Federal workforce. This Administration's efforts in this regard are 
already showing results in numbers well beyond the goals set forth in 
S. 495. We are concerned that the planning and reporting requirements 
contained in the legislation would increase the workload for agencies 
and detract from efforts already underway. OPM looks forward to 
continuing to work with this Committee on legislation that aims to 
assist veterans in obtaining employment following their service for our 
country as members of the Armed Forces.
                                 ______
                                 
       Prepared Statement of Carolyn N. Lerner, Special Counsel, 
                United States Office of Special Counsel
    Chairman Sanders, Ranking Member Burr, and Members of the 
Committee: Thank you for the opportunity to submit written testimony on 
behalf of the Office of Special Counsel (OSC) in connection with 
today's legislative hearing. OSC protects the merit system for over 2 
million civilian employees in the Federal Government. Congress has 
tasked OSC with four distinct mission areas. First, we protect Federal 
employees from prohibited personnel practices, especially retaliation 
for whistleblowing. Second, we provide a safe and secure channel for 
employees to disclose waste, fraud, abuse, and threats to public health 
or safety. Third, we enforce the Hatch Act, which keeps the Federal 
workplace free from political coercion and improper partisan politics. 
Finally, we are the primary enforcement agency for Federal sector 
claims under the Uniformed Services Employment and Reemployment Rights 
Act (USERRA).
    USERRA protects the civilian employment and reemployment rights of 
those who serve the United States in the Armed Forces, including the 
National Guard and Reserves. OSC plays a critical role in enforcing 
USERRA and helps to fulfill Congress' directive that the Federal 
Government serve as a ``model employer'' under the law. This is 
especially important because the Federal Government is the largest 
civilian employer of National Guard and Reserve members.
    OSC receives referrals from the Department of Labor for 
representation of servicemembers and prosecution of USERRA violations. 
In addition, in August 2011, OSC took on new responsibilities for 
USERRA enforcement under a ``Demonstration Project.'' Under the 
project, OSC investigates over half of all Federal sector USERRA 
claims. OSC recently piloted a novel, expeditious and low-cost approach 
to resolving USERRA cases by using alternative dispute resolution. OSC 
has achieved a 100% success rate using mediation to resolve 
servicemembers' claims.
        s. 6--``putting our veterans back to work act of 2013''
    OSC strongly supports S. 6, the ``Putting Our Veterans Back to Work 
Act of 2013.'' Section 303 of S. 6 clarifies OSC's authority to 
subpoena the attendance and testimony of witnesses, as well as the 
production of documents from Federal employees and agencies. This 
provision is necessary to assist OSC in determining whether a 
servicemember is entitled to relief. This section also sets forth a 
streamlined and more efficient process for enforcement of subpoenas 
against Federal executive agencies or their employees by order of the 
Merit Systems Protection Board (MSPB). Explicit authority under Title 
38 to issue subpoenas to Federal employees and agencies will assist OSC 
in protecting rights of servicemembers.
                                 ______
                                 
          Prepared Statement of Paralyzed Veterans of America
    Chairman Sanders, Ranking Member Burr, and Members of the 
Committee, Paralyzed Veterans of America (PVA) would like to thank you 
for the opportunity to present our views on the broad array of 
legislation impacting the Department of Veterans Affairs (VA) pending 
before the Committee. These important bills will help ensure that 
veterans receive appropriate benefits in a timely manner.
      s. 6, the ``putting our veterans back to work act of 2013''
    PVA supports S. 6, ``Putting Our Veterans Back to Work Act of 
2013'' which would amend the ``VOW to Hire Heroes Act of 2011'' to 
extend this career assistance program through March 31, 2016. This 
program is available for veterans that are unemployed and have 
exhausted other educational and career assistance benefits. Since the 
start of the program, July 1, 2012, the number of veterans 
participating in the program fell short of the anticipated enrollment. 
Although a large number of veterans have applied and qualified for the 
program, many have not used the program.
    The VA and the Department of Labor, Veterans Employment and 
Training Service (VETS) must increase outreach to the veterans that 
have applied for this program. A career counselor can help a veteran 
decide on the best application of this program to compliment the job 
skills previously obtained in the military. After discussing options 
with a counselor, a veteran may decide not to use the program and 
relinquish the certificate allocated for that veteran. Thus, allowing 
another veteran to receive employment training.
    The bill includes a requirement for the VA to establish a single 
Web-based employment portal for veterans to access this information. 
Additional outreach will be needed to reach those veterans not 
dependent on the internet for their source of information. The VA 
should strive to fill every available slot for this unique program to 
help unemployed veterans.
                                 s. 200
    PVA does not oppose S. 200, which would amend Title 38, United 
States Code, to authorize the interment of individuals that served in 
combat support in the Kingdom of Laos between February 28, 1961 and 
May 15, 1975 in cemeteries controlled by the VA National Cemetery 
Administration.
          s. 257, the ``gi bill tuition fairness act of 2013''
    PVA supports S. 257, the ``GI Bill Fairness Act of 2013.'' This 
legislation would require public institutions to charge the in-state 
tuition and fees rate to veterans who use the GI Bill at that 
institution when the veteran did not originally reside in that state. 
Although many institutions have changed their policies to allow a 
veteran to attend a public institution at the instate rate, some 
continue charging veterans an out-of-state rate for those who once 
lived in another state before entering service. This legislation will 
address this shortcoming.
         s. 262, the ``veterans education equity act of 2013''
    PVA supports S. 262, the ``Veterans Education Equity Act of 2013,'' 
which would assist veterans using the GI Bill that have been paying 
tuitions and fees above the GI Bill amount designated for that state. 
Many veterans have accumulated thousands of dollars in debt for tuition 
and fees over the amount paid by the GI Bill. This legislation will 
allow the veteran to continue in the program of their choice without 
accumulating extra financial dept.
                 s. 294, the ``ruth moore act of 2013''
    PVA supports S. 294, the ``Ruth Moore Act of 2013.'' According to 
reports, sexual assault in the military continues to be a serious 
problem, despite several actions by the Department of Defense (DOD) to 
combat the issue, including required soldier and leader training. As 
the military works to reduce the threat and incident of military sexual 
trauma (MST), it is important that victims of MST, both women and men, 
have the ability to receive care from the VA and receive timely, fair 
consideration of their claims for benefits. This is particularly 
important given the number of MST occurrences that go unreported. While 
current policies allowing restricted reporting of sexual assaults 
should reduce the number of incidents which have ``no official 
record,'' it can still be anticipated that there are those who will not 
report the incident out of shame, fear of reprisals or stigma, or 
actual threats from their attacker. To then place a high burden of 
proof on the veteran, who has experienced MST to prove service-
connection, particularly in the absence of an official record, would 
add further trauma to an already tragic event.
    One particular recommendation that PVA would like to make about the 
proposed language is a clarification of what constitutes a ``mental 
health professional.'' We would hope that the intent of this 
legislation is not to limit ``mental health professionals'' to only VA 
health care professionals.
 s. 373, the ``charlie morgan military spouses equal treatment act of 
                                 2013''
    PVA has no formal position on S. 373, the ``Charlie Morgan Military 
Spouses Equal Treatment Act of 2013.''
s. 430, the ``veterans small business opportunity and protection act of 
                                 2013''
    PVA supports S. 430, the ``Veterans Small Business Opportunity and 
Protection Act of 2013.'' This legislation would recognize the 
surviving spouse of a deceased service-disabled veteran who acquires 
the ownership interest in a small business of the deceased veteran as 
such veteran, for purposes of eligibility for VA service-disabled small 
business contracting preference, for a period of 10 years after the 
veteran's death. This 10 year continuation applies only if such veteran 
was either 100 percent disabled or died from a service-connected 
disability. In situations where the veteran was less than 100 percent 
disabled and did not die from a service-connected disability the 
eligibility will continue for 3 years. This 3-year period is necessary 
to continue conducting business that has been awarded and under 
contract. This time period allows the surviving spouse to develop plans 
for the future of the business, or plan for the sale of the business.
                                 s. 492
    PVA supports S. 492, a bill to amend Title 38, United States Code, 
to require states to recognize the military experience of veterans when 
issuing licenses and credentials to veterans without requiring 
additional training. This Federal legislation is necessary to encourage 
state license and certifying agencies to acknowledge the years of 
training and performance veterans may have had in specific career 
fields. Although some states have recognized this professional training 
and experience provided by the Federal Government, most have not. This 
unwillingness to license or certify qualified veterans can burden the 
veteran with years of classroom and on the job training before the 
veteran is allowed to work in a specific field with full pay. This bill 
will require states to become more active in the process of certifying 
qualified veterans.
            s. 495, the ``careers for veterans act of 2013''
    PVA supports S. 495, the ``Careers for Veterans Act of 2013.'' This 
legislation combines several issues from other bills previously 
introduced in the Senate. Those issues are surviving spouses' ownership 
and continuation of receiving Federal contracts for a business that was 
owned by a service-disabled veteran, and the requirement of states to 
issues licenses or credentials in employment trades that a veteran is 
qualified for and has received training and experience while in the 
military.
    The bill also requires the Sectary of Labor to provide each 
veteran's one-stop center with a list of Web sites and applications 
that are beneficial for veterans searching for employment. S. 495 also 
directs each Federal agency to development a five-year plan to hire 
qualified veterans with a total employment goal of 10,000 veterans 
hired in the five year period. PVA supports this legislation and when 
it is fully implemented, it will help many veterans with their 
transition to the civilian work force.
                                 s. 514
    PVA supports S. 514, a bill to amend Title 38, United States Code, 
to provide additional educational assistance under the current Post-9/
11 Educational Assistance to Veterans programs, who are pursuing a 
degree in high-demand occupational fields such as engineering, math, or 
an area that leads to employment in a high-demand occupation. This will 
eliminate the financial barrier that could arise as a veteran pursues 
the field of their choice with a STEM focus (science, technology, 
engineering, or math). Often special programs of these educational 
fields may cost above an individual state's allowance of the GI Bill. 
This will accommodate veterans who study in STEM fields.
                                 s. 515
    PVA supports S. 515, a bill to amend Title 38, United States Code, 
to extend the Yellow Ribbon G.I. Education Enhancement Program to cover 
recipients of the Marine Gunnery Sergeant John David Fry scholarship. 
This will allow public and private contributions for educational 
assistance to the child of an individual who dies in the line of duty 
while serving on active duty on or after September 11, 2001.
        s. 572, the ``veterans second amendment protection act''
    Regarding S. 572, the ``Veterans Second Amendment Protection Act,'' 
PVA has no formal position on this legislation.
   s. 629, the ``honor america's guard-reserve retirees act of 2013''
    Paralyzed Veterans of America supports S. 629, the ``Honor 
America's Guard-Reserve Retirees Act.'' This bill incorporates 
``veteran'' into the Guard and Reserve community. PVA supports 
recognizing and honoring all servicemembers, Guard or Reserve, for 
their faithful and honorable service in defending the United States of 
America. Serving in a volunteer force should be credited to the 
servicemember, not discounted through no fault of their own, because 
they were never activated.
        s. 674, the ``accountability for veterans act of 2013''
    PVA supports S. 674, the ``Accountability for Veterans Act of 
2013'' which will require prompt responses from the Department of 
Defense, the Social Security Administration and the National Archives 
and Records Administration when the Secretary of Veterans Affairs 
requests information necessary to adjudicate benefits claims. It is 
unfortunate that legislation is required in order for government 
agencies to promptly provide information to adjudicate a veteran's 
claim. PVA also supports the reporting requirement that will allow 
better oversight and should identify trends in timeliness of agency 
responses.
         s. 690, the ``filipino veterans fairness act of 2013''
    PVA has no official position on S. 690, the ``Filipino Veterans 
Fairness Act.'' That being said, we have concerns about the provisions 
of the legislation that address the $0.50-on-the-dollar benefit rate 
that has long been included in Title 38 U.S.C for non-resident Filipino 
veterans. It is our understanding that the legislation would eliminate 
this benefit rate from statute. This rate was established to reflect 
the fact that the standard-of-living in the Philippines is 
significantly less than in the United States. This rate was determined 
to reflect equitable and fair compensation for Filipino veterans who 
served alongside U.S. veterans, but who are not U.S. citizens. We see 
no reason why this rate should be changed (a position supported by the 
Department of Veterans Affairs in the past).
            s. 695, the ``veterans paralympic act of 2013''
    PVA supports S. 695, a bill that would reauthorize the Paralympics 
program that has partnered with the VA to expand sports and recreation 
opportunities to disabled veterans and injured servicemembers. We 
believe that this has certainly been a worthwhile program as the need 
for expansion of these activities is necessary. We appreciate the role 
that the Paralympics have played in this expansion.
    PVA believes that much progress and enhanced cooperation has 
resulted from the Paralympics Program and its partnership with VA. 
Under this program, PVA has witnessed improved coordination between our 
organization, USOC-Paralympics, and other veterans' and community-based 
sports organizations that has enhanced existing programs and advanced 
development of new programs in communities that previously had not been 
served. The overall performance of the partnership between PVA, the 
USOC-Paralympics and the Department of Veterans Affairs has 
successfully produced an increased number of sports and recreation 
opportunities for disabled veterans.
          s. 705, the ``war memorial protection act of 2013''
    PVA has no formal position on S. 705, the ``War Memorial Protection 
Act of 2013.''
       s. 735, the ``survivor benefits improvement act of 2013''
    PVA supports, S. 735, the ``Survivor Benefits Improvement Act of 
2013'' to extend the initial period for increase dependency and 
indemnity compensation for surviving spouses, to extend benefits for 
children of certain Thailand service veterans born with spina bifida, 
and conduct a pilot program on grief counseling for surviving spouses 
of veterans who die while serving on active duty in the Armed Forces.
                                 s. 778
    PVA has no specific position on the proposed legislation that would 
allow the VA to issue identification (ID) cards to veterans. While we 
can certainly see the merits of veterans having ID's that specifically 
indicate their status, we wonder what verification mechanism would be 
devised to determine whether or not a person is in fact a veteran. 
Would the VA require a person to apply for the ID card and include a 
copy of his or her DD214 for verification purposes? We question whether 
or not the VA can handle the additional administrative burden that 
might come with implementation of this legislation.
   s. 819, the ``veterans mental health treatment first act of 2013''
    While PVA understands the concepts outlined in S. 819, the 
``Veterans Mental Health Treatment First Act,'' we oppose this proposed 
legislation. We believe that this legislation tries to draw attention 
to a concept that the VA ought to be focused on already--the health and 
wellness of sick and disabled veterans. But this focus should not be at 
the expense of the veteran. We cannot argue with the importance of 
proper and effective treatment to address the mental health issues that 
veterans may face. However, we believe this legislation would simply 
force near term treatment on veterans in order to save the VA, and by 
extension the Federal Government, money paid out in compensation in the 
long term.
    First, we would point out that the legislation calls for a ``pre-
evaluation'' of the veteran exhibiting symptoms of Post-Traumatic 
Stress Disorder (PTSD) to determine if the condition might be related 
to his or her service. This implies a step the disability claims 
process should already be taking. Furthermore, it calls for the 
Secretary to prescribe regulations dictating what constitutes a 
relationship to military service--a concept already addressed in Title 
38 U.S.C. and the Code of Federal Regulations.
    Second, the legislation requires the veteran to delay his or her 
right to file a claim while participating in the program. While we can 
certainly see the benefit of a veteran participating in a comprehensive 
treatment program, we see no reason why he or she should not still be 
able to file a claim concurrently. Otherwise, the process simply is 
delayed a year. And while we understand the argument that a veteran 
would receive a stipend under this program, we do not believe that this 
is an acceptable method of offsetting the broad range of benefits, 
along with compensation, associated with adjudication of a claim. 
Furthermore, depriving a veteran of his or her entitlement to 
compensation may actually have the unintended effect of providing a 
financial disincentive to participate in rehabilitation and treatment.
          s. 863, the ``veterans back to school act of 2013''
    PVA supports S. 863, the ``Veterans Back to School Act of 2013.'' 
This legislation will repeal the current time limitations on the 
eligibility for use of educational assistance and extend eligibility to 
10 years after the veteran starts using the program. Section 3 of the 
bill ``Veterans Education Outreach Program'' would authorize funding to 
institutions of higher learning to establish an office for a veterans' 
education outreach program. To participate in the program an 
institution must have a minimum of 50 veterans enrolled and match the 
funding amount provided by the VA from non-Federal funds. Upon passage 
of the Post-9/11 GI Bill, Secretary Shinseki's public remarks were that 
he was pleased that young veterans can now attend the finest colleges 
and universities in the Nation. Our challenge (the VA's and the 
learning institutions) is to insure they stay in school. This new group 
of students, many returning from Iraq and Afghanistan, are non-
traditional students with non-traditional issues and problems. This 
legislation should provide on-campus counseling for veterans by 
veterans, along with support and assistance. The function of fostering 
communication among veteran students may be the key that helps veterans 
address this next chapter of life after the military.
    s. 889, the ``servicemembers' choice in transition act of 2013''
    PVA supports S. 889, the ``Servicemembers' Choice in Transition Act 
of 2013.''
 s. 893, the ``veterans compensation cost-of-living adjustment act of 
                                 2013''
    PVA supports S. 893, the ``Veterans' Compensation Cost-of-Living 
Adjustment Act of 2013,'' that would increase, effective as of 
December 1, 2013, the rates of compensation for veterans with service-
connected disabilities and the rates of dependency and indemnity 
compensation (DIC) for the survivors of certain disabled veterans. This 
would include increases in wartime disability compensation, additional 
compensation for dependents, clothing allowance, and dependency and 
indemnity compensation for children.
    While our economy continues to struggle, veterans' personal 
finances have been affected by rising costs of essential necessities to 
live from day to day and maintain a certain standard of living.
                                 s. 894
    PVA supports S. 894, a bill to amend Title 38, United States Code, 
to extend expiring authority for work-study allowances for individuals 
who are pursuing programs of rehabilitation, education, or training 
under laws administered by the Secretary of Veterans Affairs, to expand 
such authority to certain outreach services provided through 
congressional offices.
 s. 922, the ``veterans equipped for success during transition act of 
                                 2013''
    PVA supports S. 922, the ``Veterans Equipped for Success Act of 
2013.'' This legislation creates a comprehensive employment program 
that will benefit many veterans by getting them started in the work 
place, or helping some get back into the workplace. The three year 
pilot program will enroll 50,000 eligible veterans. The VA will 
designate the cities, minimum of four geographic areas, which will be 
available for this program based on veterans' unemployment rates for an 
area. The program will provide living wages for the veteran with 
medical care provided by the VA. The legislation specifies that the 
veteran worker should not be used in place of a full-time employee, or 
to replace a full time employee that is out on sick leave or has left 
the organization. This program will be a large undertaking for the VA 
and the Department of Labor along with helpful oversight from Congress. 
Employment programs for unemployed veterans have been created in the 
past, but for various reasons were not successful or properly funded. 
In this period of a slow economy, this can be a program of tremendous 
importance for helping many veterans learn job skills and eventually 
get into the workforce.
             s. 927, the ``veterans outreach act of 2013''
    PVA supports S. 927, the ``Veterans Outreach Act of 2013.'' With 
the large number of veterans currently in the United States, and the 
expectation that this number will increase with the current drawdown of 
the military, outreach becomes critical to ensuring those who have 
earned benefits are aware of their availability.
    However, PVA is concerned with funding the grants for the outreach. 
Too often additional programs are required of VA with no additional 
appropriations being provided. It would be unfortunate if Veterans 
Outreach suffered similarly. While there is a requirement for state 
entities to provide 50-percent matching funds, grants are provided to 
other entities including non-profits. With the current restrained 
fiscal environment, PVA is concerned that this will be another good 
idea that is never fulfilled due to funding shortfalls.
       s. 928, the ``claims processing improvement act of 2013''
    PVA generally supports the current draft of S. 928, the ``Claims 
Processing Improvement Act of 2013'' with a few concerns. First, 
Section 103 requires that the Secretary ``shall not make fewer than two 
attempts to obtain the records,'' which may be interpreted by VA that 
they are only required to make two attempts. This may also permit a 
decision that only one attempt is necessary if a second would be 
futile. This wording provides a great deal of subjectivity to the VA in 
an area that they have been continually challenged to improve.
    With regards to Section 201, understanding that the purpose of this 
legislation is to reduce the backlog, PVA is not supportive of 
legislation that abridges due process in any way. PVA believes 
proposing a shorter filing period for Notices of Disagreement from 1 
year to 6 months is unacceptable. A year gives the veteran the time to 
obtain any additional evidence to support the claim, particularly if it 
is a severely disabled veteran who can often face long hospital stays 
or rehabilitation. Seeking additional medical information can be a 
lengthy process. Furthermore, the ``good cause'' exception to the 
proposed 180-day period could actually result in much more dispute and 
litigation because of the broadness of the accepted circumstances of 
``physical, mental, educational and linguistic limitation.'' There may 
be an alternative that would allow claimants to waive the longer filing 
period if they are sure the needed medical information can be quickly 
obtained.
    PVA supports Section 202 with regards to video conferencing. As 
long as there is the ability to request an in-person hearing that the 
Board would be required to honor, we believe this will benefit both the 
claimant and the Board. At the Veteran Service Organization forums held 
by the Board, there has been an ongoing emphasis on holding video 
conferences whenever possible to reduce time lost for no-shows. 
Additionally, the grant rate for video versus in-person hearings is the 
same. In fact, PVA has encouraged service officers to hold video 
conference hearings and the vast majority of PVA hearings are now held 
via video conference.
    Under Section 305 paragraph (c), the proposed legislation supports 
PVA's position on the Accepted Clinical Evidence Initiative. We are 
concerned VA may downplay the effectiveness by under-reporting it. The 
single 15-month pilot took place only at the St. Paul Regional Claims 
office, which doesn't have a significant backlog, reducing the 
likelihood of large amounts of data to report. PVA believes VA should 
have to expand the pilot before reporting on it to allow examination of 
its true efficacy. Large urban areas or rural areas would benefit most. 
For example, as of May 6, 2013, St. Paul has 9,553 veterans waiting, 
with 2,447 waiting more than 125 days and 346 waiting more than one 
year with an average wait time of 110 days. This is compared to Houston 
with 36,044 veterans waiting, with 26,331 waiting more than 125 days 
and 14,480 waiting more than one year with an average wait time of 419 
days; or San Diego with 28,467 veterans waiting, with 19,435 waiting 
more than 125 days and 7,666 waiting more than one year with an average 
wait time of 319 days.
                                 s. 930
    PVA has no formal position on S. 930.
       s. 932, the ``putting veterans funding first act of 2013''
    PVA is pleased to see this legislation put forward by Sen. Begich 
and fully supports it. This legislation, similar to H.R. 813, the 
``Putting Veterans Funding First Act of 2013,'' introduced by House 
Committee on Veterans' Affairs Chairman Jeff Miller (R-FL) and Ranking 
Member Mike Michaud (D-ME), requires all accounts of the VA to be 
funded through the advance appropriations process. It would provide 
protection for the operations of the entire VA from the political 
wrangling that occurs as a part of the appropriations process every 
year. We would also like to see the Committee consider legislation 
similar to that introduced by Representative Brownley in H.R. 806, the 
``Veterans Healthcare Improvement Act'' that permanently establishes 
the Government Accountability Office's reporting requirements as a part 
of VA advance appropriations.
     s. 935, the ``quicker veterans benefits delivery act of 2013''
    PVA supports S. 935, the ``Quicker Veterans Benefits Delivery Act 
of 2013.'' PVA has consistently recommended that VA accept valid 
medical evidence from non-Department medical professionals. The 
continuing actions of VA to require Department medical examinations 
does nothing to further efforts to reduce the claims backlog and may 
actually cause the backlog to increase.
      s. 938, the ``franchise education for veterans act of 2013''
    PVA supports the draft legislation ``Franchise Education for 
Veterans Act of 2013'' which would amend Title 38, United States Code, 
to allow certain veterans to use funding from educational assistance 
provided by the Department of Veterans Affairs for franchise training. 
Many veterans are using their Post-9/11 GI Bill to begin, or continue 
their education to prepare for future careers. This unique benefit will 
help hundreds of thousands of veterans as they complete their education 
and move into career positions in government or private sector. For 
those that choose not to attend college, owning a business franchise 
can allow a veteran to provide for themselves and their families. Since 
every franchise has a training program to prepare the future business 
owner for achieving success, PVA supports the concept of using the 
veterans' earned benefit, Post-9/11 GI Bill, to help pay for this 
valuable and required training. The VA should require certain standards 
of a training program and a history of the parent corporation's success 
in their field of business along with a pattern of successful 
franchises. This scrutiny of the training and a review of the business 
plan of the franchise would be necessary to eliminate organizations 
that obtain their profits from selling franchises rather that providing 
a product or service that has a market demand.
                                 s. 939
    PVA fully supports this legislation. The claims process is 
significantly complicated and it is noted that VA often does not 
properly forward the Notice of Appeal to the Board. This legislation 
will permit a Notice of Appeal incorrectly sent to VA instead of the 
Court to be considered as a motion for reconsideration by the Board. 
This is the fair thing to do where the intent of the veteran clearly 
was to appeal.
    PVA would once again like to thank the Committee for the 
opportunity to submit our views on the legislation considered today. 
Enactment of much of the proposed legislation will significantly 
enhance the benefits services available to veterans, servicemembers, 
and their families. We would be happy to answer any questions that you 
may have for the record.
      s. 944, the ``veterans' educational transition act of 2013''
    As with S. 257, PVA supports S. 944, the ``Veterans' Educational 
Transition Act of 2013.'' Because of the unique nature of military 
service, Veterans deserve an in-state tuition and fees rate when using 
the GI Bill at public institutions even when the veteran did not 
originally reside in that state.
    PVA would once again like to thank the Committee for the 
opportunity to submit our views on the legislation considered today. 
Enactment of much of the proposed legislation will significantly 
enhance the health care services available to veterans, servicemembers, 
and their families. We would be happy to answer any questions that you 
may have for the record.
                                 ______
                                 
    Prepared Statement of Religious Action Center of Reform Judaism


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
Prepared Statement of Reserve Officers Association of the United States 
         and Reserve Enlisted Association of the United States
                              introduction
    Mr. Chairman and members of the subcommittee, the Reserve Officers 
Association (ROA) and the Reserve Enlisted Association (REA) would like 
to thank the Committee for the opportunity to submit testimony. ROA and 
REA applaud the ongoing efforts by Congress to address issues facing 
veterans and serving Reserve Component members such as veteran status, 
employment challenges, improvements to the education program, claims 
processing and more.
    Reservists are unique as veterans; warriors who, when separated 
from active duty, are still subject to recall. This creates a different 
set of challenges for this group, atypical from nonaffiliated veteran 
concerns.
    Though contingency operations in Afghanistan are winding down, 
currently there are still high levels of mobilizations and deployments 
for Guard and Reserve members, and many of these outstanding citizen 
soldiers, sailors, airmen, Marines, and Coast Guardsmen have put their 
civilian careers on hold while they serve their country in harm's way. 
As we have learned, they share the same risks as their counterparts on 
the battlefield in the Active Components. Over 875,000 Guard and 
Reserve servicemembers have been activated since September 11. Of these 
one-third have been mobilized two or more times. The United States is 
creating a new generation of combat veterans that come from its Reserve 
Components (RC). It is important, therefore, that we do not squander 
this valuable resource of experience, nor ignore the benefits that they 
are entitled to because of their selfless service to their country.
    Yet there is a group of serving Reserve Component members who have 
prepared these war veterans, who are not recognized as veterans 
themselves. Many of these Guard and Reserve members don't qualify for 
veteran status, because their active duty periods are not long enough. 
ROA and REA thank the Committee for including Senator Pryor's bill 
S. 629, ``Honor America's Guard-Reserve Retirees Act of 2013,'' to be 
included in this hearing.
    Unfortunately, unemployment continues to run about 10 percent 
higher for younger Guard and Reserve members than for non-affiliated 
veterans. ROA and REA would like to work with this Committee to develop 
employment solutions that would focus on this age group.
    ROA and REA endorse S. 629 (Pryor), S. 6 (Reid), S. 257 (Boozman), 
S. 262 (Durbin), S. 294 (Tester), S. 430 Heller, S. 515 (Brown), S. 572 
(Burr), S. 674 (Heller), S. 695 (Boozman), S. 705 (Burr), S. 735 
(Sanders), S. 819 (Burr), S. 893 (Sanders), S. 894 (Sanders), S. 922 
(Sanders), S. 927 (Sanders), S. 928 (Sanders), S. 863 (Blumenthal).
    The Associations don't necessarily object to legislation that is 
excluded from this list.
                  reserve association's agenda summary
Employer Support:
    <bullet> Continue to enact tax credits for health care and 
differential pay expenses for deployed Reserve Component employees.
    <bullet> Provide tax credits to offset costs for temporary 
replacements of deployed Reserve Component employees.
    <bullet> Support tax credits to employers who hire servicemembers 
who supported contingency operations.
Employee Support:
    <bullet> Permit delays or exemptions while mobilized of regularly 
scheduled mandatory continuing education and licensing /certification/
promotion exams.
    <bullet> Seek a credentialing process to recognize military skills
    <bullet> Continue to support a law center dedicated to USERRA/SCRA 
problems of deployed Active and Reserve servicemembers.
Uniformed Services Employment and Reemployment Rights Act (USERRA)/
        Servicemembers' Civil Relief Act (SCRA):
    <bullet> Improve SCRA to protect deployed members from creditors 
that willfully violate SCRA.
    <bullet> Fix USERRA/SCRA to protect health care coverage of 
returning servicemembers and family for pre-existing conditions, and 
continuation of prior group or individual insurance.
    <bullet> Encourage Federal agencies to abide by USERRA/SCRA 
standards.
    <bullet> Ensure USERRA isn't superseded by binding arbitrations 
agreements between employers and Reserve Component members.
    <bullet> Make the states employers waive 11th Amendment immunity 
with respect to USERRA claims, as a condition of receipt of Federal 
assistance.
    <bullet> Make the award of attorney fees mandatory rather than 
discretionary.
Veterans Affairs:
    <bullet> Calculate years of service for disability retired pay for 
Reserve Component members wounded or injured in combat under section 
12732 of U.S.C. Title 10.
    <bullet> Extend veterans preference to those Reserve Component 
members who have completed 20 years in good standing.
    <bullet> Make permanent Reserve Component VA Home Loan Guarantees.
    <bullet> Eliminate the 3/4 percent fee differential between Active 
Component and Reserve Component programs on VA Home Loan.
    <bullet> Support burial eligibility for deceased gray-area retirees 
at Arlington National Cemetery.
    <bullet> Continue to seek timely and comprehensive implementation 
of concurrent receipt for disabled receiving retired pay and VA 
disability compensation.
       including reserve retirees who have earned veteran status
    Many Guard and Reserve servicemembers have served admirably for 20 
plus years and qualify for retirement without having been called to 
active duty service during their careers. The Pentagon estimates there 
are just under 290,000 in this group. At age 60, they are entitled to 
Reserve military retired pay, government health care, and other 
benefits of service, including some Veterans' benefits. Yet current law 
denies them full standing as a Veteran of the Armed Forces. Both ROA 
and REA support Senator Pryor's bill S. 629, Honor America's Guard-
Reserve Retirees Act of 2013 to correct this injustice. It is the right 
thing to do!
    Reserve Component members, as defined in law, who have completed 20 
or more years of service are military retirees and eligible once 
reaching 60 years of age for all of the active duty military retiree 
benefits. Conversely they are not considered to be ``Veterans'' if they 
have not served the required number of uninterrupted days on Federal 
active duty (defined as active duty other than for training). Yet over 
20 years they have sacrificed much in family and civilian employment 
opportunity and at a minimum have served more than seven years on duty 
over weekends and annual duty.
    Serving Reserve Component members focus on numerous things such as 
the mission at hand, the job, training and development, the troops, 
going where needed, and other responsibilities, but not much thought is 
given by individuals to making sure they had the right kind of duty 
orders to qualify as a Veteran upon retirement.
    Those Reserve Component members that have been called to serve in 
Operation Enduring Freedom, Operation Iraqi Freedom or Operation New 
Dawn have undoubtedly qualified as Veterans. Yet, there are many others 
who stand in front of and behind these men and women--preparing them 
and supporting them--individuals that are also ready to deploy but 
because of their assigned duties may never serve in that capacity. 
Nevertheless they serve faithfully.
    Twenty or more years of service in the Reserve forces and 
eligibility for Reserve retired pay should be sufficient qualifying 
service for full Veteran status under the law.
    This issue is a matter of honor for those, who through no fault of 
their own were never activated, but served their nation faithfully for 
20 or more years.
Hurtles
    Seemingly, the biggest hindrance to passing S. 629 to grant 
Veterans status, is the misconception that passage would have 
unintended consequences, causing this group of Veterans to receive 
benefits that they would not otherwise qualify for. The pending 
legislation would change the legal definition of ``Veteran'' so that 
proper acknowledgment and recognition that comes with the designation 
of ``veteran'' would be made. BUT it would NOT change the legal 
qualification for access to any benefits.
    Each veteran benefit has a different set of qualifications because 
each was created at a different time. Every time Congress passes new 
legislation that is signed into law authorizing new Veteran benefits, 
the eligibility requirements are determined for that specific benefit. 
Veteran status depends on which Veteran program or benefit you are 
applying for. Thus S. 629's language does not generate unintended 
consequences.
    Some have suggested moving such language out of Title 38. If that 
were to happen, a specific group would be classified as second-class 
veterans. Such a result would not grant these admirable men and women 
the honor they deserve for their 20 years plus service, but denigrate 
it.
No Cost
    Reserve Component members with 20 years or more service without 
qualifying consecutive active duty time, will not be given special 
access to Veterans Affairs (VA) disability rating. Currently if they 
are injured while on military orders in the line of duty, they are 
already eligible for a VA disability rating and VA health care.
    In the majority of circumstances these individuals will have other 
full-time employment in the private sector or as a civilian government 
employee. Therefore almost all have health care insurance through their 
employer, and have no need to rely on VA health benefits. Upon reaching 
60 years of age they will be eligible for TRICARE, and at age 65 for 
TRICARE for Life.
                reducing guard and reserve unemployment
    Employers view USERRA as a negative incentive and would like to see 
positive encouragement to hire veterans. Reauthorizing the VOW to Hire 
Heroes Act is a good step, but does not address the problems faced by 
Guard and Reserve members. For younger Guard and Reserve members 
unemployment continues to run at about 10 percent higher than non-
affiliated veterans. For the most part those between 18 to 24 years old 
are from the Reserve Component, who in April had an unemployment rate 
over 14 percent.
    After 10 years of war, employers are more comfortable hiring 
unaffiliated veterans, than those who could be recalled to active duty 
and with a future risk of an operational call-up once every five years. 
It is just easier not to hire Guard and Reserve members.
    While this may be a violation of the USERRA, stealth discrimination 
can easily occur if you do not tell the Reserve Component veteran that 
their military career is why they were not hired. Additional positive 
incentives are needed for this group of veterans.
    Notwithstanding the protections and antidiscrimination laws in 
effect for veterans and serving members, it is not unusual for members 
to lose their jobs due to time spent away while deployed. Sometimes 
employers are going out of business, but more often it is because it 
costs employers money, time, and effort to reintroduce the employee to 
the company.
    Incentives of various types would serve to mitigate burdens and 
encourage businesses to both hire and retain Reservists and veterans. 
Examples include providing employers--especially small businesses--with 
incentives such as cash stipends to help pay for health care for 
Reservists up to the amount DOD is contributing. Small businesses are 
more likely to hire Guard and Reserve veterans if they could afford to 
hire temporary replacements. A variety of tax credits could be enacted 
to provide such credit at the beginning of a period of mobilization or 
perhaps even a direct subsidy for costs related to a mobilization such 
as the hiring and training of new employees.
Small Business hiring of Guard and Reserve members
    Deployment of Guard and Reserve members has the hardest impact on 
small businesses. Such businesses are the backbone of the American 
economy, and are expected to do the majority of the hiring in the near 
future. The Small Business Administration defines a small business 
(depending on the industry) as a business with fewer than 500 
employees. A micro-business is defined as having fewer than 10 
employees.
    ROA and REA support initiatives to provide small business owners 
with protections for their businesses while a Reserve Component 
employee is on deployment. Employer care plans should be developed in a 
way that will assist with mitigation strategies for dealing with the 
civilian workload during the absence of the servicemember employee and 
lay out how the employer and employee would remain in contact 
throughout the deployment.
    If a Reserve Component small business owner is killed in the line 
of duty, ROA and REA support legislation that would extend veteran 
entitlements to the surviving spouse as long as she or he maintain a 
controlling interest.
Recognition of Active Duty experience for civilian employment
    There is an ongoing challenge on how to convert military skill sets 
into credited experience that would be recognized by civilian employers 
and provide longevity credit during a licensing or credentialing 
process. Cross-licensing/credentialing would ease the burden of having 
to acquire new licenses/credentials in the private sector after having 
gained experience to perform such duties during military service.
    ROA and REA encourage the implementation of certifications or a 
form that would inform employers of skills potential veteran and 
servicemember employees gained through their military service.
    The Associations are concerned about suggested language that would 
require ``no less than 10 years'' of experience in a Military 
Occupation Specialty before such certification could be earned. Many 
active duty contracts are of a much shorter duration, and experience 
should not be measured by a calendar. Like educations institutions that 
provide accreditation for military professional experience, state tests 
should evaluate the amount of experience of an individual.
                               education
    Education improves a veteran's chance for employment, and many 
returning combat veterans seek a change in the life paths. There is 
still room for more improvement in the Post-9/11 GI Bill that in the 
long run can make the program more effective and increase utilization.
    Issues that student veterans have raised to ROA and REA in which we 
recommend include the following:

    <bullet> Seek in-state tuition for non-resident veterans
    <bullet> Establish dedicated and well-trained officers for student 
veterans to speak with via a call center.
    <bullet> Allow institutions to give more funds to students with 
stronger merit and need-base under the Yellow Ribbon Program.
    <bullet> Extend Yellow Ribbon Program to Fry scholarship 
recipients.
    <bullet> Align the VA's work-study program for students to work as 
guidance officers at their institutions to aid other student veterans, 
to be matched up with institution's academic calendar.
    <bullet> Safeguard and implement a long term plan for sustaining 
the Post-9/11 GI Bill.

         - Ensure transferability benefits are protected.
         - Guarantee that any future changes to the program that could 
        have negative effects on benefits will grandfather in current 
        beneficiaries.

    <bullet> Pass legislation to disallow institutions including 
benefits in need-based aid formulations.
    <bullet> Transferring jurisdiction of Montgomery GI Bill for 
Selected Reserve to Veteran Affairs committees.

    One of the most significant problems that link all issues 
pertaining to the Post-9/11 GI Bill is the lack of effectively trained 
customer service representatives. One of the many examples came from 
two of our members that are married, both serving in a Reserve 
Component. They wanted to transfer their benefits to their children, 
but were told that only one parent can register the children in the 
DEERS system and therefore only one of the parents could transfer the 
benefits. After going through a couple back channels ROA found out that 
the couple needed to go to a DEERS office and request an 
`administrative' account for the purposes of transferring benefits.
    There are many stories similar to this one which causes unnecessary 
stress on the families, some of whom give into the system and give up 
the benefit because either they are given incorrect and/or incomplete 
information or the hassles involved are not deemed worthwhile.
    It is absolutely necessary that our servicemembers, veterans and 
families have the ability to access accurate and timely information. 
ROA and REA urge Congress to insist on the VA and education 
institutions to properly and effectively train their personnel.
                               conclusion
    ROA and REA appreciate the opportunity to submit testimony. ROA and 
REA look forward to working with the Senate Veterans' Affairs Committee 
on solutions to these and other issues. We hope in the future for an 
opportunity to discuss these issues in person with committee members 
and their staff.
                                 ______
                                 
     Prepared Statement of Carolyn W. Colvin, Acting Commissioner, 
                     Social Security Administration
    Thank you, Chairman Sanders, for giving me the opportunity to 
discuss S. 674, the Accountability for Veterans Act of 2013. I 
appreciate this opportunity to discuss several ways in which we help 
the men and women who have served our Nation. The Social Security 
Administration (SSA) historically and proudly has been a ``can-do'' 
agency. The services we provide to our Nation's veterans illustrate our 
deep commitment to assisting those in need. I applaud you, Senator, for 
leading the Committee's efforts in helping the Department of Veterans 
Affairs (VA) improve the processing of disability compensation 
applications.
    For my statement today, I will focus specifically on the provision 
in the S. 674 that would require covered agencies, including SSA, to 
provide VA with information necessary to process a VA claim within 30 
days after such information is requested by VA. The vast majority of 
the information we provide VA is medical records that we gather during 
the processing of the veterans' claims for Social Security disability 
benefits.
    While the purposes and eligibility criteria for VA and Social 
Security disability programs differ significantly, the process of 
determining disability in both programs hinges on medical information 
provided to adjudicators. Thus, we recognize that having complete and 
timely medical records is vitally important to both programs. We are 
proud of the work that we are doing with VA to help ensure veterans get 
the benefits due them, and we greatly value our mutually beneficial 
partnership with VA.
    In March, the Government Accountability Office (GAO) testified 
before this Committee on VA's disability compensation claims process. 
In its testimony, GAO created the impression that we do not promptly 
reply to the requests for medical records that we receive from VA. That 
impression is simply wrong. As the data show, we place a high priority 
on the requests we receive from VA and work very hard on responding to 
them timely.
    In FY 2012, we received nearly 33,000 requests for medical evidence 
from VA. On average, we responded to those requests in less than a 
week. We currently have no pending requests that are older than 90 
days. For the first quarter of fiscal year 2013, we received over 9,600 
requests for medical evidence from VA. On average, we responded to 
those requests in less than a week, with only four cases taking longer 
than 60 days, and we responded to all of them in less than 90 days.\1\ 
Moving forward, we should be able to comfortably and consistently meet 
the requirement in S. 674 if it were enacted. However, even without a 
statutory requirement, I can assure you that we will continue to work 
hard to assist our Nation's veterans and VA.
---------------------------------------------------------------------------
    \1\ The current delays in processing VA requests are due to 
situations in which there are paper files that need to be mailed from 
another SSA location, such as a local field office or hearing office, 
to the NRC. As we have shifted from paper to electronic files, any 
delays should be further reduced as we can access electronic files 
instantaneously.
---------------------------------------------------------------------------
    We have taken several steps to ensure that we continue to respond 
timely to VA's requests. We centralized our process in our National 
Records Center (NRC) in Independence, Missouri. The NRC receives all 
requests and provides all records. If the requested records are in a 
paper file located in a different facility, the NRC requests the file, 
photocopies the medical records from it, and sends them to VA. By 
completely centralizing our process, we have greater control over these 
requests and ensure timely responses to all of them. We have also 
established processes to expedite Agent Orange and homeless veterans' 
cases; on average, we send these records in two days or less from the 
date we receive the requests.
    We also maintain good and regular communications with VA about 
requests for information. SSA had previously asked VA to follow up on 
requests for medical records after 60 days, but that timeframe was 
recently reduced to 20 days for a first followup and 35 days for a 
second followup. Finally, we developed a tracking system to ensure that 
we do not overlook a single case and have designated a staff person to 
serve as VA liaison in our NRC facility. Our NRC liaison tracks status 
and folder location for any request over 35 days old and explains any 
delays to VA.
    We continue to work with VA to streamline the medical records 
request process. For example, we collaborated with VA to establish the 
Veterans Administration Regional Office (VARO) Project. Currently, five 
VARO sites participate in the project. The VARO Project uses a web-
based tool that allows VA staff to communicate securely and directly 
with us. This automated tool significantly improves efficiency. We 
participate in weekly and monthly conference calls with VA headquarters 
personnel to discuss record requests, including any problems we have 
encountered and any improvements that can be made to the process.
    Our involvement in VA's disability compensation claims process 
extends beyond supplying medical records. Through numerous verification 
and exchange agreements, we also provide VA with verification of names 
and Social Security numbers, information about Social Security and 
Supplemental Security Income benefits, employer reports of earnings 
from our Master Earnings File, and indicators of death reports and 
prisoner data. VA uses these data for ensuring eligibility and accuracy 
of VA payments. Recently, we have implemented changes to increase the 
frequency of the earnings data exchanges from annually to weekly at the 
request of VA.
    Again, thank you for your work on these important issues and for 
this opportunity to describe the ways we help Veterans. We are proud of 
our efforts to reach out to the men and women who have served this 
Nation. We think our partnership with VA is very effective. By working 
together with Congress, we believe both agencies will continue to make 
substantial progress toward providing the world-class service that our 
veterans deserve.
                                 ______
                                 
       Prepared Statement of Michael Dakduk, Executive Director, 
                      Student Veterans of America
    Chairman Sanders, Ranking Member Burr, and Members of the 
Committee: Thank you for inviting Student Veterans of America to submit 
written testimony regarding pending legislation intended to increase 
support for military servicemembers and veterans.
    Student Veterans of America is the largest and only national 
association of military veterans in higher education. Our mission is to 
provide military veterans with the resources, support, and advocacy 
needed to succeed in higher education and after graduation. We 
currently have over 800 chapters, or student veteran organizations, at 
colleges and universities in all 50 states that assist veterans in 
their transition to and through higher education. SVA chapters are 
organized as four-year and two-year public, private, nonprofit, and 
for-profit institutions of higher learning. This diverse and direct 
contact gives SVA a unique perspective on the needs and obstacles faced 
by our Nation's veterans as they utilize education benefits in 
preparation for their future transition into the civilian workforce.
S. 257, GI Bill Tuition Fairness Act of 2013:
    The Post-9/11 GI Bill pays the highest in-state tuition and fees. 
Due to military obligations, many veterans are unable to establish in-
state residency for the purposes of enrolling at a public university or 
college. Ultimately, this becomes a financial burden that leaves 
veterans vying for additional financial aid due to out-of-state 
residency status.
    This proposed bill would make all student veterans eligible for in-
state tuition at public colleges and universities, regardless of their 
residency status, eliminating the need for veterans seeking a post-
secondary credential to find full-time employment or accrue student 
loan debt while attending a public institution.
    The protocol for establishing residency for tuition purposes varies 
across the spectrum of higher education, leaving many recently-
separated veterans unable to satisfy strict requirements due to their 
service in another state. Nuanced policies and variability between 
states and university systems are highly complex and penalize veterans 
with stringent residency requirements they are unable to fulfill due to 
their honorable military service.
    According to a state-by-state landscape analysis conducted by our 
organization, 12 states already offer in-state tuition to veterans, 8 
states offer conditional waivers to veterans under particular 
circumstances, and another 16 states are currently considering similar 
legislation.
    State leaders from both sides of the aisle have recognized the 
financial and social benefits veterans bring to their communities. Not 
only do student veterans diversify the landscape of higher education by 
bringing their unique experiences and perspectives to public campuses, 
but many veterans will pursue careers within the same state post-
graduation.
    Veterans who choose to attend public schools, but are unable to 
qualify for residency status should not have to shoulder the burden of 
additional tuition fees. We are proud to be working with the American 
Legion on a state-by-state initiative to see in-state tuition granted 
to all veterans. We are also very proud to be aligned with both the 
American Legion and the Veterans of Foreign Wars (VFW) in seeing this 
issue resolved in Congress. We recognize that veterans served our 
Nation in its entirety, not just one state, and as such we hope to see 
veterans provided the opportunity to use their educational benefits in 
all states without discrimination.
    SVA fully supports S. 257 and hopes the Committee moves quickly to 
pass this legislation.
S. 262, Veterans Education Equity Act of 2013:
    SVA would like to thank Senator Durbin for his attention to the 
inequity existing within the Post-9/11 GI Bill. While we support the 
intention of this bill, which seeks to address the same issue as 
S. 257, we cannot support this legislation.
    In an attempt to offset decreasing revenues due to state budget 
cuts, public colleges and universities have significantly raised the 
cost of out-of-state tuition. Some institutions have inflated out-of-
state tuition to over 300% of the in-state tuition rate, forcing 
student veterans who are unable to meet residency requirements to fund 
their education through other means of Federal financial aid, student 
loans, or full-time employment.
    S. 262 proposes to increase compensation received by non-resident 
veterans attending public colleges and universities.
    SVA stands in agreement with the VFW that it would be irresponsible 
to place additional financial burden on VA and the American taxpayer 
when we know these schools can deliver a quality education at the in-
state rate, and stand with the American Legion in that S. 262 would 
encourage inefficiency within the higher education system. SVA thanks 
Senator Durbin for his serious consideration of the issue and looks 
forward to working with him to support student veterans.
S. 492, a bill to amend title 38, United States Code, to require States 
        to recognize the military experience of veterans when issuing 
        licenses and credentials to veterans, and for other purposes:
    This bill ensures that professional military personnel have the 
opportunity to sit for licensing exams, allowing veterans the 
opportunity to successfully translate their military expertise and 
effectively integrate into the civilian workforce.
    SVA stands with VFW and the American Legion in support of this 
legislation.
S. 495, Careers for Veterans Act:
    SVA supports S. 495, which incentivizes the private sector to hire 
and retain veterans, provides veterans with Federal employment 
opportunities, and extends additional protections for surviving spouses 
of veteran entrepreneurs.
S. 863, Veterans Back to School Act of 2013:
    Currently, veterans have 10 years upon separation from the military 
to use their Montgomery GI Bill (MGIB) benefit. Military veterans are 
nontraditional students, and often do not enter a higher education 
environment immediately after military service. In fact, many 
nontraditional students start and stop school at various times during 
their academic careers. By initiating the MGIB clock once the veteran 
begins using the benefit, we provide these nontraditional learners with 
a better opportunity for academic success and ultimately post-
graduation employment. Additionally, these veterans have made financial 
contributions to the MGIB. They made the investment to better 
themselves through higher learning and we have an obligation to honor 
that investment.
    SVA is also pleased to see a veteran outreach component to this 
bill. By providing institutions of higher learning with support to 
increase outreach efforts, student veterans will ultimately be better 
served. Programs and services dedicated to veterans on campus are 
absolutely critical to retention, graduation, and post-graduation 
employment.
S. 514, a bill to amend title 38, United States Code, to provide 
        additional educational assistance under the Post-9/11 
        educational Assistance to veterans pursuing a degree in 
        science, technology, engineering, math or an area that leads to 
        employment in a high-demand occupation, and for other purposes:
    This bill stands to provide additional financial support to student 
veterans pursuing a degree in the fields of science, technology, 
engineering, math, or an area that leads to employment in a high-demand 
occupation. SVA has long supported the intent of such legislation, 
seeing as the demand for jobs in these fields are high and veterans, 
with their unique experiences and training, stand to significantly 
contribute to these industries.
    Because high tuition costs and long paths to graduation are often 
associated with these degrees, SVA supports giving the Secretary the 
discretion to distribute additional funds to student veterans 
participating in such programs as deemed appropriate.
S. 6, Putting Our Veterans Back to Work:
    SVA supports this bill, which focuses on transitioning recently-
separated veterans and student veterans into the civilian workforce 
through an extension of the VRAP program and additional protections 
under the Uniformed Servicemembers Employment and Reemployment Rights 
Act (USERRA).
S. 430, Veterans Small Business Opportunity and Protection Act of 2013:
    SVA supports this bill, as well as similar language in S. 495, that 
would allow survivors of veteran entrepreneurs to continue operating 
their business as if the entity remained veteran-owned. We encourage 
the Senate to take swift action on this either as stand-alone 
legislation or through S. 495.
S. 515, a bill to amend title 38, United States Code, to extend the 
        Yellow Ribbon GI Education Enhancement program to cover 
        recipients of Marine Gunnery Sergeant John David Fry 
        scholarship, and for other purposes:
    As it stands eligible dependents of a servicemember killed in 
action are excluded from additional educational benefits through the 
Yellow Ribbon Program. S. 515 will provide Fry Scholarship recipients 
the same benefits as other Chapter 33-eligible beneficiaries. SVA 
stands with the VFW and American Legion in strong support of this 
legislation.
S. 894, a bill to amend title 38, United States Code, to extend 
        expiring authority for work-study allowances for individuals 
        who are pursuing programs of rehabilitation, education, or 
        training under laws administered by the Secretary of Veterans 
        Affairs, to expand such authority to certain outreach services 
        provided through congressional offices, and for other purposes:
    Although SVA did not have adequate time to review the text of 
S. 894, we do offer our support of the legislation's intention to 
extend expiring work-study allowances for individuals pursuing programs 
of rehabilitation, education or training. Many student veterans use the 
work-study program as a supplement to pay for their bills and other 
costs not covered by primary VA educational programs. SVA strongly 
supports the VA work-study program.
Draft bill, a bill to provide in-state tuition to transitioning 
        veterans:
    SVA did not receive a draft of this bill in time to offer comment; 
however, we believe that S. 257 is the appropriate and comprehensive 
way to offer equitable funds to veterans using the Post-9/11 GI Bill.

    SVA was not provided the text of the following legislation in 
adequate time to review and offer comment:
S. 674, Accountability for Veterans Act of 2013
S. 893, Veterans' Cost-of-Living Adjustment Act of 2013
S. 928, Claims Processing Improvement Act of 2013
S. 922, Veterans Equipped for Success During Transition Act of 2013
Draft bill, Veterans Outreach Act of 2013

    SVA finds the following bills outside the scope of our mission and 
does not wish to offer comment at this time:
S. 200, a bill to amend title 38, United States Code, to authorize the 
        interment in national cemeteries under the control of the 
        National Cemetery Administration of individuals who served in 
        combat support of the Armed Forces in the Kingdom of Laos 
        between February 28, 1961, and May 15, 1975, and for other 
        purposes.
S. 294, Ruth Moore Act of 2013
S. 373, Charlie Morgan Military Spouses Equal Treatment Act of 2013
S. 572, Veterans Second Amendment Protection Act
S. 629, Honor America's Guard-Reserve Retirees Act of 2013
S. 674, Accountability for Veterans Act of 2013
S. 690, Filipino Veterans Fairness Act of 2013
S. 695, Veterans Paralympic Act of 2013
S. 705, War Memorial Protection Act of 2013
S. 735, Survivor Benefits Improvement Act of 2013
S. 748, Veterans Pension Protection Act
S. 819, Veterans Mental Health Treatment First Act of 2013

    Thank you Chairman Sanders, Ranking Member Burr, and distinguished 
Members of the Committee for allowing Student Veterans of America to 
present our views on legislation focused on supporting veterans, 
military servicemembers, and their families.
                                 ______
                                 
          Prepared Statement of Service Women's Action Network
    Chairman Sanders, Ranking Member Burr and distinguished Members of 
the Committee: Thank you for the opportunity to submit written 
testimony for the record and thank you for your continued leadership on 
veteran's issues and for convening this hearing today.
    The Service Women's Action Network (SWAN) is a non-profit, non-
partisan veterans led civil rights organization. SWAN's mission is to 
transform military culture by securing equal opportunity and freedom to 
serve without discrimination, harassment or assault; and to reform 
veterans' services to ensure high quality health care and benefits for 
women veterans and their families.
    We challenge institutions and cultural norms that deny equal 
opportunities, equal protections, and equal benefits to servicemembers 
and veterans. SWAN is not a membership organization, instead we utilize 
direct services to provide outreach and assistance to servicemembers 
and veterans and our policy agenda is directly informed by those 
relationships and that interaction.
    SWAN extends opportunities to and promotes the voices and agency of 
service women and women veterans without regard to sex, gender, sexual 
orientation or gender identity or the context, era, or type of their 
service.
    SWAN welcomes the opportunity to share our views on two bills 
before the Committee today: S. 294 the Ruth Moore Act of 2013; and 
S. 373 the Charlie Morgan Military Spouses Equal Treatment Act of 2013.
                                 s. 294
    SWAN strongly supports S. 294, the Ruth Moore Act. Veterans who are 
partially or fully disabled from an injury suffered while serving in 
the military are entitled to disability benefits. Currently VA policy 
requires a veteran applying for disability benefits to demonstrate 
three things: A diagnosis of a medical or mental health issue; Proof 
that an event (stressor) happened while in the service; and a link 
between the stressor and the medical/mental health issue, provided by a 
VA examiner. The Ruth Moore Act allows a statement from the survivor to 
be considered sufficient proof that an assault occurred.
    SWAN has been advocating for changes to the VA claims process for 
several years. We actively supported the 2010 change to the claims 
process for PTSD- claims related to ``fear of hostile military or 
terrorist activity'' and have provided testimony many times to both 
House and Senate committees on issues and challenges facing women 
veterans at both the VHA and VBA, and the unique challenges faced by 
veterans filing Military Sexual Trauma (MST) claims.
    According to VA, PTSD is the most common mental health condition 
associated with MST. For women veterans, MST is a greater predictor of 
PTSD than combat. Studies also indicate that sexual harassment causes 
the same rates of PTSD in women as combat does in men. And 40 to 53% of 
homeless women veterans have been sexual assaulted while in the 
military. The Committee should also be aware that this is not just an 
issue for women veterans, but that many men suffer from the effects of 
military sexual violence. According to the Department of Defense, 12% 
of all unrestricted sexual assault reports are made by men. Simply put, 
MST has negatively affected the entire veterans' community.
    Veterans who suffer from the debilitating effects of Military 
Sexual Trauma face unique challenges in obtaining disability 
compensation from the VA. In 2011, SWAN and the American Civil 
Liberties Union (ACLU) filed a Freedom of Information Request with the 
VA for data on MST claims. The data obtained through litigation showed 
that during FY 2008, 2009 and 2010, only 32.3% of MST-based PTSD claims 
were approved by VBA compared to an approval rate of 54.2% of all other 
PTSD claims during that time. As a point of comparison, data obtained 
by Veterans for Common Sense indicates that 53% of Iraq and Afghanistan 
deployment related PTSD claims through October2011 were approved.
    Looking more deeply at the MST data, SWAN discovered that among 
veterans who had their MST- PTSD claims approved by VA, women were more 
likely to receive a 10% to 30% disability rating, whereas men were more 
likely to receive a 70% to 100% disability rating.
    These findings indicate that veterans who file a PTSD claim based 
on MST have only a 1 in 3 chance of getting their claim approved. Also, 
data suggests a strong gender bias in VA's MST PTSD disability ratings 
process.
    SWAN has presented our data to the VA Secretary Eric Shinseki and 
to the Under Secretary for Benefits Allison Hickey and asked for 
changes to VA regulations on MST claims. After a series of 
conversations with SWAN, Undersecretary Hickey decided not to change 
the regulation, but instead issued a memo in June 2011 providing 
further guidance to claims officers and instituting training 
requirements for processing MST claims. However, examination of both 
the letter and the training revealed it simply reinforced the existing 
regulation which places a double standard on MST claimants. Recently VA 
has released statistics that show a near miraculous increase in MST 
claims approvals, presumably due to this training memo. Both SWAN and 
the New York Times have asked to see the data behind these numbers and 
VA has refused to provide it.
    Additional responses from VA on this issue have not been adequate 
either. At a House Veterans' Affairs subcommittee hearing in 2012, VA 
admitted that their current regulation had not been applied properly by 
claims officials and stated they would be sending letters to previously 
rejected MST claimants to offer to re-adjudicate their claims, but 
after a year this has not been accomplished. Most recently Allison 
Hickey testified before Congress that VA was designating one person, 
specifically a woman, in each regional office as the sole reviewer of 
MST cases. This action by VA clearly demonstrates the inadequacies of 
their 2011 guidance memo and training efforts and reveals more of VA's 
MST gender bias in adjudicating MST claims. SWAN is extremely concerned 
that this action will create a bottleneck or MST claims, increasing 
delays in adjudications and creating larger issues for the overall 
claims inventory and backlog crisis.
    The regulation has to change. Even with ``secondary markers'' the 
current language fails veterans for a variety of reasons. First, sexual 
assault and sexual harassment in the military are notoriously under-
reported. According to the Pentagon's Sexual Assault Prevention and 
Response Office (SAPRO), 86.5% of sexual assaults go unreported, 
meaning that official documentation of an assault rarely exists. 
Second, prior to the new evidence retention laws passed in the 2011 
National Defense Authorization Act, the services routinely destroyed 
all evidence and investigation records in sexual assault cases after 2 
to 5 years, leaving gaping holes in MST claims filed prior to 2012. 
Last, the allowance for secondary evidentiary described in the 
regulation does not take into consideration the reality that many 
victims do not report the incident(s) to anyone, including family 
members, for a variety of legitimate reasons, including shame, stigma, 
embarrassment, or disorientation associated with sexual trauma.
    Additionally, although sexual assault increases the chance of 
adverse emotional responses and behaviors, it does not mean that all 
MST claimants will experience these symptoms. In fact, SWAN has spoken 
to many assault survivors who demonstrate changes in behavior that are 
not included in the regulation, such as improved job performance as a 
means of coping with the trauma.
    In the MST community, the failures of the VA claims process are 
well known. SWAN has spoken with veterans who suffer PTSD related to 
both MST and combat--what veterans cynically call the ``double 
whammy.'' These veterans chose to abandon their MST claims and submit a 
claim only for combat related PTSD, as they felt their combat claim was 
more likely to be approved, and that the uphill battle to file an MST 
claim wasn't worth the agony.
    It is well past time for VA to admit that the current MST claims 
process is broken. VA's PTSD policy discriminates against veterans who 
were sexually assaulted or harassed while in uniform by holding them to 
an evidentiary standard which is not only higher than that of other 
groups of veterans suffering from PTSD, but also completely unrealistic 
for the majority of survivors to meet. It has not been able to train 
its way out of this issue by enforcing a bad regulation, and VA's 
recent responses to the crisis are creating more problems than they are 
solving.
    It is not enough for Congress just to tell VA to improve the 
regulation. It must specifically state what needs to be done. VA has 
proven they cannot do this on their own, they need the help of 
Congress. Ask any MST survivor and they will tell you that the only way 
to fix this problem is to change the regulation, and that is what the 
Ruth Moore Act does.
    S. 294, the Ruth Moore Act of 2013 amends the current regulation so 
that it correctly makes the determination of entitlement to service-
connected compensation for the resulting disability from the in service 
trauma a question of medical diagnosis and not question of evidence, it 
maintains the existing requirements for a proper medical diagnosis, 
stressor evidence and VA examination, it ends the veteran's endless 
quest for hard-to-find ``secondary markers,'' and prevents MST 
survivors from being further re-traumatized by an adjudication process 
which implicitly questions the veracity of the reported in-service 
personal assault in the first place.
                                 s. 373
    SWAN strongly supports S. 373, the Charlie Morgan Military Spouses 
Equal Treatment Act of 2013. This bill would change the definition of 
``spouse'' in four areas of U.S. Code related to recognition, support, 
and benefits for married servicemembers and veterans. The changes--
including to provisions in Titles 10, 32, and 38 would ensure that 
spouses of the same gender are eligible for key military benefits. The 
bill adds a favorable controlling definition of ``spouse'' to Title 37 
to provide greater uniformity of benefits for same-sex spouses.
    Importantly, the bill extends dozens of important spousal benefits 
and support programs to same-gender spouses, including coverage under 
TRICARE insurance, an increased housing allowance and survivor 
benefits, and it closes the benefit gaps left after the limited 
extension of same-sex spousal benefits signed by former Secretary of 
Defense Leon Panetta.
    Since the repeal of ``Don't Ask, Don't Tell'' there have been two 
classes of servicemembers in this country--one that receives the 
Nation's full recognition, support and benefits and one that does not. 
The law as it currently stands perpetuates this second-class solider 
syndrome which harms all servicemembers, prevents commanders from 
taking care of their troops and weakens the force. The integration of 
openly gay servicemembers into the military has been seamless and they 
continue to serve our country well. It is well past time to welcome the 
spouses and families who support them into the ranks as well.

    Again, we appreciate the opportunity to offer our views on these 
very important bills and we look forward to continuing our work 
together to improve the lives of veterans and their families.
                                 ______
                                 
  Prepared Statement of Charlie Huebner, Chief of Paralympics, United 
                        States Olympic Committee
              s. 695, the veterans paralympic act of 2013
    Chairman Sanders, Ranking Member Burr, and Members of the 
Committee, my name is Charlie Huebner and I am the Chief of 
Paralympics, for the United States Olympic Committee (``USOC''). Thank 
you for the opportunity to submit a statement and testify before this 
Committee in support of S. 695, which extends the authorization for the 
highly successful, innovative and cost effective partnership between 
the USOC and the Department of Veteran Affairs to provide Paralympic 
sports and sustainable physical activity opportunities for disabled 
veterans at the community level.
    I would like to thank the sponsors of this legislation, Senators 
Boozman and Begich, as well as the co-sponsors who sit on this 
Committee, Senator Murray, the former Chairman, and Senators Tester, 
Hirono, and Johanns. I would also like to acknowledge are partner 
organizations that have worked so hard with the USOC and the VA to make 
this program a success. S. 695 is supported by national organizations 
such as the American Legion, BlazeSports America, the Blinded Veterans 
Association, Disabled Sports USA, the Iraq and Afghanistan Veterans of 
America, the Paralyzed Veterans of America, the USO and the National 
Recreation and Parks Association, as well as by hundreds of local, 
community-based organizations such as Bridge II Sports in Durham, North 
Carolina, Challenge Alaska, and Greater Metro Parks in Tacoma, 
Washington. A letter of support from these organizations, among others, 
is attached as Exhibit A.
    Paralympic programs are sports for physically disabled athletes. It 
was founded and exists because of Veterans from World War II. Research 
has proven that Paralympic sport and physical activity is an impactful 
aspect of successful rehabilitation for disabled Veterans.
    Research-based outcomes from consistent physical activity for 
disabled Veterans include higher self-esteem, lower stress levels and 
secondary medical conditions and higher achievement levels in education 
and employment.
    At the beginning of U.S. combat operations, the USOC expanded its 
service to injured members of our Armed Forces and Veterans by 
providing training, technical assistance and Paralympic ambassadors to 
installations and military medical centers. As combat escalated, 
Congress reached out to the USOC asking for us to do more!
    I applaud the leadership in Congress, which realized that 
collaboration between the public and private sector, between Government 
agencies, non-profit organizations, and the private business sector 
could expand expertise and capabilities, and program awareness in a 
cost effective manner.
    The legislation you created in Fiscal Year 2010, allowed the USOC 
and VA to significantly grow the capabilities and reach of physical 
activity programming to thousands of disabled Veterans today in 
communities throughout America. Since 2010, the cumulative number of 
veterans served has been over 16,000. We estimate that annually up to 
5,000 veterans are being served by our partner organizations, and we 
have made it a priority to increase the numbers of veterans we reach 
through this program.
    The authorization for this program expires at the end of Fiscal 
Year 2013. It is imperative that Congress act to extend the 
authorization for this program to ensure there is no interruption in 
the services being provided to our disabled veterans, and just as 
importantly, develop enhanced programming in collaboration with the 
private sector where there are significant needs.
    The USOC, which itself was created by Congress, is one of only four 
National Olympic Committees that manage both Olympic and Paralympic 
sport. We are one of only a handful of National Olympic Committees that 
are 100% privately funded, with our major competitors outspending us 
often as much as 5-to-1. Innovation, collaboration and cost 
efficiencies are core to our organizational success and critical to 
this continued USOC and VA partnership.
    Injured military personnel and Veterans are the soul of the 
Paralympic movement. When discussing the Paralympic Movement, we have 
two primary objectives. One: pursue excellence at the Paralympic Games. 
As a result of Paralympic Veteran role models and ambassadors such as 
Navy Lt. Brad Snyder, Army Veteran Melissa Stockwell, and Marine 
Veteran Oz Sanchez, the USOC and VA have been able to reach millions of 
Americans with stories of Veteran achievements and excellence. Second, 
and more importantly, the VA and USOC collectively have reached 
thousands of disabled Veterans and their families with stories of hope, 
and a roadmap to being healthy, productive and contributing members of 
society.
    With partners such as PVA, IAVA, Disabled Sports USA and USA Hockey 
to name a few, the VA and USOC have created significant, sustainable 
and cost effective regional and local physical activity opportunities 
for disabled Veterans to pursue competitive excellence, but most 
significantly, for a majority of the thousands of physically disabled 
Veterans in the US these opportunities are ways to simply re-engage 
into society by being physically active with their sons, daughters, 
families, and friends.
    It is as simple as skiing with your buddies again, or as one double 
amputee Army Ranger stated ``I want to be able to run with my son.''
    This Committee, Congressional leaders, and Veteran and Military 
organizations asked the USOC to lead this effort due to our powerful, 
iconic, and inspiring brand; our expertise in physical activity and 
sport for persons with physical disabilities; and our significant 
infrastructure of member organizations. We have accepted the 
responsibility and opportunity to serve those who have served us. And 
because of your leadership in developing and providing funding for this 
USOC and VA partnership, we are able today to report the first phase of 
significant program success and expansion in less than three years of 
this legislation. Since June 2010, the VA and USOC have:

    <bullet> Distributed more than 350 grants to community sport 
organizations to develop sustainable physical activity programs for 
disabled Veterans returning to their hometowns.
    <bullet> These community programs are investing millions of dollars 
in private resources, combined with grants from the VA--USOC grant 
pool, to reach thousands of Veterans with a focus on sustainable and 
consistent physically activity at the local level.
    <bullet> The VA and USOC have emphasized and led an effort to 
promote collaboration between the DOD, VA and community sport 
organizations to recognize and enhance programmatic and financial 
efficiencies. To date, grant recipients have collaborated and partnered 
with 85 VA medical centers in 39 states and military treatment 
facilities across the country.
    <bullet> Created the Paralympic Resource Network, an online 
database of Paralympic programs nationally which is designed to link 
individuals with physical and visual disabilities to sports programs in 
their communities. There are now 340 organizations listed. This is over 
35% more than the targeted goal of 250 organizations.
    <bullet> Created consistent national and regional training, 
technical assistance and sharing of best practices to expand 
availability of sustainable programming at the community level.
    <bullet> Distributed training stipends to over 115 Veteran 
athletes; 43 of these athletes have met the national team standard in 
their respective sports.
    <bullet> Implemented regional and national public relations and 
communications strategies resulting in major national media campaigns 
and news stories that have reached millions of Americans with stories 
of Paralympic Veterans as national ambassadors.
    <bullet> Significantly expanded and implemented, accountability and 
oversight processes that include USOC-led internal audits of grantees, 
upgraded reporting and monitoring of sub-grantees, consistent USOC site 
visits and weekly USOC-VA grant monitoring calls.
    <bullet> Two staff members implementing this program are 
individuals with physical disabilities, one being a Veteran.

    Humbly, we work for an organization that has one of the most 
inspiring brands in the world. A brand that motivates people and 
organizations to get involved and to collaborate. I can't emphasize the 
collaboration point enough, because collaboration also leads to 
significant cost efficiencies and impact!
    Today, more than 350 USOC partner organizations in 46 states and 
the District of Columbia are investing millions in private resources, 
staff, and facilities to cost effectively implement these programs. As 
part of our commitment to deliver services in the most cost efficient 
manner possible, the USOC has not accepted the 5% allowance for 
Administrative Costs and has instead contributed its own administrative 
resources to maximize funding.
    One specific new example of USOC--VA innovation, impact, cost-
efficiency, collaboration and enhanced awareness was the development of 
the regional and local Valor Games series in Chicago. Through 
partnership with a USOC leadership organization--World Sport Chicago--
the USOC and VA identified a partner that could plan, implement, 
provide a majority of the funding and promote the importance and impact 
at a regional event for physically disabled Veterans with the primary 
objective and outcome being the connecting of these Veterans to 
everyday physical activity programs in the region. This was done with 
limited VA-USOC financial investment and only one USOC staff and one VA 
staff member involved.
    In closing, the need in this Country is great. More physically 
disabled members of our Armed Forces are returning to America's 
communities, urban and rural, as heroic Veterans. Many of them are 
simply trying to reintegrate with their friends and families. Some want 
to compete. The power of sport is one tool in the rehabilitative 
process that allows for our Nation's heroes to take a small step to 
normalcy. Research has proven that!
    I would like to thank the Committee, the VA leadership, 
particularly Secretary Eric Shinseki; Assistant Secretary Tommy Sowers, 
Mike Galloucis, Executive Director of the Department of Veterans 
Affairs Office of Public and Intergovernmental Affairs; I would like to 
especially commend Marine Veteran and VA leader Chris Nowak, a 
physically disabled Veteran who is driving change in collaboration with 
the VA and USOC with a primary focus on impacting Veterans in a cost 
effective manner. Mr. Nowak is a Marine Veteran making a difference!
    I can simply say that you have led a collaborative and cost 
effective effort. You, too, are making a difference. A difference in 
the lives of those that have given our Nation so much!
                               Exhibit A


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>

</pre></body></html>
